<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
                       SUBCOMMITTEE ON LEGISLATIVE
               CHARLES H. TAYLOR, North Carolina, Chairman
 ZACH WAMP, Tennessee                JAMES P. MORAN, Virginia
 JERRY LEWIS, California             STENY H. HOYER, Maryland
 RAY LaHOOD, Illinois                MARCY KAPTUR, Ohio      
 DON SHERWOOD, Pennsylvania         
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                  Elizabeth C. Dawson, Staff Assistant
                                ________
                                 PART 2
                   FISCAL YEAR 2003 LEGISLATIVE BRANCH
                         APPROPRIATION REQUESTS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-975                     WASHINGTON : 2002




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey     
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2003

                              ----------                              

                                         Wednesday, April 24, 2002.

                        HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. JAY EAGEN, CHIEF ADMINISTRATIVE OFFICER
HON. JEFF TRANDAHL, CLERK OF THE HOUSE
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS
STEVEN McNAMARA, INSPECTOR GENERAL
GERALDINE GENNET, GENERAL COUNSEL
JOHN MILLER, LAW REVISION COUNSEL
M. POPE BARROW, LEGISLATIVE COUNSEL
DR. JOHN EISOLD, ATTENDING PHYSICIAN

               Opening Statement--Fiscal Year 2003 Budget

    Mr. Taylor. Good morning. The Subcommittee on the 
Legislative Branch will come to order. Today we begin our 
hearings on the budget requests of the various agencies of the 
legislative branch on their fiscal year 2003 budgets. It is our 
hope to complete these hearings, the subcommittee markup, full 
committee markup and floor action by the end of June. Our 
Chairman has said he hopes to have all these subcommittees 
completed before we break for the 4th of July.
    The total appropriation request that will be considered by 
the subcommittee is $2.6 billion. This is $112 million less 
than the amount reflected in the President's budget request. In 
accordance with committee-wide policy, the amounts requested 
for accruing the cost of retirement and health benefits has 
been removed from each individual budget request, therefore the 
amended increase is $108.8 million, or 4.3 percent, above the 
fiscal year 2002 enacted level.
    In accordance with comity between the two Houses we will 
not consider the budget of the other body. The Senate will 
consider its own request. If the Senate items are included, the 
total legislative branch request is going to be somewhere in 
the $3.4 billion range.
    With that in mind, I would like to welcome Mr. LaHood, who 
is with us today, and we will have other members coming in as 
we continue the hearing.
    Mr. Hoyer, we just opened the committee hearings. Do you 
have a comment or something to say at this time?
    Mr. Hoyer. No.


                        HOUSE OF REPRESENTATIVES


    Mr. Taylor. All right. We will move forward. We begin our 
hearings this morning with the budget request for the House of 
Representatives. The Chief Administrative Officer, assisted by 
the Office of Finance, submits the House budget each year to 
the Office of Management and Budget. That material is then 
included in the President's budget. The House budget request 
totals $949.6 million, which is $29.8 million, or about 3.2 
percent over the fiscal year 2002 enacted level.
    This request provides funding for the operations of 
members' offices, committees, leadership, and the 
administrative operations of the House. We want to welcome the 
officers of the House today who are with us. Jeff Trandahl, the 
Clerk of the House, Wilson Livingood, the Sergeant at Arms, and 
Jay Eagen, the Chief Administrative Officer. We also have 
Geraldine Gennet, the House General Counsel, John Miller, the 
House Law Revision Counsel, M. Pope Barrow, the House 
Legislative Counsel, Steve McNamara, the House Inspector 
General, and Dr. John Eisold, the Attending Physician.
    Before we proceed with our line of questioning, I would 
like to thank the officers of the House for the highly 
professional manner in which the relocation of the House 
operations was completed this past year. You are to be 
commended on the fine job you did to assure the continued 
operations of the House of Representatives. On behalf of all 
Members of the House, I would like to thank you and ask that 
you pass the word on to the entire staff.
    Mr. Moran has joined us. Would you like to make a comment 
before we start?
    Mr. Moran. No, go ahead.

                           Opening Statement

    Mr. Taylor. I would like to have the officers recognized 
and we will start with Jeff Trandahl. If you would like to make 
any comments please do so. Any items that you do not wish to 
comment on will be submitted for the record.
    Mr. Trandahl. We were told to keep our comments brief here 
this morning, so I guess I just want to start and say that what 
we greatly appreciate in our office--and I want to say the 
other officers--is the support of this subcommittee, especially 
during the last 6 months here, which were fairly difficult and 
challenging-times that none of us anticipated. And I want to 
say that I feel honored and privileged not only to have worked 
with the organization that I work with and its people, but I 
want to recognize their extraordinary efforts. At the same time 
I want to commend the subcommittee for stepping up and being of 
incredible support to us during a difficult time. I want to say 
I am very proud and honored to work with the gentlemen that I 
work with sitting next to me because we really pulled together 
and the team that was formed on a very quick, short emergency 
situation definitely performed well. So thank you for letting 
us appear today.
    Mr. Taylor. Thank you. Mr. Eagen, would you like to make a 
comment?
    Mr. Eagen. No comments, Mr. Chairman. Our statement has 
been submitted for the record.
    Mr. Taylor. Thank you, Mr. Eagen. Mr. Livingood, any 
comments you would like to make?
    Mr. Livingood. My comments have been submitted for the 
record, sir, but I would just like to thank the committee and I 
would like to thank all of Capitol Hill, the Members, the 
staff, for their commitment, their help and their caring since 
9/11 and the anthrax incident on October 15th. We could not 
have done the job that we have--we, our office and the Capitol 
Police--without the commitment and the caring from this 
committee and from other committees, and from Members and 
staff, and I feel very strongly about that, sir, and I feel it 
an honor and a pleasure to serve all of them.
    [The prepared statements of the witnesses follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      OVERVIEW OF MAIL OPERATIONS

    Mr. Taylor. Thank you. Thank all of you gentlemen. This has 
been a very trying time. Of course it is not over. We are in 
the middle of it. All you have to do is step outside and see 
that.
    A lot of things are going to be done, changes to be made. 
We will have a closed hearing later to examine again some of 
the things that we are trying to do to make sure that we are 
adequately funded and moving in the wisest direction that we 
can contemplate. But I do thank all of you. It has been a tough 
time and fortunately we have not sustained any real loss at the 
Capitol, and that has been in large measure to your fine work.
    We will proceed directly into our questions. Mr. Eagen, the 
events of October 15th have caused significant changes in the 
House mail operations. What have the changes been and what are 
your long range plans?
    Mr. Eagen. Thank you, Mr. Chairman. I think it would be 
beneficial if I put the changes in context by going back to 
last fall and quickly reviewing what transpired, because what 
has happened since then is directly impacted by last fall.
    You recall that October 15th, a Monday, was the day that 
the letter was discovered in Senator Daschle's office and the 
anthrax contamination was first confirmed. On October 17th, the 
leadership of the House made a decision to evacuate all the 
House office buildings. That was a Wednesday. The prior Friday, 
the House had actually started to quarantine its mail after 
having put in place a new sampling system to check for biologic 
intrusions into the House mail stream.
    On the 18th, the day after the evacuation, the first House 
side contamination was found at the P Street offsite X-ray 
facility. And on the 21st, contamination of anthrax was 
confirmed in the Ford mailroom in the Ford Building.
    Over the next few weeks, as the environmental assessment 
team conducted its work, additional contamination was found in 
the Longworth Building and again in the Ford Building, on the 
first floor.
    The impact of all those contamination confirmations was 
that the Ford mailroom was shut down and a decision has been 
made to permanently keep it closed. It is not appropriate to 
have that kind of facility in an office building where about 
1,000 people work and where the House has its child care 
facility.
    The House also lost its X-ray capabilities, as did the 
Senate, at P Street. In sum, the House lost all of its mail 
processing capabilities in those couple of weeks last fall.
    In addition, the Postal Service lost the Brentwood 
facility, the location for the government mail processing 
capability for the Metropolitan Washington Area. So what you 
had happen in a couple of weeks time was the virtual 
elimination of all the automation and facilities that served 
not only the House and the Senate, but basically the government 
sector as well.

                            STERILIZED MAIL

    The macro impact was that the Postal Service and the House 
postal operations went from having the responsibility to 
deliver mail in a speedy and accurate manner to not only trying 
to deliver mail in a speedy and accurate manner, but also 
deliver sanitized or sterilized mail. It was a new business 
mission that did not exist and never had been tried before.
    We also got into the business of actually attempting to 
store mail. For those weeks when the mail operation was shut 
down, both within the Postal Service and here on the House 
campus, our facilities and systems weren't designed to store 
the mail, they were designed to push the mail through as 
quickly as possible. Now you had the Postal Service attempting 
to take trailer upon trailer upon trailer of mail and catalog 
them and keep them in storage and figure out how to deliver 
them at a later date.
    The anthrax threats and other biological threats led to a 
change in the whole system. On the front end, the White House 
put together a task force through the Office of Science and 
Technology Policy that recommended and verified irradiation, e-
beamed irradiation, as a sterilization method of the mail. That 
is being done by the Postal Service in two facilities, one in 
Lima, Ohio, and another one in New Jersey. That is now 
shrinking down to one facility in New Jersey.
    Here on the House campus, on the back end, we are doing 
additional verification sampling to ensure that the 
sterilization done by the Postal Service has been effective. We 
have brought the mail back onto the campus in stages. It took 
the Postal Service and the White House some time to determine 
that irradiation was in fact the proper solution and they did 
not indicate that they would be ready to use that until late 
November.
    We did briefings for Members' staff in late November and 
the mail flow actually started in early December. Initially we 
were receiving simply first class mail and what are called 
flats, mail items of this size or smaller.
    In January, we went into phase two through a proposal to 
start receiving national courier deliveries. By ``national 
couriers,'' I mean organizations like UPS and FedEx. In March, 
a third phase was put into effect to start receiving Postal 
Service parcels and third class mail. All of those have 
different associated backlogs associated with them, depending 
on how long the mail was shut off and what it requires to 
undertake processing through the new systems.
    What we are seeing today is that the Postal Service was 
forecasting a 7-day turnaround for first class mail basically 
from the date of postmark. In reality it is as much as 7 days 
to 15 days on the front end. On the back end, once we receive 
the mail from the Postal Service, we have been told that it 
will take about 4 days for the sampling at the time to take 
place. In reality, that is often taking longer when you factor 
in weekend time when the labs are not open and constructing the 
testing that the House needs to confirm the sterilization of 
the mail.

                        DIGITIZATION OF THE MAIL

    For the future, we are investigating a concept called 
digitization of the mail, and the hope is that we would be 
putting in place a pilot very soon this year to test out 
whether this concept is a viable solution for the House. 
Basically it would involve that off campus the mail would be 
received, opened, a digital picture of the mail would be taken, 
and then the mail would be transmitted to offices 
electronically, so that for the most part the offices would 
never actually get a hard copy of the mail.
    Now there is obviously an issue involved in that. We would 
have to have authority from the offices to open their mail for 
them. There would have to be a separate mail stream for the 
hard kinds of items that the offices need to receive that would 
still have to be sterilized.
    There are still many challenges facing us because we feel 
that digitization may have a solution for the House not only on 
the security side and sterilization side, but also economies 
for offices that if digitization can be hooked into the mail 
systems within the offices themselves, the correspondence 
management systems, you would actually get your data directly 
into your system and be able to respond to your mail more 
quickly.
    For the long run, I am often asked the question when are we 
going to get back to normal, and I always respond and say we 
are not going to get ``back'' to normal. We have to move 
forward to normal. Last fall changed things irreparably. That 
is almost a cliche now, and we are not going to be able to go 
back to exactly the way things were last fall, and the 
challenge is how do we design them to move forward to speedy 
and accurate mail but also safe mail for all the House 
customers.

                   IRRADIATED MAIL/MEDICAL COMPLAINTS

    Mr. Taylor. Dr. Eisold, you have done a fine job, not only 
keeping me healthy these last number of years, but you did a 
fine job in attacking this problem. Could you make a comment 
regarding the Postal Service irradiation of mail?
    Mr. Moran. Come up to the witness table and use a 
microphone.
    Mr. Taylor. Thank you.
    Dr. Eisold. Although we have nicknamed the irradiated mail, 
``fried mail,'' we have taken it very seriously from the start. 
When people started to have complaints, we developed a 
comprehensive screening protocol. We put it out to all of our 
nurses and our physicians and set up a mechanism whereby 
anybody who had a complaint or thought they had a complaint 
that could be related to the mail could come to us and be 
evaluated medically. We could get an epidemiologic history and 
try to figure out what the cause of the mail complaints were.
    As we marched along in that process, NIOSH also got 
involved in doing a scientific study to see if there were any 
toxins or substances that were uncommonly seen or had high 
levels that could be detrimental to a person's health. That 
study went on in parallel with us.
    Another thing that went along in parallel is that, although 
Mr. Eagen did not go into the details, there were some changes 
in the degree to which the mail was irradiated and how it was 
handled after it was irradiated. That kicked into place in 
January and has been modified since that time, which is 
probably why--and then I will get into some of the specifics--
when we tallied all of our numbers, they peaked in late January 
and then gradually fell down to a point now where we might get 
one or two complaints a week, which quite frankly may be just 
background noise and has nothing to do with the mail.
    Clinically speaking, what was clear was that the complaints 
that people were having were absolutely legitimate and that 
some people had red eyes and some people had irritation on 
their hands. And as we put this together, we concluded that the 
cause of the peoples' complaints was simply that some people 
are allergic to by-products of the irradiation on the plastic, 
dust etc. People were allergic to certain irritants that they 
had on their hands or fumes that got in their eyes.
    So we found it to be an allergic phenomenon and not a 
significant medical problem. The complaints that we saw mainly 
had to do with skin irritation and eye irritation. That clearly 
has fallen off tremendously now that we have cleaner mail. When 
I say cleaner mail, it is one thing to irradiate mail that is 3 
months old and full of dust than to irradiate a piece of mail 
that is fairly new in the system. It is also different if you 
ventilate the mail in a wide open area after it has been 
irradiated to get some of these toxins to flow away. So 
procedurally a lot of things have happened.

                           MEDICAL CONCLUSION

    Again, my conclusions were that the symptoms were real but 
they were more of an allergic or contact dermatitis type 
phenomenon and not a serious medical problem. That may be borne 
out by the NIOSH study, which as I said has been going in 
parallel and has just come out. They interviewed almost 400 
people. They sampled many spots throughout the Capitol and 
their results really did not find anything that would qualify 
as an environmental contaminant that could account for any 
expectation of long-term medical consequences.
    So I think that it is a good news/bad news story. It was 
bad news that we had some symptoms. It is good news that as we 
looked at the whole situation, it has come back towards 
baseline, and it appears that the attention to the problems 
have helped. Certainly the plans for the future that Mr. Eagen 
talks about should even make this less of a problem.
    Mr. Taylor. Well, it speaks well for all the staff, your 
office and the entire group of you gathered here. I imagine 
this is the first urban attack of this nature and you had to 
learn a lot of things that you did not know, and you have 
learned a great deal about it and you have handled it very 
well.
    I don't know where else in the world you would go for 
experience because this was probably the first major urban use 
of that sort of biological disease.

                    OFFICE OF EMERGENCY PREPAREDNESS

    The Office of Emergency Preparedness has been established 
under the Speaker and Minority Leader of the House. Mr. 
Trandahl, as Chairman of the board, which oversees this office, 
would you bring us up to date on its current status and what 
its responsibilities will be?
    Mr. Trandahl. Sure. As the subcommittee is aware, during 
the supplemental last winter and December, language was 
included to create an Office of Emergency Preparedness for the 
House. It reports and operates beneath the Speaker and the 
Minority Leader. Through the winter we advertised the creation 
of a Director for that office. Seventy-four candidates were 
identified. More than 20 people were interviewed in the process 
and the Speaker and the Minority Leader's office selected a 
candidate last month. I am pleased to say that the Director of 
that office began working as of this Monday.
    As far as the responsibilities of that Office go, they are 
basically put in place to help the officers coordinate our own 
planning and processes. We have in place what we call the HORT, 
the House Officer Recovery Team, along with a large manual that 
goes with it. It is to deal with fires, to broken pipes, to 
simple issues--to now much more significant issues as we 
learned last fall.
    The office itself is in place. We are looking forward to 
doing some additional hiring for that office in the not too 
distant future and get them under way in terms of updating 
procedures and processes for the House.
    Mr. Taylor. Will all the funding requirements related to 
emergency preparedness, other than security, be coordinated and 
verified by this office?
    Mr. Trandahl. That is probably the most significant 
function for this office, to help us to identify weaknesses 
and, more importantly, help us to improve our coordination. We 
have a lot of good people. That is a great asset here in the 
House. There will be things that we will need to add in, but as 
we discovered through the two incidents last fall, it is really 
a matter of pulling together people and coordinating people as 
quickly as possible to respond to situations. So yes.

                            CURATORIAL STAFF

    Mr. Taylor. Thank you. Jeff, what is the status of your 
office's activities relative to creating a historical and 
curatorial staff in the Office of the Clerk?
    Mr. Trandahl. As I discussed at length last time with this 
subcommittee, I feel very strongly personally, that the House 
has been underrepresented and underserved when it comes to 
historical and curatorial activities here in the Capitol and on 
the House side of the complex. Ms. Kaptur, in particular, has 
raised that time and time again in terms of concern about the 
House collection, identifying inventory, preserving, and 
maintaining it.
    Fortunately, with the support of this subcommittee, and the 
SubCommittee on House Administration, we have now been able to 
go from basically a staff of three people to now a staff of 
eight. We have just added the first curator to the House, 
compared to nine on the Senate side, and we are hoping to add 
some more resources here again this year. As well, we have just 
proposed to the Committee on House Administration to separate 
that office out and create an Office of History and 
Preservation, which would take on the curatorial, archiving, 
and historical functions for the House.

                         HISTORICAL INFORMATION

    We are now making great progress. We are in the midst of 
doing several different projects, whether it is inventorying 
actual items in the House collection in the Capitol, to trying 
to work now with the Senate. The Senate has already begun a 
project where they have identified all the historical items in 
the Senate half of the Capitol building. The interesting part 
of their project is we found a lot of things that were 
purchased and brought into the House collection that somehow 
found their way to migrate to the Senate. Hopefully we will be 
able to engage in conversations and maybe bring a few of those 
things back to the House.
    Mr. Taylor. Are we working to coordinate both in getting 
those items back as well as with the Senate Sergeant at Arms 
and staff to coordinate any tours that we give? Whenever we 
take guests into the Capitol, they do not understand the break 
between the Senate, the House, the old Senate Chamber, and the 
old Supreme Court, which formerly was the old Senate Chamber in 
the beginning. We like to take people through that, as well as 
the things in the House. Can we coordinate things so that it is 
much easier to do? Can we contract for one person perhaps, in 
the House side, or hire a curator or someone so that we get the 
ability to go throughout the Capitol complex at one time rather 
than having to contact people to open, especially after hours, 
which is the best time to tour.
    Mr. Trandahl. Mr. Taylor, that is a big focus of this 
staff, to help not only do research back and to determine the 
history, but to help document and start creating publications, 
signage and information for people, so when you are giving a 
tour, not only do you know the location of items but you also 
know accurately the history of the items.
    The Architect of the Capitol will be appearing later in 
front of the subcommittee and can talk much more extensively 
about the Capitol Visitor Center. But a lot of our activities 
will help complement what we are trying to do at the Visitor 
Center with the tours to enhance the visitor experience and 
giving more information relative to many items in this 
building--items that probably many of you in this room aren't 
familiar with, or even exist, and their history.
    Mr. Taylor. Probably not. I appreciate what is being done 
and it is one of the reasons that I supported the Visitor 
Center in the early phases, because it will give an opportunity 
to students, and others, to come in before they come to the 
item, rather than just to walk through and assume they are 
going to get by osmosis the knowledge when they walk by an 
item.
    But it is going to be some time before we do that, and 
perhaps we can coordinate something for the Members that are 
still giving tours.
    Mr. Trandahl. Okay, we will work on that.
    Mr. Taylor. I appreciate that. And about getting our items 
back from the Senate, will your curator be working with the 
Senate to coordinate in that area?
    Mr. Trandahl. Yes, the interesting part about the Capitol 
here is there are three separate collections of historical 
items. There is a House collection, a Senate collection and 
then a joint collection that the Architect oversees. So we are 
working with all three groups of people to basically coordinate 
and identify and inventory all the items.

                        QUESTIONS FOR THE RECORD

    Mr. Taylor. Thank you. I would like to continue with you, 
but let me break at this moment and ask if Jim has any 
questions before we go further. Mr. Moran? Also I have some 
questions that I will submit at this time to be answered for 
the record.
    [The questions and responses follow:]

                      Financial Management System

    The CAO'S budget request is $99.9 million ($99,863,000). This is 
$9.3 million, or 8.6%, below the enacted level. The request includes 
$3.2 million for ``financial systems replacement.'' The House, as a 
member of the Legislative Branch Financial Managers Council, should be 
working alongside the other legislative branch agencies in an effort to 
share a common financial management system.
    Question. Is the House working with the Council (LBFMC) to achieve 
a common financial management system?
    Response. The CAO attends quarterly LBFMC meetings in which 
Legislative Branch entities share information on current efforts 
underway in their organizations to begin preparations for replacing 
their financial systems. The group has agreed that only systems meeting 
common Federal government functionality requirements, as defined and 
tested by the Joint Financial Management and Improvement Program 
(JFMIP), should be considered. Selecting one financial management 
system to meet all Legislative Branch entity requirements may be worth 
exploring, but compliance with JFMIP requirements will ensure the 
financial system selected by an entity contains the same basic core 
functionality, such as the U.S. Treasury Standard General Ledger 
(USSGL), that could enable common data to be extracted and consolidated 
for the Legislative Branch. Additionally, the CAO has included GAO and 
the LOC on its financial system replacement steering committee.
    Question. Have you selected a system?
    Response. No. The House is currently evaluating the results of a 
market analysis which indicates that viable vendor solutions are 
available that meet House functional requirements. One of the systems 
surveyed is being considered by other Legislative Branch entities. 
Should House stakeholders approve the CAO to proceed forward with an 
acquisition, various criteria such as acquisition cost, annual 
operating costs, ability to meet unique critical House requirements 
will be used in selecting a solution.
    Question. Does the House have such unique requirements that a 
common system could not be utilized?
    Response. The House does have certain unique requirements. For 
example funds are authorized on a Legislative Year for each Member and 
Committee for which there must be proper accounting. Such funds are 
appropriated on a fiscal year basis as well as 15 and 27 months for 
Committees.
    There is also a specific statute that has the appropriated funds 
canceled within a three-year period whereas with most other agencies, 
funds are available for a five-year period before funds cancel and must 
be returned to the U.S. Treasury.
    Question. What financial improvements will the new system provide?
    Response. The new system will improve and integrate financial and 
administrative support provided to House Members, Committees and other 
House entities. These entities will have real time access to their 
financial data available at their desktops. This means that a Member 
will know the status of their account during the year. The new system 
will be more user friendly and easier to navigate. The current 
financial system is an outdated mainframe based system whereas the new 
system will use new and advanced technologies that meet the House's 
needs and will consolidate aging subsidiary systems (legacy systems).
    Question. What is the estimate of the total cost of the system?
    Response. Cost outlays are estimated to be between $11.3 million 
and $14.8 million for the acquisition and implementation of the system 
and between $10.7 and $13.7 for 5 years of operational costs. This cost 
estimate is based on an analysis of information provided in the Market 
Analysis completed in March 2002 and currently under review. It is 
important to note that these estimates exclude any additional hardware 
and software or annual maintenance costs associated with backup 
capabilities. We do not own our current FFS system, but outsource with 
the Department of Interior (DOI), so this function is currently done by 
our vendor in Denver and is part of the overall annual contract. 
However, this function will become a house responsibility with the 
acquisition of a new system. It is best to estimate backup costs during 
the acquisition phase of a project.
    Question. What is your time frame for system implementation?
    Response. Assuming that an acquisition document is released by 
August 2003, implementation would occur during Fiscal Year 2006.
    Question. What will be the annual operating cost of the system?
    Response. The annual operating cost of the new financial system is 
estimated to be between $2.1 and $2.6 million. This estimate excludes 
any amount for backup capability as previously mentioned.
    Question. What backup will there be for system operations?
    Response. Currently, DOI, our contractor performs the back up 
function. Once the House implements its own financial system, the 
backup function will become a CAO responsibility and will be another 
consideration for the alternate data center.

                           Wide Area Network

    The CAO has requested $4.9 million for a ``Wide Area Network''.
    Question. Can you tell us about this project?
    Response. A Wide Area Network (WAN) is a geographically dispersed 
telecommunications network. The House's WAN project provides the House 
community with a highly reliable, fault tolerant, and high performing 
``highway'' to information services inside (e.g., House campus, Member 
Offices) and outside (e.g., Member district offices) of the House. Key 
areas within this project include:
    <bullet> Member to district office ``Flagship'' (frame relay/DSL) 
connections at 256K speeds
    <bullet> Monitoring and diagnostics for service issues and problems
    <bullet> Design, installation, maintenance, and documentation of 
the House's WAN (frame relay, private lines, Integrated Services 
Digital Network (ISDN), remote dial and broadband (Digital Subscriber 
Line (DSL), Virtual Private Network (VPN), cable)
    <bullet> Lifecycle replacements and/or upgrades for supporting 
hardware and software infrastructure
    <bullet> High speed access to the Internet through the House 
Intranet
    In fiscal year 2001, House Information Resources began the upgrade 
of Member Office Flagship connections to district offices from 56k to 
256k. This increase in connection speed allows Member Office staff to 
access information more quickly, therefore increasing opportunities for 
efficiency. As of mid April 2002, 192 district offices had been 
completed and the remaining district offices are slated for upgrade by 
the end of May 2002.
    Question. Will this be the total cost of the network?
    Response. No. The $4.9 million is in essence the annual sustainment 
cost associated with leasing and supporting data connections at 
anticipated speeds between the House campus and district offices and 
House business partners. If connection speeds remained relatively 
stable from one year to the next, we could expect our annual costs for 
the WAN to remain at or around $4.9 million. However, as Member Office 
requirements for faster data line connections increase between their 
Washington, D.C. and district offices, as well as expectations for 
faster and better connections to the Internet from the House network, 
the associated sustainment costs will probably increase to accommodate 
these higher levels of service.
    Question. What are the annual costs associated with the Network?
    Response. Practically the entire $4.9M is considered annual costs 
associated with the WAN. Specific sustainment (annual cost) items that 
comprise this amount include:

                                                               Thousands
    <bullet> 440 Flagship data lines (1 per MO)...............    $3,221
    <bullet> Data lines for Internet access...................       630
    <bullet> Infrastructure data lines........................       505
    <bullet> Lifecycle replacement of ``end of life'' routers.       150
    <bullet> Cisco hardware and software maintenance..........       166
    <bullet> Sustainment contractor support...................       150
    <bullet> As required equipment (maintenance/parts)........        82
                    --------------------------------------------------------------
                    ____________________________________________________

        Total (Non Personnel).................................     4,904

    As stated previously, as the requirement for faster data line 
connections increases, the annual costs associated with this project 
will also increase to address these increased service levels.
                            additional fte's
    The office of the CAO has requested an additional 36 FTE'S.
    Question. Where will the 36 additional staff for the CAO be 
deployed?
    Response. Additional staff for the CAO will be deployed in the 
House Information Resources (HIR) area and the Immediate Office of the 
CAO.
    Question. What will be the duties and responsibilities required of 
the additional staff?
    Response. The events of September and October 2001 have 
demonstrated the House's dependency on reliable information technology 
as it conducts business and Members staff communicate with each other 
during times of national or local crises. Immediately following the 
tragic events, the CAO conducted an in-depth organizational assessment 
to improve its coverage of House systems during unexpected emergencies. 
The assessment results identified the need to expand operations and 
technical support to 24 hours a day/7 days a week for key technology 
and communications support areas. The specific CAO operations which are 
proposed for 24x7 coverage are the following:
    <bullet> The Emergency Communications Center--which will also 
assume the duties of the HIR call center and the Network Control Center 
during non-core business hours
    <bullet> Information Security Systems Monitoring--this includes 
firewall, intrusion detection systems etc * * *
    <bullet> Messaging Systems--this includes Blackberry services
    <bullet> Internet/Intranet Systems Management--this includes the 
proactive monitoring of systems to include web servers and critical 
file/print servers
    In addition to the 24/7 coverage, we are requesting additional 
personnel who will be responsible for drafting and disseminating 
internal House communications normally performed by public affairs 
offices in government agencies and departments, both in times of 
emergencies and normal business operations. These personnel will also 
undertake to improve CAO internal communication efforts to improve 
House personnel knowledge of CAO services. Changes in CAO functions and 
services, together with normal House personnel turnover, have resulted 
in a lack of consistent awareness and understanding of services that 
are available to House Members, staff and offices.

                            W-2 INFORMATION
    With all the changes in the tax code, more and more people are 
using computer based or web based tax preparation services for their 
taxes. I've noticed that private sector employees make available the 
electronic transfer or download of employee W-2 information.
    Question. What, if any, barriers are there for the House of 
Representatives to make available to our employees the electronic 
transfer or download of employee W-2 information?
    Response. The main barrier is our current payroll system. No 
programmatic changes to this outdated, mainframe-based system are 
planned because the system will be replaced within one to two years. 
Once the new payroll system is in place, there should be no technical 
barriers to provide employees the electronic transfer or download of 
employee W-2 information.

                             COMMUNICATIONS
    At the time of the tragic disaster on 9/11, there were many 
instances of facilities such as AT&T's directory assistance facility in 
New York being temporarily put out of commission, thereby making it 
impossible for news media and others to access certain New York 
officials. I wonder what thought you have given in your office to the 
following types of questions:
    Question. How would Members and Staff be able to contact local/
state/federal officials in their own districts/states or other 
districts at the time of another disaster that knocked out a local 
telephone company's directory assistance or the House computer system? 
For example, if a Member was traveling and a tornado strikes the 
hometown, how can the Member conveniently come up with a number for 
FEMA or National Guard facility? Or if there were a disaster here what 
contact records could be accessed and how accurate would they be?
    Response. The House does not provide national directory assistance 
information. Maintenance of nation-wide information by the House would 
be cost prohibitive and unreliable. However, Members can call national 
directory assistance by dialing 1-area code 555-1212 to obtain 
telephone numbers in an emergency. As a general practice, however, all 
Members should maintain and routinely update emergency contact 
information specific to their state and local governments. This 
information can be easily stored in personal data assistance such as 
the Blackberry device or in the Member's cell phone. Other suggestions 
include preparing and carrying a small laminated card containing 
important emergency services contact information for their district, 
and having District offices maintain a complete contact list. Also, 
phone numbers for FEMA regional offices are available on FEMA's web 
site and there is a www.411.com directory assistance web site on the 
Internet.
    Question. How would Members be able to immediately contact local 
officials (e.g. the sheriff) in their constituencies?
    Response. During national emergencies and other crisis, Members are 
encouraged to use their Government Emergency Telecommunications Service 
(GETS) cards, which will improve probability of call completion through 
voice lines. However, if the local supporting telephone central office 
is destroyed or is out of commission, then the call will not get 
through until repairs/work-arounds are in place.
    Question. What steps are you considering that would ensure the 
continuity of Congressional business for Members, staff, Committees 
regarding needed interaction and accessibility to other government 
entities and important contacts within a Member's constituency? Have 
you given any thought to making available for Members, the Committees 
and even the Congressional phone operators an accessible data base that 
they could reach conveniently at anytime any place to reach needed 
contacts in an emergency or in the course of normal business?
    Response. The fundamental issue in providing assured 
telecommunications connectivity is avoiding a stressed public 
infrastructure. Unfortunately, most solutions to avoiding the public 
infrastructure are expensive. Several steps are being considered to 
enhance accessibility back to the Member's district. These include 
issuing GETS cards to the Members; issuing satellite telephones to 
Members; providing a frame relay backup to district offices (possibly 
via satellite and with a single phone line that avoids the public phone 
system (PSTN)); a private cell phone system for the downtown DC area; 
and, mobile communication vans to provide support to Members both 
during emergencies and for non-emergency off-campus gatherings of 
Members.
    The U.S. Capitol Telephone Exchange maintains an extensive database 
of Member's personal emergency contact information (for Washington and 
the district offices), provided the Member has volunteered this 
information. Contact information for government agencies and executive 
branch personnel is provided to the Capitol Exchange via the House and 
Senate telephone directors that are produced by the Clerk of the House 
and the Senate Sergeant at Arms. Outside of this information, the 
Capitol Exchange Operators depend on national directory assistance to 
obtain emergency contact information.
    Question. What can we do to best maintain the continuity, in this 
sector of communications concern, and resiliency of Congress after a 
calamity, wherever it might occur? What are the fail-safe back-ups--
logistically, geographically, the degree of accuracy and accessibility? 
What files should be available remotely?
    Response. There is no one system that can guarantee 100% 
communications connectivity during an emergency. We are pursing a 
strategy of multiple layers/methods to significantly improve our 
ability to support House communications. In addition to the methods 
listed above, we are considering upgrades to our campus telephone 
system (and how it connects to the public infrastructure) that will 
eliminate current single points of failure and improve our resiliency 
and access into the public network. Members have also been assigned 
Blackberry devices to enhance wireless communications via email and the 
distribution of GETS telephone calling cards will increase the 
probability of call completion during times of national emergency and 
crisis.
    Several different offsite facilities are being identified that will 
support House data and phone service, provide limited Member office 
support, support a House chamber, and house the U.S. Capitol Telephone 
Exchange and the database of Member's personal emergency contact 
information.
    All Member files on their servers will be backed up to the 
Alternate Computer Facility. Member offices have received information 
concerning the preparation of ``Go-kits'' for their office. These kits 
should be prepared for offices here in DC and in the district 
containing information/files that individual Members deem important. 
Members are encouraged to assist in planning for future emergencies by 
capturing important telephone numbers for state and local agencies and 
officials.
    Question. Please discuss the status of your efforts to facilitate 
reliable, remote accessibility to House computer systems.
    Response. The Office of the CAO prepared a report on this subject 
(Providing Remote Access for House Computer Systems--February 8, 2002) 
in response to the conference language in the FY 2002 Legislative 
Branch Appropriations Bill. In that report, the CAO described the 
progress on current activities in this area and identified areas that 
we are planning to pursue in the near future. Examples of the areas 
addressed in the report include:
    <bullet> Remote Dial-In and Virtual Private Network (VPN) 
Services--these tow technologies allow users to remotely access (e.g., 
from home or on travel) the House's network enterprise through secure 
means. We have recently upgraded these services such that we can now 
support approximately 192 concurrent dial-in users and 100 concurrent 
VPN users. Planned efforts in this area will include assessing business 
continuity/disaster recovery (BC/DR) requirements for concurrent dial-
in and VPN users and implementing necessary changes to the technical 
infrastructure to support these numbers. In order to ensure that only 
authorized House personnel can access the House network, we use secure 
ID cards (SecurID). We have recently implemented an upgrade to this 
system that will be completed this spring so that we can support 16,000 
cards.
    <bullet> District Office Flagship Service Upgrade--this effort, to 
be completed in May, will provide District Offices with an upgrade from 
current 56Kbps connections to 256Kbps. In doing so, these district 
offices will be capable of supporting additional staff should 
relocation be required and Members choose to use their District Offices 
as an alternate site for some staff.
    <bullet> Wireless Personal Digital Assistants (PDAs)--while not a 
replacement for a desktop computer, PDA devices are providing wireless 
access to email and related functions that are helping Members and 
staff ``stay in touch'' even when not in the office. Additionally, 
House Information Resources will pursue expansion of wireless web 
solutions for House PDA users so that they may access House Intranet 
information and ultimately extend the functionality of these devices 
beyond their current use. Support is currently being provided to over 
1700 Blackberry devices.
    <bullet> Alternate Data Facilities--we are working with a joint 
Senate and House task force to formalize requirements and identify 
sites that can be used to establish an alternate data facility. The 
intent of this effort is to ensure that in the event of a major 
disruption to the House's current Data Center, critical legislative 
business processes can continue. This facility will also support backup 
and storage of Member, Committee and other House entity data as 
requested.
    Other initiatives currently planned:
    <bullet> Secure Access--Anytime Anywhere--We are in the initial 
stages of investigating technologies and strategies to support the 
concept of secure, anytime anywhere access. This concept refers to the 
ability to access an organization's computing services from multiple 
devices (e.g., PDAs, laptops, home/personally-owned computers) and 
multiple locations. Essentially the theory is if you can get to an 
electronic connection (wired or wireless), either directly to the 
enterprise or through the public Internet, then you can get access to 
computing services to meet your specific business need. Once the 
investigative phase is completed, we intend to identify business areas 
that represent targets of opportunity for near term payoff and 
recommend appropriate pilot and/or implementation projects.
    <bullet> Thin Client Services--These technologies are currently in 
the investigation stage. We have incorporated analysis of this 
concurrently with our current Exchange 2000/Windows-Server Next 
Generation engineering study. Currently technology such as Timbuktu is 
used to allow remote access to a computer from a distant site. Use of 
Timbuktu can often times allow a home user that uses 56Kbps dial-in 
service to be able to achieve an improved performance experience. 
Specific offices are also supported with secure Citrix server 
implementation which allow remote access to office computing services 
across a slow network connection without the need to leave the specific 
user's office computer on.
    <bullet> Alternate Facilities--To date, the CAO, Clerk, Sergeant at 
Arms and other offices have been involved in establishing facilities 
for an Alternate Chamber, Alternate Member, Committee and Support staff 
offices and interim Data Center backup facilities. Memorandums of 
understanding are approved or in the final stages of development and 
for some facilities equipment and connections have already been 
established.

                         MAIL PROCESSING DELAYS

    Mr. Moran. Thanks, Chairman Taylor, and I agree with your 
assessment from all four individuals. I would like Dr. Eisold 
to join us again on the panel. You have done a superb job and I 
have great respect for our four officials today. I think Dr. 
Eisold and Mr. Livingood, particularly, at a time of stress and 
crisis have performed extraordinarily well.
    But let me ask some questions that I am concerned about. 
First, we will go to the mail issue. The Senate chose to 
process its mail basically by itself and we chose to contract 
it out, I understand. First of all, I would like to know the 
cost of that contract. I am getting mail even now that dates 
back to December. Two weeks ago we got the bulk of our 
Christmas cards. Last week we got some mail that was postmarked 
in February. So it is getting better. But it is not 
particularly helpful. Most invitations, for example, are sent 
about a month in advance. Most of the mail we get now, because 
it is so late, is useless.
    It is also crushed. I am curious what is the purpose of 
crushing the mail? And most importantly, I want to know what it 
is that we have protected ourselves from through all of this 
expense and delay and processing.
    Mr. Eagen.
    Mr. Eagen. I think that is primarily me, Mr. Moran. With 
regard to the time that it takes for some of the mail to get 
through, you are definitely correct. I have gotten Christmas 
cards myself in the last couple of weeks. And when we ask those 
questions of the Postal Service why that dated mail is still 
coming through, the explanation basically is what I referred to 
earlier, is that in the accumulation of trailer upon trailer, 
they are giving those to us in different order. Sometimes it is 
the most current mail, sometimes it is the older mail.

                    RECONSTRUCTING THE MAIL PROCESS

    Mr. Moran. So you are saying the fault lies with the Postal 
Service. What batches of mail they are giving to you, or is it 
the contractor?
    Mr. Eagen. No, it is definitely a combination of the Postal 
Service and the House's ability to process the mail in this new 
manner. The facility that we have constructed offsite through a 
GSA-leased facility has only come fully on line in the last 
month or so. Mr. Hoyer has been helpful over the weeks of 
working with the local county officials to get the permitting 
process through. And we are basically, as I mentioned earlier, 
reconstructing the entire House mail sorting and distribution 
process. In addition, we are adding all of this new sampling 
capability to verify that the irradiation is successful. It has 
taken us time to build all of those facilities.
    The Postal Service has been delivering trailers to us in 
inconsistent time frames. But then it does still take us time 
to process all of that mail, depending on exactly what it is.

                          MAIL PROCESSING TIME

    Mr. Moran. I just can't understand why it takes up to 3 or 
4 months to process mail. I just can't envision in my mind what 
the process is that would require that kind of time. Can you 
just explain to me in layman's terms the physical processing 
that takes that much time?
    Mr. Eagen. I will explain the front end of the process as 
best as I know it, which is a Postal Service process. The mail 
is put in a mailbox, obviously wherever in the country, and is 
sent into their stream. It comes to Washington, D.C., where it 
is sorted into streams of government and nongovernment, and the 
nongovernment mail goes on. All the government ZIP Codes are 
then going through the irradiation process.
    Mr. Moran. This irradiation process, this is a process that 
takes less than 24 hours.
    Mr. Eagen. From the date of the postmark, correct. And at 
that point, it is then trucked en masse originally either to 
Lima, Ohio, or to this facility in New Jersey and our 
understanding as of last week is it will be solely to the 
facility in New Jersey, where it is irradiated. It is not 
sorted within the government mail at that point. So it is just 
the bulk of all the government mail. It is then irradiated and 
then it is shipped back to Washington to what I understand is a 
tent out at the Brentwood facility where it is being sorted. 
And then it eventually comes to the House.
    Mr. Moran. Okay. Now, so the Postal Service sorts it out 
you are saying by ZIP Code and then?
    Mr. Eagen. That is for the government mail ZIP Codes. They 
do not sort within the government ZIP Codes.
    Mr. Moran. They sort out government and nongovernmental 
mail. And is it like recycling? After everybody recycles we 
throw it all in the same bin anyway? Why don't we keep some 
sense of the results of the sorting at that point? Is that 
impossible to do?
    Mr. Eagen. The Postal Service says that their process is 
better to just do it as one lump of the government and then 
sort it when it gets back here into these separate----
    Mr. Moran. So they are not doing the sorting out--so the 
beginning of that process does not take effect any longer? You 
were describing the process, and the mail comes in and they 
would normally sort it by ZIP Code. They do not sort it 
initially. It all just comes in, what, by region or something?
    Mr. Eagen. No, it is sorted by all of the government ZIP 
Codes into one separate government ZIP Code.
    Mr. Moran. All the government ZIP Codes in the Washington 
Metro Area?
    Mr. Eagen. Yes.
    Mr. Moran. And the government has separate ZIP Codes?
    Mr. Eagen. Yes.
    Mr. Moran. It does? So these Federal office buildings over 
in Arlington, they have a separate ZIP Code from the private 
office building next door?
    Mr. Eagen. I can't speak to each building, but the House is 
20515, the Senate is 20510, so on.
    Mr. Moran. Is our mail mixed with the executive branch 
mail?
    Mr. Eagen. Yes, it is.
    Mr. Moran. And the executive branch mail includes not just 
the Federal office buildings in Washington but the Metro Area? 
NIH? The Pentagon?
    Mr. Eagen. It is my understanding that it is the entire 
Metropolitan Area.
    Mr. Moran. And so it is thrown into this enormous mountain 
of mail. Anything that starts with 22, I suppose or something 
like that. They just throw it into this mountain? They do not 
go through the sorting process?
    Mr. Eagen. Well, just to clarify, they do go through an 
initial sorting process to take that out of the rest of the 
mail stream. So there is one sort.

                          IRRADIATION PROCESS

    Mr. Moran. So now they have hundreds of thousands of pieces 
of mail coming in every day, I suppose. And then they throw it 
all onto a truck and they have been driving this now to Ohio, 
this truck of unsorted mail. Now they just drive to New Jersey. 
It comes in there, and then do they take every individual piece 
and irradiate it?
    Mr. Eagen. No, it goes through in bags.
    Mr. Moran. So there is just a mass radiation in bags. So 
these letters that went to Daschle's office, irradiation would 
have killed any of those anthrax spores, John?
    Dr. Eisold. That is right. That is the process. And I know 
that the process as it proceeds even goes further because you 
know that you have a corner snipped off.
    Mr. Moran. You have a corner snipped off?
    Dr. Eisold. Most of my mail has. They look to see if there 
is any substance in there that might spill out. That is an 
extra safety factor, although we are confident that any 
biological agent in that envelope is killed.
    Mr. Moran. Is killed through irradiation?
    Dr. Eisold. Yes, but I still would not deliver some funny 
piece of mail that had dust in it.
    Mr. Eagen. It kills the anthrax but it does not remove the 
anthrax.
    Mr. Moran. The dead spores then. Have we found anything in 
this process, processing the tens of millions of pieces of 
mail?
    Mr. Eagen. Not yet.
    Mr. Moran. Nothing. So it was preventive, but if we had 
taken a chance and not done it, it would not have made any 
difference? Nothing has been found that actually justified all 
of this, other than preventive measures?
    Mr. Eagen. Well, except that there was the Daschle and the 
Leahy letters.
    Mr. Moran. But those were successful. Our actions haven't 
actually prevented anything, have they? I am trying to 
understand what the net results of the investment of time and 
expense have yielded.
    Mr. Eagen. The answer is we haven't had a positive sample 
so far.
    Mr. Moran. No positive sample. At this point it has all 
been precautionary.
    So we irradiate it. It is irradiated. Now that is--I can't 
imagine that to be a particularly long process. Probably a few 
seconds to throw it into a batch and blast it with radiation.
    Mr. Eagen. It goes through twice is my understanding, so 
not just once, but, no, I don't think it should be an 
exceptionally long process.

                     ALTERNATE IRRADIATION FACILITY

    Mr. Moran. So it goes to New Jersey to give it a blast of 
irradiation. We decided that there is no other place that could 
radiate it?
    Mr. Eagen. The facility in New Jersey has the largest 
capacity facility that they could find. The Postal Service has 
purchased four of the machines on their own and the intention 
for the mid to long-term is that they would install those 
capabilities in the Metropolitan Area to eliminate the trucking 
requirement.
    Mr. Moran. Are they working on that?
    Mr. Eagen. They have the machines. I understand they are 
struggling in finding locations.
    Mr. Moran. So there is nothing being done right now to find 
a closer place? So it comes into New Jersey, and so far, I can 
imagine it might take a few hours to drive up to New Jersey, a 
few hours back, so a day and then a few minutes to zap. I am 
trying to figure out what it is that is causing 3 or 4 months 
of delay.
    Mr. Eagen. Well, I think you have to separate out--in my 
mind you have to separate out the ideal mail flow from current 
mail, which my sense is we are getting to that, versus mail 
that got backlogged over the last couple of months either from 
the initial quarantine of the entire government mail stream, 
but then the follow-up results of trying to process that 
backlog and storing. Last week they delivered eight trailer 
loads of mail to us all at once.
    Mr. Moran. All at once?
    Mr. Eagen. Yes.
    Mr. Moran. They delivered eight trailer loads sorted?
    Mr. Eagen. Sorted for the House.
    Mr. Moran. So that is just dividing it into the House or 
the Senate--not the Senate, the Senate is doing their own 
thing.
    Mr. Eagen. That is right.
    Mr. Moran. Just giving you the House. Is the processing 
that used to take less than 24 hours, this processing by ZIP 
Code, and yet this is a process that is now taking 3 or 4 
months and we are paying how much to do this?
    Mr. Eagen. It is costing us--we are not paying for the 
irradiation. That is the Postal Service's cost. The House does 
not bear that cost.

                         PITNEY BOWES CONTRACT

    Mr. Moran. Yeah, but aren't we contracting?
    Mr. Eagen. We have historically contracted with Pitney 
Bowes in the House processing the mail, even prior to last 
fall. They have been the House mail contractor since 1995.
    Mr. Moran. But we are paying extra for this extra 
processing; right?
    Mr. Eagen. Yes, absolutely.
    Mr. Moran. How much are we paying?
    Mr. Eagen. Right now about double what it used to cost.
    Mr. Moran. Okay. I guess that is the thrust of my concern. 
Maybe I am being unreasonable, but it seems to me that the mail 
delivery has been virtually useless since September 11th. I 
mean to get something 4 months late. I suppose it is nice to 
know. Suppose I sent you a Christmas card 4 months ago, it is a 
little silly to respond at that point. But none of the 
invitations are helpful, I would rather not get mail that has 
not been answered for 4 months. I would rather say we never 
received it because nobody is going to believe that we got it 4 
months late.
    So it would have almost been better if we had not got any. 
So the mail has been, as far as I am concerned, a useless form 
of communication, and yet we are paying double for it. And 
there has got to be some explanation for why it is taking that 
4 months to be received. I still don't understand why that is 
the process. It is not irradiated one by one. The sorting 
process used to take place in 24 hours, and yet it is taking 4 
months. I think it is a legitimate area of inquiry. And I guess 
I would like a better explanation.

                              OFF-GASSING

    Mr. Eagen. I think there are other factors. Those factors 
are that there are additional steps. We did not finish walking 
through the process. When the mail comes back to the Washington 
area and to the Brentwood facility, it is left, I think, for 24 
to 48 hours for an off-gassing procedure.
    Mr. Moran. Off-gassing? What is off-gassing?
    Mr. Eagen. You want to speak to that?
    Dr. Eisold. It is much like I mentioned before. When this 
mail is irradiated everything in there, dust, bugs, mites, 
plastic takes a hit. And some of it melts or changes into 
different chemical substances. Some of it vaporizes. And so it 
is those type of by-products that we felt were irritating 
people. And they found it very effective to then spread the 
mail out in well-ventilated areas for 24 hours to let any of 
those by-products that developed drift away.
    Mr. Moran. I can understand why that would take a day.

                           BRENTWOOD FACILITY

    Mr. Eagen. The other factor that I mentioned in the opening 
statement, the Brentwood facility, where they had the high 
automation systems for all of this government mail and that 
facility is still closed. Only in the last couple of weeks that 
I started to read articles about the Postal Service's plan to 
clean that facility and make it possible to use all of that 
automation to sort all of this mail. So my understanding is 
they have been doing a lot of this by hand in tents and trying 
to use other facilities to pick up the sorting of this mail.
    So where once there was the high automation that you 
described of turning an envelope around in 24 hours, a lot of 
that capacity, both at the Postal Service and within the House 
itself, was destroyed via last fall.
    Mr. Moran. Brentwood had a high level of automation? But 
most Postal Services still do it by hand, and they still do it 
within 24 hours.
    Mr. Eagen. At one point they were telling us that the 
result of the dryness of the irradiated mail was hampering the 
machines that they used because of the higher dust level. They 
are encountering all levels of problems that are slowing down 
what used to be an extremely speedy automated system.
    Mr. Moran. Have all the periodicals been thrown out?
    Mr. Eagen. No, they are in the third class mail category 
that was approved to start flowing on March 25th.
    Mr. Moran. Okay. But again periodicals that are 4 months 
old are not particularly useful.
    Mr. Eagen. I understand that.
    Mr. Moran. Okay. I guess I have beaten this enough. I still 
do not fully understand why it has taken as long as it has. But 
I guess I should go on to Mr. Hoyer.
    But I have got some other questions about offsite 
facilities, about our preparation if we shut down, for remote 
computer communication for this mobile communication system 
that we have. So I will just give you some advanced warning I 
want to ask about that. But at this point we have got other 
members here that want to ask questions.
    Thank you.
    [Clerk's note.--Following are the questions submitted to be 
answered for the record from Mr. Moran.]

                             Remote Access

    Question. The events of September 11th and the anthrax incidents 
underscored the need to improve access to our computers and information 
systems from remote locations. While I applaud the efforts that have 
been undertaken to date, I suspect the additional improvements are 
still warranted. I would like to work with you in assessing this 
capability and finding the resources to enable Members, staff, and 
agency employees the ability to access their computers from a remote 
location. It is my understanding that the single most important 
technological device that would achieve this objective is to equip more 
offices and staff with laptop computers. Do you agree with this 
assessment?
    Response. Providing Members, staff, and other House employees 
(e.g., contractors) the ability to access their computers from a remote 
location requires an end-to-end solution. Our strategy is to provide 
access for Members and some staff (about 2,000) from an Alternate House 
Office Building. User terminal devices (e.g., PCs and Laptops) are 
required to provide this capability as well as a dedicated data network 
connection from the alternate site to the House Campus network. 
However, there are other required elements such as SecurID 
authentication devices, individual circuit connections, and House 
egress capability.
    Question. Since most offices may not have budgeted for this 
expense, do you think we should establish a one-time adjustment in 
accounts to permit the purchase of the necessary equipment?
    Response. A one-time adjustment to the appropriation for all House 
entities other than the MRA and the Committees could be used to defray 
the costs of the user terminal equipment (e.g., laptops). However, 
spending levels for the Members Representational Allowance and 
Committee authorizations are set by the CHA and any increase would 
require their approval. In addition, the capacity of House equipment 
and circuits would need to be expanded in order to provide an adequate 
level of access and throughput needed for the additional remote users.
    Question. I am still troubled by the difficulty with which Members 
and staff can access their offices from a remote location. In your 
estimation, what are the major roadblocks that have prevented most 
offices from gaining remote access?
    Response. In order to access the House network from a remote 
location, Members and staff need a laptop computer, a secure means of 
connecting to the House network, and a network with the capacity to 
bridge the remote location to the House network. Some design work and 
hardware procurement is required to complete the dedicated connection.
    Question. In the perfect world, what additional resources would 
make this goal more easily achieved?
    Response. Procurement of laptops and SecurID cards, some design 
work (contractor support) and procurement of network hardware to expand 
the current capability of the House network.

                       COMMITTEE ROOM RENOVATIONS
    Question. How much have you requested for Committee Room 
Renovations in FY 2003?
    Response. The request for Committee Room Renovations in FY 2003 is 
$4.5 million.
    Question. How many rooms will you be able to renovate at that 
funding level?
    Response. Depending on the results of a room-by-room assessment and 
room availability, between January and December 2003 approximately six 
rooms could be renovated. Outside of the basic standards, each room is 
unique in its audio and video requirements so it is difficult to 
determine exactly how many could be renovated at the requested funding 
level. The cost to renovate each hearing room could be as little as 
$210k for audio only to $800k for audio and video. The $4.5 million 
could cover additional costs outside the base standards that each 
Chairman chose to have done.
    Question. What is the process for prioritizing the schedule of 
renovations?
    Response. The Committee on House Administration (CHA) will 
determine which Committee is next on the implementation schedule based 
on where a Committee is in the Phase II design development and approval 
process. The CHA will notify House Office Building Commission (HOBC) of 
the prioritization schedule. For other Committees in the future, a 
letter of request will be sent to CHA signed by the respective 
Committee Chairman. CHA will again determine and notify HOBC of the 
prioritization schedule based on where a Committee is in the Phase II 
design development and approval process.
    Question. Are all rooms being brought up to a certain standard to 
assure infrastructure compatibility in the future?
    Response. In anticipation of technology improvements and at the 
request of Committee Chairmen, additional technological capabilities 
and enhancements will be completed during the Renovation Program. Each 
Committee room will have infrastructure build outs, electrical conduits 
and raceways that will accommodate the following technologies:
    Auto Streaming, Broadcast Cameras, Broadcast Network Feeds, Closed 
Captioning, Computers, Digital Microphones, DVD's, Limited Data Feeds, 
Plasma Screens, Polycoms & ``Squawk Boxes,'' Projectors, Speakers, 
Timers, Teleconferencing, and Transcribers.
    Question. What parameters are Committees given when their rooms 
come up for renovation?
    Response. Committees are required to follow audio standardization 
guidelines set forth by the CHA. A complimentary video standard is 
currently under development that Committees will also be expected to 
follow:
    Question. How many years is this project expected to continue?
    Response. This project will continue for a least 3 to 4 years.
    Question. How is this being coordinated between the CAO and the 
Architect of the Capitol?
    Response. Once the respective Committee has the CHA approved 100% 
Phase II drawings and specifications for their hearing room the 
drawings are provided to the Superintendents Office for a cost estimate 
for the infrastructure build out. After completion of the cost 
estimate, letters requesting approval and authorization for the 
construction are signed by the respective Committee Chairman, AoC and 
HOBC. Upon CHA receiving HOBC approval, the designated CAO program 
manager holds a coordination meeting with the CHA, Construction 
Management Division, FRC for dais and furniture repair and/or 
replacement, Superintendents Office, respective Committee staff, HIR 
for CAT 5 & fiber installation), design and installation contractor's 
and Office of Procurement for the team to address additional 
infrastructure comments or concerns and build schedule.

                           OFFSITE FACILITIES
    Question. Please describe some of the off-site facilities that are 
planned.
    Response. To date, the CAO, Clerk, Sergeant at Arms and other 
offices have been involved in establishing offsite facilities for an 
Alternate Chamber and Member Briefing Center to provide Members a 
location outside of the Capitol Building to meet and receive 
information from the Leadership and United States Capitol Police in the 
event of an emergency; Emergency Response Center to coordinate incident 
response activities of various agencies; Alternate Member, Committee 
and other House entity offices; and an Alternate Computer Facility. 
Memorandums of Understanding (MOU) are in the final stages of 
development and some facilities equipment and connections have already 
been established. Future efforts under this project include the 
development of comprehensive ``Go Plans'' for each facility such that 
various permutations of loss of House campus facilities can be 
supported. For example, if a single House building were inaccessible, 
pre-arranged offices would be available at the alternate facility, 
including House network connections, phone services, and basic office 
equipment that could be occupied on very short notice. Where 
unwarranted, sites will also include capabilities for remote access to 
support personnel that may not be in the alternate site but may be 
working from home or a District Office.
    Question. Are the offsite facilities going to support some of the 
day-to-day workload or are they going to sit idle?
    Response. The Alternate Computer Facility will be an active 
facility with a full-time staff of twelve, who will perform day-to-day 
activities in support of the House pending a declared emergency. As the 
other facilities are needed they will be brought online to provide day-
to-day functions in support of House operations.
    Question. What are you doing to achieve economies of scale with 
other organizations that are also establishing back up facilities?
    Response. A joint Senate, House, Architect of the Capitol, and 
Library of Congress task force has been working on establishing the 
Alternate Computer Facility to support the needs of the participant 
organizations.
    Question. Why is 24x7 data center coverage necessary?
    Response. The intent of this effort is to ensure that in the event 
of a major disruption to the House's core information technology 
infrastructure, regardless of the time of day, critical legislative 
business processes can continue. This facility will also support backup 
and storage of Member, Committee and other House entity data as 
requested.

                         MOBILE COMMUNICATIONS
    Question. How much is requested for mobile communications?
    Response. As part of the FY 2002 Emergency Supplemental, the CAO 
received funding for a concept called Mobile Communications. The intent 
of this concept is to provide a capability that would allow quick 
establishment of voice and data services at alternate locations where 
members and staff may be temporarily located during an emergency. In 
addition, under this project, we are investigating alternate wireless/
mobile voice communications services (e.g., private cellular, 
satellite-based) that would have a higher degree of reliability during 
emergencies than current public networks. The specific implementations 
that would be pursued are still in development as part of the CAO's 
overall Business Continuity/Disaster Recovery Program.]
    In FY 2003, the CAO has requested $5,100,000 to support the 
operation and maintenance of the Mobile Communications capability. The 
funding will be used for items such as recurring monthly charges for 
any purchased services, equipment maintenance and licensing, and any 
expansion to the capability that is not addressed on initial 
implementation.
    Question. What capabilities will we gain that we don't have at this 
time?
    Response. At this time, there is no off-site/mobile communications 
deployment capability that will backup and support the following:
    <bullet> Interim Member Briefing Center standup off of the main 
campus
    <bullet> Incident Response Center standup off of the main campus
    <bullet> Allow for continuous access (remote access) to House 
communications systems during an evacuation
    There is currently no assured form of cellular communications on 
campus, all cellular communications are in direct competition with the 
general public switched telephone network (PSTN). The establishment of 
a private cellular network on campus that extends approximately 3 miles 
beyond campus for House Members and key staff, will provide an assured 
layer of communications that is not dependent on the public network, 
which may be overloaded in times of emergency conditions. Current 
planning has the House and Senate sharing the cost of deploying this 
private cellular system. In order to provide true worldwide 
communications capability, satellite telephony is needed to keep House 
Members and key staff in communications with each other wherever they 
may be around the world. Satellite telephony is able to service 
locations around the world where cellular cannot. This effort is 
initially intended to provide satellite handsets to House leadership 
and key staff. At this time, it is estimated that 100 satellite 
handsets will be made available. If additional handsets are needed, 
they can be provided as requirements are identified.
    Question. How was this estimate developed?
    Response. These initial cost estimates were developed by talking/
meeting with vendors and carriers and getting their estimates of what 
it would take to provide these emergency communications capabilities. 
For example, a private cellular vendor successfully conducted an on 
campus demonstration of the capability for 90 days and it provided 
valuable insight into what it would take to implement the system 
campus-wide. These estimates will be updated as more relevant 
information becomes available.
    Question. What will be the recurring costs of this initiative?
    Response. The recurring cost for the offsite/mobile communications 
capability is estimated to be $210,000 per year. The recurring cost for 
the assured communications capability is estimated to be $1,030,000 
(private cellular service system and satellite telephony) per year.
    Question. What plans have been developed for housing the equipment?
    Response. The current plan is to house the offsite/mobile 
communications deployment capability in a communications vehicle that 
can accommodate all of the required communications equipment and 
support personnel. It will be a self-contained standalone capability.

                          STUDENT LOAN PROGRAM
    Question. Where do you stand with implementing the student loan 
assistance program?
    Response. In accordance with the direction of the FY 2002 
Legislative Branch Appropriation Conference Report, the Committee on 
House Administration has taken the lead in preparing a proposal for the 
student loan assistance program. Their draft provides for a significant 
role for the office of the CAO and we have provided technical 
assistance in drafting the proposal.
    Question. Have there been any uniform guidelines established to 
ensure consistency implementing this program among Legislative Branch 
agencies?
    Response. The Legislative Branch Financial Management Council has 
developed implementation guidelines. This question is properly 
addressed to the Committee on House Administration since they are 
drafting the proposal.

                            MAIL OPERATIONS
    Question. What was the amount spent for mail processing in FY 2001 
and what is the total you are projecting to spend in FY 2002?
    Response. Expenses in FY 2001--$3.3 million; Expenses in FY 2002.
    Labor costs for processing mail are capped at $592,877 per month. 
The contract with Pitney Bowes was modified in November 2001 to a time 
and materials contract with this amount as an upset price. Work is much 
more labor-intensive, labor rates are higher for new skill-sets 
required, and work includes processing packages as well as USPS mail.
    Payment to GSA for rent, utilities, security, etc. for the Capitol 
Heights offsite mail facility, $534,242 per year with LOC and Senate 
sharing costs.
    Estimated cost for completion of build-out of Capitol Heights 
$4,000,000 with LOC and Senate sharing costs (Subject to adjustment 
based on actual bids received by PBMS).
    Estimated costs for additional equipment $644,000 with LOC and 
Senate sharing costs.
    Question. If the additional costs are funded, what will be the 
total budget for mail processing in FY 2003?
    Response.

 
 
 
 
FY 2002 revised costs............  $7,114,525 ($592,877 monthly)
Est. annual costs/Digital Mail...  5,001,432 ($416,786 monthly)
Plus 50% of GSA occupancy          267,121
 agreement.
                                  --------------------------------------
    FY 2003 Estimated Postal       12,383,078
     Budget.
 

    Question. What functions have been added during FY 2002 and what 
other changes are anticipated in FY 2003?
    Response.
    1. Offsite mail facility.
    2. Additional manual processes for assuring sanitization of mail.
    3. Separate staff within Pitney Bowes for delivery and processing 
because of offsite location.
    4. Processing of all UPS, FedEx and Airborne packages that were 
previously delivered by shippers.
    5. Exploration of possible implementation of digital mail and pilot 
program for digital mail.
    Question How long is the average time between a letter being sent 
and delivery in a Member's office?
    Response. USPS has indicated that it takes up to ten days for mail 
to be processed and delivered to the House. The House has documented a 
rate of 4.7 business days for delivery to Member offices after receipt 
from USPS. Statistics vary from day to day, but on May 6, 2002, the 
House Inspector General found that 17% of the USPS delivered mail had 
postmarks older than March and 10% had postmarks in 2001.
    Question. Are the initiatives planned for FY 2003 designed to 
streamline the process?
    Response. The CAO is working with the Senate and Federal agencies 
on a task force at the Office of Science and Technology Policy at the 
White House to determine more efficient processes for detecting 
contamination in the mail and speeding up processing. The House is also 
working to identify a shorter, but just as reliable, method of 
detection of anthrax and other pathogens. The USPS has indicated that 
they are looking for a local site for an irradiation facility to 
eliminate the time necessary to travel to New Jersey for irradiation.
    Question. Are sufficient precautions being taken for the staff 
(both contractor and in-house) who handle the mail at various stages in 
the process?
    Response. Yes. Pitney Bowes has extensive safety requirements and 
procedures in place for their employees. The mail has been tested by 
Pitney Bowes, the National Institute for Occupational Safety and 
Health, and the Occupational Safety and Health Administration and no 
dangerous levels of contaminants have been found in the mail.

                       MAIL PROCESSING DAY-BY-DAY

    Mr. Taylor. Thank you, Mr. Moran. We are going to be in 
hearings most of the day, and we will try to move along with 
the various people coming in. Mr. Wamp, do you have any 
questions?
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Hoyer. Zach, would you yield one second?
    Mr. Wamp. Certainly.
    Mr. Hoyer. I think it would be useful, Jay, if you would 
submit for the record a day-by-day chronology of the mail 
processing, because I listened to Mr. Moran's questions. And I 
am not sure I could explain to another Member exactly why it 
takes as long as it does. I think Mr. Moran is right. I think a 
presentation of exactly the steps and the time it takes and why 
it takes that much time would be helpful.
    Thank you, Mr. Chairman.
    Mr. Taylor. Each member will have the opportunity to submit 
questions to the witnesses, for the record, if you do not have 
the chance to ask them today.
    Mr. Wamp?
    [Clerk's note.--The day by day mail processing chart 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         EXPRESSING GRATITUTDE

    Mr. Wamp. Mr. Chairman, I will try to be brief, but I think 
this is really important to share. We have the Attending 
Physician, the Sergeant at Arms, the Chief Administrative 
Officer, the Clerk of the House, the Inspector General, the 
General Counsel, et cetera, et cetera, all very important 
titles. But in the movie Braveheart, William Wallace said, 
``Men don't follow titles, they follow courage.'' I want you to 
know on behalf of my children, my wife, my constituents, that 
when that great call to courage came, you all performed 
incredibly well. Day in, day out, week in, week out. All the 
hundreds of people that work for you deserve our appreciation.
    We have not given those people our gratitude at an 
acceptable level thus far, the people that stood in the gap. I 
saw the pain on Dr. Eisold's face over and over again when we 
had the anthrax problem. I saw Bill stand courageously when he 
had to. Jay and Jeff, and others, it really is extraordinary 
the job that you did when we were in a crisis, and we are not 
out of the woods. And as Jay said, we are not going to come out 
of these woods, we have got to learn to operate in these woods 
from here on.
    You all signed up for jobs that have great titles, that 
have great prestige, but you never signed up for what you got. 
We did not either, but we get a lot of praise and you all do 
not get enough and the people that work with you and for you 
day in and day out do not get enough thanks from us. I just 
want it to be reflected for the record that this committee that 
funds the salaries and expenses of all of those people in these 
different categories--this is not the sexy subcommittee. This 
is not the sexy subject matter. This is kind of the grunt work 
of the appropriations process, and the grunt work of the 
operations of this form of government, which is the best in the 
history of the world.
    And you all are extraordinary people who have actually 
become even more extraordinary, much like our President has at 
a time where courage is necessary. People can either become 
great or fade away. I think we have all collectively stood the 
test of time.

                        COORDINATING ACTIVITIES

    I have two questions. One, Bill, can you give us a briefing 
on how well we are coordinating all of the activities with the 
Visitor Center construction and how we are going to wean off 
the overtime of the Capitol Hill Police and not go back to 
normal, but deal with the new paradigm, and how are we 
coordinating? Is there a group that meets every week that has a 
master plan for this that you all are each a part of? That is 
one question.
    Then I want Jay to talk to me about how people are doing 
and how are the families of your workers. Each of you all can 
respond because I am most interested in the people effect of 
what has happened and what this committee can do to make sure 
that the quality of life and the fear factor is manageable. 
Bill?
    Mr. Livingood. Yes, Mr. Wamp, thank you for your comments. 
I also feel the same way about everybody, and particularly 
employees in my office, the other officers' offices, and the 
Capitol Police. I feel very committed to that, and I feel very 
deep feelings about that every day.
    To answer your question is there one group that meets? No, 
sir, there are several groups that meet. For the Capitol police 
issues, the Capitol Police Board meets. We are meeting weekly, 
sometimes twice a week on these issues. One issue is trying to 
get the Capitol police back to some normalcy, trying to get 
them back to 8-hour shifts where they don't work excessive 
overtime and they can be at home with their families and yet 
still maintaining the vigil that is needed at the U.S. Capitol 
and the buildings.
    We also have a second group, and that is the group of House 
officers that meet periodically. We have a scheduled meeting. 
And we also have a third group that meets, and that is with the 
leadership staff and the officers. Also included is the 
Architect in all of these meetings. So I think we do stay 
cognizant and on top of the constructions, the Visitor Center, 
the security requirements, the day-to-day changes that are 
occurring, and try to keep each other informed more than ever 
before.
    This is new, and I think we do a fairly good job of keeping 
each other informed.

                           EMPLOYEE FAMILIES

    Mr. Wamp. Jay, how are the families doing?
    Mr. Eagen. I would say mixed. We did a survey last fall 
once all the buildings were back open. We had a professional 
independent firm come in and do a survey of all offices, member 
offices, committees, administrative offices like Bill's and 
Jeff's and mine, and tried to get a sense of how people reacted 
to last fall, what did they think of the communications, what 
did they think about the information, how did they feel about 
their safety and their health.
    Generally, the House campus was concerned about their 
health. A more specific kind of anecdotal example is the child 
care center which is under my purview is and located in the 
Ford Building, where the contamination was found in two 
locations. We had parents withdraw their children. They didn't 
feel completely safe while we were dislocated and while they 
didn't feel completely safe to come back, some of them have 
come back. Once they got a chance to come and tour the center 
and see it, they felt comfortable again and felt that we were 
taking the right steps to prepare for the future.
    Last fall one of the task groups that we put together--we 
had a Chamber Task Group and a House Office Building Task Group 
was a Human Matters Task Group, and we recognized exactly the 
point that you were referring to, is that not only our 
employees but your staff were going to have difficulty dealing 
with this, and the job of the Human Matters Group was to simply 
focus on that aspect, trying to think through what are the 
questions the people were going to have. When the conference 
calls were done with Members and Chief of Staff, we 
brainstormed the types of questions that we were having from 
staff and Members and tried to answer them up front so people 
had the best information that they could have.
    But I think there is still generally a worry out there, if 
you will, amongst a number of people and I think that is one of 
the reasons why when you ask the questions, Mr. Moran, that we 
do have serious decisions to make about what kind of security 
systems we keep related to the mail and peoples' comfort 
working in this environment, and it is not an easy question to 
answer. I want to assure Mr. Moran, I didn't say this in answer 
to your question, I understand the mail is not going as fast as 
it should. I don't want you to believe that I have thrown up my 
arms and it is the way it is. I will not rest until we find 
ways to make it meet your expectations. I want you to 
understand that that is the way we are going to go about our 
business.

                            Tighter Security

    Mr. Wamp. Let me address that in closing because I believe 
there is a silver lining in every cloud, and I believe as one 
member of this Committee that has been here 5 years on this 
Subcommittee, we need tighter security standards around the 
traffic in and around the Capitol, and that is the silver 
lining in this cloud, is that we can now do that for all the 
right reasons. And I have taken many school groups, as any 
Member of this House--I did this morning, last night--but we 
just can't keep our guard down, and that is the silver lining 
here. We can improve our security.
    Let me tell you this. We need to move quicker towards a 
paperless environment. It is absurd the kind of junk we throw 
away. We need to reduce our dependence on all this paper and 
move these offices to paperless, and this is a catalyst for 
that. So let us use this tragedy for positive things and move 
quicker on these things and not be so reliant on the mail. I am 
glad that it forces us to change and I hope everybody will 
respond.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Wamp.
    Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman. Mr. Chairman, let me 
inquire at the outset, are we going to have a separate hearing 
on the Capitol Police?
    Mr. Taylor. We are going back to a closed hearing that you 
requested.
    Mr. Hoyer. I don't know whether that was me or not.
    Mr. Taylor. Maybe not. But we will have a closed hearing 
continuing on from the one we had a few days ago.

                        Capitol Police Turnover

    Mr. Hoyer. I won't spend a lot of time but Zach mentioned 
it, Jim mentioned it and you mentioned it. I think, Zach, you 
are correct. I do not believe we have the complement of 
personnel in the Capitol Police at this time to effect the kind 
of security that you just said you thought was appropriate. And 
we have probably, am I correct, Bill, the highest turnover 
level that we have had in the Capitol Police since you became 
the Sergeant at Arms?
    Mr. Livingood. That is correct. Only in the last 3 weeks, 
Mr. Hoyer, and that is because of these other agencies, 
particularly one that we all know is a new agency that is 
hiring 40,000 new employees--that is the Transportation 
Security Agency--are just sweeping law enforcement officers 
from our department and other departments.
    Mr. Hoyer. Mr. Chairman, the TSA is taking law enforcement 
officials from a number of Federal agencies, not just 
ourselves, and those other Federal agencies are looking for 
officers as well. And frankly, unless the Capitol Police are 
competitive in terms of pay, hours, benefits and family-
friendly hours, we are going to lose a lot of people that we 
have spent a lot of money to train and who understand this 
Capitol, understand their responsibilities. I think we have a 
critical situation. I won't call it a crisis, but a critical 
situation confronting us to which we must respond.
    Mr. Livingood. And we are looking at that, Mr. Hoyer, and 
getting a briefing on that and recruiting weekly, and there are 
a number of people leaving. We have taken some innovative 
methods to increase our recruitment.

                          OEPPO Budget Request

    Mr. Hoyer. I look forward to the hearing that we are going 
to have, and I appreciate you doing it. Let me go on quickly to 
ask some other specific questions.
    Mr. Trandahl, you indicated we have on board now the head 
of the Office for Emergency Planning Preparedness and 
Operations. It is a $2.6 million budget request for that. Can 
you briefly outline how that would be spent and what you would 
expect the Director to accomplish.
    Mr. Trandahl. That budget request of $2.6 million comes in 
a separate part of the budget. It is actually under the Speaker 
and the Minority Leader and they control that budget. As I 
understand it, the way the request has come in, it is mostly 
oriented towards personnel and they are looking at a staff of 
five to six people. As well, there is a possibility of bringing 
in a contractor.
    Previously when the three officers were creating this House 
Officer Recovery Team the last 3 years here, we had used a 
contractor to help create many manuals, processes, and 
information. So there is that possibility of bringing in the 
contractor and contractor expense to complement that staff. 
Beyond that, I really know nothing more.

                             Page Dormitory

    Mr. Hoyer. Let me go to the page dormitory. How is that 
working out?
    Mr. Trandahl. It worked out very well. As the subcommittee 
is familiar, we had about an 18-month process in terms of 
working with the Architect of the Capitol, to renovate 501 
First Street. The pages were previously in Annex 1, which is 
slated to be torn down by the Architect because of the 
structural issues within that building. The construction was 
slow. We got it done on time, though. We got the kids relocated 
into the facility the end of last August, and we are in much 
better shape in terms of having the kids in that facility--a 
stand-alone facility, with the fire protection and evacuation. 
All those features that we can bring into the facility are a 
dramatic improvement for the page program.

                              Publications

    Mr. Hoyer. We have authorized a number of historical 
publications which you are helping to prepare. Ms. Kaptur and I 
and others are very interested in these. Can you give the 
status of the publications that chronicle the Women, African 
Americans, Hispanic Americans, and Asian and Pacific Islander 
Americans in Congress?
    Mr. Trandahl. And Women in Congress. All four of those 
publications are currently in the pipeline. Currently we have 
that historical staff that we have just expanded. We are 
looking to print those probably the spring of next year. As 
well, we will be making those publications as current as 
possible. We will have a new Congress coming in at that point.
    Mr. Hoyer. You expect by the next Congress they will be 
available?
    Mr. Trandahl. It will be in calendar year next, but it will 
depend on what changes will be effected by an incoming class of 
Members.
    Mr. Hoyer. So you are going to wait until the new class?
    Mr. Trandahl. Yes.

                Restaurant Customer Satisfaction Survey

    Mr. Hoyer. Jay, let me go to you briefly and this will be 
my last question, though I have others. I have been concerned 
since I got here about the quality of the restaurants on the 
House side, quality of the food, quality of the service. I am a 
very strong supporter of organizing workers. But I am also a 
strong supporter of performance and quality. We have increased 
somewhat the quality of both, but I don't think it is where we 
need to be.
    We have discussed customer-satisfaction surveys. Would you 
tell me whether they have been conducted and, if so, what the 
results and what action, if any, we are taking as a result of 
the surveys?
    Mr. Eagen. Yes. Guest Services, Incorporated, which has 
most of the responsibility for the House campus, everything 
except for the Ford Building, brought in an independent firm 
called the Food Group last fall once we returned to the 
buildings and did a customer satisfaction survey focused on the 
House building facilities. It was focused on customer service 
specifically, because that was an area that you had been 
raising questions about and we asked them to focus on customer 
service, how are customers treated by the staff, what is the 
accuracy of the order they get. Performance aspects, not 
specifically food quality aspects. Customers were asked three 
questions, and in each of these categories, does this exceed 
your expectations, does it meet your expectation or is it below 
your expectation. Rayburn Cafeteria and the Rayburn Deli, 
Special Orders Deli got a combination of 100 percent meet my 
expectations and exceed my expectations. The two lowest rated 
facilities were not food facilities, the convenience store and 
the dry cleaners. Lowest rated food facility was the 24 hour 
vending room, but that was still in the 90 percent combination 
meet expectations and exceeding expectations. So what was done 
on the dry cleaners is the lowest one, that was only 79 percent 
meet and exceed expectations. Guest Services made a decision--
that is a subcontracted operation. They kept the back end of 
the process with the subcontract provider, but they pulled the 
staff out and put their own staff into the facility to start 
running on the front end.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. LaHood.

                      Return to Old Mail Processes

    Mr. LaHood. Mr. Eagen, do you think you will ever come to a 
point where you will make a decision not to use all the 
processes that are currently used for processing mail? Do you 
think we will ever go back to the time when somebody drops a 
piece of mail in Peoria and it will arrive in Washington, D.C. 
Within 24, 48 hours to my office?
    Mr. Eagen. I think it will be difficult to do that.
    Mr. LaHood. Why? Particularly given the fact during the 
entire time that these processes have been in place, you 
haven't found one anthrax letter except for the one that was 
delivered to Senator Daschle's office, and I know that there 
was anthrax found in Mr. Pence's office and also another office 
up on one of the top floors of Longworth. But given the fact 
during this entire period of time there have been no letters 
delivered to Members of Congress with anthrax in them, at some 
point don't you reach the point where you say, maybe we can go 
back to some more normalcy.
    It is fine what Zach said about a paperless system, but I 
represent 20 counties in central Illinois. Some people can't 
afford to do anything other than to write a letter, hoping that 
some day it will reach their Congressman or their Senator. And 
I am wondering if you made the decision or somebody made the 
decision because there was anthrax in a piece of mail or some 
pieces of mail to Senators, that since there hasn't been any in 
a long time, do we ever think about maybe going back to a 
system where eventually it won't take 6 months to reach a 
Member of Congress?
    Mr. Eagen. I definitely think forward to the idea of 
achieving a system where it doesn't take 6 months or 3 weeks. 
But the fact remains even with the scenario of last fall, the 
perpetrators of the Leahy and Daschle letters haven't been 
found; the individuals that did what they did last fall to my 
knowledge are not in the hands of law enforcement officials. So 
maybe they are the only ones in the world that are going to do 
something like this. Even they are still out there, and they 
probably could do it again.

                       Alternative Mail Solutions

    Mr. LaHood. So is what you are saying until we find the 
people who sent the mail to Mr. Daschle and Mr. Leahy that we 
are not even going to think about going back to some sort of 
normalcy of this system of delivering mail to the U.S. Capitol? 
Is that sort of your benchmark, that once these people are 
apprehended that maybe you are going to think about going back 
to normalcy?
    We haven't found bin Laden but we are not waging the same 
kind of war because we have done a lot of the people in over 
there. But bin Laden is still out there somewhere.
    Mr. Eagen. Absolutely not and I think exploring solutions 
like digitization of the mail and working with the postal 
system to make the system as speedy as possible is what we need 
to do for the near term. But the guidance I have received from 
the leadership of the institution is that we do not want to be 
put in a situation where House office buildings have to be 
closed again for 6 weeks or 7 weeks or 8 weeks at a time and 
that we need to have the security protocols in place to protect 
the institution from those kinds of scenarios, and I proceeded 
with that mission in mind.

                        MAIL PROCESSING RAYBURN

    Mr. LaHood. Well, with respect to the processing of mail in 
the basement of the Rayburn parking garage, there is a group 
down there that is processing mail in an area where cars are 
supposed to be parked. The people there are violating the 
Federal law by smoking cigarettes; I didn't think you were 
supposed to smoke in a Federal facility. That is a mess down 
there, Jay. I don't know who is responsible for it, but you got 
people actually sitting in the right-of-way where people are 
backing their cars up and people pulling their cars in and it 
is not a very professional way to process mail, and I don't 
know if you are in charge of it or not but I want you to look 
into it.
    It needs to be eliminated. It is a mess down there. The 
people that are down there have been found to be sleeping--I 
don't know who they are working for, if they are under your 
jurisdiction, but I want you to look into it and something 
needs to be done. It is not a professional way to be processing 
mail in a building and it is not the area that it should be 
done in.
    Mr. Eagen. It is my responsibility and I will look into it.

                    EMPLOYEE PHYSICAL FITNESS CENTER

    Mr. LaHood. Let me ask you about another one of my favorite 
subjects, and I don't know if anybody did a study with respect 
to some kind of a gymnasium or a facility for the employees of 
Capitol Hill that we had talked about a year or so ago and 
included some language in the bill last year to look at that. 
Can you give us a report?
    Mr. Eagen. I can. The appropriations bill directed that the 
CAO in connection with the Architect--and we did an interim 
report in January where we did a survey of the campus and 
identified potential physical spaces where a facility could be 
established. We visited a number of other facilities in the 
Washington Metropolitan Area that were in similarly situated 
organizations and found potential business models that met the 
standards that were in the request, which is to have a self-
supporting facility. The next step that we recommended in the 
study that we are undertaking now is actually to do a survey of 
the staff to determine the level of interest.
    Mr. LaHood. Is that being done?
    Mr. Eagen. That is going to be done the end of this month.
    Mr. LaHood. How are you going to do that?
    Mr. Eagen. We hired Booz Allen Hamilton to do the survey 
for us and they will ask what kind of physical facilities would 
you like to be available to you, what kind of fees would you 
like to pay as far as monthly and initiation fee, how far would 
you walk from your office, what times of day would you use the 
facility. That would help us craft the business model.
    Mr. LaHood. Do you have a time model when you know that is 
going to be sent out and then calculated and all that sort of 
stuff?
    Mr. Eagen. The survey is scheduled to go out the end of 
this month.
    Mr. LaHood. I guess the firm then will provide the results 
to you?
    Mr. Eagen. Right.
    Mr. LaHood. And then you will mull it over and make some 
recommendation to us?
    Mr. Eagen. Yes, I think I will go back to that and apply 
that to a business model or potential business models that you 
may want to consider as to what the business solution to the 
House is budget-wise.

                              CONSTRUCTION

    Mr. LaHood. Who is responsible for the new mechanisms that 
we have for people entering the Capitol out here, the new--I 
don't know what the term of art is, but all the security out 
here. Is that you, Bill?
    Mr. Livingood. Yes, sir.
    Mr. LaHood. Is that permanent or temporary?
    Mr. Livingood. Talking about out on the south barricade, 
where that is?
    Mr. LaHood. Correct.
    Mr. Livingood. That is temporary. The construction which 
you see, which is humongus out there on the south is for the 
Visitor Center. They are putting in the utility lines. That is 
why the whole area almost as wide as this room is ongoing and 
that is expected to be finished, I think, the first week of 
May. Don't hold to me to that, but I think that is what the 
Architect said.
    Mr. Trandahl. Bill, I don't mean to jump in. I am going to 
correct you a little bit. The Architect will be appearing 
before the subcommittee, and they will be able to give you much 
more in the way of construction timetables. Actually what will 
happen is the construction that is going on out there right 
now, the utility relocation for the Visitor Center would have 
disrupted all the utilities that run into the building. They 
will finish the first half of that phase I believe on May 7 and 
the drive as it is right now will flip. Where we are walking 
and driving now will become the construction site and what they 
are working on right now will be finished to a point where we 
will be walking and driving on that side. And I think that will 
take another 5 or 6 weeks and it will be finished.

                           ARCHITECT BRIEFING

    Mr. Hoyer. Bob Ney and I have asked the Architect and the 
Officers to prepare a full briefing for all Members on what is 
going on. I know you get asked and I get asked every day what 
is going on, so that the Members will have a full briefing on 
present status, timeframes, what is permanent and what is not 
permanent. Hopefully they are also getting graphics as to what 
it will look like.
    Mr. LaHood. When is that going to take place?
    Mr. Taylor. We will have the Architect here tomorrow.
    Mr. Hoyer. They are trying to get renderings because when I 
met with them I said Members want to know what it is going to 
look like because they want some expectation that this isn't 
going to look horrific. The Visitor Center is going to be 3 to 
4 years in construction, so we are going to be under this for 
some period of time. But Members need to know what is the 
Visitor Center, what is security and what it is going to look 
like at stages and at the end. And we are trying to do it as 
soon as possible because Members have a great deal of interest.
    Mr. Taylor. We will receive more explanation tomorrow at 
the Architects hearing.
    Mr. LaHood. I have heard a rumor they are not going to 
allow Members to drive their cars onto the plaza. And if that 
is a fact and not a rumor, you need to be prepared for the idea 
that there is going to be a lot of screaming around here from 
Members who cannot walk from their offices to the Capitol 
either underground or above ground. So we need to be prepared 
for that.

                          CORRECTIONS CALENDAR

    Let me just finish, if I can, Mr. Chairman. Who is 
responsible for the line item called the Corrections Calendar? 
Anybody here or is that----
    Mr. Trandahl. The Speaker's office runs the Corrections 
Calendar.
    Mr. LaHood. Should I ask somebody in the Speaker's office?
    Mr. Trandahl. Yes, sir.
    Mr. LaHood. Should I tell him you had a scared look on your 
face?
    I will just make this point, in this session for the last 
year-and-a-half, I don't know of any activity with respect to 
the Corrections Calendar. Maybe there has been. But I will 
check with Ted on this, but the Corrections Calendar budget is 
going from $883,000 to $915,000. But, I will talk to Ted about 
that.
    Mr. Chairman, if I could just finish by saying I want to 
associate myself with what everyone has said about the 
extraordinary way that all of you folks have performed. I think 
all of us were scared not to death, but pretty scared by what 
happened on 9/11 and I think could not have been more reassured 
than by what all of you have done collectively and the people 
that work for you, and so you have done great work. You really 
have.
    And I think Zach put it the best that he could and I want 
to associate myself with him, but I also want to say the big 
thank you to all of you and all of the people who work in the 
Capitol who don't get any thanks for all the extraordinary work 
that goes on around here.
    Mr. Taylor. Ms. Kaptur.

                           SEPTEMBER 11, 2001

    Ms. Kaptur. Thanks, Mr. Chairman. I have enjoyed listening 
this morning and, as my colleagues, I want to thank all of you.
    Dr. Eisold, you are quite photogenic on television, by the 
way. I wish I could say the same about myself. And thank you 
for the tremendous service that you provided to our families 
and members not just on 9/11, but to the whole country really, 
and your composure and your professionalism and your service 
was very evident. So we thank you and thank your family for 
producing you letting us share you with the country.
    Mr. Livingood, also the service you provided to us as 
Members--though the first day was very confusing, I have that 
memory. This has changed my life. I love this. And I think it 
is very important that regardless of what happens in the future 
that we be allowed to function. I know it was very 
disheartening to me, I happened to be up at Bethesda at 9 
o'clock that morning--on 9/11 I happened to be up at Bethesda 
when all of that happened just trying to call in here and then 
trying to find the Speaker that day urging him not to shut down 
the broadcast facilities or to have alternate locations so we 
could at least keep broadcasting across the country. I thought 
that was so important, but just to locate him.
    I actually found a connection to him by calling into the 
Physician's office here, since I was up at Bethesda Naval, 
saying I need to find the Speaker, how do I get to the Speaker? 
And someone was sitting in his office was able to get a message 
to him. And then the next day--not that my message made a 
difference, but at least we were able to function. And just 
going through that experience and not feeling like you were 
connected to the main ship here, that you weren't able to get 
in was a very discomforting feeling, and so I support all 
efforts to keep us functional.
    We are our Country's first line of defense on the political 
front, and we ought to be present visually and in an audio 
nature, and I know people are talking about how to make sure 
that that happens regardless of what might happen to the 
Capitol area itself, and I fully support that effort.
    I don't want to go over the ground that has already been 
plowed but in general I think it is important for everyone in 
our country to think about what this teaches us and what we 
need to do to change the future. That is really our job and 
each of us has a special responsibility there. And to some of 
the future witnesses that come before us I am going to be 
asking a lot about the way we in the Capitol and the way we 
behave and conduct our lives can set an example for the 
country.

                       ALTERNATIVE FUEL VEHICLES

    For example, even in the way we generate power and the way 
we purchase it, the way we produce it, what example could we 
better set here in the way we function? We will have the 
Botanical Gardens up this afternoon, and I want to ask them 
questions about photovoltaics, about heating and cooling in 
that facility. And if I have a major economic goal, it is to 
sever this country's connection with imported fuels of all 
kinds, because it has too often become a proxy for our foreign 
policy.
    So my first question, and I think each of us in whatever 
dollars we spend and whatever dollars we have under our 
jurisdiction, we have to think about this. I want to ask Mr. 
Livingood if you could perhaps comment a bit--I was looking at 
the Capitol fleet and I think you own about 117 vehicles. At 
least that was the list I was given, and I know there are some 
plans to purchase some additional vehicles. I am going to 
submit for the record a list of alternative fuel vehicles that 
are manufactured by companies in our country, which largely are 
not--where? You don't have any auto plants in California but 
one, so you are dependent on our region of the country for 
that. But even most of these vehicles can be purchased.
    [Clerk's note.--The vehicle inventory of the Capitol Police 
and a listing of alternative fuel vehicles provided for the 
record follows.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  ALTERNATIVE FUEL VEHICLES CONTINUED

    Ms. Kaptur. It is interesting, most of these vehicles can 
be purchased but you can't buy the fuel. But if you want a real 
vivid example of where we are really that just brings this 
whole thing into perspective, where the Pentagon got hit, if 
you go up around the road and you face it, you are going to see 
a little gas station up there called Citgo, only place in the 
Capitol region where you can buy ethanol. I don't think you can 
buy biodiesel there yet. But I think we have a major 
responsibility even in the small fleet that you have 
responsibility for here, sir, I think people here would help 
you--how do we get America to change their habits to see there 
was a different way to the future.
    I thought there was no more vivid site for me than to look 
at the hole in the Pentagon and to see that little gas station 
frame and think to myself, oh, this is interesting, we are hit 
in the heart of our Nation's defense and there sits that little 
pump Citgo and that oil comes from Venezuela and that 
government almost toppled over the weekend. And now prices for 
many of our derivative products are going to go up because of 
what happened there.
    So I just wanted to ask, many of the vehicles you currently 
have--there are four Ford Tauruses, 12 Chevy Suburbans, 1 Chevy 
Tahoe, 5 Ford Explorers, 1 Ford van, 9 Chevy vans, 3 Chevy 
pickups--they all can accommodate alternative fuels. I wanted 
to ask if you have ever given any thought to this and also in 
the new purchases that you are going to be doing whether you 
have given serious consideration to purchasing vehicles that do 
not depend on petroleum as the source of their fuel.
    Mr. Livingood. To answer your question, 4 years ago we 
looked at alternative fuel vehicles and we tried to go to a 
couple manufacturers and see if we could just borrow some to 
see how they worked. At that time, the world has changed now, 
but at that time they were not very receptive in allowing us to 
borrow some. And we wanted to do that before we purchased them 
just so we knew the pickup; if they are patrol cars, do they 
have enough pickup to stop a vehicle. One of our concerns is 
that a lot of our vehicles are used in other locations than 
just the Metropolitan Area here, our dignitary cars, when we 
have congressional events outside the city. But we will--in 
fact the chief administrative officer from the Capitol Police 
is in the hearing today and we will look at that again.
    Ms. Kaptur. Well, you know I would just say as one Member 
of Congress, and I bet I could get a good dirty dozen to come 
with me, we would be happy to sit down with the CEOs of the 
largest manufacturers in this country and for the sake of the 
Nation try to help you find some alternatives. I think it is 
time we have to change and we all have to be a part of that. 
And wouldn't that be wonderful to be able to help to change the 
habits here and give a good example to the rest of the country?

                            ETHANOL VEHICLES

    Mr. LaHood. Would you yield? I have no doubt the Illinois 
corn growers would be able to provide you with as many ethanol 
driven cars as you would like. They drive them all over 
Illinois, and I am sure they would provide you as many demos as 
you would like to try.
    Ms. Kaptur. And one of my dreams--I don't know where your 
officers purchase their fuel, but I want a pump up here where I 
can buy the fuel for my car and I can't get it. You cannot get 
it here.
    Mr. Lewis. Would the gentlelady yield? I really apologize 
for doing this. But some years ago I was heavily involved in 
the air quality business in California. I had a bill that would 
require all cars that had a place they came back to at night to 
be able to be run by propane. An associate from the University 
of California Riverside came to me and said, hey, wait a 
minute, Jerry. We developed this idea but now we are learning 
that propane, when it goes through the combustion process, 
mixes with sunlight and forms a thing called propylene that may 
be worse.
    But in the meantime we were dealing with Detroit in those 
days trying to look for improvement in gas mileage, et cetera, 
et cetera. I have to tell you I have never seen a more 
nonresponsive group than those major automobile producers here 
in the United States. I am not surprised they don't have a car 
to lend you. I am sure they are all using them themselves. In 
the meantime don't get your hopes up. It is a long, long ways 
before they are to really help us.
    When OPEC came along, gas mileage improved. It didn't 
improve until then.
    Ms. Kaptur. I don't disagree with my good friend from 
California, and I have the highest respect for him and there 
has been no committee that has tried harder than our defense 
subcommittees to access vehicles over at DOD, and the Postal 
Service, by the way, has the best record in the Government of 
the United States in terms of purchasing and R&D related to new 
fuels and new vehicles. I would love to bring in these CEOs. I 
deal with them all the time and sometimes the national 
interest----
    Mr. Lewis. I must confess to the gentlelady, I converted a 
1965 Ford convertible, a beautiful vehicle, to be able to run 
on propane. You know, that baby never ran again.
    Ms. Kaptur. I have submitted this information for the 
record and I would very much enjoy meeting with the 
representatives of these corporations here, and I am going to 
ask the gentleman to submit additional information about your 
future purchases of vehicles that are----
    Mr. Livingood. I will commit to you that we will look 
strongly at purchasing vehicles with alternative fuel.

                              FOOD QUALITY

    Ms. Kaptur. I thank you very much. I have an additional 
question, Mr. Chairman, and that relates to food quality. I 
heard what Mr. Eagen said about these studies that were done. 
And as a member of the Agriculture Committee, it is interesting 
the term you used is what is in the machines met the 
expectations. I don't know what that means, but I have been 
amazed since my early years of service here to look at what is 
in the vending machines here and I don't know who hires or get 
the foods that is served in the cloakroom. That is the highest 
sugar, highest fat, least nutritious food I have ever seen. And 
you can't even get celery sticks. Maybe the guys around here 
like eating all this stuff. But the doctor takes care of them 
at the output end. And I think if I have a plea, it is that 
nutrient quality, not sugar, rich fat, be the only way we 
provide food in this--we should look at a set of alternatives, 
certainly in the vending machines. I don't know how we get 
these vending machines in here, whether we are paid by some 
vendor to take the machine or we pay a fee. We have high sugar 
in those drinks. You can't get a bottle of pure juice in this 
Capitol. Once in awhile you can get an apple. But if you were 
to do a survey of what is sold here in terms of food, it is 
absolutely junk.
    And it is the same message we give to every child in this 
country when we have these vending machines in our schools, and 
that is why a third of our kids are obese. We have the worst 
problem growing up across this country coast to coast, and we 
perpetrate that here. I am not asking you to get rid of the 
junk food. I am just asking you to fill the other half of the 
carousel windows with good food. How do I accomplish that in 
this Capitol?
    Mr. Eagen. I am the man that can try to do it for you.
    Ms. Kaptur. We would be pleased to bring people from the 
Department of Agriculture Nutrition Service in here to identify 
product lines and to find a way to provide nutritious food to 
the people who work here as well as those that visit. So I 
thank you very much, very much for that.
    I have some questions that I will submit to be answered for 
the record regarding the food quality and artwork.
    [The questions and responses follow:]

         Nutritional Quality of Food Served in House Facilities

    Question. I am concerned about the nutritional quality of food 
served in House facilities. I pass by the vending machines in the 
Rayburn building several times each day and have noticed an absence of 
nutritious choices for Members and staff. Is the nutritional quality of 
these foods a factor in the contracts you have with the vending 
companies?
    Response. Our contract with the food service vendors states, ``The 
variety and appearance of food shall be consistent with approved food 
service industry standards.''. The vending in the Rayburn subway area 
is primarily used as a quick service area. While more variety and 
nutritious selections are available in the 24-hour vending area, we 
have asked Vending Services, Inc., the vending subcontractor for Guest 
Services, Inc. to add more nutritious and healthy snack foods.
    Question. Please tell us who are the vendors and for how long the 
contracts run.
    Response. Ford House Office Building--Skenteris Family Inc; 
Capitol--Guest Services, Inc.; Cannon House Office Building--Guest 
Services, Inc.; Longworth House Office Building--Guest Services, Inc.; 
Rayburn House Office Building--Guest Services, Inc.; Vending 
subcontractor--Vending Services, Inc.; Catering subcontractors--Uptown 
Catering, Ridgewell's Catering.
    Ridgewell's Uptown and Vending Services Inc. are subcontractors 
under the Guest Services contract.
    The base period for the Guest Services, Inc. contract runs until 
December 19, 2002. The base period for the Skenteris contract expires 
on September 15, 2004.
    Question. What can be done to improve the selection of items 
available, along with making certain that there is greater similarity 
of offerings between the vending machines in Rayburn and Longworth?
    Response. A new 24-hour vending are will be added in the Rayburn 
House Office Building when the Rayburn Cafeteria renovation is 
completed. This new area will feature cold food vending machines with 
more nutritious and healthier offerings.
    Question. Similarly what concern is given to the nutritional 
content of the foods served in our cafeterias? I have noticed in the 
Rayburn cafeteria that there are days when the vegetable choices 
include several starches rather than a good variety. Certainly the 
options can be improved upon.
    Response. Guest Services, Inc. is revising the menu for all their 
cafeterias. They will include more seasonal fresh vegetables.
    Question. Do you know if anyone has ever given any thought to 
posting the nutritional profile of the foods being offered so that 
people can make more informed choices?
    Response. Yes, there are ongoing discussions with Guest Services, 
Inc. to publish the nutritional profile of their menus. We agree that 
this would be a valuable consumer service.

                         Artwork in the Capitol

    Question. What steps, if any, have been taken to respond to the 
concerns regarding the representativeness of artwork?
    Response. In addition to the new resources within the Legislative 
Resource Center, several new works of art are being created for the 
Capitol that reflect the diversity of citizens who have played 
important roles in our history. Statues of two Native American women, 
Sarah Winnemucca and Sacagawea, have been commissioned for inclusion in 
the National Statuary Hall Collection. Amelia Earhart will possibly be 
the subject of a statue in the same collection.
    The creation of a curatorial specialist enhances the ability of the 
House to research and locate potential artwork for acquisition and 
loan, and the position puts into place staff to research and coordinate 
the commissioning of additional art.
    Question. What is currently in the House inventory of artwork that 
represents women and their contribution to our country? Please specify 
whether it is displayed or in storage.
    Response. To date, Historical Services and the Architect of the 
Capitol have identified 20 women of achievement depicted in House 
artworks. Of those works, 18 are on display and two are in storage (see 
Table HS-1). In addition, there are several paintings depicting events 
in American history that include women, such as the Allyn Cox mural 
segment of the 1917 woman suffrage parade. Because an authoritative 
catalog of the House Collection is in process, Historical Services is 
not able to provide a complete count of this artwork.
    Women artists are also represented in House artwork. To date, 53 
works by women artists have been identified, including fifteen in the 
National Statuary Hall Collection (see Table HS-2).
    Question. As you know, I have a great interest in being sure that 
the artwork that is on display in the Capitol more fairly represent all 
of those who have contributed to our nation's history, including women. 
This committee has been very clear in recent years regarding 
expectations that this situation be corrected so that women are more 
fairly represented in our displayed collection. With respect to the 
House of Representatives, what changes have been made over the past 
three years with respect to what artwork is displayed?
    Response. The first step towards bringing greater diversity to the 
artwork of the House is to identify what already exists. Until 
recently, the House has relied upon the efforts of the AOC curator, in 
addition to its usual responsibilities, to identify and track House 
artwork. Two years ago the Office of the Clerk created within the 
Legislative Resource Center the Historical Services section, and this 
year a curatorial specialist was added to Historical Services. This has 
provided the House with the resources with which to identify gaps in 
the collection. The curatorial specialist can assist the AOC curator in 
carrying out this inventory. Historical Services staff can then 
identify individuals, groups, and events that are missing from the 
collection.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                             CAPITOL SAFETY

    Mr. Taylor. Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman, and, Mr. Livingood, 
I would like to congratulate you on your good judgment on 
buying all those Chevrolets. I don't want to go over the ground 
that has been plowed and harrowed. But I would like to add my 
words of appreciation for what you and your people as a class 
have done to protect us here and to make this system work in 
very unusual times. I do think, however, as representatives of 
650,000 people, we have to be able to take a certain amount of 
risk for ourselves and there is no way we can shut the place 
down and make it totally safe. We have to make the decisions 
that we can make, the threat assessment, and reduce the risks 
as much as we can, but the only way you can make it totally 
safe is for us to go home and stick our head in a hole and that 
is not what we want to do and that is not what we are elected 
to do.
    On the mail--and I realize we have spent an awful lot of 
time on it, but it is a very serious problem because it is the 
way so many of our constituents still contact their 
Congressmen. And I received a letter yesterday that was 
postmarked in the second week of October. So we still have 
those problems. And I think if we accept that level of service, 
we are sort of in a perverse way contributing to the problems 
that the Postal Service is having nationally right now. I mean 
their total financial performance since 9/11 has gone down the 
tubes and we have got to continue to help work that out. And I 
know that you have to have your security protocols, but somehow 
that has to be worked out where the system works. We can't be 
running a government where we are getting information from the 
people we represent that was sent in October.

                             CAPITOL TOURS

    Enough said. Mr. Livingood, the tours of the Capitol, and 
when I say that we have to accept a certain amount of 
responsibility for our own safety and take a certain amount of 
risk if we are going to have this wonderful job of representing 
650,000 Americans, I just would encourage you as you go forward 
in that to make sure the system is not so safe that it doesn't 
work. We still have to get our kids through the Capitol, and 
your people, whenever I call, they are very, very cooperative, 
but it is getting to be--the rules seem to change everyday. And 
anything we can do--I don't think that there is--if we shut it 
down so we can't take our school kids through the Capitol of 
the United States, I think the terrorists have won in a certain 
regard and I would like your comment on that.
    Mr. Livingood. You are correct. We are doing everything 
possible. We are meeting on tours every other day. This is one 
of our top priorities, from this committee and the Committee on 
House Administration. They are calling us every day. We have 
doubled the number of tours in the last 3 weeks, doubled on the 
South Door, and we have positioned guides out there. And you 
will find when you walk by in the afternoon, there is barely--I 
haven't seen more than 15, 20 people there waiting to get into 
tours, where there used to be maybe 100, 150. So I think we 
have made substantial gains.
    Plus when I walk in the afternoon or around this time, late 
morning, the Capitol is much fuller than it has been. So I 
think that we are trying to address the school groups. We have 
some other alternative solutions. The board meets early next 
week, at least from the House side are presenting some 
additional means to get people into the building. Where we are 
slow is on the public tour because we have the East Front 
screening center and that can only handle X number of people 
per hour to get them screened to get in.
    We have a new screening facility going on or being built 
right by my office. It is the southeast corner of the building, 
and that will be finished and ready for business May 20. That 
will put more people into the building safely, but I think it 
will address both our concerns.
    Mr. Sherwood. I just would like to reiterate my thought, 
the only way we will be totally safe is if we totally cease to 
function. And so I would encourage you to make those decisions 
knowing that we have to accept some risk. I think if we are 
going to be leader of the free world, we have to accept some 
risk.

                            COMPUTER SUPPORT

    Mr. Eagen, we get wonderful service on our computers and 
that sort of stuff generally through the vendors that are set 
up with your office. The suggestion that I would have is that 
sometimes--sometimes--if we are making a change, we ask what 
functions will be lost in the transition and sometimes there is 
some information lost there; in other words, we try to set up a 
big transition and we got it all done and it is all done but we 
lost some functions for a few days in the meantime that they 
didn't inform us we were going to lose, and that again goes to 
the issue of how responsive and how effective our offices are. 
And it ties in--we can't be effective if we don't get our mail. 
It is hard to be effective if our computer systems aren't up 
and running, and I just ask that maybe there should be a 
checklist developed so that when you make a change the offices 
are informed of what we are going to lose during the change.
    Mr. Eagen. We have something similar to that. Let me try to 
describe it to you and see if it meets your needs. Three years 
ago we started a program called a correspondence management 
system evaluation program. When we learned that one of the 
vendors is going to change its software, whether it is ACS or 
InterAmerica or any of the other seven or eight that are doing 
business on the Hill, we require them to submit it to us with 
their marketing, and we literally have set up a lab down in 
House Information Resources where we install the system. We 
have a database that is similar to the size that most Members 
have and we run that software through the paces and we measure 
it against the marketing that they are claiming of what it can 
and can't do and then we write up a report. We give the vendor 
a chance to respond to that report and depending on how they 
respond we do one of two things. We either reject the software 
because it doesn't match up to the marketing or we say it is 
okay, but then we publish the report on the Web as kind of a 
consumer reports information piece. So that is available to 
your systems administrator, and every time a vendor is planning 
a software upgrade we go through that regimen.

                        TECHNOLOGY VENDOR SURVEY

    Second, a year ago we started a contract with a combination 
of the Congressional Management Foundation and the Gartner 
Group. The Gartner Group is a leading technology consulting 
firm, and they did a survey of all systems administrators of 
customer satisfaction with the various CMS programs, was it 
performing, was it doing what it was supposed to do, what kind 
of service level are you getting in terms of the vendor being 
there when you need them and all those kinds of things. And we 
came up literally with ratings of the various vendors and their 
products.
    The survey is in the field for a repeat of that right now, 
and we hope to have that report out in the next couple of 
months before we get into the year-end buying season that 
usually occurs around here as Members consider upgrading their 
systems. The idea is now we have got a benchmark of a year-and-
a-half ago or 2 years ago and will now show what kind of 
progress the vendors made in terms of those that were weak, did 
they improve, those that were strong, did they get better, so 
forth and so on.
    Mr. Sherwood. I think it is our responsibility in our 
congressional offices to use our Congressional office as an 
example to the general public that government works, and we 
have to get our mail, our computers have to work, and we have 
to have our system set up in a tickler file so we know all that 
stuff goes back out, and I thought in my office we had that 
stuff working pretty well and since 9/11 the level of service 
that we have given our consumers, our constituents, has dropped 
significantly and we all have to work together to get that back 
up.
    And I would like to add my voice to the committee to thank 
your people for all their hard work and sacrifice in this time, 
and we very much appreciate it.
    Mr. Taylor. Thank you, Mr. Sherwood.
    Mr. Lewis.

                         ALTERNATE DATA CENTER

    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Livingood, friends, welcome. I have a number of 
questions. To begin with: 9/11. We have heard time and time 
again how that day caused us to rethink where we have been. 
Among other things I found fascinating is when those two 
buildings came down in New York, there were within them the 
central operations of some of our major financial institutions 
who depend upon information to carry forward their work, and 
responsibilities--responsibilities that are dramatically 
important to our economy. I learned that many of these people 
had anticipated the need for alternative availability of that 
information if something should happen to the systems in the 
building--I don't know if they thought their computers would 
fail or what. There was backup storage relative to that.
    I had questions about the Pentagon relative to the same 
issue after the plane crashed into it and learned that we were 
at least in the beginning stages of backup storage efforts at 
places like Fort Belvoir. A lot of money was being spent to 
make sure that data and information was available in a timely 
fashion regardless of crises.
    The Capitol has similar needs and I wonder if somebody can 
tell me what we are doing and what the prospects are to make 
sure we can function if our information systems were wiped out.
    Mr. Eagen. That is my responsibility and we are probably 
more like the DOD characterization that you did, that you made 
than we are Wall Street. We have a number of capabilities in 
place that allow us to remotely operate the systems and we have 
backup regimens in place for the central mission critical 
systems for the House. What we don't have is redundancy for 
those systems, and one of the proposals that was in the 
emergency supplemental for last fall is for the legislative 
branch to create an off-site alternative data center to 
undertake that mission. The House has already begun acquiring 
the front end of those kinds of capabilities.
    Mr. Lewis. What do you mean?
    Mr. Eagen. What is called the Secure Area Network. It would 
be equipment where the data as it is worked here on the House 
side is automatically copied.
    Mr. Lewis. So you are replicating the data and equipment?
    Mr. Eagen. Replicating the data through specialized 
equipment that serves that function. So if the facility in the 
Ford Building on the sixth floor were lost, we would still be 
able to function, yes, sir.

                    COSTS FOR ALTERNATE DATA CENTER

    Mr. Lewis. Would you submit for the record what the current 
costs are and what you anticipate the costs to be for the 
center so we have an idea?
    [The information requested for the record follows:]

    The estimated cost of the actual build out (data center 
infrastructure) is approximately $27 million. Included in this estimate 
are all systems currently operating within the House, Data Networks and 
Voice communications. The cost of sustaining these operations will be 
approximately $3 million per year for the first two years and $6 
million per year for the third and fourth year (due to life cycle 
replacements).
    Final costs associated with the property are still being 
negotiated.

                              MEMBERS' GYM

    Mr. Lewis. I especially want to welcome Dr. Eisold to the 
meeting today. The health of Members is an item of interest to 
many, especially to the individual member who may have health 
problems one way or another. I happen to have a great facility 
in California where there is a lot of experimental work that 
goes on at Loma Linda University Medical Center. They do all 
kinds of experimental things relative to how we get my hair 
grayer and things of that kind.
    I am very impressed by the services available to Members, 
and it is very important to not have physicians just sitting 
around waiting for a heart attack to occur or responding to a 
specific health emergency that is unexpected but rather to have 
a broader understanding of Member health issues. I would like 
to ask Dr. Eisold questions about that general membership.
    Well, let me first make a point: the gym is an interesting 
facility around here and what the percentage is of Members who 
use those exercise facilities I have no idea. But I do find the 
swimming pool empty a lot and it causes me to wonder. We have a 
guy who is a trained physical therapist down there, but unless 
a Member asks for specific ideas about what they might do 
better, there is a little interaction with health experts, not 
nearly as much as there might be. Have you ever spent any time 
in our gym? Have you worked out there?
    Dr. Eisold. I do not use a gym here. I use a gym near my 
home. It is too busy during the day to go away myself and use 
the House gym, but I work closely with the House gym and with 
people in the gym and have toured the gym, so I am very much 
aware of its capabilities. I think what you touch on is 
probably the hardest thing to do in medicine, and Congresswoman 
Kaptur touched on it, too, when she talked about nutrition. It 
requires individual discipline, will power and scheduling to go 
to the gym or eat the right things. And our job, either the 
people in the gym or my office, is to keep pushing those 
concepts with people like yourself or other people not using 
the gym.

                            MEMBERS' HEALTH

    Mr. Lewis. Mr. Chairman, I have often suggested and have 
had some interaction with physicians of the Capitol in the past 
about what might be the valuable result, especially for the 
young Navy physicians who are here, of programming exercise 
regimens that would specifically attack or impact the problems 
of individual Members, and actually be selling this to Members 
that they ought to be actively involved. And there is a good 
deal of money spent in this budget, and I think that would be a 
very exciting prospect for physicians who are interested in 
preventive medicine, and I am wondering if we couldn't use a 
significant piece of this budget to accomplish that.
    I notice that between 2001 and the proposed budget there is 
a huge decrease. It seems to me we could go a long ways towards 
educating Members about being more intensely aware of the 
importance of health relative to productivity.
    Dr. Eisold. Again, I think prevention, and you and I have 
had this dialogue before, prevention is really the most 
important aspect of the delivery of care. Primary prevention 
before things happen is key. All those capabilities are 
available to us in our present configuration, and our access to 
the Members is only limited by the Members' own desire to come 
down and be available. I think that everybody knows how 
accessible we are, and certainly it was no more visible than 
during the fall. We can be everywhere at any time and we are on 
a daily basis. The door is always open. And when people are 
voting, they are not very far from us.
    Mr. Lewis. Mr. Chairman----

                          PREVENTIVE MEDICINE

    Ms. Kaptur. Would the gentleman yield for a second? I want 
to endorse what you are suggesting, having served here long 
enough to see what has happened to many of my friends and 
colleagues over the years because of the pressure of this job 
and the lack of attention to their personal health. And let me 
speak on behalf of the women Members if I just might, because I 
don't know if the money is in this budget for the women's 
facility or not, but over the years trying to get equity in 
that has been an interesting journey and we are there now. But 
in terms of actual programming, we have to be programmed. We 
are programmed every minute of every day and we have to get 
this in.
    Frankly, I even thought doing a Weight Watchers class. 
Well, if we can't do it through these facilities, let us do 
Weight Watchers. They seem to be able to know how to do it. 
Some of our Members have gone on the wackiest diets I have ever 
seen, and it is not good for their health. You talk about 
prevention. If you call it diet, you will get a bigger turnout, 
take my word for it, because everybody has some idea of some 
diet that they are on here.
    But people need to attend to their health. We need a 
programmed way to do that. We have facilities, we just don't 
have--what you are saying--we don't seem to have the personnel 
in place or anybody interested in prevention and health that 
helps us tailor programs to whatever group of individuals might 
want. And I really after 2 decades of service this has been 
needed for a long time. And when you look at the number of hard 
cases we come up with here and all the different things that 
happen to people I couldn't believe the number of people who 
has collapsed intestines because of poor diets and stress. And 
it just seems to me that we will save money in the long run 
because we won't be having all these illnesses.
    I just support you so much in what you are saying, and I 
hope that there could be a more organized way of reaching out 
to the Membership, including the women, so we can--and 
generally you are not available at noon. I mean you have to do 
it after work or before work. And so I think people would do it 
if we could have a little leadership on the prevention side. So 
I wanted to endorse you.

                                PARKING

    Mr. Lewis. Mr. Chairman, if I could mention another item. 
Even in your State, Mr. Chairman, it is my understanding that 
some of the major employers, even the banks, provide no cost 
parking for their staff and executives. Sometime ago--this 
place is so nutty, the Members believe in self flagellation and 
we like to put flags out about how much we beat ourselves over 
the head--we began deciding to charge people for parking spots 
in the Capitol. I mean, that is really a nutty idea and I would 
ask one of my financial experts who has done so much for his 
own State to review that kind of idiotic policy as it relates 
to the individual Members and others around here.
    Mr. Taylor. I appreciate that. If members have other 
questions, please submit them for the record. We have covered 
many areas here today. Gentlemen, we appreciate your 
appearance. I would say to our Members it is the House Members 
that are going to determine what happens in the House. These 
gentlemen advise. They carry out our responsibility. But if we 
want to change this, don't blame it on them. We have to change 
it ourselves and direct them to do it, and I appreciate your 
willingness to do that. Thank you, gentlemen.

                             STUDENT LOANS

    Mr. Hoyer. Could I ask a brief question? The Legislative 
Counsel is here, and I would like to ask about a student-loan 
repayment program because we are talking about that in the 
House Administration Committee. Could you comment on that how 
useful that would be for your office?
    Mr. Barrow. I can comment on that. Our greatest challenge 
is recruitment and retention. I think it will be a big 
incentive for those people to stay in our office. We lost a few 
recruits in recent years because the heavy burden of student 
loans is something of great concern to prospective applicants, 
some of whom have loans totaling as much as $100,000.
    Mr. Hoyer. And competitors are offering to assist with 
those.
    Mr. Barrow. At this point it is available in the Senate and 
the entire executive branch. The House of Representatives is 
really the only agency in the executive and legislative 
branches of the Federal Government that does not participate in 
a student loan repayment program.
    Mr. Hoyer. Mr. Chairman, that is the key. The Senate is 
offering this benefit and other executive agencies are offering 
it, and we are starting to lose people to the Senate. And the 
Speaker has been very good on getting us more competitive, but 
that is something we need to focus on.
    Mr. Taylor. Gentlemen, thank you very much and we 
appreciate your job.
    [Clerk's note.--Questions submitted for the record by Mr. 
Hoyer follow.]

                              Public Tours

    Question. At present, persons taking public tours of the Capitol 
may not visit the House or Senate Galleries when the bodies are not in 
session. This is disappointing to Capitol visitors. Are there plans to 
permit tour groups to visit the galleries when the House are not in 
session?
    Response. We continue to review opening galleries to visitors when 
the House is not in session. However, due to lack of USCP manpower we 
are unable to adequately staff the galleries at this time. As staffing 
levels increase it is our goal to re-open the galleries for visitor 
access.

                            FIRE PROTECTION
    Question. Last year, as the House Inspector General, you reported 
that you were satisfied with the pace of progress on fire-protection 
work in the House and the Library, such as upgrading fire-protection 
systems. But you expressed concerns about progress on development of 
routine inspections, testing and maintenance schedules. Are things 
where they need to be in this respect, in your judgment?
    Response. As we reported, the AOC had not developed a comprehensive 
maintenance, inspection, and testing plan. There is an immediate need 
for such a plan. To date, the AOC has not yet completed such a plan. 
However, since our report, they have initiated actions for the 
development of a plan. Both House and Library Superintendents have each 
recently added a contracted fire protection engineer to their 
respective staffs to develop and implement a comprehensive plan. In 
addition, contracts have been awarded for the required annual 
inspection of the fire protection systems. These are initial steps in 
the right direction that must be followed through to complete the 
development of a comprehensive maintenance, inspection, and testing 
plan. We will continue to monitor and report on their progress.

                             HOUSE ART WORK
    Question. What are your long-term plans for maintaining House 
antiquities and artwork? How can the House improve its management of 
these treasures?
    Response. The key element in planning for the House collection's 
well-being is a complete collection inventory, which the AOC curator is 
in the process of creating. The results of this inventory--which will 
include assessments of current condition and exhibition--will determine 
the collection management needs of House artwork. Historical Services 
has begun coordinating with the AOC curator in assisting with the task 
of cataloging the House collection.
    Question. How will your new curatorial staff interface with 
existing functions in the Architect's office and the Senate?
    Response. Long term planning for the maintenance, acquisition, and 
interpretation of the House collection will require close cooperation 
among Historical Services, the AOC curator, and the Senator curator. 
Historical Services has initiated a series of meetings with these other 
entities in order to share institutional knowledge, coordinate our 
collective efforts, and prevent duplication of effort.
    Question. Do you have recommendations about how to improve 
procedures for accepting and maintaining portraits received by House 
Committees?
    Response. The curatorial function within Historical Services 
creates additional resources for providing guidelines to House 
committees and for monitoring the progress of acquisitions. Historical 
Services is actively evaluating current procedures for accepting and 
caring for committee chairman portraits in cooperation with the Fine 
Arts Board and the AOC curator.
                                         Wednesday, April 24, 2002.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
LAURA CAMPBELL, ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
RUBENS MEDINA, LAW LIBRARIAN
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
MARYBETH PETERS, REGISTER OF COPYRIGHTS
WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED
KENNETH E. LOPEZ, DIRECTOR OF SECURITY
LINDA J. WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
KATHRYN B. MURPHY, BUDGET OFFICER, FINANCIAL SERVICES

             Major Elements of the Library's Budget Request

    Mr. Taylor. The committee will come back to order. We will 
now take up the budget request of the Library of Congress.
    We want to welcome Dr. James Billington, Librarian of 
Congress, and (retired) General Donald Scott, Deputy Librarian 
of the Congress. We are happy to have both of you here, and we 
apologize that we asked you to be here at an earlier time and 
the prior hearing ran a little longer than we thought. One can 
never gauge the interest.
    The fiscal year 2003 budget request before the committee 
assumes total funds available will be $735.1 million, derived 
from a variety of resources, including appropriated funds, 
receipts, gift, trust, revolving funds, and reimbursable 
programs. The direct appropriations request is $511.5 million 
plus authority to spend receipts of $36.6 million. This 
request, as were all requests from the agencies of the 
legislative branch, has been adjusted by the amount required 
for retirement and health insurance accrual. Thus the increase 
requested is $29.9 million.
    The Library is requesting funding for 169 additional FTE's. 
The Library has 4,189 permanent FTE's in the current workforce. 
In addition, there are 173 indefinite positions, 32 supported 
in administrative jobs by receipts, 6 supported from funds 
transferred from other Federal agencies, 51 supported from gift 
and trust funds, and 165 supported from revolving funds. In all 
the Library has a grand total of 4,785 FTEs.

                       Introduction of Witnesses

    I would like to yield to Mr. Moran if he has any opening 
statement, and then we will move on to you, Dr. Billington.
    Mr. Moran. That is okay.
    Mr. Taylor. Thank you, Dr. Billington. It is good to see 
you and General Scott as always, and we would like you to 
introduce your staff that have accompanied you.
    Dr. Billington. Well, we have the Director of the 
Congressional Research Service Daniel Mulhollan; Associate 
Librarian for Library Services, Winston Tabb; our Chief of 
Staff, Jo Ann Jenkins; Register of Copyrights, Marybeth Peters; 
Laura Campbell, Associate Librarian for Strategic Initiatives.
    Mr. Moran. Could you have them stand? You are just pointing 
to the audience there. I would like to know who it is you are 
referring to.
    Dr. Billington. Laura Campbell, the Associate Librarian for 
Strategic Initiatives; Rubens Medina, the Law Librarian; Frank 
Kurt Cylke, the Director of the National Library Service for 
the Blind and Physically Handicapped; Kenneth Lopez, Director 
of Security; Linda Washington, Director of Integrated Support 
Services; John Webster, Director of Financial Services; and 
Kathryn Murphy, Budget Officer with Financial Services.
    So that is the cast.
    Mr. Taylor. Dr. Billington, we will be entering your 
statement in the record as well as the Register of Copyrights 
and the Director of the Congressional Research Service. If you 
or General Scott have a short opening statement or any comments 
before we go into questions.
    Dr. Billington. I think we are ready to answer questions 
directly, Mr. Chairman.
    [The prepared statements of the Librarian, Register of 
Copyrights and the Director of the Congressional Research 
Service follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 HIRING SYSTEM--IMPLEMENTATION PROBLEMS

    Mr. Taylor. There are a number of programs, events, and 
meetings that the Library provides that they invite all of us 
to attend, and I think it is very important for Congress and 
the Library of Congress. I urge all of you to attend those 
meetings if you possibly can because they are wonderful 
opportunities for us to see the Library as well as the 
multitude of people around the world that the Library 
communicates with, works with and serves.
    Dr. Billington, the committee is aware of what seems to be 
an ongoing implementation problem with your new automated 
hiring system and, because of these problems, you realigned in 
the current fiscal year almost $15 million from your salary and 
benefit accounts to contract service accounts to get the work 
accomplished, for which the committee provided personnel FTE 
funding. This $15 million is double the amount provided for new 
FTEs for the current fiscal year and is greater than the amount 
provided for new FTEs for the prior three fiscal years.
    For the benefit of the members, can you explain how this 
system was selected and any other comments you would like to 
make about it?
    Dr. Billington. I am sorry, I am not quite sure. You are 
talking about reprogramming or the current appropriation 
request?
    Mr. Taylor. We are talking about the automated hiring 
system.
    Dr. Billington. Well, I think, in brief, we have been 
implementing a new automated hiring system, which we wanted to 
achieve a variety of goals. We wanted to expedite the hiring 
process. We wanted to make sure that Amended Appendix B was 
fully comported with and exemplified in the new system, and we 
wanted to have an efficient, much more rapid hiring system than 
we have had in the past. We actually subscribed to a system, we 
did not purchase a system. We had a variety of things we had to 
do in a fairly short time span in order to satisfy the Amended 
Appendix B requirement. We had to move very fast.
    As with implementing any new system, there have been some 
problems and we are managing them. We have appointed a project 
manager, and General Scott has been in charge of implementing 
this. It was slow getting started. It has now gathered 
considerable momentum, and we are both continuing to hire and 
gather momentum and, at the same time, evaluating and 
developing standard operating procedures and other matters so 
we can evaluate this system against others to see if we want to 
continue with this particular service.
    But I will let General Scott get into the details because 
he has been in charge of this.

                         SYSTEM SELECTION GOALS

    General Scott. Thank you, Dr. Billington. Mr. Chairman, we 
do have a new system that we are putting in place and, as Dr. 
Billington has just expressed, we did have some unanticipated 
automation, as well as, process problems in addition to those 
we anticipated. Nevertheless, the Library has been able to hire 
167 new people under the new system. We expect that with the 
apparatus and the evaluation and analysis process that we have 
in place right now, that we will be able to hire nearly all of 
the people that we need for the rest of 2002--this calendar 
year.
    You asked, for the benefit of the members, why and how did 
we select this system. Basically, there was three goals in 
seeking a new system. One, the Library needed a system that met 
all the functional requirements of the negotiated settlement 
agreement between the Cook Class Plaintiffs and the Library's 
Amended Appendix B. Two, we did not want the system to be cost-
prohibitive. And, three, we wanted a system that could be 
implemented in a rather short period of time.
    With those three goals in mind, we knew that we could not 
build a system in-house--that would be too cost-prohibitive--so 
we evaluated several systems that are already in the 
marketplace. We looked at three systems: Avue, the Office of 
Personnel Management's Human Resources Manager, and Resumix. 
Because of the three goals that we wanted to meet, we picked 
Avue because they were the only vendor that had a system that 
met the Amended Appendix B requirements, and they were willing 
to work with us to make the system as responsive to our needs 
as it possibly could be. That is why we chose that system.
    Mr. Taylor. I have some questions that I will submit for 
the record regarding the new automated hiring system.
    [The questions and responses follow:]

                   Library's Automated Hiring System

    Question. Were your system requirements defined prior to the 
selection of the Avue system?
    Response. A written system requirements document as defined by 
contracting standards had not been developed. However, functional 
requirements were identified by the Library. Key factors in determining 
the contracting of an automated hiring system included: meeting all the 
functional requirements of the draft Amended Appendix B of the Cook 
Settlement Agreement (content-valid process), reducing the total time 
to bring new staff on board after posting a position, (current system 
was taking 178 days), operating within the Library's current budget, 
and becoming operational in a rather short period of time--since the 
Library only had three months from the court order to implement a 
system.
    Due to these goals, the Library had to focus on off-the-shelf 
systems, as an in-house or fully customized system could not meet the 
dollar and time constraints. Avue was the only vendor that had a system 
that met all these requirements and that expressed any willingness to 
modify their system to meet the unique needs of the Library within the 
time frame imposed upon the Library. Avue also indicated that it could 
reduce the average number of days required to fill a position to 60 
days, a reduction of 118 days from the Library's current system. 
Therefore, Avue was chosen and the Library's contract was an add-on to 
the existing contract of Veteran's Affairs Department, which was using 
the General Services Administration as a contracting officer.
    Question. If so, what were the requirements?
    Response. Based on the key factors, and guided by a Hiring 
Improvement Plan, as well as by the General Accounting Office's 
guidelines for automated hiring systems, the Library established the 
following functional requirements:
    <bullet>  Maintain the Library's position descriptions and job 
analyses.
    <bullet>  Enable selecting officials to update or create new 
position descriptions.
    <bullet>  Create draft vacancy announcements, applicant 
questionnaires, crediting plans, job analysis worksheets, interview 
questions and benchmark anchors.
    <bullet>  Enable users to apply online.
    <bullet>  Rate and rank applicants' questionnaires.
    <bullet>  Notify online applicants of their eligibility 
determinations.
    <bullet>  Generate a list of the highest-ranking applicants plus 
tied scores for the interview.
    <bullet>  Maintain all documentation for content-validity and 
compile a report at the conclusion of the selection process.
    Question. Have you reached a point that this system is not meeting 
your requirements?
    Response. The Library is in the process of determining whether this 
system can meet its needs in the long-term. While the system has been 
able to fill selections, the mechanics of the hiring process have been 
troublesome.
    Using the new system, the Library has filled 167 positions as of 
April 17, 2002. The Library expects to reach its projected hiring 
targets this year and surpass last year's hiring numbers--172 
selections in FY 2001.
    The completion of the Library's Standard Operating Procedures (SOP) 
and Customer Requirements Document (CRD) will enable us to make a 
decision as to what system will best serve the Library. The Project 
Team's review of these documents will be completed in June, at which 
time the Library will decide how to address its hiring process in the 
future.
    Question. What requirements have not been met?
    Response. The Library is in the process of determining whether this 
system can meet all the requirements of the Library and until that 
review is completed, it is difficult to know all the requirements that 
cannot be met. As noted, Avue and the Library have worked very hard to 
resolve many of the problems identified to date and will continue this 
process.
    One area in which Avue has not been able to meet functional 
requirements is benchmark anchors. Benchmark anchors are developed by 
the subject matter experts during job analysis and are used as 
evaluation standards to score candidates' responses to the interview 
questions. The Library has developed and continues to use a workaround 
for the benchmark anchor issue. Recently, this functionality became 
available, at no cost, as part of Avue's scheduled release of its 
software in spring 2002. The Library is currently evaluating this new 
release to see if it meets the Library's needs in the area of benchmark 
anchors.
    Question. What were/are your implementation problems?
    Response. The Library's initial priority was to install a content-
valid automated hiring system that reduced the time to hire quality 
employees and resolved outstanding Cook Class Litigation issues in an 
expedited manner. To that end, the Library negotiated Amended Appendix 
B which created a new hiring process for the Library.
    The constraints imposed by the new process and the pressures on the 
Library to get the new process quickly up and running to fill urgent 
staffing needs have complicated implementation for the following 
reasons:
    <bullet> The new hiring process differed radically from the old 
one; and Avue was an entirely new system for the Library. Both the new 
process and the new system required new and different roles for all 
staff involved in the hiring process. Training on the new process and 
the new system proved far more complex and time-consuming than 
anticipated.
    <bullet> The new negotiated hiring process changed the way in which 
applicants' qualifications are assessed. The new process relies 
primarily on a content-valid applicant questionnaire to determine 
whether an applicant should be considered. Because Library managers 
were unfamiliar with the process of creating an effective applicant 
questionnaire, many of the early candidates were not effectively 
screened. As a result, early candidate referral pools were much larger 
than anticipated and contained candidates who did not possess a 
satisfactory level of expertise. This created additional workload and 
frustration on the part of the hiring managers.
    <bullet> The manner in which Avue is designed to create and 
maintain position descriptions is very different from the way the 
Library has traditionally created and maintained position descriptions. 
Since Avue uses generic tasks to describe a position, the system lacked 
the content to describe many of the Library's unique and specialized 
positions. As a result, Library managers using Avue have not obtained 
the time-saving benefits that Avue was designed to produce and have 
experienced significant difficulty and frustration entering the data 
they feel necessary to accurately describe the position being filled.
    <bullet> As addressed by the Inspector General, the Library did not 
apply adequate project management tools to the implementation of the 
new process and the Avue system. There was no defined methodology for 
resolving the problems and addressing the concerns that occur in any 
new system or process implementation, which proved to be particularly 
acute under the Library's aggressive implementation timeline. Amended 
Appendix B, dated January 5, 2001, was to be implemented by March 1, 
2001. This timeline not only compressed implementation, but also 
increased pressure to abbreviate steps required for effective project 
management.
    <bullet> The Human Resources Services staff was tasked with 
implementing the new hiring process, managing the implementation of the 
Avue system, and learning how to use the new Avue system, all at the 
same time. Additionally, from March 1 to May 31, 2001, the HRS staff 
encountered an enormous workload in completing the vacancies begun 
under the previous hiring process. HRS was not sufficiently staffed to 
meet the additional demands of managing the implementation. As the 
Inspector General's preliminary findings indicate, standard operating 
procedures were not developed nor was there a fully operational Help 
Desk to provide assistance for managers and applicants.
    <bullet> Library users and job applicants identified several 
functionalities that they wanted either changed or created. Avue was 
responsive in making most of those changes during the last several 
months of 2001, but the lag slowed implementation.
    On October 10, 2001, the Library designated a new Project Manager 
and Team to assume responsibility for the Avue contract, to work 
exclusively on identifying any remaining issues through a post-
implementation review and to develop a stronger system requirements 
document. The Project Team is currently conducting a review to 
determine what aspects of the new hiring system are working and which 
ones will need to be revised to improve the process.
    Question. We understand that you have recently taken steps to 
address and correct problems you are having with the system. Could you 
explain what you have done or are doing.
    Response. The Library has taken various steps to address and 
correct system problems. A process audit by the Inspector General has 
been requested. A special team has been designated headed by a senior-
level Project Manager, to review and resolve problems associated with 
the new automated hiring system and to implement audit recommendations.
    On a continual basis, the Library is working with the vendor to 
customize the system to meet requirements identified to date, and 
tracking and resolving problems as they arise. The Library monitors 
hiring results on a weekly basis.
    In order to assist in evaluating the automated hiring system, a 
draft set of customer requirements and standard operating procedures 
that identify the Library's hiring system needs have been developed. 
When these documents are finalized, they will be a valuable tool in 
evaluating the automated hiring system. Additionally, the Library is 
also performing an evaluation of the hiring system (both Appendix B and 
the automated system) to determine if it meets the Library's needs or 
needs to be modified or replaced to achieve the hiring goals of the 
Library.
    Question. Provide to the Committee your hiring plan which reflects 
meeting your objective of working off the hiring backlog by summer.
    Response. As discussed, the Library has taken various steps to 
address and correct system problems. Despite the early problems, the 
Library has filled 167 jobs during the first seven months of FY 2002, 
compared to 172 selections in FY 2001. We are confident, because of the 
process now in place, that we have a system that will allow the Library 
to fill the jobs it requested in FY 2002 by the end of the year and to 
be ready to fill the jobs requested in FY 2003. Our statistics reflect 
growing momentum towards achieving these hiring goals.
    To facilitate hiring, the office of Human Resources Services (HRS) 
has hired additional staff in key areas. Service Units Administrative 
Officers (AO) have been certified and trained by the HRS Director to 
perform and facilitate the job analysis documentation process, which 
has sped up the time required to complete a hire. Controls have been 
put in place to ensure that the AO in the service units do not have 
access to applicant data. In addition, the work currently being done to 
create position descriptions in Avue can be used again, reducing the 
time required to create and certify position descriptions in the 
future. Finally, the project team's hands on work, coupled with the 
service units' growing experience with Avue, continues to improve the 
use of the system and the success of filling vacancies in a timely 
manner.
    Question. What was the total cost of the system?
    Response. The Library's subscription service has annual costs of 
approximately $415 thousand a year ($405 thousand for the subscription 
and $10 thousand for the GSA fee). The start-up costs were 
approximately $280 thousand.
    Question. What are your projections of the total costs (contractor 
and in-house) required to correct the Avue problems?
    Response. The total costs to date for correcting Avue problems is 
$310 thousand. No additional costs are projected at this time. However, 
the financial impact of the Project Team's evaluation of the hiring 
system will not be known until after the evaluation is completed and 
recommendations are proposed.
    Question. What has been your cost to date for correcting the 
problems?
    Response. As problems have been noted, Avue has worked to resolve 
them and has not charged the Library. However, additional costs have 
been incurred to meet the functional requirements and to expedite the 
hiring process. To date, that additional cost has been approximately 
$310 thousand. This funding supported Avue consulting services to 
augment the HRS workforce ($231K); General Services Administration 
service fee ($6K); development of interview questions and benchmark 
anchors ($43K); content analysis ($4K); and job analysis support for 
the Congressional Research Service ($26K).
    Question. We don't recall receiving any reprogramming request for 
the procurement of the system. Was there one made?
    Response. The Library did not purchase an automated hiring system; 
it purchased a subscription service. The Library had sufficient funds 
in its Human Resources Services budget to fund this subscription 
service.
    Question. Were any other users of the system surveyed prior to your 
selection?
    Response. Yes. Prior to selection, the Library surveyed the 
Smithsonian Institution, the Department of Veterans Affairs, and the 
Department of Justice. The survey methodology consisted of numerous 
telephone interviews. In addition, the Library's Office of Human 
Resources Services (HRS) also held meetings with human resource and 
information technology professionals from these agencies to discuss 
their experiences with the Avue classification module. The agencies 
contacted by HRS initially reported very positive results from the 
system and from Avue's staff and their support.
    Question. What if any other systems were evaluated before making 
the selection for Avue?
    Response. The Library evaluated several systems including:
    <bullet> Avue
    <bullet> Office of Personnel Management's Human Resources Manager
    <bullet> Resumix
    Avue was the only vendor that had a system that met the Amended 
Appendix B functional requirements and that expressed any willingness 
to modify their system to meet the unique needs of the Library within 
the time frame imposed upon the Library.
    Question. Are there any other systems available that will meet your 
requirements in order to get your hiring process on track, or are you 
so far into this system that you cannot start over with another system?
    Response. The Library is currently evaluating other vendor's 
systems, as well as the current system, to determine which will most 
effectively meet the Library's needs.
    Question. What was the number of vacancies prior to installation of 
the Avue?
    Response. In FY 2001, the Library had approximately 270 
professional/administrative vacancies.
    Question. You state that the system was to reduce the average 
number of days needed to fill a vacancy. What was the average number of 
days needed to fill a vacancy prior to Avue?
    Response. Historical data (from July 1, 1998 through June 30, 1999) 
indicates that, on average, 178 calendar days were needed to fill a 
vacancy. This number tracks from the day of posting the vacancy 
announcement, including the number of days in the posting period, 
through the final processing of the selection action.
    Question. What was the projected numbers of days after installation 
of the Avue system?
    Response. Under Avue, the projected number of days to fill a 
vacancy after posting is 60. However, based on vacancies filled to 
date, the median elapsed time from vacancy announcement to selection 
decision is 84 days; average elapsed time from vacancy announcement to 
selection decision is 95 days.
    Question. How many positions have you filled, by fiscal year, since 
implementation of the new system?
    Response. From March 2001 (when the Library's new hiring process 
was implemented) through September 30, 2001, the Library made 5 
selections through the new system. This was in addition to the 167 
selections made under the former hiring system, resulting in a total of 
172 selections in FY 2001.
    During the first seven months of FY 2002, the Library made 167 
selections through the new hiring system.
    Question. How does this compare with prior years?
    Response. The Library has averaged 189 selections per year for the 
five-year period from FY 1996 to FY 2000. In FY 2001, 172 selections 
were made. The Library has made 167 selections during the first seven 
months of this fiscal year, and should exceed the five-year average of 
189 selections.
    Question. The Committee understands that the system only covers 
positions in the professional, administrative, and supervisory 
technical fields. What percentage of the Library's work force are in 
those categories?
    Response. Approximately 61.3 percent of the Library's work force is 
in professional, administrative, and supervisory technical positions.
    Question. How are positions in the balance of the workforce being 
filled?
    Response. The Library is filling the remaining positions either 
through an automated system processed through the Office of Personnel 
Management, or through the traditional hiring process managed by the 
Library's Human Resources Office.
    Question. What other government agencies use the Avue system?
    Response. According to Avue, thirty-three federal departments and 
agencies use Avue's classification, staffing and/or workforce 
management products. The United States Coast Guard, the Forest Service, 
and six agencies of the Department of Justice employ both the 
classification and staffing products (e.g. the products used by the 
Library to classify positions and fill vacancies).
    Question. Have other users experienced the same problems as the 
Library?
    Response. Some agencies, who initially reported positive results, 
have more recently reported unfavorable experiences with Avue and its 
solutions. However, the Library's experience with Avue products differs 
from other agencies. It should be noted that the version of Avue being 
used by other federal agencies differs in many aspects from the 
customized system that the Library uses to be in compliance with 
Amended Appendix B. Therefore, even if there were no problems 
experienced by the other Avue users, their track record would not be a 
good indication or prediction for the problems encountered by the 
Library.

                          ARREARAGE REDUCTION

    Mr. Taylor. Thank you. One of the major priorities for 
fiscal 2003 is to continue to work off the arrearage reduction. 
Are you on target with the revised total arrearage goals 
approved by Congress?
    Dr. Billington. We are, Mr. Chairman. We are 56 percent 
ahead on printed materials. The printed arrearages are 25 
percent ahead of target for special materials; that is to say, 
with the revised time schedule that we presented in the year 
2000 when we implemented an Integrated Library System and 
realized that the dates were going to have to be extended. But, 
even with the implementation of that system, we are 
substantially ahead in both areas.
    Mr. Taylor. You have requested 14 additional FTE's and 
$896,000 in contract support funds to eliminate the arrearage 
of in-process materials. Could you maybe define what is in 
process materials?
    Dr. Billington. Yes. Process materials are materials from 
the time they come to the Library's loading dock, until the 
time they reach the person, who either catalogs or describes 
them. That is a process period and that is a different problem 
from the arrearage problem. If you want more details on that 
and why that is different, I would call on our Associate 
Librarian.
    Mr. Taylor. I would also ask the question why can't 
contract staff rather than regular staff handle this work load?
    Mr. Tabb. Thank you, Mr. Chairman. This request for dealing 
with the in-process backlog has two aspects. One is contract 
funds, which we need on a one-year basis in order to reduce the 
existing backlogs, to get stuff moved out of the acquisitions 
area and into the cataloging areas where it could be worked on. 
In addition, we need to have 14 permanent staff so we do not 
have in-process backlogs grow in the future. So it is really a 
two-part process, one for permanent staff to be sure we don't 
have the situation again and the other, the one-time infusion 
of contract funds, to work off the current backlog.

  NATIONAL DIGITAL INFORMATION INFRASTRUCTURE & PRESERVATION PROGRAM 
                                (NDIIPP)

    Mr. Taylor. Dr. Billington, you anticipate delivering the 
national digital information infrastructure and preservation 
plan to Congress this year. Do you have any insight as to the 
role the Library will play in this national initiative.
    Dr. Billington. Yes, Mr. Chairman, we are first of all 
playing a convening role, a coordinating and convening role in 
bringing together an unprecedented array of people from the 
private sector and from other great national repositories, and 
other interested parties and stakeholders. So that is the main 
role we are playing. And of course we are eventually going to 
play an important role as one of the central repositories in 
this as well as in the determination of the so-called metadata 
of the information so we can store, catalog, and be able to 
retrieve these digital materials.
    This is an immensely complicated and extremely important 
assignment that the Congress gave us last year, as you know, 
Mr. Chairman. It means on the one hand we have to devise and 
figure out with all of the stakeholders--and we have had 
meetings--more than 200 people have been participating in this 
so far, so we can draw up a master plan that will outline how 
we are going to develop partnerships between organizations and 
different parts of the economy and of the archival and 
educational community that have never collaborated before. Our 
main point is to develop the plan which we hope we will be able 
to deliver later this year to the Congress. That was the first 
stage of the three stages in developing this national program 
that we were commissioned to do.
    At the same time, we have to strengthen our technological 
backbone, which accounts for some of the Library's budget 
request. Not that it is not part of this process, but we have 
to do it in parallel because it is very clear that we are going 
to play an important, by no means the exclusive role. The 
challenge at this stage is to develop and define the 
partnerships that will then enable us to move to the second 
stage.
    The 5 million that was appropriated last year is enabling 
us to have these meetings. We have had a meeting of these 
people, involving some of the major figures of the industry, as 
well as others in a meeting in May, and then another one of 
three two-day meetings with different groups in November. We 
are inventorying all of the meeting discussions, and we will 
develop a plan. Then that will release $20 million. This is 
already appropriated money, as you are aware. That will release 
the $20 million for the partnerships.
    So those possible partnerships will be largely identified 
in this convening process that we are doing in stage one. So we 
play a very simple yet critical role. It is going to be a 
distributed national program. There will be a large number of 
participants and in a way they will have some flexibility to 
define their own roles.
    But what we have met with, Mr. Chairman, is extraordinary 
enthusiasm. We have gotten participation, as I say, by all 
kinds of people. We have not only the 200 people who have 
actually participated in dialogues, but we have a 26-member 
advisory board with extraordinary participation and enthusiasm 
in helping to define how we can have a national program that 
will involve all the different elements by the way of the 
public sector.
    There were four key participants specified in the 
legislation, as you may recall. We were supposed to convene it 
in the Library of Congress with the head of the National 
Archives, the Scientific Advisor of the White House and the 
Secretary of Commerce. So that is a core group, but we are 
involving a whole host of other Federal institutions as well as 
participants in the private sector. So it is a major 
undertaking, and I think a very promising one. It is being met 
with a very warm and enthusiastic and participatory response in 
the private sector.

             RUSSIAN LEADERSHIP DEVELOPMENT CENTER/PROGRAM

    Mr. Taylor. Dr. Billington, the Russian Leadership 
Development Center has requested $10 million for the operation 
of the center during fiscal year 2003. You are Chairman of the 
board of trustees for the center, and I can certainly testify 
to a lot of the work that has been done. But could you comment 
on the success of the program and how you have measured the 
success of the program?
    Dr. Billington. I think it has been extraordinarily 
successful. Qualitatively it has received enormous attention 
particularly in the local press. We have had close to 800 
different American communities participate in it. Average age 
of people is 38, more than a third of them women, something 
totally new from this very dynamic young leadership group whose 
whole political formation has been in the post-Soviet period.
    It is probably one of the most heavily evaluated exchange 
program, I think, certainly in the history of exchanges. The 
participants have questionnaires that they fill out. They have 
had 10 alumni meetings all over Russia. The local community 
press in this country has given an enormous amount of attention 
and publicity, and now that we have a separate entity in the 
Legislative Branch that is in charge of this, we are going to 
be doing an even more sophisticated evaluation, probably on-
line because we have a Web site, of all of the participants all 
over Russia. We already benefitted from the evaluation of the 
first year by moving in the second year toward much more 
focused groups and this year with heavy focus on the rule of 
law, which everybody sees as the essential element in 
developing a dynamic economy as well as an accountable 
political system.
    So this is a process that is continuously evaluated, and 
now that there is such an excellent board that the Congress has 
created for this independent entity still housed 
administratively within the Library of Congress, I think we 
have a very good chance of keeping it and improving that 
program.
    Mr. Taylor. I have a question that I submit to you to be 
answered for the record.
    [The question and response follows:]

                 Russian Leadership Development Center

    Question. Currently the program provides for emerging political 
leaders of the Russian Federation to visit the United States to gain 
first hand knowledge of the principles of democracy and market economy. 
What are your views of allowing emerging political leaders in federal 
and state government within the United States visit Russia to study 
political, business, and non governmental organizations of the Russian 
Federation?
    Response. The Open World Program has over 4,000 alumni in Russia 
from all 89 regions. The program is seeking private funding--with some 
success to date--to support modest programs that would allow alumni in 
the various regions to form associations or informal networks among 
themselves and with other Russians who have visited the U.S. under the 
aegis of other American programs. The program also publishes and 
distributes an alumni bulletin in Russian and English to encourage 
communication within Russia and with U.S. hosts. There is also a dual 
language website.
    A small number of our U.S. hosts have visited Russia (without 
financial support) and met with the delegations they have hosted. The 
most successful of these efforts is focused around professional 
development in the field of work that was the focus of the original 
Open World Program in the U.S. For example, two of our American host 
judges who have participated in the U.S. Rule of Law Program recently 
traveled to Moscow and St. Petersburg and conducted seminars on such 
topics as criminal proceedings and bankruptcy. Each of the resulting 
meetings was the largest gathering of Open World alumni in each city; 
alumni also brought professional colleagues (judges, attorneys) to 
participate. The session in St. Petersburg was also widely covered in 
the local media.
    Participants for such a program would have to be carefully chosen 
in order to utilize such travel for meaningful alumni professional 
development. Funding for such a pilot is not in the budget available 
for the Open World Program as approved by the Center's board of 
trustees in March 2002.

                            DIGITIZED ITEMS

    Mr. Taylor. I certainly want to commend you on your 
digitization work at the Library. I understand you have 
digitized just under 8 million items. In addition, you have 
worked with foreign governments in digitizing such things as 
maps, books and other materials, I certainly commend you on 
that. I think if this is integrated into our educational 
system, it will be a major compliment to the Library of 
Congress and we will be fortunate that you are heading that 
effort.
    I have a number of questions I will submit for the record, 
but I yield now to Mr. Moran for his questions.
    [Following are the questions to be answered for the record 
from Chairman Taylor:]

                    Integrated Library System (ILS)

    Question. The Committee has provided $15.5 million over the past 5 
years for the Integrated Library System (ILS). This year you have 
requested another $911 thousand, which brings the total to $16.4 
million, of No-Year funds for the continued acquisition and partial 
support of the ILS. What was the total projected cost of the ILS?
    Response. In FY 1998, the Library requested $15.8 million, the 
first installment of a seven-year implementation budget (FY98-04). The 
Library's request was based on estimates developed in 1996, prior to 
the selection of an ILS vendor. Upon contract award to Endeavor 
Information Systems Inc., as planned, in FY 2000 the Library presented 
a revised total projected cost estimate totaling $17.7 million. Of this 
amount $15.5 million has been provided through FY 2002 and $911 
thousand is requested in FY 2003.
    Question. Are you currently over or under budget?
    Response. The Library costs are consistent and in line with the FY 
2000 revised total projected cost of $17.7 million.
    Question. Why are these funds required on a No-Year basis?
    Response. The Library needs the flexibility of No-Year funds so 
that we can obligate the funds at the point when (1) the Library and 
vendor have determined the most effective approach to satisfy the ever-
increasing demand for public catalog access; and (2) the Library is 
ready to start entering detailed serials holdings statements into the 
ILS as part of the inventory project approved Congress in FY 2002.
    Question. What is the current unobligated balance of prior year 
funds appropriated for this system?
    Response. Of the ILS funds appropriated between FY 1998 and FY 
2001, $1.4 million remains available for obligation. The $1.4 million 
will be obligated for additional hardware, software development, 
maintenance and contracting to ensure that we will be able to meet the 
public demand for the Library's Catalog.
    Question. What is the total amount needed to complete the project?
    Response. A total of $2.2 million is needed to complete the project 
of which $911 thousand is requested in FY 2003. The balance will be in 
the Library's FY 2004 budget request.
    Question. The Committee is pleased to hear that the funding we 
provided for the Integrated Library System (ILS) has provided 
significant operational improvements such as improved book labeling, 
gathering individual production statics, and streamlined workflows. 
What have the individual production statistics shown you?
    Response. Productivity data has indicated many areas of significant 
improvements in Library operations as well as areas that need more 
attention. Binding productivity has surpassed pre-ILS levels for 
several quarters. Serials cataloging productivity has improved steadily 
over the past few quarters and is now almost at pre-ILS levels. 
Monograph cataloging productivity in the Cataloging Directorate is at 
all-time highs, having increased by 8.67 percent according to one 
measure. (Total cataloging production, however, has not returned to 
pre-baseline levels, as the Cataloging directorate has nearly 200 fewer 
arrearage reduction positions filled than were filled at the beginning 
of the arrearage reduction project.) Because the ILS check-in system 
captures much more useful information than could be recorded in the 
manual system, productivity for serial check-in is substantially lower 
than the baseline, indicating a need to add serial technicians to 
manage the increasing serials workload while also capitalizing on the 
capabilities of the ILS.
    Question. Have you discovered areas of weakness and strength in 
your operations?
    Response. Yes:
    <bullet> The constantly-increasing popularity of the Library of 
Congress Online Catalog on the World Wide Web has created a strain on 
the system. The Library's customers want round-the-clock, unfettered 
Web access to our catalog. The Library is gratified by this 
overwhelmingly favorable customer response to the access, made possible 
by the ILS. We are actively working with Endeavor Information Systems, 
Inc., our ILS vendor, to increase the current maximum number of 
simultaneous log-ons from outside the Library and Congressional offices 
via the Web.
    <bullet> The ILS implementation effort proved that, by working 
together, Library staff could accomplish a large-scale transition from 
fragmented legacy systems to an integrated system on time and within 
budget--including obtaining needed hardware, making the transition from 
the OS/2 platform to the Windows platform, training all staff who use 
the ILS, keeping the larger community outside the Library informed of 
our progress, and using the system for library acquisitions, 
cataloging, circulation, online public access, and serials check-in 
functions.
    <bullet> The success of the Library units in working together, and 
the adaptability and tenacity of our dedicated staff, position the 
Library well to mount the integrated, agency-wide effort that is needed 
to continue improving both the ILS and our business processes and to 
meet the challenges of the digital future.
    <bullet> Data from the ILS validate the efficiency of the Library's 
whole-resource approach to cataloging, in which the whole book, sound 
recording, or other resource is cataloged by a single individual or 
within a single team. Cataloging productivity has reached all-time 
highs.
    <bullet> Serials management was known from the beginning to be one 
of the ILS functions that would require more development by the vendor. 
Because ILS check-in is more complex and accomplishes more tasks, 
online check-in of serial issues in the ILS is slower than manual 
check-in. However, the ILS also provides significant benefits: enhanced 
security for publications through better inventory control, enhanced 
searching to determine whether a title is retained by LC, worldwide 
dissemination of holdings data, instant data about the acquisitions 
status of a title, and automatic generation of labels.
    <bullet> The ILS implementation, even while generating useful 
statistics, such as individual and team cataloging statistics and 
reports on invoice payments, has highlighted the need for more 
consistent statistical reporting across Library units.
    Question. Have you been able to make adjustments in your operations 
and/or workflows that have increased productivity?
    Reponse. Yes. For example:
    <bullet> The ILS permits distributed check-in of serials. The 
Acquisitions Directorate is now in the process of transferring serials 
check-in responsibility to the divisions that will permanently house 
the material as soon as it arrives at the Library. A pilot project in 
FY 2001 demonstrated, that decentralizing check-in improved 
productivity and decreased throughput time. Decentralization also 
allows for better tracking and control of serial issues from the time 
they come into the Library.
    <bullet> The upgrade of the ILS software, in February 2002, made it 
possible to easily resolve problems in distributing records to the 
bibliographic utilities and other Cataloging Distribution Service 
customers.
    <bullet> The Special Materials Cataloging Division now uses the ILS 
bulk import feature to add 30,000 to 40,000 initial bibliographic 
control records a year from other systems to the ILS with little or no 
keying by staff--compared to about 3,000 prior to the ILS 
implementation.
    <bullet> The Motion Picture, Broadcasting, and Recorded Sound 
Division is now beginning to import Copyright Office data for moving 
images (film, etc.) to the ILS using bulk import.
    <bullet> The Library can now use technicians rather than 
professional librarians to search the bibliographic utilities and 
correctly download cataloging copy from other libraries.
    <bullet> The ILS holding and item record features have enabled the 
book catalogers to eliminate backlogs of second copies that need to be 
added to the Library's book collections.
    <bullet> The ILS has enabled records to be created in the 
Electronic Preassigned Card Number program for self-published materials 
with far less human intervention than was previously required. This 
functionality was so successful that the Library discontinued the 
paper-based Preassigned Card Number program in January 2002.
    <bullet> The ILS permits proposals for new and changed subject 
headings to be submitted directly online, saving time and distribution 
of multiple paper copies.
    <bullet> Prior to the ILS, Cataloging Directorate staff had to 
release complete records to the main database manually, one record at a 
time. The ILS has eliminated this final step for most records, yielding 
a savings of two FTE Cataloging Directorate technician positions, as 
already reported to Congress.
    <bullet> Projected savings of $500,000, from eliminating duplicate 
serial subscriptions, was reflected in the Library's FY 2003 budget. 
See page 56 of the Library's FY 2003 Budget Justification.
    Question. Give us some examples of operational changes resulting 
from the data provided by the ILS.
    Response. In addition to those changes described, the Library has 
either begun or is about to begin implementing the following changes 
based on ILS functionality:
    <bullet> The Library is just beginning to use electronic data 
interchange (EDI) e-commerce technology, based on ILS functionality, to 
pay serials invoices. Preliminary work indicates that EDI will 
significantly increase productivity in this area.
    <bullet> The improved efficiency of distributed check-in will 
enable the Library to use the ILS to develop a regular serials claiming 
program. The Acquisitions Directorate has begun work on a project to 
begin serials claiming in October, 2002.
    Operational changes using the ILS have greatly improved collections 
security:
    <bullet> By far the largest operational change to date is the use 
of the ILS to provide inventory control--a control that the Library 
essentially did not have prior to ILS implementation.
    <bullet> Prior to implementation of the ILS, the Library did not 
prepare preliminary cataloging records for the 55,000+ sound recordings 
received through the Copyright Office each year. The ILS enables 
creation of initial bibliographic control records on receipt for 
currently received commercial sound recordings from Copyright. This 
capability improves both retrievability and the physical security of 
in-process sound recordings.
    <bullet> The ILS permits the Cataloging Directorate to label 
hardcover books as part of the cataloging process, reducing the need 
for moving materials to the Binding and Collections Care Division and 
improving the security of the items.
    <bullet> Holdings and item records are created in the acquisitions 
units and the Copyright Office, bringing additions to the collections 
under inventory control as soon after receipt as possible.
    The ILS has provided improvements to cataloging efficiency and 
quality:
    <bullet> The ILS automatically checks for typographical and 
structural errors in data.
     The ILS facilitates the inexpensive inclusion of full tables of 
contents in selected Electronic Cataloging in Publication records, 
which are now about one third of our total Cataloging in Publication 
production. Access to Tables of contents is one of the enhancements to 
catalog records most demanded by our users.
    <bullet> The bulk import feature of the ILS permitted the Library 
to convert from the outmoded Wade-Giles system for romanizing Chinese 
characters in its catalog to the pinyin system, which is now the 
worldwide standard, and to lead the conversion to pinyin throughout the 
North American library community. Approximately 200,000 bibliographic 
records and 158,000 authority records were converted to pinyin and made 
available to the nation's librarians in cooperation with the 
bibliographic utilities.
    The Preservation Directorate is also using the ILS to improve its 
programs:
    <bullet> Creation of initial bibliographic control and item records 
for materials sent out for commercial preservation microfilming gives 
greater control over what has left the Library and more precise 
estimates of return dates from contractor.
    <bullet> The ILS enables staff to report holdings of Master 
negatives and service negatives, reducing potential damage to the 
costly Master negatives.
    <bullet> The ILS enables staff to note on-line the condition of any 
new receipts that were damaged by U.S. Postal Service irradiation since 
October 2001.
    The Library has benefitted greatly from the ILS circulation 
capability:
    <bullet> Patrons can use free text fields to fully describe the 
materials they need.
    <bullet> Patrons themselves can check the status of their requests 
in the LC Online Catalog.
    <bullet> Supervisory and managerial staff can easily monitor all of 
the Call Slip queues, thus ensuring timely service to our users.
    <bullet> The ILS Call Slip function has made it possible for 
certain non-staff user groups (e.g., patrons in the four Area Studies 
reading rooms and the Kluge Center) to place book requests on-line.
    <bullet> Some of the Library's heaviest users (e.g., Supreme Court, 
the Woodrow Wilson Center) can now send their requests directly to the 
Collections Access, Loan and Management Division, relieving the Loan 
Reference staff of this workload.

                       Lewis and Clark Exhibition

    Question. There is a request for $789 thousand of no-year funds for 
the Lewis and Clark Exhibition in order to complete the bulk of the 
work of locating exhibition material, conducting research, and 
designing and preparing and exhibition to open in early September 2003. 
If the exhibit opens in early September 2003 why are these funds being 
requested on a no-year basis?
    Response. No-year funding will provide greater certainty and 
flexibility in planning and budgeting over the three-year period to be 
covered by this request. Expenditures for the exhibition at the Library 
will be required in FY 2003, as will some costs of organizing the 
traveling version of the exhibition. Because we may not know precisely 
which venues will be included in the traveling exhibit before FY 2004, 
we cannot obligate all of the necessary funds in FY 2003.

                        Veterans History Project

    Question. You have received a generous grant from AARP (American 
Association for Retired Persons) of $3 million over three years for the 
Veterans History Project. In your budget you have requested 6 FTEs as 
well for this project. Will these positions only be required for three 
years?
    Response. The requested six FTEs are needed on a permanent basis 
because the Project, as unanimously authorized by Congress, has no 
limit of time. The FTEs will:
    <bullet> Support the expansion of public and partner engagement 
through instructional materials and training workshops.
    <bullet> Perform curatorial work on the collection and on-site 
exhibition of materials.
    <bullet> Process collections to avoid creating new arrearages and 
to promote quick access.
    <bullet> Respond to the thousands of inquiries flooding into the 
Library from partners and the public.
    <bullet> Train partner repositories to enter information into 
database.
    <bullet> Update continuously the Project Website.
    <bullet> Support the extension of the program into colleges, 
universities, and high schools.

                         Packaging Collections

    Question. The Library has requested 35 additional FTEs at a cost of 
$1.7 million to support the preparation, packaging, and stabilization 
of select rare and special collections in advance of their relocation 
to the National Audio-Visual Conservation Center and to Fort Meade 
Module #2. When will the National Audio-Visual Conservation Center 
(NAVCC) be available for occupancy?
    Response. The current schedule calls for excavation at Culpeper to 
begin this summer, with the following completion dates projected for 
each of the NAVCC's three building components:
    <bullet> The existing Collections storage building: AOC/LOC 
acceptance for move-in scheduled for fourth quarter of calendar year 
2004.
    <bullet> The new Nitrate storage vaults: AOC/LOC acceptance for 
move-in scheduled for June 2005.
    <bullet> The new Conservation building (all office spaces and the 
two MBRS laboratories): AOC/LOC acceptance for move-in scheduled for 
June 2005.
    Question. What is the schedule for moving collections into the 
Audio-Visual facility?
    Response. Current plans call for collections to be moved into the 
collections building beginning in late 2004 and into the nitrate vaults 
beginning in summer 2005.
    Question. How many employees will be located at the new Center?
    Response. Approximately 140 employees will be located at the Center 
during its initial years of occupancy.
    Question. Since the Facility is located in Culpeper, Virginia, are 
you anticipating relocation costs for personnel who will be assigned to 
the new Facility?
    Response. Yes, we will be required to pay relocation costs for 
staff whom the Library reassigns to Culpeper.
    Question. At this time you have not even moved into Book Module #1. 
Don't you think your request for FTE's to prepare material for Module 
#2 is a little premature?
    Response. No. The library expects Module #2 construction to begin 
next year. To be fully ready to occupy this much-needed space, it is 
critical that we begin the arduous task of preparing and stabilizing 
thousands of fragile special collections materials (rare books, paper 
and parchment manuscripts, maps, etc.) of all shapes and sizes for 
relocation to Module #2. Most of these special collections materials 
are rare and fragile, and extra care must be taken to prepare them for 
the move. This work will require three years. To fully and responsibly 
prepare these unique materials for relocation, work on this project 
must begin no later than FY 2003.
    Question. Why do you need permanent FTE's for this project; can't 
this work be contracted out?
    Response. Due to the high value of the collections that are being 
prepared for the move to Module #2, it is important that individuals 
who are well trained in Library of Congress preservation procedures 
undertake this important work. However, the Library is not requesting 
that the personnel for this project be permanent, but rather are 
requesting full-time equivalents for three years, which is the 
projected duration of the project.

                    Cataloging Distribution Service

    Question. The operating budget of the Cataloging Distribution 
Service is based on receipts from outside customers and $846 thousand 
in appropriations for products and services provided to internal 
Library customers. What are the products and services provided to 
internal Library customers?
    Response. Cataloging Distribution Service (CDS) products and 
services provided to internal Library customers include:
    <bullet> published versions of Library of Congress (LC) cataloging 
tools and documentation in print and electronic formats;
    <bullet> data files and diagnostic reports from CDS's MARC 
(machine-readable cataloging) distribution databases;
    <bullet> other publishing and distribution-related services that 
support LC's national library role in the development and dissemination 
of cataloging records and standards.
    Question. Has there ever been an evaluation/review of the products 
and services provided that equates to $846 thousand of products being 
received?
    Response. Yes, there was an evaluation/review in October 2001. The 
products and services delivered by the Cataloging Distribution Service 
to internal Library customers in FY 2001 totaled $882 thousand.
    Question. When receipts are less than anticipated what actions do 
you take to stay within budget?
    Response. When receipts are less than anticipated, the cataloging 
Distribution
    Service may take the following actions to stay within budget:
    <bullet> reduce or defer non-personnel expenditures;
    <bullet> reduce or defer personnel expenditures;
    <bullet> make adjustments in product mix or product pricing.
    The action taken would depend on the nature and extent of the 
shortfall.
    Question. Since Fiscal 1997 the actual receipts collected have been 
on a slow decline. If CDS were to go out of business what could be the 
long term liability to the Library?
    Response. The long term liability to the Library if CDS were to go 
out of business would be:
    <bullet> the negative public relations generated from the broader 
library and information community's loss of its source for Library of 
Congress cataloging databases, standards and technical publications;
    <bullet> the cost to the Library of developing alternative 
dissemination processes or arrangements that would meet the needs of 
its own catalogers as well as assure the continued availability of its 
cataloging databases and standards to the worldwide library and 
information community; and
    <bullet> under current personnel regulations of the Library, the 
requirement to place all permanent CDS staff members in Reduction-in-
force status.

                              Law Library

    Question. For the past several years we have provided authorization 
for the Law Library to collect up to $350 thousand for the development 
and maintenance of an international legal information database (GLIN). 
Starting with the first year of the authorization, by fiscal year, how 
much has been collected each year?
    Response. The Law Library has experienced limited success in 
offsetting collections:
    FY 2000--$5,000,
    FY 2001--$8,300,
    FY 2002 (YTD)--$12,700,
    Question. You are requesting $12.7 million over 5 years and 6 new 
FTEs to develop and implement a fully functional GLIN system. From your 
justification, this database will only contain legal information on 
Latin American nations. How many requests do you receive, on an annual 
basis, from Congress for legal information regarding Latin American 
nations that justifies $12.7 million for the database?
    Response. The GLIN database is not limited to Latin American 
nations--the system already includes primary sources of law for 
countries in Africa, Asia, Europe and the Americas. The requested $12.7 
million will enable the Law Library to expand the GLIN system beyond 
the 15 currently contributing countries, to include primary sources of 
law, to a core of 50 countries that are of primary interest to 
Congress. Funding is over a five-year period. In addition, the upgraded 
system will include retrospective materials in digital format for Latin 
American nations dating back to 1950. This is especially important for 
Law Library attorneys responsible for 29 Spanish and Portuguese 
speaking jurisdictions of Latin America.
    The Law Library receives over 2,500 research and reference requests 
from Congress for legal information annually. GLIN enables timely and 
efficient access to primary sources of law in direct support of 
research and reference requests.
    Question. Are there plans to expand this database to cover other 
parts of the world?
    Response. Yes, the GLIN system already includes primary sources of 
law for countries in Africia, Asia, Europe and the Americas. The 
requested $12.7 million will enable the Law Library to expand the GLIN 
system beyond the 15 currently contributing countries to a core of 50 
countries, that are of primary interest to the Congress.
    Question. If this program is of such importance should we not 
expect some cost sharing effort from the Latin American nations?
    Response. The GLIN system is a network--consisting of 15 member 
nations, two international organizations and the Law Library. GLIN 
network members contribute full text of legal instruments and legal 
writings, which requires an in-kind contribution of labor. Each GLIN 
member nation has a team of people devoted to inputting their legal 
instruments into the GLIN system. In fact, some countries currently 
have more labor resources devoted to inputting data into GLIN than the 
Law Library. Given the value of both the information and the labor, it 
would be unreasonable to request monetary assistance from contributing 
member nations.
    The GLIN database/network is critical to the work of the Law 
Library, ultimately reducing paper documents and related storage space, 
eliminating the need for staff to search stacks, increasing staff 
efficiency and productivity and providing timely access to all 
materials. This system will benefit Congress by providing current and 
accurate information on legislative action by other nations. Heightened 
national security and growing economic interdependence makes GLIN 
indispensable in responding to Congress on foreign issues.

                          Arrearage Reduction

    Question. Last year the committee provided $850 thousand for the 
arrearage reduction and collections support program to eliminate the 
current cataloging backlog. Has; the backlog been worked off?
    Response. The Law Library developed and implemented a plan to 
eliminate the four arrearages, under its control, (agency transfer, 
monographs and serials, looseleaf, and retrospective binding), by the 
end of 2003. The work is well underway and on target to meet its 
deadline.
    Question. If not, what are your estimates of when it will be 
accomplished?
    Response. The Law Library is on target to eliminate the four 
arrearages under its control by the end of 2003.

                        Office of the Librarian

    Question. The Office of the Inspector General has requested two 
additional auditor's to provide oversight of the Library's Information 
Technology (IT) Security Program to ensure compliance with the Computer 
Security Act, because staff have been diverted to address the 
increasing demand for financial and performance audits, due mainly to 
the growing number of Gift and Trust Funds. If resources are being 
diverted because of the number of demands for financial audits on Gift 
and Trust Funds then why has the Library not hired auditors using Gift 
and Trust Funds to pay for those audits and then use your appropriated 
funded positions for Information Technology Audits?
    Response. The Library administered 231 gift and trust funds in FY 
2001. Funds are restricted as to their use, which must be in accordance 
with the terms of the gift or trust agreement and/or donor's will. 
Library fund managers are responsible for administering and overseeing 
the gift and trust funds to ensure they are used as directed by the 
donors and in accordance with Library policy. The Office of the 
Inspector General (OIG) is responsible for providing oversight of all 
Library programs, including these funds.
    Currently, two gift funds, the James Madison Council and National 
Digital Library, pay for separate financial statement audits. The 
audited financial statements are used as fund raising mechanisms, and 
therefore, are appropriately paid for by the two funds. All other gift 
and trust funds are audited as a whole during the Library's 
consolidated financial statement audit. The smaller funds do not 
produce financial statements, and are reviewed by the OIG as part of 
its annual audit plan.
    For the past seven years, the Library's external auditors have 
identified computer security weaknesses in their audit reports. Many of 
the security improvements that have been made are in reaction to 
specific audit findings. The OIG needs to continue assisting Library 
management in developing and implementing corrective action plans that 
address security weaknesses, and maintain its present effort in 
conducting financial and program audits which also require a high 
degree of computer expertise. The need for Information Technology (IT) 
audit resources is outpacing the OIG's ability to conduct IT-related 
audits, especially IT security audits.

                            Human Resources

    Question. One of the priorities for your Human Resources Department 
is to implement a web-based application to record employee time and 
attendance, and transmit certified data to the Library's payroll 
provider. Your payroll provider is the National Finance Center and they 
use a system called ``PC-TARE''. If you are paying for payroll 
processing, why is the Library taking on this project?
    Response. The Library of Congress' Inspector General has indicated 
that the current PC-TARE system is old and outdated and vulnerable to 
fraud and abuse. In response, the Library established a working group 
to define requirements for a new time and attendance system. Key 
requirements identified by the working group included a web-based 
system that could track data and provide reports to management and a 
system that allowed for exception processing and electronic processing 
from employee to certifying official, with transmission securely and 
automatically to the National Finance Center. The Library has procured 
and will implement an application to meet these requirements.
    Question. Is the Finance Center not meeting your requirements?
    Response. No, the National Finance Center (NFC) is not meeting the 
Library's requirements. NFC is in the process of developing a PC-TARE 
upgrade (STAR), which is a windows-based rather than a web-based 
system. In addition, other key requirements identified by the Library's 
working group will not be met by the NFC proposed upgrade.
    Question. Your objective is to transmit certified data to your 
payroll provider. Is there a problem with the current process? Are you 
transmitting uncertified payroll data?
    Response. The current system requires that data be input via 
personal computer on disk. These disks are not secure and can be 
changed at any time. Although a hard copy of the time and attendance 
report is printed for both the employee and certifying official to 
approve, there is no mechanism in place to ensure that the disk is not 
changed after the certification process. The new web-based time and 
attendance application system will address this deficiency.

                      Integrated Support Services

    Question. One of the accomplishments of your Integrated Support 
Services Division was that they ``Conducted Business Assessments of 
Operations in all Divisions''. Who conducted the assessments?
    Response. The assessments were conducted by Martin Contract 
Management/Michael Martin.
    Question. What did you learn from the review?
    Response. The business assessments reviewed not only management 
operations but also business processes. Several issues were identified 
including duplications of activities, in several divisions, affecting 
team responses to labor requirements; obsolescent functionality such as 
outdated and unresponsive Requests for Service processes, adversely 
impacting the operations of our customers; and, new functional service 
requirements, such as print shop service and increased security and 
scrutiny of mail operations services and others as a result of 
technology or other changes.
    Question. What changes, if any, have you made as a result of the 
assessment review?
    Response. No changes have been made. Integrated Support Services is 
developing a reorganization plan to implement recommendations made by 
the assessment reviews and to incorporate recommendations of staff 
affinity groups and functional affinity teams which support the 
findings of the assessments.
    Question. You are requesting 2 FTEs for the Modernization of the 
Safety Services Division to meet new legal and mission critical 
requirements. What are the legal and mission critical requirements that 
you are not meeting?
    Response. The Library is not meeting all of its responsibilities 
under the Congressional Accountability Act. Significant regulatory 
deficiencies exist with respect to the Safety portion of the Act. 
Specific areas that the 2 FTEs would address include emergency 
response, bloodborne pathogens, hazard communications, disposal of 
hazardous waste and requirements for safety audits of federal agencies.

                  Central Financial Management System

    Question. We have a request before us for $4.3 million, on a no-
year basis, for a new financial management system. In addition, you 
will need another $2.7 million over the next 4 years for a total cost 
of $7 million. You say that the current system is becoming increasingly 
costly and difficult to maintain. What are the annual operating costs 
of the current system?
    Response. The budget request of $4.3 million is for software 
acquisition, installation, and hardware costs for a new central 
financial management system. The annual operating costs of the current 
system are different than implementation costs and total approximately 
$2.7 million for FY 2003. Funding supports a share of the Library's 
Information Technology Service costs for operating the central 
financial system--mainframe system software, storage and engineer and 
application program costs--(1.5 million); Financial Services 
Directorate Systems Accountants and Systems Analysts costs ($.6 
million); and vendor support costs ($.6 million).
    Question. You say that the current system was not designed to 
process, account for, and report on financial data in a way that 
satisfies today's needs. However, I understand that the Library has 
just received its 6th consecutive clean audit opinion. With that kind 
of record, how can you say that your current system does not satisfy 
today's needs?
    Response. The Library's mainframe-based central financial system 
was purchased in 1993 and has served the Library well for almost a 
decade. However, vendors have developed newer server-based systems 
designed to meet today's accounting standards and requirements (rather 
than add-on patches to older systems) and today's communications 
environment. A modern Web-enabled financial system provides increased 
functionality including: an improved capability to support cost 
accounting and program-based budgeting; a more friendly point and click 
graphical interface; work flow management tools; improved technology 
for electronic commerce; improved technology for eliminating paper 
forms; the capability to file supporting documentation along with the 
financial transaction; and the capability to transfer documents or data 
easily from one desktop or application to another. The technology 
direction of the Library is server-based, and we are increasingly 
finding staff retention difficult for mainframe applications. While the 
Library's current central financial system meets our basic needs now, 
its days are numbered because user requirements for enhanced 
functionality are not being met and support for mainframe-based systems 
will decline as vendors concentrate investment in the newer server-
based systems and as the Library loses staff trained on this outdated 
technology.
    Question. Will this new system provide cost accounting capability?
    Response. Yes. Vendor software developed after the issuance of 
Statement of Federal Financial Accounting Standard No. 4, Managerial 
Cost Accounting Standards (issued 2/1997), provides enhanced 
functionality for implementing cost accounting.
    Question. Why are no-year funds required for the new system?
    Response. The implementation of the Library's central financial 
management system will span five fiscal years. While the Library has 
endeavored to split up those costs between the fiscal years, the actual 
obligations may vary because of the procurement cycle and the actual 
system selected. No-year funds are requested to handle the multi-year 
nature of the project and uncertainty regarding the procurement 
process.
    Quesiton. What is your time line for implementation?
    Response. Assuming congressional approval of the project and 
funding by October 1, 2002, the Library plans to implement the system 
during FY 2003 for initial production as of the beginning of FY 2004. 
After normal system start up issues are resolved, new functionality 
would be added in subsequent fiscal years.
    Question. The agencies that you cross service (CBO, Office of 
Compliance) are requesting function in support of this system. Why do 
they require funding?
    Response. The Library's budget request covers the cost of the 
software, and the Library's implementation costs. The agencies that the 
Library cross services must fund their portion of the implementation 
costs (e.g., data conversion, transaction analysis, acceptance testing, 
nightly cycle jobs, training and project management).
    Response. Will this system be a system that all the agencies of the 
Legislative branch, if they so desire, could utilize?
    Answer. Yes. The Library plans to structure the contract so that 
all Legislative agencies can either be cross-serviced by the Library 
(at no additional costs for the software) or be able to purchase 
discounted software and technical services for implementation at their 
site.

                            Transit Subsidy

    Question. Last year the Committee provided funding to the agencies 
of the Legislative Branch in order to provide a transit subsidy of up 
to $65 per month per employee. You are requesting an increase of 
$973,000 to increase the subsidy to $100 per month. What was the 
effective date of the increase from $65 to $100?
    Response. The effective date of the increase was January 1, 2002.
    Question. Did you increase the allowance on that date?
    Response. The increase from $65 to $100 has not been authorized or 
implemented by the Library.
    Question. How many employees participate in the program?
    Response. As of April 30, 2002, there are 2,233 employees 
participating in the Transit Subsidy Program.
    Question. What is the average allowance per employee?
    Response. The average allowance per employee is $62 per month. This 
does not include the 6 percent service fee.
    Question. For this fiscal year are you running a deficit, surplus 
or breaking even with the funding provided for this program?
    Response. The Library anticipates breaking even. We will continue 
to monitor costs during the balance of the fiscal year.

                          Child Care Benefits

    Question. You have requested $150,000 for benefits for the Child 
Care Center. What benefits are being provided and how many employees 
are eligible?
    Response. Child Care Center employees are eligible to participate 
in the federal health insurance, life insurance, retirement, and Thrift 
Savings Plan programs. As of April 30, 2002, 31 employees are eligible 
for these benefits.

                            W-2 Information

    Question. John Webster, as co-chair of the Legislative Branch 
Financial Managers Council, the committee realizes that more and more 
people are using computer based or web based tax preparation services 
for their taxes. We understand that private sector employees make 
available the electronic transfer or download of employee W-2 
information. What, if any, barriers is there for the legislative branch 
providing this option to its employees?
    Response. The barriers would be cost and priorities. The U.S. 
Department of Agriculture's National Finance Center (NFC) is the 
payroll provider for most legislative agencies, including the Architect 
of the Capitol, Congressional Budget Office, General Accounting Office, 
Library of Congress, Office of Compliance, and the Capitol Police. NFC 
currently provides Web-based viewing of W-2s for employees of those 
agencies via the Employee Personal Page. NFC is working to expand 
employee self-service capabilities and is willing to explore offering 
electronic transfer or download of employee W-2 information as a self-
service item. While NFC is not aware of any technical barriers to 
providing this offering, they have not conducted a benefit analysis or 
risk assessment relative to such services. NFC would require additional 
resources and guidance on priorities to complete their analysis.

                            Copyright Office

    Question. You have as part of your justification a table that 
estimates the value of material transferred to the Library of Congress 
via the Copyright Office. How do you estimate the value of the 
material?
    Response. The number of works transferred is calculated from 
Copyright Office automated systems that store statistics. The average 
unit price is determined by the Library of Congress's Office of the 
Director for Acquisitions at the end of each fiscal year using the 
average price paid for other purchased materials.
    Question. How do you determine what material is acquired/selected 
for the collections?
    Response. The Library has collections policy statements that 
outline the criteria used to determine what materials or works should 
be added to the Library's collections. This criteria is used by 
acquisition specialists in Library Services and in the Copyright Office 
to select for the collections works deposited in the Copyright Office. 
Both mandatory deposit copies and materials submitted voluntarily for 
registration are reviewed daily for potential additions to the 
collections.
    Question. What is the disposition of the material that is not added 
to the collections?
    Response. Approximately 60 percent of the works received in the 
Copyright Office, including unpublished works, is not selected by the 
Library. These materials are sent to the Office's Deposit Copies 
Storage Unit (DCSU) at the Landover Center Annex. Deposits in the DCSU 
are retained for specified periods depending on the type of material. 
The Library disposes of non-selected serials. Monographic works, not 
selected for the permanent collection, are used for exchange programs.
    Question. You list as one of your priorities for Fiscal Year 2003 
the implementation of your business process reengineering and your 
information technology reengineering. Exactly what are these two 
initiatives?
    Response. The business process reengineering initiative covers the 
Corpright's most important public services including registering 
claims, recording documents, acquiring works for the Library of 
Congress, answering public requests, maintaining records, and 
accounting. The information technology reengineering initiative 
provides the design, acquisition and building of IT services that 
support the new business processes and will allow the Copyright Office 
to expand its electronic delivery of public services.
    These two initiatives are not being combined into a single 
reengineering program so that the Office's work on processes, 
facilities, organization and technology will be integrated. The program 
is on schedule and will be ready for the next installment of funds 
requested in FY 2003.
    Question. What has been the cost of these review?
    Response. To date, the Office has expended approximately $2.1 
million on the reengineering program reviews.
    Question. Are we to assume that there will be a return on your 
investment in terms of increased productivity and cost savings?
    Response. The return on investment will be to:
    <bullet> Improve public service, particularly online services which 
will maximize the use of electronically received applications.
    <bullet> Provide up-to-date copyright records for the copyright 
community, who rely on current information.
    <bullet> Improve deposit security.
    <bullet> Constrain operating cost in future years by minimizing 
staff increases.

                          Books for the Blind

    Question. The NLS plans to continue during Fiscal Year 2003 to 
support its four basic goals of Fiscal Year 2002. One of those goals is 
to maintain a level of sound reproduction machines to satisfy basic 
users' requirements while developing no waiting lines. Do you currently 
have waiting lines?
    Response. There are no waiting lines at the present time.
    Question. The committee has provided No-Year funding for many years 
to be used for the purchase of ``Talking Book Machines''. What was the 
unobligated balance of those funds at the end of the current fiscal 
year?
    Response. At the end of FY 2001, the unobligated balance of No-Year 
funds used for the purchase of talking book machines was approximately 
$30 thousand. By the end of FY 2002, it is anticipated that there will 
be no unobligated balance.
    Question. Another priority is to support development of audit-
recommended control systems. What were those recommendations?
    Response. NLS initiated a machine control system some years ago. 
Through experience, the system has been modified to address changing 
requirements. There is no new audit recommendation for a control system 
at the present time.

                       Furniture and Furnishings

    Question. You have requested $76 thousand to begin replacing 143 
pieces of material handling equipment. What makes up these 143 pieces?
    Response. This request covers 17 different classes of material 
handling equipment (not including book trucks or tubs). The 143 pieces 
consist of: 14 forklifts; 1 material tug; 2 lift trucks; 28 electric 
pallet trucks; 14 manual pallet jacks; and 84 miscellaneous pieces of 
equipment such as: hand trucks, flatbed trucks, 2-and 4-wheel dollies, 
panel trucks, et.
    Question. What is the total cost of this replacement program?
    Response. $608 thousand. This would allow the Library to replace 1 
large forklift; 4 electric pallet trucks and 2 manual pallet jacks each 
year with the remaining fiscal year funds designated to replace smaller 
pieces such as hand trucks, dollies, etc. Under the proposed 
replacement program, forklifts would be replaced every 11 years; lift 
trucks every 10 years; electric pallet trucks every eight years and 
miscellaneous smaller items every eight years.
    Question. The committee noticed that in the President's Budget that 
you are carrying forward unobligated balances from Fiscal Year 2002 
into Fiscal Year 2003. We must assume that you still have funds 
unobligated that were appropriated for Furniture and Furnishings of the 
renovated Jefferson and Adams Buildings. What is the current 
unobligated balance of those funds?
    Response. The renovation of the Jefferson and Adams Buildings is a 
multi-year project that is still on-going and will not be completed for 
another 2-3 years. The current unobligated balance is $1.627 million.
    Funding is needed to complete the renovations in the Humanities and 
Social Sciences, Science Business and Technology, Catalog Distribution 
Service, Local History and Genealogy, Area Studies, Rarebook Divisions, 
and other smaller divisions.
    Question. What is the current obligated balance, by fiscal year, 
that has not been liquidated?
    Response. Unliquidated obligations are as follow: Fiscal Year 
2001--$17,379; Fiscal Year 2000--$6,802; Fiscal Year 1999--$18,321; 
Fiscal Year 1998--$6,373; Fiscal Year 1997--$762; Fiscal Year 1996--
$12,470; Fiscal Year 1995--$0; Fiscal Year 1994--$18,166; Fiscal Year 
1993--$17,935; Fiscal Year 1992--$5,877; Fiscal Year 1991--$5,579; 
Fiscal Year 1990--$39,518; Fiscal Year 1989--$27,982.
    ISS is in the process of reviewing and closing all projects/
accounts with unliquidated obligations by 9/30/02.

                         Fort Meade Book Module

    Question. You state that another accomplishment is that you 
continue to work closely with the Office of the Architect of the 
Capitol (AoC) and their contractors on the first book storage module at 
the Fort Meade, Maryland, campus. Considering the delay of taking 
possession of the facility the two of you must not be working as 
closely as you should. Exactly what were the Library's duties and 
responsibilities during this project?
    Response. The Library's role was to provide a program statement.
    The program statement included environmental conditions, filtering 
requirements, collection type, collections quantity, collections sizes, 
storeage methodology (lidded boxes), number of staff, etc. This 
information provided by the Library would be used by the AoC to design 
and construct.
    The Library's program statement was substantially complete in 
February of 1996. The Library had no contractual, financial, code, or 
construction responsibilities with regard to this project.
    Question. Was there a breakdown in communications, a 
misunderstanding regarding areas of responsibility, contractor 
problems, or a lack of attention to daily operations and responsibility 
by and between all parties involved that has caused this project to be 
so far behind schedule?
    Response. There was no breakdown in communication between the AoC 
and Library. The AoC steered, chaired and coordinated regular monthly 
(sometimes bi-weekly) meetings at which the Library made clear its 
program requirements.
    The AoC, independently making all decisions at all times, failed to 
perform in a number of functions. As Mr. Hantman indicated in his April 
12 memorandum, AoC was relying on ``a marginal contractor that became 
insolvent in the middle of construction.'' The AoC used the wrong 
purchase method, chose an inappropriate contractor, relied on faulty 
estimates, hired consultants who were not familiar with collection 
storage buildings, did not provide sufficient technical review of the 
design or the installations, (particularly the fire system), and did 
not provide proper management or oversight.
    There was never any confusion as to the Library's role or the AoC's 
role. The Library was to provide the program statement; the AoC's role 
was to provide all technical expertise to design and construct in 
accordance with that statement. This separation was clear, broad and 
repeatedly defined and documented.
    Question. Speaking for the Library can you give us any assurance 
that the two organizations can work together to get this project back 
on track?
    Response. From the very beginning, the Library has taken a pro-
active approach of working with the AoC. The Library has always been 
timely and responsive throughout the duration of this AoC-steered 
process.
    During the course of this project, the trust level suffered 
severely as a result of repeated and dramatic failures by the AoC to 
meet promised deadlines, provide the promised product, and to provide 
time-sensitive documentation and feedback.
    The Library recognizes the recent improvements that the AoC has 
made. The Library is cautiously optimistic that if our newly 
established working relationship persists, we can work through Module 
#1 issues to a satisfactory resolution. We stand ready to assist in any 
manner possible to get things back on track, but we are looking for 
speedy and effective results. Only such results will enable us to give 
the committee the assurance you seek.
    The AoC and their consultant are currently working with a Library 
team to review occupancy solutions and options. The options being 
considered are those that might be accomplished within a 4 to 6 month 
time frame.
    Question. Since funding for Module #2 was not included in the AoC 
budget request, much to your concern, are we ever going to move forward 
with construction of the next two modules?
    Response. The AoC has informed the Library that, if Congress 
approves the amended AoC budget request for FY 2003. Module #2 can be 
constructed in FY 2003, and that Modules #3 and #4 an be designed in FY 
2003, constructed during FY 2005, and completed in FY 2006.

    [Clerk's note.-- At the time this hearing volume went to 
press an amended budget request, from the Architect of the 
Capitol, had been received for Book Module #2.]

                  International Exchange Program (IEP)

    Question. The Library works with the GPO on a program that deals 
with the distribution of U.S. Government publications with foreign 
governments that agree, as indicated by the Library, to send to the 
United States similar publications of their government. How often does 
the Library determine if, in fact, we do receive like publications?
    Answer. The Library evaluates each of the IEP exchanges annually. 
Acquisition and Area Studies staff review the receipts to ensure that 
the Library is receiving ``like publications.'' The focus is on 
quality, not quantity. The Library wants to obtain the official 
gazettes, compilations of law, parliamentary proceedings, annual 
reports of government agencies, statistical and census data as well as 
maps and geologic surveys.
    In many countries, exchange is the only viable and reliable source 
of acquisitions, as the publications are not available through 
commercial dealers.
    Question. In the last five years have any governments been added or 
deleted from the exchange program?
    Response. No country has been added to or deleted from the program 
in the last five years. An additional agency was added as a partner in 
Egypt. Several partners were deleted from the program, although the 
Library still has an exchange partner in each of the countries from 
which partners were deleted.
    Question. Under what authority does this program operate?
    Response. Statutory authority: 44 USC 1719 provides for 
availability of ``Not to exceed 125 copies for distribution to foreign 
government as designated by the Library of Congress.''
    Question. Does the Library or GPO consult with other government 
agencies regarding the material that is exchanged?
    Response. The Library does not consult with agencies other than the 
U.S. Government Printing Office. The Library chooses titles for the 
program from a list of open source government documents provided by the 
GPO.
    Question. What are the guidelines or rules under which you 
determine what can or cannot be exchanged?
    Response. The guidelines require that only open-source official 
publications may be used in either side of the exchange.
    Question. In light of recent events have you made any changes to 
the participation, operation, security or other factors that may not 
have been a consideration prior to September 11?
    Response. The Library has made only one change in the operation of 
the program: incoming materials are examined in the off-site screening 
facility the Library shares with the House of Representatives before 
they are delivered to the Library's loading dock.

               Copyright Office FY02 Supplemental Request

    Question. We have a pending FY 2002 supplemental request of $7.5 
million for the Copyright Office because of the loss of revenue 
resulting from the recent anthrax incidents impacting mail operations. 
Are your receipt levels beginning to return to normal?
    Response. No. February and March receipts each are down 40 percent 
compared to last year. Through April, receipts are down approximately 
one-third from last fiscal year.
    Question. The irradiated mail has had a direct effect on your 
operations. What are some of the problems and issues you have 
encountered?
    Response.
    1. Some works submitted for registration are damaged and cannot be 
examined to determine if they contain copyrightable authorship. In 
these cases the Copyright Office must request that the applicant submit 
a new copy of the work, which increases the Office's workload.
    2. Application forms containing necessary information may be 
brittle or torn. Such applications, front and back, must be photocopied 
so that the request for registration may be processed.
    3. Irradiation can also damage checks and we must request that the 
applicant submit a new form of payment. We are instituting procedures 
to allow for credit card payment of registration fees in these cases.
    4. To determine the effective date of registration of items that 
have been held, to the extent they can, staff must identify exact dates 
reflected in postmarks and calculate the date the item would have been 
received if it had not been delayed. This is an added and frequently 
burdensome step, but one that is essential given the legal 
ramifications based on date of receipt of the Copyright Office.

                     Congressional Research Service

    Question. The Congressional Research Service is requesting funding 
for 12 additional FTEs. With the problems associated with the Automated 
Hiring system, I would assume that the operations of the Service have 
been hindered. With the ever increasing need for expertise in areas 
like terrorism and homeland security, how can your organization work 
using this system and at the same time meet the demands of your 
clients?
    Response. Operating with 57 analyst vacancies, a 15 percent deficit 
in analytic staff capacity, has been difficult. While CRS continues to 
respond to all congressional requests, we have not been able to provide 
the desired level of analytical work on important issues because of 
staffing shortfalls. For some policy areas, in fact, we have had to 
respond by offering services primarily in the form of descriptive 
rather than analytical work.
    Among specific areas in which CRS' staffing capacity has been 
limited are homeland security organization, defense budgeting, defense 
against weapons proliferation, public health, immunology and law 
enforcement. Coverage of all major policy areas, however, has been 
adversely affected by the extended period of staffing shortfalls. Until 
recently, CRS has been able to meet congressional needs for expertise 
in new policy areas through some appropriate combination of shifting 
existing resources, hiring new staff, and augmenting resources through 
contracted work. The ability of CRS to adjust to the needs of the 
Congress, however, has become greatly constrained.
    Hiring delays have hindered CRS efforts to acquire expertise to 
meet new policy challenges in areas for which congressional interests 
have recently grown appreciably and are likely to be sustained. 
Examples are expertise needed to address congressional needs arising 
from applications of information technologies and terrorism. The 
ability to shift existing staff resources to match changing needs of 
the Congress has become increasingly constrained as existing resources 
have decreased and congressional needs have grown. The recent 
accelerated pace of CRS staff retirements, which has been anticipated, 
has left fewer experienced staff available to shift into new policy 
areas. Furthermore, demands on experts who are already on board are 
typically quite substantial; congressional needs in continuing areas of 
interest remain very strong across a wide range of policy areas such as 
agriculture, campaign and election reforms, education, energy, medicare 
and trade relations. Finally, new policy challenges frequently call for 
significant areas of expertise not currently available in CRS and not 
quickly acquired by those who do not have area-specific education and 
experience.
    Using contract work to meet changing congressional needs can be 
extremely useful but provides relief only for the limited range of work 
that can be contracted out--special studies that can be well-delineated 
and for which lead-time is ample. Contracting does not provide 
significant additional support Congress expects from CRS, including on-
demand, direct access to interactions with experts with whom they have 
established working relationships and from whom they expect 
institutional knowledge about legislative operations as well as 
institutional memory about legislative activities. Gains from using 
temporary employment are limited in many of the same ways, and by its 
nature, temporary employment does not build sustained analytic capacity 
focused on meeting congressional needs. As situations demand, CRS 
reassesses priorities and mobilizes all of its available resources to 
meet the most essential needs of the Congress. CRS support for the 
Congress in the wake of the September 11th attacks is the most dramatic 
example. Even then, CRS began with a base level of expertise, 
reflecting ongoing congressional concerns about terrorism. Before 
September 11th, CRS recognized terrorism as a current legislative issue 
area and CRS experts maintained a CRS Electronic Briefing Book on 
Terrorism as well as a number of CRS reports and issue briefs. Before 
the attacks, we had a half dozen or so staff who regularly worked on 
various aspects of terrorism. Within weeks of the attacks, CRS had 
nearly 100 staff working on myriad issues related to terrorism. To do 
so, we had to supplement our leading experts with staff who had 
secondary or related areas of expertise, such as:
    <bullet> Moving analysts who normally cover the Navy and Air Force 
to track the military campaign in Afghanistan. This move was necessary 
because the analyst who normally tracks military actions overseas is 
also the only chemical/biological specialist and was working on the 
anthrax incidents and biochemical threats to the homeland.
    <bullet> Moving the nuclear weapons complex analyst to cover civil 
defense and nuclear proliferation requests.
    <bullet> Detailing an Information Specialist, with experience on 
South Asia, to assist in covering Afghanistan for six months because 
the senior analyst for South Asia retired (in December 2001). We also 
acquired interim contract capacity for this area. (This position is one 
of the first CRS analyst vacancies posted in April 2002).
    CRS also uses other alternative hiring options available for entry 
level positions--the Presidential Management Intern and Law Recruit 
programs. These programs are limited to entry level hires, which meet 
some needs, but are not suited for hiring high-level expertise.
    Throughout the hiring system implementation, CRS staff have been 
working closely with staff of the Library's Human Resources Services, 
Office of General Counsel, and the contracting officer's technical 
representative to help with both the system's implementation and with 
the retrofit specifically addressing CRS's needs. We believe that most 
of the problems have now been identified and are in the process of 
being addressed systematically. CRS has identified 88 vacancies to be 
filled this year--79 under the new automated hiring system and 9 under 
alternative hiring programs identified earlier (with 2 of the 9 
positions selected). For the remaining 79 positions, our hiring time 
line follows:
April:
    <bullet> Completed first selection, for a Review Specialist.
    <bullet> Posted 12 analyst positions, with selections to be 
completed during August and September.
May--June:
    <bullet> Complete selections for two Public Affairs Coordinators.
    <bullet> Post the remaining 38 analyst positions, with selections 
to be completed between September and December.
June-September:
    <bullet> Post an additional 26 non-analyst positions, with the 
first selections being completed in September.
October
    <bullet> Post the 12 new analyst positions requested in the FY 2003 
request, with selections being completed in the second quarter of FY 
2003.
November-December
    <bullet> Complete selections for May-June postings.
    <bullet> Post 10-20 new positions for new attrition--unspecified 
vacancies occurring during the last quarter of FY 2002 and the first 
quarter of FY 2003.
    Question. Has CRS contracted out work as a result of the system? If 
so, some examples of work that should have been done in-house rather 
than being contracted out.
    Response. CRS aggressively pursues the use of contracts to acquire 
the capacity needed to meet the needs of the Congress--every year. The 
use of contracts provides some limited relief to current capacity 
shortfalls; however, this strategy does not serve the long-term mission 
of CRS. The CRS mission can best be carried out with a permanent 
workforce that has both institutional knowledge of the legislative 
issues facing the Congress and an understanding of the analysis needed 
to support Congress' deliberations on these issues. Permanent staff 
also gain an organizational loyalty critical to successful public 
service. Having said this, CRS experience with contractors has been 
very positive, over a number of years.
    CRS generally uses contract capacity to complete selected studies 
on specific issues for which CRS expertise was not available, and for 
which lead time in meeting congressional needs is not immediate. Use of 
permanent staff is the most efficient and effective alternative for the 
vast majority of congressional demands on CRS. With few exceptions, 
Congress places its demands on CRS with some urgency. Resident experts 
who are available on demand provide the only feasible way for CRS to 
respond to the large volume of urgent congressional requests in a 
timely manner. Congress places a large volume of demands on CRS that 
reach across all areas of policy-making. Resident experts who have 
experience working together--quickly identify the most appropriate 
specialist(s) for each set of work requirements and combine forces as 
appropriate across disciplines (law, economics, science, international 
relations, etc.) or fields (e.g., banking, fraud, pensions, corporate 
finance, etc.) to meet the great variety of congressional needs. 
Congress works in a setting in which events and responses frequently 
evolve rapidly. Resident experts have the flexibility to adjust work in 
progress to adapt to new events and evolving legislative proposals. 
Because resident experts have continuing responsibilities, they develop 
research products that they can and do maintain through updates and 
revisions to keep pace with events, including the legislative process. 
Finally, only resident experts can provide (and mentor) the 
institutional memory vis-a-vis legislative precedents.
    This year, CRS has used contractors in several areas related to 
terrorism and homeland security. All of these issue areas should have 
been covered with in-house staff, had that in-house capacity been 
available:
    <bullet> A contractor is currently working on a record, due this 
spring, on an issue of considerable congressional interest: U.S. 
cooperation with the European Union (EU) in its increasing role in the 
police/judicial work to combat terrorism, including such things as an 
enhanced ``Europol,'' an EU-wide arrest warrant, EU agreed-upon 
definition of crime of terrorism and sentencing guidelines, sharing of 
police intelligence information among member states and with the U.S., 
and extradition among EU states for trial of suspected terrorists.
    <bullet> A contractor is currently working on a major analysis 
regarding the Office of Homeland Security.
    <bullet> Because of CRS' need to build up its capacities in (1) 
criminal justice (including terrorism and drug control) and (2) public 
health, we are using contractors until we complete the hires of 
permanent staff.
    <bullet> A contractor is currently on-board to help us deal with 
the absence of expertise on weapons of mass destruction proliferation. 
The contractor is working to update reports, heretofore done in-house 
on Nuclear, Biological, and Chemical Weapons and Missiles: The Current 
Situation and Trends, and Proliferation Control Regimes: Background and 
Status.
    <bullet> A contractor is providing coverage for India, Pakistan and 
other countries of South Asia, by updating issue briefs and other 
reports dealing with the region.
    <bullet> Another contractor has started a five-month study on 
biochemical risk assessments to critical infrastructure. The study will 
identify a subset of biochemical threats to the nation's security in 
terms of the technology and possible regulatory interventions that 
could reduce potential threats.
    <bullet> In addition, we have identified two other areas for 
contracts to further development of our analytic capacities in the 
areas of expanding health insurance to populations not now covered. 
Specifically, CRS needs capacity to work on models which (1) integrate 
tax credits with program benefits, and (2) develop case and micro 
simulation capacities in federal and private health insurance issues.
    Question. If these problems continue, how do you plan to meet your 
program objectives?
    Response. We are hopeful that the system implementation problems 
are nearing resolution and that the hiring hiatus is over. Based upon 
our current hiring time line, we are planning to have all of our 
positions posted by the end of September and staff on board by the end 
of the calendar year. Further, if approved, we plan to post the twelve 
analyst positions requested in the FY 2003 budget during early October, 
with an expected report date not later than January 1, 2003.
    CRS will make ever effort to meet its program objectives and the 
demands of its clients--through new permanent staff acquired under the 
new hiring process supported, as appropriate, by short-term contracts. 
CRS managers are constantly seeking national experts with an interest 
in contributing to the work CRS does for Congress--through aggressive 
and extensive recruiting, to attract a diverse applicant pool from 
which to fill our permanent positions and through known contacts for 
the short-term contracts and interim temporary appointments.
    The current union agreement limits non-competitive temporary 
appointments (to bargaining unit positions in CRS) to 90 days. We have 
requested that the Congressional Research Employees Association (CREA) 
allow CRS to appoint temporary staff for a period of one year until the 
critical positions are filled (permanently) under the new system. This 
waiver request was made to give CRS the ability to add the interim 
capacity needed to ensure that we can continue to respond to 
congressional requests and provide the most optimal analysis possible. 
Unfortunately, on April 18th, CREA denied the request. We will attempt 
to continue to work with the union to reverse this decision because we 
believe that the use of temporary staffing helps bridge the capacity 
gap and enables CRS to meet program objectives and client needs.

                       Administrative Provisions

    Question. You have requested that the administrative provisions 
that restrict the use of flexible and compressed work schedules for 
certain Library managers and supervisors be deleted. You say that by 
eliminating this provision it will give the Library greater flexibility 
in recruiting and maintaining a quality staff of managers and 
supervisors by giving the Library the ability to offer different 
schedules. What are the different work schedules that you wish to 
offer?
    Response. Consistent with the authority extended to other 
government agencies, the Library seeks the option of offering 
compressed with schedules to managers and supervisors in positions the 
grades of which are equal to or higher than GS-15. Compressed work 
schedules are fixed schedules that enable employees to complete the 
basic 80-hour biweekly work requirement in less than 10 workdays.
    Question. How has the provision hindered your ability to recruit 
and maintain a quality staff of managers and supervisors?
    Response. Those Library employees currently under compressed work 
schedules, find the schedules helpful in balancing work and family 
responsibilities. The Library regards these schedules as valuable tools 
in recruiting and retaining quality staff. The Library, however, is at 
a competitive disadvantage with other government agencies by its 
inability to extend this same benefit to managers and supervisors.
    Question. How can managers and supervisors perform their duties if 
they are working from home?
    Response. The compressed work schedule (meeting biweekly work 
requirements in less than 10 workdays) should not be confused with 
telecommuting, which does allow employees to work at home. The 
compressed work schedule simply allows an employee to work his/her 80 
hours in a combination of days/hours.
    Response. How many managers and supervisors have refused positions 
at the Library because of this provision and how many have quit because 
of this provision?
    Response. The Library does not maintain these statistics.

                             Reprogrammings

    Question. For the record, insert all reprogramming documents, and 
any other Committee approval actions.
    Response. The information follows:

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                     HIRING SYSTEM--KEY COMPONENTS

    Mr. Moran. Thank you, Chairman Taylor.
    First of all, did I understand correctly that you have an 
automatic hiring system? Does that really mean that you hire 
people without benefit of human contact nor perhaps even human 
judgment?
    Dr. Billington. No. It is automated, not automatic.
    Mr. Moran. What does it mean, automated hiring system? I 
should say automated. But there is a relationship. Tell me what 
that means. You said you had three different competitors, but 
does it mean that somebody applies on-line and just 
automatically gets accepted based upon what their academic 
scores are or something?
    General Scott. I will take a crack at it in trying to make 
a very complicated thing that I have been studying for the last 
6 months as clear as I can. The automated system that we are 
currently implementing is a system that is designed to aid 
managers in getting the right people with the right skill sets 
to do the right job. The key components of this automated 
system are that the candidate goes on-line, finds out what the 
position is through the vacancy announcement and then is able 
to apply by answering questions that have been carefully 
constructed by what we call subject matter experts.
    Now, these are the people who know what knowledge, skills 
and abilities (KSAs) are required to perform well in the 
position. They have conducted a job analysis process in which 
questions have been carefully constructed on the KSAs. When an 
applicant picks answers, in the online questionnaire, the 
automated system figures out who has said they have the 
requisite requirements, and it refers to the selecting official 
the top 7, 10, or 15 people who then go for an interview. The 
selecting official would also have two subject matter experts 
on the panel to conduct the structured interview with each 
applicant.
    Mr. Moran. That is better with regard to the interview, but 
you know, I know everybody just thinks all this technology is 
wonderful and it is a new day dawning and digitization is just 
terrific, but you do this stuff on-line and these kids getting 
out of college or graduate school figure it out pretty easily. 
There has got to be a standard format that you are looking for 
so you hire somebody that knows what they are doing to give you 
the answers that you put on-line, and eventually you will have 
little small businesses that will tell you exactly how to write 
a response on-line because you don't have to show up. You know 
automation works wonders if you know how to work the system.
    But I am not going to belabor this. Mr. Hoyer has been 
looking into this, and I trust he is going to have other 
follow-up questions. But I have serious doubts. Could we have 
Mr. Mulhollan come to the panel, Director of the Congressional 
Research Service?

                      FEDERAL STUDENT LOAN PROGRAM

    Couple of things; One is the student loans. If you forgave 
student loans, would that help in your recruitment and 
retention of the people that we need to be advising us?
    Mr. Mulhollan. Yes. We have looked into that; and Roll Call 
ran a piece on a CRS report to Congress on the student loan 
program. The Library has been working on a legislative branch-
wide effort to understand the student loan program, and we have 
been very aggressively pursuing it. We think it will be useful, 
as you mentioned, as both a retention tool and as a recruitment 
tool. We are looking forward for the program to be implemented. 
Right now it is in negotiation with the unions.
    Mr. Moran. Negotiation with the unions over student loan 
forgiveness?
    Mr. Mulhollan. Implementing a student loan program.
    Mr. Moran. I will talk to you later about that. I won't 
take up the committee's time.
    Mr. Mulhollan. Excuse me, sir. The student loan program 
will be implemented at the Library of Congress through a 
regulation. The unions have an opportunity to review Library of 
Congress regulations and see if there is any impact on working 
conditions. I believe it was determined to be negotiable, which 
is why the unions are involved.
    Mr. Moran. The student loan forgiveness is negotiable?
    Mr. Mulhollan. It is part of a Library of Congress 
negotiation.
    Mr. Moran. Well----
    Mr. Mulhollan. Actual implementation of the regulation.
    [Clerk's note. Following are questions submitted to be 
answered for the Record from Mr. Moran regarding the Student 
Loan Program.]

                          Student Loan Program

    Question. Mr. Mulhollan, could you describe how student loan 
forgiveness program might help recruit talented new graduates to public 
service?
    Response. A recent review of CRS' newly hired graduates reveal that 
70 percent have outstanding student loans, and that those loans average 
about $33,000. These new graduate hires agree that a student loan 
repayment program would be a powerful recruitment tool for attracting 
future talent to CRS. In addition, they view student loan repayment 
programs as an excellent retention tool--one that might encourage them 
to stay with CRS longer than they would have otherwise anticipated.
    Several recent studies point to the challenges faced by government 
agencies in attracting top graduates to public service. For example, 
Paul Light's 1999 research study, ``The New Public Service'', observes 
that the number of public policy and administration graduates taking 
first jobs with the government has decreased steadily from 76 percent 
in 1973/74, to 68 percent in 1983, to 49 percent in 1993. In a separate 
study conducted last year by the PricewaterhouseCoopers Endowment for 
the Business of Government, Harvard University professor Carol A. 
Chetkovich found that students tend to view government jobs as 
``routine, narrow in scope, and highly constrained, involving little 
potential for development.'' By contrast, students believe that the 
private sector will provide them with ``professional development, 
intellectual challenge, and advancement opportunity, as well as 
financial benefits.'' Both of these studies also point to the 
significant salary differences between the public and private sectors. 
And while most students agree that salary is not always the most 
important consideration in taking a job, it clearly enters into their 
decision-making process and is frequently cited as a major reason for 
choosing the private sector.
    In light of these trends and observations, many government agencies 
have implemented or are in the process of implementing student loan 
repayment programs as a way to help narrow the salary gap between the 
public and private sectors. For students who bear a significant amount 
of debt, these types of loan repayment programs can be a very 
attractive hiring incentive.
    Question. Could you tell us about your experience with new hires 
and why such incentives are important to recruiting, hiring, and 
retention efforts?
    Response. CRS has done very well in attracting excellent candidates 
to serve the Congress. However, the competition for top talent is 
fierce and pits the government against private industry which can, and 
does, offer higher starting salaries.
    A recent review of CRS' newly hired graduates reveals that 70 
percent have outstanding student loans, and that those loans average 
about $33,000. These new graduate hires agree that a student loan 
repayment program would be a powerful recruitment tool for attracting 
future talent to CRS. In addition, they view student loan repayment 
programs as an excellent retention tool--one that might encourage them 
to stay with CRS longer than they would have otherwise anticipated.
    The student loan repayment program is viewed positively by students 
with loans; however, the program raises questions of equity with 
respect to students who do not have college loan balances because they 
worked while attending school in order to pay for their education. 
Students without an outstanding college loan from a financial 
institution are not eligible for a recruitment incentive under the loan 
forgiveness program. At CRS, we would offer these students other 
professional development opportunities to provide equity in both 
recruiting and retaining highly qualified staff.
    Recruitment and retention are critical to CRS's future success in 
ensuring the continuation of high quality services to the Congress. We 
fully support the implementation of a student loan repayment program in 
the Library of Congress.

                    OFFICE OF TECHNOLOGY ASSESSMENT

    Mr. Moran. On another subject matter, some of us have felt 
that since we lost the Office of Technology Assessment that we 
haven't had the kind of technological expertise that we needed 
on some technology-oriented legislation and some have felt that 
to a greater degree than others. But I would assume that your 
approach would be that you have the resources and, perhaps with 
a little beefing up, you can perform that function as well as 
OTA did it. OTA did perform some functions that are not 
exactly--that are somewhat different than what the 
Congressional Research Service traditionally does.
    But I would like to hear from you. Do you feel as though 
you have or can pick up the slack from the technology expertise 
that was lost with the abolition of the OTA?
    Mr. Mulhollan. The Office of Technology Assessment used a 
particular kind of tool to help Congress address emerging 
technology issues or to perform technology assessments. This 
was accomplished by bringing outside individuals together for 
an extended, intense project, from both academia and the 
private industry. CRS does policy analysis; and Congress has 
been supportive of continuing to build the science and 
technology capacity for policy analysis.
    Currently we have about 50 staff supporting science and 
technology policy analysis. We have PhD's in biology, physics, 
environmental science and a number of science and technology 
fields. Last year this committee was good enough to give us 
support for five new specialists to address the impact of 
information technology on congressional issues, including a 
specialist in telecommunications. What CRS does, hopefully, is 
to bring together the economists, attorneys, and scientists in 
an integrated way and anticipate the consequence of alternative 
provisions and proposals in law.
    That is our statutory mandate. We need, and the Congress 
needs, the expertise that this new science and technology 
capacity can provide . . . from stem cell research to 
bioterrorism. In our FY 2003 budget request, we are seeking 
additional scientific capacity in two particular areas. First, 
in the area of terrorism and homeland security, we are 
requesting two new positions, an epidemiologist and a 
biochemist. Second, in the anticipation of Congressional issues 
and problems on the aging of the U.S. population, we are 
requesting a gerontologist and a geneticist. Working with you, 
we have been trying to build that much needed science and 
technology capacity.
    Mr. Moran. You do feel that you can replicate what OTA used 
to do?
    Mr. Mulhollan. No, sir, because what we are doing 
specifically is policy analysis. Technology assessment is a 
different activity, one that CRS does not undertake.
    We have on rare occasions brought extensive panels to look 
at broad issues--we did actually do something comparable last 
year on the impact of the environment on children's health. We 
used foundation money for that and we brought in a broad range 
of experts. That panel more closely approximates some of the 
framework of a technology assessment, but it is a different 
tool than policy analysis, if that is helpful.
    Mr. Moran. It is. Thank you, Mr. Mulhollan.
    [Clerk's note. Following are questions submitted to be 
answered for the record from Mr. Moran.]

            Congressional Research Service Use of Technology

    Question. Could you explain in what ways CRS is ``falling short'' 
in use of technology?
    Response. In CRS' budget request for FY 2002, I spoke of the risk 
that CRS was falling short in developing an integrated, secure, robust 
technology-based environment that would allow us to provide Congress 
with the analysis and information needed, and in providing the 
technical tools for our researchers to perform their work for Congress.
    Thanks to the response of this committee to those concerns, I am 
pleased to report that CRS is now in a position to take significant 
steps in achieving the very goals that I outlined a year ago. 
Specifically, CRS has:
    <bullet> Begun the process of upgrading the network environment 
that supports CRS' researchers so that it will be more secure, more 
reliable, and able to support staff even in the event of a disaster.
    <bullet> Committed contract funds to enable CRS to begin planning, 
with the Library, for the possible need to operate its research network 
from an alternative computing facility. We are about to award a 
contract for the first phase of this work.
    <bullet> Undertaken work to provide a more reliable and accessible 
technical platform for CRS' growing quantitative databases and the 
modeling tools we have developed especially to support our analytic 
work in such critical areas as welfare reform, Medicare managed care, 
and health insurance. We will be extending the scope and coverage of 
these quantitative analytic tools in the coming year.
    <bullet> Created a text analysis software program that allows CRS 
to track legislative provisions across bills and Congresses, and have 
begun evaluating other text analysis tools that will support this type 
of computer intensive policy research.
    <bullet> Completed plans and are implementing two-way secure e-mail 
communication between CRS and the House and Senate. Our mandate to 
ensure the confidentiality of such communications has made this an 
especially challenging task, but with the cooperation of the Senate 
Computer Center and House Information Resources, we have addressed this 
problem.
    <bullet> Undertaken a review of the search software on the CRS web-
site to determine how to make it more relevant and responsive to 
congressional needs. We are also undertaking an evaluation of the 
software used to create our general distribution products with the goal 
of making them more quickly and easily accessible on the web.
    <bullet> Developed plans to acquire the necessary high level 
technical leadership skills, through contract, until we are able to 
fill these positions with permanent staff.

                          Workforce Diversity

    Question. How have your efforts to diversify your workforce 
succeeded?
    Response. CRS has successfully employed a diversity strategy with 
several component elements:
    <bullet> First, the CRS Succession Initiative, which was supported 
by congressional funding in fiscal years 1999 and 2000, involved 
extensive nationwide recruiting efforts and has revealed intense 
competition for a small pool of minority graduate students (14 percent) 
reduced further by fewer students seeking public service. This effort 
included several components: (1) the CRS Graduate Recruit Program (41 
hires, 20 percent minority) between 1997-2000; (2) the CRS Law Recruit 
Program (five hires, 40 percent minority) between 1997-2000; (3) the 
Presidential Management Intern Program (seven hires, 43 percent 
minority) between 1997-2000; (4) Research Partnerships (``Capstone'' 
projects); and (5) Outreach to Minority-Serving Organizations (e.g., 
Atlanta University Center, United Negro College Fund, Congressional 
Black Caucus, etc.).
    <bullet> The second component in the CRS diversity strategy is the 
CRS Internal Programs which comprise internships, working groups and 
professional development opportunities, such as: project management 
coordinators; technical support assistants; and the CRS detail 
opportunity program. CRS also participates in the Library's Volunteer 
Intern Program, Career Opportunity Plan, Recruitment and Mentoring 
Workgroups.
    <bullet> The third component in the CRS diversity strategy is 
participation in many of the Library's diversity programs, including; 
Hispanic Association of Colleges and Universities (HACU) National 
Internship Program (one to two interns per year since 1996); 
Affirmative Action Intern Program (three interns in fiscal years 1994-
1996); Affirmative Action Detail Program (participated in the 2000 
program); Leadership Development Program (recently submitted nine 
project proposals); and the Executive Potential Program (eight 
assignments since 1996).
    Since the beginning of fiscal 1994, CRS has lost more staff than it 
has been able to replace. For both total staff and professional staff, 
however, CRS has been able to hire minorities in a greater proportion 
than it has lost. CRS has increased professional minority staff to 16 
percent (total minority staff 33 percent). As of June 2001, when 
compared to the national professional civilian labor force, CRS is at 
or above parity for Black men and women and Native Americans. CRS is 
also working to improve under-representation in other areas, especially 
for Hispanic men and Asian American/Pacific Island men--the two 
categories in which CRS is currently most under-represented. For 
example, CRS is focusing recruitment efforts on universities with high 
concentrations of Asian and Hispanic students; partnering with specific 
public policy schools which have high proportions of Asian and Hispanic 
students to undertake research through the ``Capstone'' projects; and 
meeting with all Members of Congress who participate in the Black 
Caucus, the Hispanic Caucus, and Members of Asian-American descent to 
elicit ideas on how to improve staff representation.

                  MAIL-IMPACT ON COPYRIGHT OPERATIONS

    Mr. Moran. Copyright issues, and then I will let others ask 
their questions. The anthrax incidents; that is a principal 
reason why your fees are way down. But, are there other reasons 
why they are down? I understand you are hurting in terms of 
copyright.
    Ms. Peters. We had 600,000 pieces of mail that were held up 
as of yesterday, but they are starting to come in a big way. 
About one-third to 40 percent of our receipts have not yet been 
received, but we anticipate getting them at some point. 
However, some deposits may be damaged, including the checks. So 
we have to write the remitters to get authority to use a credit 
card, and request deposits to replace the ones that have been 
damaged. As a result we do not expect we are not going to be 
able to make up the one-third percent loss we anticipate for 
this fiscal year.
    Mr. Moran. 600,000 pieces is a lot of mail. Why would the 
checks be unusable?
    Ms. Peters. Many of them seem to be melted into the deposit 
as they go through the irradiation process. It looks like the 
deposit has been through a microwave oven. It melts. For 
example a CD plastic case and the check in the package melted 
together.
    Mr. Moran. I saw that exhibit. You can show it to the other 
members. So that is part of it.
    Mr. Moran. Are you using the same mail delivery system we 
are using?--Is this the same problem we are having?
    Ms. Peters. Yes. It is the same mail system you have.
    Mr. Moran. Let me let other people ask questions.
    Mr. Taylor. Mr. Wamp.
    [Clerks note: Following are questions submitted to be 
answered for the Record from Mr. Moran.]

                         Copyright Office Fees

    Question. Is the problem you are facing regarding the collection of 
copyright fees because the mail is delayed or are we seeing an actual 
decrease in the volume of submissions? In other words, is the problem a 
short-term, timing issue or is it a longer term problem that will 
impact the operation of the office?
    Response. The Copyright Office believes this is a short-term issue 
due to the delay in receiving mail, even though, there could be an 
overall decrease in mail for the remainder of the year as some 
remitters may decide to refrain from submitting claims because of the 
Office's mail problem. The Library does not anticipate a long-term 
decrease in the Copyright's Office's receipts.
    Question. If the supplemental funds are provided, what happens to 
the $7.5 million when the backlog of submissions is cleared and money 
begins coming in again?
    Response. Any excess revenues will de deposited into to the 
Copyright Office's No-Year account. Expenses in this account are 
subject to Congressional approval.
    Question. What steps are you taking to ensure that the materials 
going through the mail processing system are not permanently damaged?
    Response. Procedures for screening mail before it reaches the 
Copyright are determined by the congressional mail task force. The 
Office has informed the task force of the impact these procedures have 
had on the deposits and will work with the task force to prevent future 
damage to deposits.
    Question. Do the steps you have put in place delay any services to 
your customers?
    Response. There is no delay to materials that have not been damaged 
in the process, except when staff need to determine the effective date 
of registration for held mail. For damaged materials, delays are caused 
when the Office has to request a new check or deposit.

                        National Digital Library

    Question. Dr. Billington, this subcommittee has entrusted the 
Library of Congress with a significant infusion of funds for the 
``National Digital Library.'' ($21.5 million in fiscal 2002 in addition 
to $100 million in the fiscal '01 appropriations). While I share your 
vision of carrying this institution's commitment to preserve our 
nation's written heritage into the future, I have some general concerns 
that a complete program can be put in place before these funds are 
committed. What is the status on developing the digital library plan?
    Response. The plan for the National Digital Information 
Infrastructure Preservation Program ($100 million in FY 2001) will be 
completed this calendar year. To date, the Library has undertaken a 
series of planning, outreach and assessment activities jointly with 
representatives of concerned federal agencies and libraries, research 
libraries and universities, and many not-for-profit and business 
organizations involved in efforts to preserve, collect, manage and 
disseminate information in digital formats.
    The specific steps we are undertaking for the national strategy 
effort/special appropriation follow the mandate of the legislation:
    <bullet> involvement of others in government, industry, and the 
archival community with an interest in collecting and preserving 
digital content;
    <bullet> a collaborative planning process that brings key 
stakeholders from these communities together to develop approaches to a 
national strategy for digital collecting and preservation;
    <bullet> a federal government collaborative planning effort for 
digital preservation research; and
    <bullet> several studies, analyses and investigations about 
possible approaches, technologies and infrastructures.
    Specific next steps are to refine the alternatives approaches 
developed collaboratively with industry, along with the several studies 
and investigations currently delivered or in process, and to analyze 
these proposed strategies within a defined national digital 
preservation technical and organizational framework.
    The Library is encouraged by the level of support it has received 
for this critical national program. However, we need to ask for an 
extension on the March 2003 deadline for the $75 million match. We have 
been advised by the people who we hope and believe will help us in the 
private sector that now is not the best time to raise private funds for 
this national program. The completion and approval of the program plan 
is an important first step to help engage the industry in making 
private contributions because most of the matching funds will be in the 
form of in-kind contributions through collaborative partnerships. We 
will continue to work with a wide variety of institutions in the 
information community, as mandated by the Congress in the special 
appropriation.
    Question. Where have the funds been held pending adoption of this 
plan?
    Response. The legislation provided $100 million to the Library of 
Congress to establish the program. All funds are held in a Department 
of Treasury account. Of this amount, $25 million was provided 
immediately to the Library in FY 2001. The additional amount, up to $75 
million, will not be made available to the Library until the matching 
requirements specified in the legislation are met.
    Of the $25 million provided immediately to the Library, $5 million 
is held in a No-Year account available for use during the plan 
development and approval cycle. Authorized activities include planning 
development and digital information collection and preservation. The 
remaining $20 million is held pending approval and adoption of the 
plan.
    Question. Would you object to periodic reporting requirements to 
keep this subcommittee and others apprised or review by the Inspector 
General.
    Response. The legislation establishing the National Digital 
Information Infrastructure Program requires Appropriations Committee 
approval each time there is a release of funds under the program. In 
this process, the Library will provide the committee a status report on 
the program and specific plans for use of the additional funds.
    In addition, regular audits and reviews of the National Digital 
Library are part of the Library Inspector General's scheduled work 
plan.

                       Russian Leadership Program

    Question. Each year Congress continues to appropriate funds for the 
Russian Leadership program. I believe the request for fiscal '03 is $10 
million. Could you provide the subcommittee with an accounting of how 
these funds have been spent?
    Answer. A total of $28.978 million was provided to the Russian 
Leadership Program from FY 1999-2001. Of that amount, $18.508 million 
was obligated. The balance of $10.47 million was transferred to the new 
Center for Russian Leadership in FY 2002 and should be obligated this 
year.

Funding through FY 2001 supported:
                                                                  ($000)
    11 Personnel Compensation.................................      $639
    12 Personnel Benefits.....................................       150
    21 Travel.................................................        39
    22 Transportation of Things...............................         1
    23 Rent, Communications & Utilities.......................         3
    24 Printing and Reproduction..............................        18
    25 Other Contractual Services.............................    12.537
    26 Supplies and Materials.................................         6
    31 Equipment..............................................        17
    41 Grants.................................................     5.098
                    --------------------------------------------------------------
                    ____________________________________________________

        Total Obligations, FY 1999-2001.......................  $18.508M

    Question. Is there an outstanding unexpended balance? How much?
    Response. The available balance as of the Board of Trustees meeting 
was $18.1 million; the anticipated balance at the end of FY 2002 will 
be $2 million. Since the Open World Program funds are No-Year funds, 
the program operates on a 52-week cycle (bringing delegations of 
approximately 120 each week). The program also manages 2-3 nominating 
and vetting cycles per year for travel anticipated in 4-5 months time. 
Vetting and planning are already underway for travel in FY 2003. 
Similarly, grants to U.S. host organizations have been made for FY 2002 
with commitments for hosting in U.S. communities through December 2002.
    Question. Will this program become a regular line item in the 
Library's budget, or will it phase out as Congress originally intended?
    Response. The Open World Program is managed by a distinct 
Legislative Branch entity, the Center for Russian Leadership 
Development, as authorized in P. L. 106-554. Effective with FY 2002, 
the Center is not included in the Library's budget.

                              Law Library

    Question. Last year, the American Bar raised concerns about the 
condition of the Law Library. How have you worked during the current 
year to address these concerns?
    Responses. With funds appropriated in FY 2002, the Law Library 
developed and implemented an aggressive Plan to eliminate the four 
arrearages under its control and will be able to process incoming 
materials and new receipts on a current basis.
    To address concerns regarding digital resources, the Law Library 
has requested funding in FY 2003, to develop and implement a fully 
functional Global Legal Information Network (GLIN) system. This system 
will contain the highest quality of legal sources in digital format; 
allow the Library to acquire, process and access legal sources from 
around the world, and in a timely manner; and support the staff by 
providing the highest quality research and reference services to 
Congress.
    Question. Has the additional funds enabled you to address this 
backlog and prevent it from occurring again?
    Response. Yes, with the additional funds appropriated in FY 2002, 
the Law Library developed and implemented an aggressive Plan to 
eliminate the four arrearages under its control by the end of 2003. The 
work is well underway and on schedule. In addition, funds appropriated 
in FY 2002 have provided the Law Library the needed resources to 
process incoming materials and new receipts on a current basis.

                          Rare Book Collection

    Question. Have you been able to hire a curator for the 65,000 rare 
book collection?
    Response. The position has been posted and is expected to be filled 
shortly.

                        Transit Benefit Program

    Question. As one of the largest employers within this appropriation 
(4,189 FTEs), I appreciate you providing me with an update on when you 
intend to offer your employees parity with the new executive branch 
transit benefit. I would submit that this benefit is very attractive 
and could be as useful to attract and retain employees as the student 
loan payment program.
    Response. The Library is requesting an increase of $973 thousand in 
FY 2003, to increase the subsidy from $65 per month to $100 per month. 
This increase will allow the Library to offer its employees parity with 
the executive branch transit benefit. This new rate will be implemented 
October 1, 2002 or whenever funding is approved.

                            Off-Site Storage

    Question. What is the status of your off-site storage project at 
Fort Meade?
    Response. Module #1 has been delayed for more than five years. 
Recent changes in key Architect of the Capitol (AoC) management 
positions make the Library cautiously optimistic that if our newly-
established working relationship persists, we can work through Module 
#1 issues to a satisfactory resolution. The Library stands ready to 
assist in any manner possible to get things back on track, but we are 
looking for speedy and effective results.
    The Library understands that the AoC and their consultant are 
developing occupancy options that might be accomplished within a 4- to 
6-month time frame.
    Question. When do you anticipate that we will be able to store 
materials off-site?
    Response. The Library cannot answer this question until the AoC and 
their consultant have developed clear options for consideration by the 
AoC and Library. We hope that mutually acceptable solutions to the 
pending issues will permit occupancy in 4 to 6 months at the most.
    Question. Are plans developed for starting the second module?
    Response. A program statement for Module #2 is currently being 
finalized by the Library and forwarded to the AoC. It is anticipated 
that the agreed-upon program statement will be signed by the AoC and 
the Librarian within the next several weeks. Design will begin in early 
summer and will continue for a period of eight months. If funding is 
approved by the Congress, construction will follow in calendar 2003 
with occupancy scheduled for 2004.
    Question. What can be done to move this project forward at a more 
rapid pace?
    Response. The schedule now agreed upon between the AoC and the 
Library for design and construction of Module #2 and the two subsequent 
modules is acceptable to the Library. The project will move ahead at a 
good pace if the AoC's FY 2003 amended budget request is approved by 
Congress and if the AoC gives high priority to ensuring proper design 
and construction of the remaining modules.
    Question. What is the impact to your services by not being able to 
access the storage facility?
    Response. The impact on service is significant. The Library is 
unable to properly shelve new acquisitions arriving on Capitol Hill. 
Many of these items are stored on the floor, double shelved, or placed 
in temporary overflow areas. Books stored in such a manner are 
especially susceptible to damage. When a request for books is received, 
response time is often delayed, or the item cannot be located without 
devoting extensive staff time to searching.
    Question. Are there budgetary implications to not having access to 
off-site storage?
    Response. Yes. Extensive staff resources are required to 
continuously shift collections remaining on Capitol Hill. This is time-
consuming, is of minimal benefit, has to be repeated frequently, and 
keeps staff from other important activities. Productivity in retrieving 
material has suffered as staff have been required to look in multiple 
places for an item. Follow-up searches for material not found require 
significant resources.
    The delays in building subsequent modules has resulted in the 
Library remaining in the environmentally-poor and expensive rental 
facility at Landover, Maryland. Originally, we were expecting to vacate 
Landover by 2006, the termination of the current 10-year lease. This is 
no longer practical. Costs for this space for the last 6 years (FY 
1997-2002) has totaled $3.44 million.
    From a preservation perspective, material that is improperly housed 
is subject to damage from water, poor support, kicking, etc. This 
results in a potentially higher cost for preservation treatment, 
recovery from water damage, replacement of damaged material, etc.

                                Security

    Question. Please give us the status of security projects that have 
been accomplished and/or initiated since 9/11.
    Response. Three security projects have been initiated, including: 
preliminary design work for a new Library Emergency Management Center, 
Library police radio communications upgrades, and improvements in 
Capitol Hill-wide emergency communications systems. In addition, three 
other security projects initiated before 9/11 have progressed, 
including: final congressional committees' approval and construction 
contract award for the Library's perimeter security plan, final design 
approvals and phase I construction work for a new consolidated Library 
police communications center, and 35 percent design approval for 
Library buildings security modifications to entrance lobbies and 
associated access controls.
    Question. How are you coordinating your security measures with 
other organizations on the Capitol campus?
    Response. The Library police maintain continuous communication with 
the Capitol Police and the Supreme Court police regarding 
demonstrations, emergency preparedness and response, intelligence 
liaison, and day-to-day operational coordination. In addition, the 
Library's Office of Security maintains near daily contact with the 
Capitol Police Security Services Bureau, Architect of the Capitol, 
Supreme Court Marshal Office, and the Folger Shakespeare Library 
regarding the Library of Congress's multi-year physical security 
enhancements project.
    Question. What procedures are in place of ensure that your police 
force is in close coordination with the Capitol Police?
    Response. Under an existing Memorandum of Understanding, the 
Capitol Police provide services to the Library of Congress Police, 
including hazardous device and explosive ordnance technician support, 
crime scene search, and prisoner transport and processing. 
Additionally, the Library and Capitol Police forces regularly 
coordinate on dignitary protection, intelligence, physical security 
initiatives, and law enforcement incident matters.
    Question. Are there services that are no longer available to the 
public, staff or members of Congress due to security concerns?
    Response. No, although a number of additional security measures 
have been implemented in order to maintain acceptable levels of 
service.

                         National Book Festival

    Question. Has the status of the National Book Festival changed 
because of security concerns?
    Response. The Library has been working closely with Lt. Wesley Mahr 
of the U.S. Capitol Police in planning for the National Book Festival's 
security. Several major events are scheduled on the Capitol's West 
Front prior to the National Book Festival on October 12. These include 
the Memorial Day and Fourth of July concerts. Lt. Mahr intends to use 
the experience from those popular public events to gauge the right mix 
of security for the book festival. At this time, however, the plan is 
to erect snow fencing and inspect packages at several checkpoints for 
those entering the grounds.
    Some elements of the festival will be spilling onto the National 
Park Service's grounds between the Capitol Reflecting Pool and Third 
Street and from Third Street to Fourth or Fifth Street. Security will 
be less noticeable in those spaces.
    Originally, the 2002 National Book Festival was scheduled for 
September 21. The date has been moved to October 12 to accommodate the 
request that it not be held while Congress is in session and to have 
some distance in time between September 11 and the festival.
    The Library is grateful to the House for passing H. Con. Res. 348 
on April 30, 2002, authorizing use of the Capitol grounds for the 
National Book Festival.

                          Workforce Diversity

    Mr. Wamp. I am tempted to ask Dr. Billington to ask what it 
is like to be the second most beloved Librarian in the world 
since the First Lady has been on the job for 16 months, but I 
won't do that.
    General Scott, it looks to me from the outside like your 
staff at the Library of Congress is very diverse. I am around 
all the time and I see them coming and going and I see this 
room, and yet there is still some controversy about diversity. 
How do you rank and how do you compare to other departments and 
other agencies in terms of diversity?
    General Scott. Thank you, Mr. Wamp. The Library for the 
past 10 years has devoted considerable effort to making sure 
that not only do we have quality hires, but also that we have 
diverse hiring. We have submitted to members of the committee 
our latest Fairness Report, which shows that when you compare 
the Library's hiring statistics for minorities in the Senior 
Level grades, in grades 15 through 13, and GS-12 to 9, those 
percentages compare very favorably in that the Library is 
considerably higher than the federal government in 
representation of minorities in those categories. When you look 
at the statistics for African Americans in particular in those 
same grades, the statistics show that the Library also exceeds 
the federal government's civilian workforce data.
    We are very proud of this diversity which we worked hard to 
achieve and will continue to address even as we are putting in 
the new automated hiring system.

       Workforce-Impact of Retirement, Recruitment and Retention

    Mr. Wamp. What about the graying workforce? We talked in 
previous years about how we are losing so many people to 
retirement. I know budgetarily you really have to work over 
time and spend more money to make sure that we recruit people, 
and Daniel talked about the situation at CRS, but how are we 
doing long term in terms of filling the gaps of the people that 
are retiring over the next 5 years?
    Dr. Billington. We are working on that and that is why we 
have to have continued requests and some further FTEs because 
there is an age creep that is involved.
    Let me add on this subject of diversity, that the Libary 
compares very favorably to the federal gvernment in ensuring a 
strong minority presence. Particularly noteworthy are the 
Senior Levels, where the percentage of minorities at the 
Library nearly doubles that of the federal government. 
Moreover, compared to 1990, the percentage of minorities in 
general, and African Americans in particular in the Senior 
Level workforce has doubled.
    So there has been progress with regard to the benchmarks at 
all categories of our own comparison with 12 years ago plus 
compared to the average of the Federal workforce itself. Now on 
the question of workforce aging, CRS had it first and then 
Library Services implemented a succession planning program, so 
that we are trying to impart the institutional knowledge and 
wisdom.
    It is very important that we keep increasing the FTEs. Even 
with the ones we are requesting this year we are still 191 
short of what we were 10 years ago in 1992. So there must be 
some opportunity for newly hired staff to benefit from the 
existing institutional knowledge of our staff. When we are the 
only institution in the world that tries to collect anything 
important in every format and every language. It is an 
incredible accomplishment that the Congress has supported this 
kind of an operation. But, it means that all kinds of skills, 
highly specialized, are needed. Therefore, we are trying to add 
FTEs to get to where we were 10 years ago while maintaining a 
much larger workload. That was before we were on-line and had a 
billion and a quarter hits, as we did last year, in electronic 
transactions.
    We have established a whole new universe that we are 
serving as well as the traditional ones, which are way up to 
124,000,000 items. It is something we are very cognizant of. 
Fortunately, the retirement rate hasn't been quite as great as 
we might have feared, but at any time this could accelerate 
and, therefore, the need for the FTEs as well as the budgetary 
request that we have made is very acute because we have got to 
get these people there while the veterans are still there to 
impart their wisdom and have that one of a kind experience that 
they have had.

                     Electronic Backup and Storage

    Mr. Wamp. From a Federal perspective the Library of 
Congress has led the digital revolution in terms of archiving 
for a number of years. But General Scott, we have talked a 
number of years of backing up our data off base and moving it 
off-site.
    Have we done that?
    General Scott. I am pleased to report that since last year 
we have made progress in that regard, and I want to make a 
couple of main points here. The first one is that we have 
procured and implemented a more robust tape backup technology, 
one which accomodates the large volume of data that we generate 
now. The second point is that the tape backups of all the data 
files are now stored in two remote locations. We also currently 
are involved with the House and the Senate in looking for an 
alternate computer facility site, and expect to begin to occupy 
that facility later this year.
    We also have a consultant who has come in to help us 
evaluate the current state-of-the-art storage mirroring and 
backup solutions to meet the Library's unique requirements. 
And, as Dr. Billington stated earlier, as part of the digital 
program Laura Campbell is ably heading, we are looking at 
greater capacities to handle meta data. So, yes, we have made 
some progress.
    Mr. Taylor. Mr. Hoyer.

                          Workforce Diversity

    Mr. Hoyer. Thank you, Mr. Chairman. On the diversity issue, 
both with respect to the Library of Congress and CRS, my 
colleague Al Wynn has requested a GAO study and I am going to 
talk to him about this. But in reviewing the graphs that you 
have presented to the committee, at least initially my reaction 
is that the Library of Congress is doing an excellent job in 
reaching out. Am I correct that your percentages, both in terms 
of minorities generally and African Americans in particular, 
exceed Federal Government performance generally?
    General Scott. Yes, sir, you are correct in that 
interpretation. OPM gathers federal workforce statistics 
annually. It is those statistics that the graphs you mentioned 
are based on.
    Mr. Hoyer. Is that both private and public sector 
employment?
    General Scott. Talking Federal Government. And so from 
those statistics, the Library has exceeded the average in that.
    Dr. Billington. Actually it is the OPM, Office of Workforce 
Information, that provides us this information.
    Mr. Hoyer. Well, that is an issue we will be looking at 
more closely. I don't know what GAO is going to come up with or 
how quickly it will come up with it, but it appears initially 
that the efforts you have been making have been productive and 
have moved you ahead in accomplishing the objective.

                         Fort Meade Book Module

    I want to ask some quick questions of you. For the 
immediate, tell me how important that remote storage facility 
is, how you are working with the Architect and in particular 
the status of modules two, three and four. How pleased are you 
with what the Architect is doing?
    Dr. Billington. I will make a general point and turn it 
over to General Scott, who is in more direct operational charge 
of this, but the essential point is that the Library 
desperately needs space to store its collections properly. The 
Library receives 3 million new items every year and we have 
clearly stated our needs for module one. The Architect's 
responsibility was to provide for the design and construction. 
We have been working with the Architect of the Capitol since 
1996 to plan for the construction of module one. However, due 
to many issues at the Architect's office the facility is still 
not ready.
    We are cautiously optimistic that the Architect now 
understands the urgency of the problem and is moving in the 
right direction. I will turn it over to General Scott, who can 
basically describe the program. They are responsible for the 
execution. And we have been very much behind, but we are in 
hopes that things will get better. General Scott can provide 
more of the details.
    General Scott. Just to add on, we have been trying to get 
module one constructed for the last 5 years; our effort started 
in 1996. As Dr. Billington said, it is our responsibility to 
provide the program management design criteria, which we did, 
to include the environmental conditions----
    Mr. Hoyer. General, what seems to be the problem and the 
delay?
    General Scott. The problem--and I am going to paraphrase 
Mr. Hantman's words in a letter to Dr. Billington, was that the 
Architect of the Capitol made some short-sighted management 
decisions in the oversight of the construction and design of 
that building; he has recognized those management shortfalls; 
and he has communicated to Dr. Billington that he and his staff 
want to rectify those in building modules two, three and four. 
As Dr. Billington said, we are cautiously optimistic that the 
Architect is now moving in the right direction and we will work 
with him to be sure that those short-sighted management 
practices are not continued.

               FORT MEADE--IMPACT OF DELAYING MODULE ONE

    Mr. Hoyer. General, what are the costs of module one being 
delayed?
    General Scott. I would like to refer that to Winston Tabb.
    Mr. Tabb. There are actual costs and some service costs. 
The actual costs have to do with continuing to have to pay 
rental for storage for collections, rental of space which is 
detrimental to those collections. We also have the problem that 
books that are on the floor are being damaged because it is 
impossible for people to move around the stacks without kicking 
them and doing harm to the physical objects. And then there are 
service costs--for example, difficulty in locating materials 
for reader's in a timely fashion.
    Mr. Hoyer. How much does that cost?
    Mr. Tabb. The annual cost of the rental, I would have to 
supply that for the record.
    [The information follows:]

                         Off-Site Storage Cost

    Extensive staff resources are required to continuously shift 
collections remaining on Capitol Hill. This is time-consuming, is of 
minimal benefit, has to be repeated frequently, and keeps staff from 
other important activities. Productivity in retrieving material has 
suffered as staff have been required to look in multiple places for an 
item. Follow-up searches for material not found require significant 
resources.
    The delays in building subsequent modules has resulted in the 
Library remaining in the environmentally-poor and expensive rental 
facility at Landover, Maryland. Originally, we were expecting to vacate 
Landover by 2006, the termination of the current 10-year lease. This is 
no longer practical. Costs for this space for the last 6 years (FY 
1997-2002) has totaled $3.44 million.
    From a preservation perspective, material that is improperly housed 
is subject to damage from water, poor support, kicking, etc. This 
results in a potentially higher cost for preservation treatment, 
recovery from water damage, replacement of damaged material, etc.

                        MANAGEMENT OF FACILITIES

    Mr. Hoyer. Mr. Chairman, this has been delayed beyond what 
it should have been delayed. This is a critically necessary 
facility and this delay is costing us a lot of money. We need 
to get to the bottom of it.
    Let me ask you, in addition, you have raised concerns for 
the Library about the Architect's management of the Library 
facilities, such as about fire protection. Have you considered 
the idea of assuming from the Architect responsibility for the 
facilities, particularly as it relates to fire protection?
    General Scott. Yes, we have considered the possibility of 
taking over some of the responsibilities. We are clearly 
frustrated by the lack of progress which many of our projects 
experience and we have had preliminary discussions with the 
Architect and his staff about allowing the Library to assume 
some responsibility for our internal projects. We came up with 
a memorandum of understanding on a pilot effort, but the 
Architect and his staff did not agree with that approach. The 
Library is frustrated and we would consider looking at taking 
over some of the responsibilities if the committee wanted us to 
do that.
    Mr. Hoyer. Okay. Mr. Chairman, I presume my time has gone. 
I have a lot of other questions, but I will submit them for the 
record.
    [The question submitted for the record by Mr. Hoyer 
follow:]

                               Diversity

    Question. Please provide data on the Library's Diversity 
Recruitment and Staffing comparing FY 2002 to FY 1990.
    Response. The Library has recorded significant gains in minority 
employment since 1990. Minorities now comprise 24 percent of the 
Library's Senior Level (Executive) workforce, compared with 12.4 
percent in 1990. Minorities also now represent 23.3 percent of the 
total workforce in Grades 13-15, gains from the 1990 level of 16.3 
percent; and in Grades 9-12, minorities comprise 44.5 percent compared 
with the 37.6 percent-level for 1990.
    Question. How do your diversity recruitment and staffing compare to 
other federal agencies?
    Response. When the Library is compared with federal civilian 
employers, it far surpasses the diversity found in their workforces. 
Minorities in the Library comprise 23.9 percent of the Senior Pay Level 
compared with 13.1 percent found in other federal agencies (Federal 
government statistics courtesy of the U.S. Office of Personnel 
Management, Office of Workforce Information, March 5, 2002). In grades 
13-15, minorities represent 23.5 percent in the Library, 19.7 percent 
in the federal government. In grades 9-12, the Library exceeds the 
federal government's 27.9 percent with its 42.7 percent.

                        Veterans' History Project

    Question. You have requested additional funds and staff for the 
Veterans' Oral History project authorized by the last Congress. Has 
public interest in this project exceeded expectations, hence the need 
for additional resources?
    Response. The public interest has been overwhelming. The Library is 
already receiving as many as 250 calls a day from the public as well as 
responding to requests fro instruction kits, giving advice and 
listening to memories. The Library also serves 220 Official Partner 
organizations such as veterans service organizations, libraries, 
museums, historical associations, schools and civic groups that provide 
assistance in identifying veterans (as well as support personnel who 
served our country), and recruiting volunteers to interview them. The 
additional staff is needed to serve the public and to receive, catalog, 
and begin to preserve the precious personal materials we are receiving 
from those who have served our nation in wartime.

                  Sound-Recording Preservation Program

    Question. Can you please provide an update on the status of the 
sound-recording preservation program, for which funding is included in 
your base request?
    Response. The inaugural meeting of the National Recording 
Preservation Board (NRPB) was held at the Library of Congress on March 
12, 2002. The Librarian of Congress, James H. Billington, welcomed the 
20 Board members in attendance, outlined the broad objectives of the 
National Recording Preservation Act, and introduced Marilyn Bergman, 
President and Chairman of the Board of ASCAP, as the new NRPB chair. 
The bulk of the day's discussion was devoted to two key topics: 
establishing selection criteria and procedures for the National 
Recording Registry, and identifying field-wide issues and needs to be 
addressed in the Recording Preservation Study and Report. A consultant, 
appointed by the Librarian, will be hired shortly to conduct the study 
and report, which will identify crucial components of the National 
Sound Recording Preservation Program. As a follow-up to the meeting, 
the Library is establishing a NRPB Web site and listserv to facilitate 
on-going dialogue among Board members.

                         House History Project

    Question. Please provide an update on the history of the House 
project, which you are coordinating but which receives no appropriated 
funds.
    Response. Historian Robert V. Remini has agreed to write the 
History of the House of Representatives, pending funding. Professor 
Remini is a widely respected biographer of American statesmen Henry 
Clay, Daniel Webster, and Andrew Jackson. He is professor of history 
emeritus at the University of Illinois Chicago and won a 1984 National 
Book Award for his biography of Andrew Jackson. His other honors 
include the American Historical Association Award for Scholarly 
Distinction, the Carl Sandburg Award for Nonfiction, and the University 
Scholar Award of the University of Illinois.
    The Library is examining several funding options, including 
foundation grants. The current timetable calls for the Library to begin 
work on the House History this coming Fall.

                       Russian Leadership Program

    Question. Please discuss the Open World Program, its new status, 
board members, and the continuing need for the program in light of 
U.S.-Russian relations.
    Response. The following testimony I offered in the Senate, along 
with that of the Center's board members, James W. Symington and James 
F. Collins, amply describe the current status of the Open World 
Program. In addition to the Library's comments, I am enclosing copies 
of their statements and that of Lee Boothby, whose organization 
represents one of the Open World's most successful hosting arrangements 
and whose organization has also worked with alumni in Russia.
    The Board of Trustees of the Center for Russian Leadership 
Development met for the first time on March 7, 2002, at the Library of 
Congress. The Board's Honorary Chairman, Senator Ted Stevens (R-AK), 
and all four of the leadership appointed Congressional trustees were 
present: Senators Carl Levin (D-MI) and Bill Frist (R-TN); 
Representative Amo Houghton (R-NY) and Bud Cramer (D-AL).
    Board appointees from the private sector, appointed by the 
Librarian of Congress, joined us by telephone: former Member of 
Congress James W. Symington, former U.S. Ambassador to Russia, James F. 
Collins, and Anthony Richter of the Open Society Institute, 
representing George Soros. One board vacancy remains to be filled.
    The members elected the Librarian of Congress to serve as Chairman 
for one year. Senator Levin and Representative Houghton will serve as 
vice chairs for the same term. The Board approved an operating budget 
of $15 million for 2002 including grants and contracts totaling $13.3 
million. The board also approved the Center's FY 2003 appropriations 
request. The members of the board intend to remain actively engaged 
with the Center providing valuable, continuing oversight.
    Finally, the board approved the formation of a corporate advisory 
council and initial appointments to that council. The board 
acknowledged receipt of current gifts and pledges totalling $2 million 
and engaged in an active discussion of the center's opportunity for 
private fund raising, to supplement the funds appropriated by Congress, 
in accordance with the Center's authorizing legislation.
    The Russian Leadership Program (as it was designated in its first 
Congressional authorization) began in 1999 as a one-year pilot at the 
Library of Congress. The law creating the pilot program (Public Law 
106-31) presented the Library with the challenge of identifying and 
bringing up to 3,000 young and emerging political leaders from Russia 
to the United States for short-term stays to observe our democracy and 
market economy in action.
    This initial authorizing and funding legislation gave the library a 
mere six months to launch and carry out the program. The leadership and 
vision of Senator Ted Stevens (R-AK), at that time the Chairman of the 
Joint Committee on the Library, recognized and seized a historic 
opportunity to improve U.S.-Russian relations at one of their lowest 
points since the collapse of Communism in the former Soviet Union. Now 
nearly three years later, U.S.-Russian relations are in a dramatically 
different and more positive condition in the wake of the terrorist 
attacks of September 11.
    The United States and Russia are now addressing, in a more 
cooperative way than in recent times, a wide range of critical issues 
such as rule of law, security, trade, and the global fight against 
terrorism. A second summit is scheduled for May in Moscow between 
President George W. Bush and Russian President Vladimir Putin, and 
dialogue is reviving between the American business community and the 
Russian economic sector (led by the U.S.-Russian Business Council and 
the American Chamber of Commerce in Moscow).
    The role that can be played in the Legislative Branch by the Center 
for Russian Leadership Development is suggested by its origin in April 
1999. Throughout its brief history, the Russian Federation has called 
this program ``Open World,'' a term that we have now adopted for 
official use in both the United States and Russia.

                                HISTORY
    At a breakfast meeting of 25 Members of Congress from both Houses 
and both parties during the NATO engaged in Kosovo, I reported that 
U.S. actions in the Balkans had produced severe strains in U.S.-Russian 
relations and, when asked, ``What can be done?'', I repeated a 
suggestion made to past CODELs that I had accompanied to the former 
Soviet Union: the need to replicate for Russia that small part of the 
Marshall Plan that had brought the new post-war generation of political 
leaders from a former adversary to the United States to experience the 
workings of an open democratic society.
    Many Members of Congress were eager to discuss this idea. Senator 
Stevens moved quickly to draft legislation and to provide funding for a 
pilot in the supplemental appropriations bill on Kosovo, which was 
signed in six weeks (Public Law 106-31). The Library rapidly organized 
a program that brought 2,150 young Russians to America in just over 
five months.
    In late 1999, Congress extended the pilot for a second year (Public 
Law 106-113) and in 2001 for a third. It has become more focused on key 
issues for Russian reform, and has been extraordinarily well received 
by American hosts.
    The ``Open World'' Russian Leadership program has been a success 
and deserves the Subcommittee's continued support:
    It links and engages legislature to legislature and community-to-
community. Russian leaders have come to date from 88 of Russia's 89 
regions and have been hosted in over 700 communities in 48 states and 
the District of Columbia.
    Open World engages a ``people-to-people'' diplomacy unequaled in 
scope and impact since the Fulbright-Hays exchange program and the 
Peace Corps.
   the center for russian leadership development (public law 106-54)
    Three years after its founding, the Open World Program is still 
housed at the Library of Congress, but it is independently managed by 
the new Center for Russian Leadership Development, created by the 
Congress (Public Law 106-554). The Center is overseen by a 
distinguished Board of Trustees, many of whom were among the earliest 
supporters of Senator Stevens' initiative in drafting the enacting 
legislation. Senator Stevens himself serves as active and committed 
Honorary Chairman.

               WHY SHOULD CONGRESS CONTINUE ITS SUPPORT?
    Having a constructive, more open relationship with Russia--which is 
what prompted the Senate to authorize and fund the program in 1999--is 
even more crucial now for the United States, in light of our need for 
Russia's continued partnership in the global fight against terrorism.
    The United States needs to engage the leadership and people of 
Russia--at all levels--at this critical juncture in the relations 
between our two nations. The Open World Program is a necessary, viable, 
and key partner in the U.S. government's engagement with Russia at many 
complementary levels:
    Open World is an important means for the U.S. Congress to engage 
both the Russian Parliament and Russia's regional and local leaders on 
the issues that are paramount to our evolving relations, particularly 
the issues of security and trade--the focal points of Open World's 2002 
parliamentary program.
    In 2002, we propose to bring Russian parliamentary delegations to 
work with their American counterparts on such key issues as Jackson-
Vanik, WTO accession, money laundering, banking and land reform, and 
combating global terrorism, and, most importantly, rule of law, which 
is key to all other reforms and overall political and economic 
stability in Russia.
    The Open World Program has led the way, for the past three years, 
in reviving public diplomacy with Russia at the community-to-community 
and people-to-people levels. The key element of the program remains 
constant: short-term stays by current and future political leaders who 
have not before visited the United States and who do not speak English 
(thus making them unlikely to be chosen by other U.S. exchange 
programs).
    The heroes of Open World are the American organizations and host 
families that make it possible for the program to operate on such a 
large scale with such modest funding and with such spectacular results. 
Ten days in America can make a great difference to a Russian who has 
never before visited this country. We continually evaluate our criteria 
for selection and the programs offered to our participants.
    The first question we are often asked is about the short length of 
stay. We are bringing active political leaders with day-to-day 
responsibilities and ongoing involvement in building democracy and a 
market economy in Russia. The time we ask them to spend is all they can 
spare. Despite its brevity, the U.S. stay can still bring about a 
dramatic change in understanding and attitude. Follow-up communications 
between hosts and guests and between host communities and Open World 
participants express the nature of the experience most eloquently:

    ``I equate the eleven days I spent in the U.S. with eleven years of 
my life (in terms of the exchange of information, the wide spectrum of 
professional discourse, and the opportunity to get acquainted with 
another culture and people).''

                                   --Judge Mikhail Tarasov,
                                 Deputy Chair, Novgorod City Court,
                     Head of the Novgorod Oblast Council of Judges,
                                 Host: Chief Judge D. Brooks Smith,
             U.S. District Court, Western District of Pennsylvania.
    ``I truly believe these visits will have, over time, an historic 
impact on the development of Russian democracy.''
                                   --Judge Michael M. Mihm,
                 U.S. District Court, Central District of Illinois,
                           Member, Judicial Conference Committee on
                                  International Judicial Relations.
    ``I give the highest possible rating to the preparation and 
organization of the program for Russian judges . . . We had the 
opportunity to spend time with judges, court employees, lawyers, 
prosecutors, journalists, and state congressmen . . . During the visit 
to America I was convinced that there is a great deal in common between 
American and Russian jurists and between the American and Russian 
people. And we must take steps to bring our countries closer 
together.''

                            --Judge Alimzhan Shaimerdyanov,
                                     Chair, Aleksandrov City Court,
                     Head of the Vladimir Oblast Council of Judges,
                                       Host: Judge Michael M. Mihm,
                 U.S. District Court, Central District of Illinois.
    The thanks for these results rest with our American volunteer hosts 
who are also affected and rewarded for their participation in the Open 
World program:
    ``We host many visitors and this group was definitely among the 
best--they were well selected, highly qualified and very engaged. We 
thoroughly enjoyed hosting this delegation and were highly impressed 
with their professionalism and level of interest. Through such an 
exchange, both sides--the Russian and the American--can only benefit as 
longstanding, productive relationships are initiated and a great amount 
of information is exchange.''
                                         --Sylvia L. Nimmo,
                           Friendship Force Local Host Coordinator.
                  results--what can open world achieve
    The Open World brief stays are catalysts in three areas:
    They are catalysts for dramatic changes in attitude. Experiencing 
the reality of the United States rather than absorbing the distortion 
of American popular culture portrayed in television, film, and music 
helps dispel stereotypes embedded in Soviet-era anti-American 
propaganda;
    The visits are--in a large number of cases--``life-changing'' 
experiences that leave participants with the ability to imagine 
solutions to the many obstacles in the Russia's path to democracy and a 
market economy;
    Most significantly--for the future--Open World fosters ties between 
people and communities that help promote systemic changes long after 
the visits have ended.
    Let me cite just a few examples:
    Open World's Rule of Law program brings Russian judges to the 
United States to be hosted by senior U.S. federal and state judges. A 
total of 163 Russian judges participated in 2000-2001. Our plans to 
bring 300 judges in 2002 coincide with Russia's preparations to 
implement recently enacted judicial reforms. Our partner in this effort 
is the Judicial Conference of the United States. Many of the American 
judges who have participated--led by Judge Paul Magnuson of Minnesota 
and Judge Michael Mihm of Illinois--are actively seeking to establish 
U.S.-Russian ``sister court'' relationships to further promote key 
concepts of court administration and judicial ethics in Russia.
    A grant to the American International Health Alliance (AIHA) 
approved at our Board meeting last week will bring key political 
leaders from five Russian regions on a pilot basis to advance a model 
of healthy communities to combat Russia's overwhelming health crises. 
Pilot sites in both the United States and Russia are being carefully 
chosen to create the optimal linkage between U.S. host communities and 
participating Russian communities.

                               CONCLUSION
    President Putin's call to President Bush immediately after the 
attacks on the World Trade Center and Pentagon on September 11 set in 
motion a dramatic realignment in U.S.-Russian relations. President 
Putin is advancing bold and ambitious reforms on many topics; the 
upcoming U.S.-Russian Summit has many unresolved issues as the two 
nations seek to address security, trade, and anti-terrorism agendas.
    Understanding of these common goals remains, however, less well 
understood within the 50 states that make up the United States and the 
89 regions that constitute the Russian Federation. The Open World 
Program is unique among American exchange efforts. The Center's 
mission, scope, and results enable it to advance the overall U.S. 
agenda with Russia. It has been praised by business leaders, NGO 
leaders, political leaders, and citizens in both nations.
    This Subcommittee's support is essential. The Center's FY 2003 
budget request seeks to restore our initial funding level of $10 
million and absorb inflation in the United States and Russia over three 
years and the costs to be reimbursed to the Library for housing the 
Center, and the costs of applying the lessons learned over three years 
to provide the highest-quality program possible to 2,500 Russian 
political leaders in 2002.
    The United States has painfully discovered the consequences of 
abandoning public diplomacy and engagement in Afghanistan and other 
nations of the Muslim world. Russia is a key ally in the global war 
against terrorism. It is home to vast natural resources, huge and often 
ill-secured reserves of weapons-grade plutonium, and the world's 
largest land-mass with a largely unsecured border with China. The 
reasons to support our budget request for FY 2003 are straighforward:
    <bullet> The Open World Program is identifying and bringing to the 
United States the leaders throughout Russia who will be the United 
States' partners at negotiations on security, trade, and other issues 
in 2002 and beyond.
    <bullet> An investment of $10 million from the Congress in that 
next generation of leaders is a smart and economic step toward ensuring 
the future.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       Abraham Lincoln Commission

    Mr. Taylor. Mr. LaHood.
    Mr. LaHood. Let me just say I offer my thanks to the 
Library for the good services you have provided to the Abraham 
Lincoln Commission, which is a commission established by 
Congress to study what we should be doing to celebrate the 
200th anniversary of Abraham Lincoln's birthday. And the 
Library has been extraordinarily helpful to the Commission in 
getting it established and getting ourselves organized, and we 
are grateful to you for that.

              Congress' Utilization of Library's Resources

    If I could ask one question, how often, how frequently do 
the Members of Congress take advantage of the Library of 
Congress?
    Dr. Billington. Well, quite a lot. It is increasing, 
particularly use of the Members Room, which has had--I think we 
calculated that almost every Member of Congress has been in the 
Members Room--oftentimes more than once--for the various 
Members Congressional Caucus groups, and the Members Reading 
Room, which is increasing although still not as much usage as 
we would like to see.
    In terms of tours, I was here when you were talking about 
tours of the Capitol. The beautiful restoration which the 
Congress made to the Jefferson building has made it an 
extraordinary attraction, and the tours which are largely 
conducted by volunteers are growing tremendously. We now have 
the permanent rotating exhibit of the treasures of America and 
the treasures of the world both up, and these are very popular 
with constituents and with the same people who are touring the 
Capitol. So I think the realization is growing and I think we 
will grow more now that the tunnel has been approved from the 
Capitol Visitor Center to the Library's Jefferson Building; one 
of the historic functions of the Congress has been to preserve 
the creative legacy of the American people by copyright deposit 
and by the other voluntary deposits and acquisitions that we 
have made over the years and they continue to be made. And I 
think there is more and more awareness of it by Members of 
Congress and their constituents and more and more use of it.

                      Digital Futures Initiatives

    But the cow needs to be milked, and of course CRS and the 
Law Library I should mention as well, because the Law Library, 
which is the largest law library in the world, is also 
participating in this transformation in going into the digital 
age with its global legal information network, and it has very 
carefully planned to scale that up from 15 countries to 50 
countries.
    That is an important part of the general way in which we 
are bringing the digital world into the Library world so it is 
all of one piece and you could have one-stop shopping for 
information in the future. Congress has made steady usage of 
the Library and it is increasing. We are always anxious to know 
how we can be more responsive.
    Certainly the Lincoln Commission, the Lewis and Clark 
Commission, and the Veterans History Project, have had 
wonderful cooperation from the Congress with that. The 
Veteran's History Project was a congressional initiative which 
we are executing and many Congressmen are actually interviewing 
or helping arrange for the local institutions to get involved 
in interviewing the millions of American veterans who should be 
interviewed for this project.
    So I think more and more it is happening. I could give you 
more detail.

                       Use of Library's Resources

    Mr. LaHood. Let me just say this. What I have tried to 
persuade people that have come from Illinois and my district is 
that the Library of Congress is the most beautiful building bar 
none in Washington, D.C., particularly if you can have a tour 
of it. People always want to go to the White House and take a 
tour of the Capitol, but I try to push as many people as I can 
to the Library because it is the most extraordinarily beautiful 
building in Washington.
    But I wonder, could you just--and I know our time is 
limited--as succinctly as you can tell the subcommittee how you 
go about educating and encouraging Members of Congress to use 
the facilities, to use the Member Room, to use the Reading 
Room. I am just curious about that.
    Dr. Billington. Well, we do send regular mailings to 
Members of Congress to inform them of our services and 
facilities that are available to them. CRS and the Library 
sponsor a retreat every two years for new House members in 
Williamsburg, Virginia. We have briefings and we do quite a 
lot. But maybe we could do more. There are also concerts, movie 
showings, and lectures that members are invited to. We had a 
whole series on every movie shown Congress, which was a very 
large number.
    Of course, mailings come regularly to your office, but we 
would appreciate your suggestions of how we can do more and 
when there are specific initiatives, such as the ones that we 
have for Lewis and Clark, the ones that we have for the Lincoln 
Commission, the ones that we have for the Veterans History 
Project, we make an important point to inform the Members who 
are particularly interested.
    We are working closely with the Joint Committee on the 
Library, the oldest joint committee of the Congress. We have 
had a couple of briefings with their staff and we recently had 
an evening with most members of the Committee in attendance. So 
we try to get the word out as best we can. I think the main 
point is our increasingly electronic services and those CRS are 
providing, as well as the others that we have.
    In summary we have provided briefings, the new Member 
retreat, our Web site information, and tours. There were over 
100 congressional events held last year in the Jefferson 
Building. So I think the awareness of it is increasing and the 
use of it is increasing by Members. That is in addition to the 
normal usage.
    Once the building is connected organically with the tunnel 
to the Capitol Visitor Center, I hope that the usage will 
increase still more.
    Mr. LaHood. Thank you very much.
    Mr. Taylor. Ms. Kaptur.

                             VISITOR CENTER

    Ms. Kaptur. Thank you very much, and I wanted to 
acknowledge our Chairman's hard work on trying to build this 
Visitor Center and to take his own interest in history and make 
it more available to the millions of people who come here every 
year. And so thanks, Chairman Taylor, very much and welcome, 
Dr. Billington and General Scott. We are very happy to have you 
and your hard working staff with us today, and I envy all your 
jobs.
    I began my life working as a page in a library and it was 
one of the greatest experiences in my life, and I still miss 
it, believe it or not.

                      INTEGRATED REFERENCE SYSTEM

    I have several questions, one dealing with sort of an issue 
that I need help on and maybe you can give me some direction. 
In my own work I have a great interest in racial and ethnic 
histories. And as I travel across our country, I end up in all 
these museums and archives that really are local and not 
national. An example, in the City of Cleveland there is a 
Ukrainian museum and archives. And what is it? It is a giant 
house full of documents from the Diaspora. It is unbelievable. 
That is not even my district. Through volunteers, they are 
putting up, trying to catalog all this information.
    And I go to Chicago, I go to the Polish museum and I look 
at what is there, and it is more local and not national. One of 
my questions to you really is, how would I go about getting a 
list of where these places exist in this country and the nature 
of their collections and how they could be integrated into the 
information systems that we have? Is that a Library of Congress 
job or is that a Smithsonian Institution job?
    And believe me those aren't the only ones. I am sure I 
haven't found all the ones that exist. I know there are some in 
New York, in the southwest in Texas. I just don't know where 
one would even get a list of these institutions, and they are 
not libraries.
    Dr. Billington. The question of--and I will get Winston 
Tabb up here in a minute to talk about it because it is a 
question of how you get comprehensive--there are several parts 
of your question. How do you get comprehensive bibliographical 
information about where all the information on the Ukrainian 
Diaspora is, for instance? Let me mention a couple of things. 
First of all, we have been activating, and Mr. Tabb can tell 
you much more about it, an integrated reference system whereby 
you can get that kind of information by calling us. We have a 
collaborative relationship with other libraries around the 
country so it isn't too difficult to use us as a central point 
of entry into a network of information providers on this.

                         NDIIPP--LIBRARY'S ROLE

    Secondly, if you want to talk about actually getting the 
materials integrated into a national collection, that is part 
of the eventual digital virtual library, because we now have 36 
other institutions in America that contribute to the national 
digital library. It is now up to about 7\1/2\ million digital 
items of American history and culture. We are now getting into 
a position of where we want to get more diversity. There has 
been a lot of diversity right from our own collections, but as 
we have gone out in America--we raised $2 million from 
Ameritech a few years ago and had a national competition and 
everybody came up with proposals of historical materials that 
ought to be put on-line that is not just the bibliographic 
information about them, but some of the most interesting 
material----.

                     MARTIN LUTHER KING, JR. CENTER

    Ms. Kaptur. Could I just interject, Doctor? I just 
remembered another place I visited. Department of the Interior 
runs the Martin Luther King Center down in Atlanta and I 
visited there. I was exceedingly impressed with the videos and 
collections there, and I said, wow, I've got to get my school 
system to tap in here. Do you know there is no way to share 
that information from down in Atlanta through the Department of 
the Interior up to a district like mine or every other district 
in this country? I was shocked.
    And so I don't even know the dimension of my question. All 
I know is there is information out there that people can't get 
to if people don't live in the area. And in fact the 
Ukrainians, to complicate it further, one of their goals in 
Cleveland is to restore this information back to Ukraine 
someday. So there is an international dimension to this.
    I would like to maybe work with you to figure out how one 
would even identify these places, maybe survey our Members. I 
don't think I even have any institutions in my district, but as 
I have gone around my country, I see this hole that needs to be 
filled in from a collection standpoint.
    Dr. Billington. Well, first of all, another part of your 
question, the Library of Congress is the right place, because 
this is a kind of information. If it is manuscript information, 
if it is published information, we are the right central 
national institution to be involved in this. But I think that 
the point is once it is on the Internet, and our entire 
bibliographic record is on the Internet, so everything we have 
published is on the Internet, that is a form of reference and 
it is available everywhere in the world and available in the 
Ukraine. We have a lot of downloading from our information in 
the Ukraine. Potentially with both the virtual library that we 
are creating of original documents and materials on-line, there 
could be a section from this or from other ethnic groups 
getting their materials on-line. We already have some things 
like that. And secondly, there is information beyond what is 
already on-line from our catalog, which is entirely on-line. 
There is information through this reference service, and maybe 
I will give it to Mr. Tabb.

                        AMERICAN FOLKLIFE CENTER

    Mr. Tabb. I only had two additional points. First, getting 
a list of these museums or these kinds of entities. We have 
some lists of this sort. Second, I think the kind of thing you 
are interested in is very much part of our American Folklife 
Center's mission. This is an organization that has been at the 
Library for 25-plus years, which was made permanent by Congress 
2 years ago.
    What I would like to suggest is that I come over with the 
Director of the American Folklife Center and talk with you 
about ways in which that group, which comprises Members 
appointed by the Speaker of the House and the Senate leadership 
and representatives of various Federal agencies is really 
wanting over the next few years to think about ways of more 
fully documenting groups like the Ukrainians and others who 
come to the United States and have become American, but bring 
their own traditions and meld them into the fabric of America. 
So if I could, I would like to schedule a follow-up visit.

                            UKRAINE ARCHIVE

    Ms. Kaptur. I would really appreciate that because it is 
even hard for me to probably state the question I am asking. 
All I know is I stumble over all these questions and I know 
they are valuable. Certainly some of the documents from Ukraine 
that these people brought, news letters and news letters from 
the camps--I certainly know that doesn't exist over there, I 
mean back where these people came from. Oh, I would really 
enjoy that. I think this is a whole area that we are now in our 
third century, we can unearth and ultimately share back and 
also share--when I mentioned Martin Luther King Center down in 
Atlanta, those collections should be available to students and 
teachers across this country.
    Dr. Billington. We have had extensive discussions. There 
are problems of who owns things because when we put everything 
online--you must realize everything is free. It is a free 
public good, and if somebody feels that they own intellectual 
property or there is some doubt as to who really owns a 
document or some controversy we can't resolve, we have to 
respect that because we are in the free public good business.
    We are the cornerstone of the great American public library 
tradition, which is open and free to everybody. We are putting 
this material online and therefore questions of ownership have 
to be considered--but I think probably this Ukrainian archive 
you are referring to would not be difficult.

                      JOINT COLLABORATIVE PROJECTS

    Ms. Kaptur. And now I have so many questions. I get so 
excited about this, I can't get off of it, but I have requests 
from teachers in a diverse community like mine for materials 
that could help them help their students become interculturally 
competent. So I think that this particular center could be very 
helpful to us in terms of just information that is unearthed 
and organized in some reasonable way. I have been very 
surprised to hear this request from teachers in our public 
school systems because I would have thought those kinds of 
materials would be easily available. Apparently not, even from 
very experienced teachers from across our country.
    With 9/11 and all the other issues, it seems these kinds of 
collections and their enhancements could be very helpful to the 
republic.
    Dr. Billington. Absolutely, and we have several joint 
collaborative projects. There is Meeting of the Frontiers 
Project with the Russians, which has our materials and the 
materials of the two national libraries of Russia. There is an 
agreement with two institutions of Spain, the National Library 
of Spain and the Library of Columbus' Son, the Columbina in 
Seville, under the Archbishop of Seville. Both are very 
interesting, wonderful collections with early history of 
Spanish things.
    We are working on a project with Brazil. We are talking 
with the Vatican. Our marvelous Chief of Staff, Jo Ann Jenkins, 
was just over there talking with them about a project.
    So we are going to be bringing a variety of different 
cultures and materials on-line in joint agreements with foreign 
people who want to collaborate with us, and I think this will 
help enrich this as well.

                     ARCHIVES OF AMERICAN FOLKLIFE

    I think Mr. Tabbs' suggestion about the Archives of 
American Folklife is absolutely right. That was founded in 1976 
precisely by the Congress because in celebrating the 
Bicentennial of the country they wanted to celebrate a little 
bit more of the popular, the diversity, and so forth.
    Ms. Kaptur. And Senator Warner chaired that. Senator Warner 
was one of the co-chairs of that.
    Dr. Billington. And Mrs. Boggs was champion, Senator 
Hatfield, many others, and that is the perfect instrument and 
we have real dynamic leadership there and a good board and 
permanent status, thanks to the Congress a couple of years ago, 
as Mr. Tabb was saying. I think that is a good way of following 
up on that.

                             VISITOR CENTER

    Ms. Kaptur. I would appreciate that very much, and I am 
going to turn to a different subject very quickly, and we 
talked a little bit about the Visitor Center and I have 
questions more for the Architect more than you on this issue 
but I wanted to sensitize you to it.
    For a very long time I have tried to get the art work and 
the collections that are displayed in the Capitol more 
representative of the contributions of women to American life. 
It has been an unbelievably difficult road, and I only tell you 
this because as the new Visitor Center is built and if the 
tunnel is successful and whatever artifacts are put in there 
and however we choose to use visuals, I would just hope half of 
our population not be ignored and that Pocahontas not be the 
only person people see when they come through the Capitol. We 
really have to think hard about this because we want to be 
historic and we also want to be accurate. We also have to think 
about our youth coming through here and the images that they 
see and what influences them and whether they could be here and 
whether their lives mattered in the lives of their mothers and 
grandmothers in the history of the United States. I think we 
need to do a much better job of this.
    The first time I asked this question the first response I 
got back from the Architect, well, Congresswoman, we got a lot 
of paintings done by women. I said that is important, but also 
the way that we represent what they have done is important. So 
I hope you can play a constructive role as we move forward on 
this.

                             AMERICAN WOMEN

    Dr. Billington. Thank you. We currently have on display the 
Margaret Meade exhibit, one of our great pioneers of modern 
anthropology. We have also just published a marvelous guide to 
the study of women's history in the Library of Congress. It is 
an enormous guide.
    It is one of its kind and is interesting and fun to read. 
We will get you a copy of course. It has just been published. 
We have an earlier one called the African American Mosaic, 
which was a definitive bibliography of the rich variety of 
movies, posters, handbills, and other items. We have a 
marvelous archive of women's history, including a great deal 
that is on-line, so that for your teachers who want to stress 
the role of women, for example, Susan B. Anthony papers, all 
kinds of other important things in the history of the women's 
movement, we have whole archives on this and it is discussed in 
this publication in an interesting way that you can share with 
others.
    We are certainly conscious of this, and I appreciate your 
mentioning it.
    Ms. Kaptur. You reminded me of something. When I wrote my 
book, Women of Congress: A 20th Century Odyssey, I thought it 
would be an easy book to write. And what I found around the 
country had archives that had never been gone into. I have a 
painting of Mary Norton from Jersey City, New Jersey, a very 
significant figure in the history of this Congress. And she had 
written an autobiography and it was only available at the 
Jersey City Public Library. I couldn't believe that that was 
the only place that this was housed.
    I would encourage people in your institution especially if 
women Members have written about themselves or their lives or 
the early women and some of their collections, that needs to be 
made a part of whatever you have over there. I actually was 
discouraged as I went around and thought this is how much they 
were thought of that they had to--Frances Bolton, who had 
enormous wealth, was able to hire a writer to tell her story.
    But it was amazing to me these forgotten collections all 
around the country. So it was a very hard book to write because 
I had to piece together a lot of it myself. But I would 
encourage you to look at those collections and digitize them or 
something so they are out there.
    Senator Margaret Chase Smith of course had the Big Little 
House up in Maine, where she has a lot of those materials. She 
knew what she did was very significant, but it isn't easily 
available. None of this is put together in a way that other 
countries can use it.
    So I would mention that as an aside.
    Dr. Billington. We have been working with the Museum of the 
First Ladies that is in Ohio. Mr. Tabb, would you like to add?
    Mr. Tabb. No.
    Dr. Billington. But I think when he brings over Peggy 
Bulger, our dynamic head of the Archive of American Folklife, 
you can talk to her about this, too, because there may be some 
acquisitions or things that we ought to be trying to acquire 
for the national collection or thinking of digitizing in the 
future, and we certainly welcome input from teachers. Our whole 
digital effort is designed to enrich the educational experience 
of Americans and we need to have input from teachers. We have 
had input from numbers of teachers and we want to get more of 
their thoughts as to what they need to make the teaching 
experience more real.

                      CONSTRUCTION OF THE CAPITOL

    Mr. Moran. Would the gentlelady yield just in the context 
of fleshing out the whole of history. This building, as I 
understand it, was actually constructed by slaves. There is no 
way that you would ever know that in going through the history 
of the Capitol. And it might be interesting to have some of 
that history reflected, which I think is part of the fleshing 
out process of history. So if the Library of Congress had 
anything about that, I think that would be of interest to 
people.
    Ms. Kaptur. I thank the gentleman for that suggestion and 
support him in that. The history of laboring people is often 
forgotten in the collections of the world. That is for sure.
    I wanted to ask a very simple question, 10-second answer, 
the heating, cooling and power you receive at the Library of 
Congress, does it come from the Capitol power plant or do you 
acquire it otherwise?
    General Scott. We get all of those from the Capitol power 
plant.

                   RUSSIAN LEADERSHIP CENTER/PROGRAM

    Ms. Kaptur. And then a final question, and this deals with 
the Russian Leadership Program and I have a deep interest, as 
do you, Dr. Billington, in the entire former Soviet Union and I 
know that there is some primacy given to the Russian exchange 
as opposed to including Belarus, Moldova, Ukraine, many of the 
other countries. I would have to say that this troubles me and 
I just wanted to put it on the record. Maybe we can think 
through what can be done to augment the important beginnings 
you have made with the Russian exchange program.
    I think the policy of our country toward the former Soviet 
Union is totally lopsided, and it is not only the Library but 
let me give you an example from the Agriculture Committee. If 
you look at food donations and assistance we have given to 
Russia compared to Ukraine during this transition period, there 
is absolutely no comparison, 1 billion to maybe a million or a 
few million dollars. It is so lopsided. Both countries are 
important. The smaller countries around, Moldova, Belarus, very 
important. In fact Belarus is struggling more than many of the 
countries in the region.
    I would just appreciate any thinking you could give us on 
how to expand your leadership program to include these other 
countries, because they all have to move forward. And I don't 
think that us sending a signal that this is more important than 
this is a proper approach from the government of the United 
States. So it isn't your fault. It was mandated by the 
Congress. You obviously agree and know that this is important, 
but I just would urge you to give me any thinking you might 
have on how to broaden this.

                  UKRANIAN CENTRAL INFORMATION SYSTEM

    Back in February, we received a letter from the Ukrainian 
Central Information System, which is a group of people in our 
country and on our continent concerned about that particular 
nation, asking is there any way, we are facing these elections 
in Ukraine and we know all the problems, we need help. I have 
traveled over there several times. I co-chaired the Ukrainian 
Caucus here. And the exclusion of these other countries is 
troubling to me. And I am wondering if you have given any 
thought to that. How do we broaden this? What can we do? They 
all need help and they need it yesterday.
    Dr. Billington. Well, I sympathize very much with what you 
are saying and appreciate the passion and concern as well as 
the substance of what you are saying and I share it. I think 
there are several ways this could be done. One could add this 
to the existing program. We have an independent board which has 
just met for the first time. So it has an independent status 
and it would be perfectly possible to fold it in. Whether it 
was folded in or set up perhaps as a supplementary program, it 
should begin as the Russian Leadership Program did, with a 
pilot to test it and see how it would best work. In the 
situation in Ukraine, I quite agree with you. I think the need 
in Ukraine, if anything, is perhaps even greater. They don't 
have oil and energy to export so--and of course it is a great 
historic country, much the size of France. And these other 
places are important as well.
    So we would be happy to be responsive to the Congress on 
this. I would think it should begin with some kind of pilot 
program. It could have a separate existence or be incorporated 
into it. It would be a shame, I think to just carve it out of 
the existing program because the existing program really has 
tremendous momentum. And our relations with Russia are at a 
crucial stage. And even our relations with the Ukraine 
ultimately depend on having the democratic experiments succeed 
in Russia because if they turn into an inward looking 
nationalist direction, the first people who will know it and 
will suffer from it are their close neighbors in the Ukraine.
    So I quite agree that Ukraine is extremely important, as 
Moldova and Belarus that you mentioned. Others have mentioned 
Georgia, where we now have a special interest in the war on 
terrorism as a possibility. So we would be very receptive to 
whatever the Congress would instruct us to do, but I would just 
urge that it be additive rather than subtractive because you 
know, the old origins of this is attempting to replicate in 
some small way what we did with the Marshall Plan. 1.5 percent 
of the Marshall Plan was spent bringing young Germans over. 
That made all the difference. It is probably worth everything 
else because these are not unintelligent people and they are 
clear, certainly in the Ukraine as they are in Russia, that 
they are trying to launch a democratic experiment. It is just 
that they have never, most of them, had the firsthand 
experience of seeing how it works in a community, in a total 
immersion kind of program such as this is.
    We would be very supportive of this, but we appreciate we 
must respond to our instructions from the Congress.
    Ms. Kaptur. And I am not against Tajikistan and Kazakhstan. 
In fact, they are very important in all of this. But just to 
pick only one country makes me really uncomfortable. And so if 
we could augment it in some way, I appreciate your openness on 
that.
    As a part of your program, do you ever have extra books 
that you are able to mail to Russian libraries, books written 
in English. Have they asked you for this as a part of this 
program?
    Dr. Billington. We have done some of that. We have done 
some sending of books and we have gotten others to encourage 
others to do this, but I don't know.
    We have exchanges of course, very extensive exchanges with 
institutions in Ukraine.
    Ms. Kaptur. I would just mention Ukraine. In the event that 
you do have extra books, I know you know of Kyiv-Mohyla in 
Kiev, and their counterpart academy, which is a rural academy 
called Ostro Academy. They are looking for books in English.
    Dr. Billington. And that is where the first Slavic Bible--
first publication in the Slavic world.
    Ms. Kaptur. I had visited their library. In fact, I was 
shocked when I went in there. They have these incredible old 
documents and collections. There are no--what do you call it 
when you control something for humidity--climate control, and I 
saw these things and I thought, oh, my goodness, and they are 
sitting out there in these little glass cases and it is so 
valuable. And I just think the library collections of that part 
of the world, boy, you could really make a difference there and 
they want it and they mainly now--they don't even know what we 
can do with climate control with some of these historic books.
    Dr. Billington. We have had some librarians from Ukraine on 
the Soros fellowships and other exchanges, so we had some from 
Ukraine but----
    Ms. Kaptur. Thank you, Mr. Chairman.
    [Clerk's note.--Following are the questions submitted to be 
answered for the record from Ms. Kaptur.]

        Congressional Research Service--Staff Training Programs

    Question. The programs offered by CRS and the Library are very 
important for our staffs. Can you tell me what procedure you follow for 
evaluating these programs to determine which programs should be 
continued, discontinued, or added?
    Response. Program evaluation is accomplished through both formal 
and informal feedback. Evaluations are distributed at every CRS 
training program and seminar and are tailored for the specific event, 
but most focus on content, relevancy, handouts and logistics, as well 
as speaker expertise and presentation. Attendees are also encouraged to 
include narrative comments. The evaluations are reviewed by CRS Program 
Section staff, speakers, and senior management. Annual reviews of 
program attendance statistics are also important. Other feedback is 
obtained through surveys of congressional staff, the CRS Comment Line 
(202-707-3915), and for comments obtained through other outreach 
efforts such as the House Services Fair. CRS utilizes the information 
obtained to assess: (1) the value its programs to the Congress; (2) the 
frequency of presentations (given resource constraints and attendance); 
and (3) modifications (additions or deletions that would be advisable 
to better meet congressional needs) as expressed in feedback and in 
conformity with CRS' statutory mission.
    Question. Which programs are most frequently requested that you do 
not currently offer? Why are these programs not offered?
    Response. CRS is currently unable to accommodate all congressional 
staff who want to attend the CRS District/State Staff Institute, which 
is offered only three times each year. This three-day program offers 
practical guidance on the work of those offices. Despite the high 
demand for attendance, CRS has not been able to offer the program more 
often and must limit attendance to one representative from a Member 
office, due to staffing shortages in CRS. However, CRS hopes to expand 
the number of Institutes with the anticipated hiring of two new event 
planners in June or July of 2002. CRS has also received requests for 
writing classes.
    Question. What programs do you offer that can assist staff in 
improving writing and other general skills? Are there writing and other 
skills training programs offered to congressional staff by entities 
other than CRS?
    Response. Writing courses fall outside of CRS's statutory mandate 
and are offered by the Office of Training, Chief Administrative Officer 
(CAO). For example, CAO offers a course entitled ``Effective Business 
Writing'' as part of its employee development and orientation program. 
The course is specifically tailored for House staff and teaches how to 
``effectively and professionally write business correspondence and e-
mail to customers and colleagues.'' This course is offered twice a 
month. More information about this course and others offered by the CAO 
can be found at http://onlinecao/trainingcatalog.
    While not providing specific programs on writing and other general 
skills, CRS does offer a wide range of self-help materials to assist 
congressional staff. Print publications such as Speechwriting and 
Delivery (InfoPack 139S) and holiday related information such as 
Memorial Day: Speech Material (InfoPack 376M) are very popular. 
Comprehensive information on speechwriting can be found on the CRS Web 
site at http://www.crs.gov/reference/general/speechwriting.shtml. CRS 
recently introduced a new CD-ROM presentation entitled Grants Work in a 
Congressional Office. This PowerPoint briefing with audio narration 
provides comprehensive information on how to handle requests for grants 
and federal domestic assistance for district and state offices. 
Detailed information for congressional staff on grants can be found on 
the CRS Web site at http://www.crs.gov/reference/general/
grantsinfo.shtml.

                     WORLD WAR II VETERANS HISTORY
    Question. I am interested in learning more about your Veterans 
History Project. As you know, the World War II Memorial is currently 
under construction. Veterans from our greatest generation are passing 
away with greater frequency, taking with them priceless accounts of 
their experiences and feelings. What are you doing to try to collect 
these recollections so that they can offer the personal side of the 
history of the world-changing period?
    Response. The Veterans History Project (VHP) was charged by 
Congress to collect the first-hand accounts of veterans of World War II 
and other wars on audio and video-tape and as written memoirs, along 
with documentary evidence such as letters, diaries, and photographs. 
These are the records of the everyday ``unsung'' heroes of our American 
fight for freedom and democracy. This is a national educational and 
volunteer project. To date, the Library has 220 Official Partner 
organizations participating in identifying veterans (as well as support 
personnel who served our country), and recruiting volunteers to 
interview them. These partners include organizations such as veterans 
service organizations, libraries, museums, historical associations, 
schools, and civic groups. The Library is providing complete 
instructions and examples on a web site and are distributing 40,000 
instruction kits. Most of the responses the Library has received are 
from WW II veterans, even though the mandate includes WW I and the 
Korean, Vietnam, and Persian Gulf Wars. If is early in the project, and 
we expect to hear from thousands of WW II veterans and their families.
    Question. To the extent that you are collecting this information, 
how would veterans who have something to offer know how to contact you?
    Response. Veterans are finding the Library on its Web site, 
www.loc.gov/veterans are and calling on our toll-free message line: 
888-371-5848. The Veterans History Project is being publicized through 
our corporate partner, AARP, and outlets such as Readers Digest, CNN, 
and the Washington Post. The major veterans organizations have 
publicized the program, as is being done the U.S. Department of 
Veterans Affairs and through other official partners. The Library has 
completed three mailings to all Members of Congress urging them to 
contact their veterans groups, speak about the project, and help get 
the word out. We are hearing from as many as 250 people a day.
    Question. Have you yet identified other collections that should be 
included with this veterans project?
    Response. Yes. The Library is identifying other veterans oral 
history projects around the country, mostly in colleges, universities, 
and military archives. We have a cooperative relationship with many of 
them. We are not attempting to collect all of their material at the 
Library; instead, we direct those who are interested to these other 
resources. All repositories of veterans histories will ultimately be 
linked via the Internet to the Library's Veterans History Project 
website.

                           CLOSING STATEMENT

    Mr. Taylor. Thank you, Ms. Kaptur. By the way, the 8 
million items that are being digitized will be available all 
over the world through the Internet in English, and the Russian 
items that are being digitized will be in both languages, as 
well as the rest of the world, including the Ukraine. So that 
is available even as we are speaking.
    Dr. Billington, General Scott, I appreciate it. I know you 
have almost 5,000 FTEs. The problems of hiring and maintaining 
a work force that large is always a challenge, especially with 
the rules you have to work with. But I would like to thank you 
and your staff for the bread and butter areas, providing the 
largest library in the world, maintaining it, making it 
available to Congress and at the same time cooperating with the 
rest of the libraries in the country and in the world. The work 
of the CRS to serve the Members of Congress as we try to serve 
our constituents. The fine work that you have been doing in 
digitizing, as you mentioned, in Spain, the Vatican, Russia, 
and other parts of the world, because that collection goes into 
our library supplementing the items that we have there as well 
as providing for young people and teachers through pilot 
programs that the Library is now functioning with, and also 
your courage to promote exchanges with Russia and perhaps 
others in the future. We thank you for the service and all of 
your staff, and thank you for coming today, and this hearing is 
concluded.
    [Recess.]
                                         Wednesday, April 24, 2002.

                       GOVERNMENT PRINTING OFFICE

                               WITNESSES

ROBERT T. MANSKER, DEPUTY PUBLIC PRINTER
FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
ANDREW M. SHERMAN, DIRECTOR OF CONGRESSIONAL AND PUBLIC AFFAIRS
R. BRUCE HOLSTEIN, COMPTROLLER
CHARLES C. COOK, SR., SUPERINTENDENT OF CONGRESSIONAL PRINTING 
    MANAGEMENT
WILLIAM M. GUY, DIRECTOR, BUDGET OFFICE

                           GPO Budget Request

    Mr. Taylor. The Legislative Branch Subcommittee will come 
back to order. The subcommittee will now consider the fiscal 
year 2003 budget for the Government Printing Office.
    We want to welcome all of you gentlemen here today. The 
budget request totals $122,445,000. This is an increase of 
$7,806,000 over the fiscal year 2002 enacted level. There are 
two appropriation accounts involved, the Congressional Printing 
and Binding Appropriation, $90.1 million, and the 
Superintendent of Document program, $32.3 million.
    Mr. Mansker, would you like to introduce your staff? You 
can submit your prepared statement for the record, but you can 
open with comments as you or your staff would like.
    Mr. Mansker. Thank you, Chairman Taylor and Congressman 
Hoyer. It is a pleasure to appear before you to present the 
GPO's budget request for fiscal year 2003. Public Printer 
DiMario regrets that he is unable to be here today, but he has 
submitted his official statement for the record.
    [The prepared statement of the Public Printer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



              INTRODUCTION OF WITNESSES AND BUDGET REQUEST

    Mr. Mansker. With me today are Fran Buckley, Superintendent 
of Documents; Andrew Sherman, the Director of Congressional and 
Public Affairs; and Bruce Holstein, who is our Director of 
Financial Management. We have Charlie Cook, who is the 
Superintendent of Congressional Printing Management; and we 
have Bill Guy, who is Director of the Budget Office. They will 
join me today in any information that you might need.
    With your permission, I will briefly summarize the Public 
Printer's prepared statement, which has been submitted.
    GPO's original request for fiscal year 2003 was for a total 
of $129.3 million. This included $95.2 million for the 
Congressional Printing and Binding Appropriation, and $34.1 
million for the Salaries and Expenses Appropriation for the 
Superintendent of Documents. At the direction of the Office of 
Management and Budget, the request includes $6.9 million in 
accordance with the Administration's proposal to charge 
agencies for the full cost of post-retirement benefits for the 
employees covered by these appropriations.
    Since that time, we have submitted a request for a 
supplemental for fiscal year 2002 for $7.9 million. This 
includes $5.9 million to fund the shortfall in the fiscal year 
2001 Congressional Printing and Binding Appropriation. We are 
also requesting $2 million in the supplemental for an asbestos 
abatement project in our central office building.
    If the supplemental is approved, our total requirements for 
fiscal year 2002 will be reduced to $123.4 million. If the 
supplemental is not approved, however, we will need the 
shortfall funding restored to our fiscal year 2003 request.
    For Congressional Printing and Binding, we are requesting 
funding at levels sufficient to ensure that the costs of 
Congress' printing and information product needs are fully 
covered. The funding we are requesting for fiscal year 2003 is 
at a full-cost recovery level. No shortfall is projected for 
fiscal year 2002.
    For the Salaries and Expenses Appropriation, we are asking 
for an increase to replace obsolete formats, servers and other 
equipment, and for improvements to enhance on-line services 
provided through GPO access. It is essential that we enhance 
our data archiving capabilities, including data migration 
activities to refresh essential legislative and regulatory on-
line files.
    On-line formats are now the primary means of dissemination 
in the Federal Depository Library program. We are continuing to 
transition the publications distributed to depositories to 
electronic formats as quickly as we can without jeopardizing 
public access to titles for which there are no dependable 
electronic equivalents.
    Finally, we are seeking a legislative change to adjust the 
statutory pay for the Public Printer and the Deputy Public 
Printer. This will restore appropriate comparability with other 
legislative branch agency heads, senior staff in the House and 
the Senate, and senior staff in the executive branch. We make 
this request in the interest of future GPO leaders, not 
ourselves, because GPO may have new people coming in very 
shortly.
    Mr. Chairman, this concludes my prepared statement, and I 
will be pleased to answer any questions that you may have.

                          DETAILS TO CONGRESS

    Mr. Taylor. Thank you, sir. You are requesting $2.3 million 
for costs associated with staff being detailed to Congress. 
This program has 38 FTE's associated with it, of which about 
$1.6 million, or 68 percent, of this is in direct support of 
the Senate.
    What services do these individuals provide?
    Mr. Mansker. Mr. Cook can give you that. He is in charge of 
that service.
    Charlie, do you want to come up?
    Mr. Cook. Mr. Chairman, details to Congress provide 
prepress assistance to the committees and support offices of 
both the House and the Senate to prepare the documents that 
they are responsible for printing, for both print and on-line 
dissemination.
    Mr. Taylor. I understand that all House committees 
reimburse GPO from their committee funds for staff detailed 
from GPO to House committees. Is that not true?
    Mr. Cook. That is true.
    Mr. Taylor. What about the Senate? They haven't gotten the 
word?
    Mr. Mansker. Mr. Chairman, each House has its own ability 
to pay for these services in whichever way they care to do so. 
We don't try to make any distinction between whichever way they 
may choose. So the Senate does pay for theirs out of 
Congressional Printing and Binding (CP&B). The House committees 
pay for theirs basically out of House committee funds. However, 
support offices in the House continue to pay for it out of 
CP&B.

                     INTERNATIONAL EXCHANGE PROGRAM

    Mr. Taylor. You distribute government publications to 
foreign governments that agree, as indicated by the Library of 
Congress, to send to the United States similar publications of 
their governments for delivery to the Library of Congress.
    How does the GPO or the Library determine, in fact, who 
will receive the exchanges?
    Mr. Buckley. Under the International Exchange Program, 
there are treaties with foreign governments, and agreements 
between libraries in those countries in terms of exchanging 
official publications of that foreign country with the Library 
of Congress. The LOC administers this program. GPO only acts in 
a ministerial fashion, shipping publications to those 
libraries, as determined by the Library of Congress, and then 
they send their publications back to the Library of Congress.
    Mr. Taylor. In the last 5 years, has any government been 
added or deleted from the exchange program?
    Mr. Buckley. There have been individual libraries who have 
been added or deleted within countries, as determined by the 
LOC, but I don't believe there have been any countries that 
have been added or deleted from this program.
    Mr. Taylor. In light of September 11th, have you made any 
changes to the participation, operation, security, or other 
factors that may or may not have been in consideration prior to 
September 11th?
    Mr. Buckley. As required by the LOC, the materials that we 
include in the program are public documents, it is a subset of 
the public documents that GPO includes in the Depository 
Library Program, so they are all publicly releasable materials. 
The LOC does not require GPO to distribute classified, 
administrative, or official materials, so nothing that has been 
sent has been asked to be withdrawn.
    The LOC has not required us to make any changes. The 
agencies decide they are releasing a publication, and if they 
release it, and LOC includes it in the programs, then GPO 
proceeds with distribution.
    Mr. Mansker. Mr. Chairman, our function is basically 
distribution. All of the decisions on what is included in the 
program are basically made through the agencies and through the 
Library of Congress.

                          WORKERS COMPENSATION

    Mr. Taylor. The committee understands that your auditors 
advised you to increase your long-term liability for Worker's 
Compensation from $35 million to $60 million; and further, we 
understand your annual cost for Worker's Compensation is over 
$5 million. This amount is 62 percent higher than the Architect 
of the Capitol, whose cost is $3.1 million.
    Can you tell us the number and types of injuries that your 
employees have sustained that cost in excess of $5 million a 
year?
    Mr. Mansker. We have one of the few what I call ``red brick 
building/blue collar agencies'' in the government, and we have 
a workplace that white collar agencies would not have. We see 
back injuries, predominately and other kinds of minor injuries 
dealing with our production facility that you would not have in 
a regular agency with white collar workers.
    All those go together to make up a higher level of payments 
than you would have in white collar agencies. But we fit right 
in line basically with the Bureau of Engraving, the Mint and 
agencies with missions similar to ours.
    Mr. Taylor. The Architect of the Capitol has a minority of 
white collar workers. They have a lot of maintenance workers 
and those sort of trades workers that should get injuries the 
same as the GPO but they have less cost for workmens 
compensation.
    Do you have a worker safety program?
    Mr. Mansker. Yes, sir, we do have a worker safety program. 
As a matter of fact, the GPO has a comprehensive safety and 
health program that has been recognized by GAO as an 
outstanding health program.
    We have moved aggressively over the past 15 years to reduce 
and eliminate, wherever possible, injuries that may occur 
through things like manual lifting. We have been accomplishing 
that through purchasing machines such as robotic lifts. That 
has cut way down on our injuries. GPO has a much larger 
workforce than AOC, which may account for the cost difference.
    Mr. Taylor. Why is your auditing firm recommending such a 
big jump in the long-term liability, and what is the basis for 
that increase?
    Mr. Mansker. That is under our Worker's Compensation 
program, and they have audited our books for a number of years 
now, 4 or 5 years; and since 1997 when we undertook to try and 
figure out what exactly was the best figure for GPO, they have 
confirmed our figures and confirmed our statistical analysis. 
Then, this past year, they changed some of the assumptions that 
have been made, so that is the reason for the rise.
    It is not an out-of-pocket expense; it is just a 
forecasting of liability that we have concurred in this year 
with them. Next year we fully expect to find an outside 
actuary, so there won't be any questions to arise as to whether 
or not there is a continued increase. But we have had their 
actuary, the auditing firm's actuary, confirm our figures and 
have received a clean report every year.

                      INTEGRATED PROCESSING SYSTEM

    Mr. Taylor. You have an information system project called 
Integrated Processing System, IPS, that has been under 
development for the past 5 years. The committee understands 
that your auditors have recommended a write-off of $12 million 
for this project.
    What is the IPS system and why has it been in development 
for 5 years? If, after 5 years, you are not in full production, 
do you think maybe, you purchased the wrong system?
    Mr. Mansker. I will let Mr. Buckley speak to that. He is 
the superintendent that is operating the IPS.
    Mr. Buckley. The Integrated Processing System is a software 
application that is going to support our whole sales operation 
from the order intake process, to inventory, to the production 
of picking tickets. It will replace nearly 20 legacy systems 
that operate independently to perform these functions 
separately.
    We originally bought off-the-shelf software for this 
project. Unfortunately, a great deal of modifications have had 
to be added to that to completely integrate those software 
packages and to develop functionality that was not available 
off-the-shelf, particularly to manage the whole process of 
subscription ordering and handling the subscription items.
    We have been in development for a considerable period of 
time. We have been testing and evaluating the system, and in 
fact, just recently had our Inspector General go through a 
review of the system. He has determined that it is now fully 
functional, and we are beginning operational activities.
    The answer to your question of whether we purchased the 
wrong system is: I don't think so. We procured what was 
available at the time, and we have been enhancing that to 
perform the functions that we need to have in support of the 
sales operation.
    Mr. Mansker. Mr. Chairman, I might add, while the system we 
have and are implementing is a few years old at this point in 
time, what it is replacing are very old systems. They have been 
with us a long time at GPO and performed very well. But this 
will allow us to save a great deal of money for the agency.
    Mr. Taylor. I have several other questions, that I will 
submit to be answered for the record.
    [The questions and responses follow:]

                   Congressional Printing and Binding

    Last year, the Committee provided $9.9 million for the 
Congressional Printing and Binding Appropriation to cover the fiscal 
year 2000 shortfall. In this budget request you are asking for $5.9 
million to cover the estimated fiscal year 2001 shortfall. This is $4 
million less than the fiscal year 2000.
    Question. Were printing demands by Congress less during fiscal 
2001?
    Response. Yes, there was a reduction in Congressional printing 
demands in 2001 from 2000.
    Question. You say this is an estimate of the FY 2001 shortfall. Is 
this still an ``estimate'' of the shortfall?
    Response. This is referred to as an ``estimate'' because about 5% 
of the work on 2001 obligations has not been completed. The 
``estimate'' would actually cover only the 5% of the work on 2001 
obligations that has not been completed; so, we are extremely close to 
being fully accurate and complete in this request.
    Question. Are we to expect further requests for this?
    Response. No, any variance due to completing the remaining work 
should be minimal and can be handled through normal budgetary 
adjustments.
    Question. You have requested a 13 percent increase in funding for 
``Hearings'' and a 47 percent increase for ``Committee Prints''. We 
understand this is based on historical data. Is there such a tremendous 
difference from one session of the Congress to the next--or from one 
Congress to the next--that justifies such an increase?
    Response. The estimate for Hearings in 2003 is the average of 1999, 
1997, and 1995 actual data, representing typical first sessions. There 
does not appear to be a strong cyclical pattern by session of Congress 
of hearings volume. The increase projected for 2003 is based on a 
gradual return to more typical levels from the unusually low level 
experienced in 2001. In the case of Committee Prints, there is a very 
strong cyclical pattern in the volume of printing by session of 
Congress. Over the past eight years, first sessions averaged 70% more 
volume in this category than second sessions. The volume increases we 
have projected for these and other categories of work are offset by 
estimated decreases in other categories of work.

                        MANDATORY PAY INCREASES
    Question. Under price level changes you are requesting a 4.5 
percent increase for mandatory pay increases and cost recovery of 
current services. What is the dollar breakdown between pay and cost 
recovery?
    Response. The increase requested in the Congressional Printing and 
Binding Appropriation for mandatory pay and related costs is 
$3,360,000. The increase requested for price level increases is 
$323,000.

                      SUPERINTENDENT OF DOCUMENTS
    Question.Under Cataloging and Indexing, you say ``It is necessary 
to modernize the obsolete cataloging system that has been in use for 
over 25 years.'' What plans, if any, do you have for achieving this?
    Response. In order to continue the congressionally mandated 
transition to more electronic Federal Depository Library Program 
(FDLP), the Library Programs Service (LPS) must in invest in systems 
modernization. The legacy mainframe systems are obsolete, costly to 
operate and maintain, and pose a significant vulnerability to Program 
operations due to their reliance upon obsolete programming languages. 
They also lead to duplication and inefficiencies in work processes, 
provide only segmented and untimely exchange of data, and are extremely 
costly to modify.
    The online environment has also enlarged our user community beyond 
the walls of the libraries in the FDLP and raised the service 
expectations for delivery of electronic U.S. Government information 
products. Public Law 103-40 requires LPS to provide access to online 
resources, which involves the creation of new products and locator 
services. Our current automated systems do not have the flexibility, 
the accessibility, or the interoperability to deliver these products 
and services.
    The emergence of the electronic FDLP means that LPS now has a 
distributed library collection of electronic resources to manage and 
maintain. The Federal Depository Library Program Electronic Collection 
(FDLP/EC) was established to fulfill the permanent public access 
obligation mandated by 44 U.S.C. Sec. 1911 and Sec. 4101(a)(3) of the 
GPO Access Act of 1993. The need to manage and maintain a collection of 
online materials requires a new workflow that the current systems 
cannot accommodate. In addition, LPS requires the cataloging 
functionality of a commercial Integrated Library System to efficiently 
and effectively carry out the Cataloging and Indexing requirements of 
44 U.S.C. Sec. 1710-1711.
    Question. You are requesting an increase of $348 thousand dollars 
to replace legacy-automated systems for processing publications. What 
are these legacy systems?
    Response. GPO plans to replace four legacy mainframe applications 
that have been in use from ten to twenty-five years. They are:
          Congressional Serial Set Cataloging publishing system (CSSC)
          Monthly Catalog Publishing System (MOCAT)
          Depository Distribution Information System (DDIS)
          Acquisitions, Classification, and Shipping Information System 
        (ACSIS)
    Question. Are you planning to purchase off the shelf software?
    Response. GPO plans to purchase a commercial, off-the-shelf 
Integrated Library System (ILS) package, choosing one available on the 
GSA schedule. ILS' are proven technology, used in libraries nationwide, 
including nearly every Federal depository library.
    Question. What will be the total cost of this replacement program?
    Response. GPO has estimated a total expenditure not to exceed $1.9 
million to purchase and implement an Integrated Library System.
    Question. What savings or production increases will be realized?
    Response. Within three years, the ILS will replace four legacy 
mainframe systems, resulting in a projected saving of $369,821 over the 
5-year depreciation life of the system.

                            TRANSIT SUBSIDY
    You are requesting additional funding for ``commuting cost 
subsidies''. In last year's bill, the Committee provided an allowance 
up to $65 per month per employee who participates in the program.
    Question. We assume the additional funding is requested to cover 
the increase in the benefit from $65 to $100 per month. Have you 
budgeted to provide the increased allowance?
    Response. Yes, the current allowance is limited $65 per month and 
GPO plans to adopt the same limit generally provided throughout the 
Legislative Branch.
    Question. How many of your employees participate in the program?
    Response. Currently, GPO has 725 employees in the mass transit 
subsidy program.

                            ON-LINE SERVICES
    You have requested $2.6 million for equipment to enhance on-line 
services and to replace obsolete formats, servers, and other equipment.
    Question. Do you have a current base in your budget for this 
equipment, if so, how much?
    Response. The current base is $64,000.
    Question. What are the objectives and the long-term plan and costs 
of this enhancement program?
    Response. The objectives are to replace the obsolete technology 
used to provide online access, much of which is ten years old. We are 
currently prevented from using many innovative configurations. It is 
necessary to provide improved SGML/XML search capability. We need to 
continue providing permanent public access to the older, less 
frequently accessed databases that are in obsolete file structures. 
Deployment of enhanced security features for dissemination files would 
enable validation of the official status of publications. With 
information technology changing rapidly, the long-term plan is to 
replace and upgrade infrastructure to keep pace with the growing and 
evolving demands on the system for effective and satisfactory public 
access. The Web site provides access to more than 130,000 titles on GPO 
servers and about 95,000 additional titles through links to other 
Federal agency Web sites. GPO Access fulfills approximately 31 million 
document retrievals per month. While expanding services could be 
expected to require some increase in costs in the future, there has 
generally been a partially offsetting decline in the unit cost for 
information storage, processing and communications.
    Question. Is it going to be five or more years before we realize 
any savings or production gains?
    Response. Service improvement gains should be rapid because the 
technology is proven and will replace obsolete configurations. The 
gains will benefit the public through improved access to governmental 
information.

                       REVOLVING FUND OPERATIONS
    The ``Sale of Government Publications Program'' operated on a self-
sustaining basis for many years. However, losses have developed largely 
due to the provision of alternative online access to the public at no 
charge. You are trying to reduce costs, enhance ordering operations, 
and reduce the number of bookstores. You have made investments to 
streamline operations, product development and marketing. In fact, on 
March 29th you closed the Birmingham Bookstore due to significantly 
reduced sales.
    Question. Do you believe there will be further bookstore closings?
    Response. Yes, we believe that it will be necessary to close 
additional bookstores. In the past year, we closed 6 bookstores showing 
the greatest losses to the program.
    Question. Is the level of investment such that we will realize a 
return on your investment or will we continue to see a further decline 
in this operation?
    Response. While sales revenue continues at a very meaningful level 
of approximately $40 million per year, we continue to see reductions in 
the volume of publications sold and increasing online access. The 
program continues to provide important and necessary services to the 
American public, providing a return on the government's investment in 
creating publications and in their distribution.

                      PRINTING LOAD CONTRACTED OUT

    Mr. Taylor. At this point I will yield to Mr. Moran.
    Mr. Moran. Thank you, Chairman Taylor. What part of your 
printing load is contracted out, and what part do you do in 
house?
    Mr. Mansker. About 72 percent, currently----
    Mr. Moran. In house?
    Mr. Mansker [continuing]. That is contracted out.
    Mr. Moran. Seventy-two percent is contracted out.
    Who are the principal people that do that?
    Mr. Mansker. That is through a competitive bidding system, 
nationwide. We put the specs out and anyone can bid on them who 
wants to bid on them. But we have, of course, literally 
thousands of printers that are available to print any number of 
jobs. So it is farmed out or procured through the private 
sector of the economy.
    Mr. Moran. About how much then equals 72 percent?
    Mr. Mansker. About $450 million worth of printing.
    Mr. Moran. $450 million?
    Mr. Mansker. Yes, sir.
    Mr. Moran. And is it equally divided across the country?
    Mr. Mansker. It is a low-bid process. We get the lowest 
possible bids that we can for that printing for the government 
dollar. We probably get a better cost on printing than anybody 
could get in the country.
    Mr. Moran. And the bid includes all of the costs--
transportation, getting the material to be printed through 
them, postage, whatever it is?
    Mr. Mansker. Yes, sir.
    Mr. Moran. So it is from start to finish?
    Mr. Mansker. Absolutely.
    Mr. Moran. Are there any dominant printers that do this 
work?
    Mr. Mansker. We had a report out not long ago about who had 
received the most printing. But the printing industry does a 
report on that every year, and there are some--obviously there 
are some big printers in the country that can do some of the 
bigger jobs.
    I have been given a list here: News Printing Company had 
$24.8 million, Monarch Litho had $20.9 million, Fry 
Communications, $15.9. The 10 largest I have here, if you would 
like to have that, sir.
    Mr. Moran. I would be interested in seeing that, because 
they are really the ones who are performing this work then.
    Mr. Mansker. The total of the 10 largest would be about 
$130 million.
    Mr. Moran. $130 million?
    Mr. Mansker. Yes, sir.
    Mr. Moran. Yes, I would like to see that, if you want to 
pass it down.
    Now, your employees are unionized, aren't they?
    Mr. Mansker. Yes, sir, we have a number of unions in our 
agency. We have a joint council of unions that represents most 
of them, but we have some that are not represented by the joint 
council.
    Mr. Moran. If you would submit this for the record.
    Mr. Mansker. Surely.
    Mr. Moran. I would actually like to know where they are 
located.
    Mr. Mansker. We will do that, yes, sir.
    Mr. Moran. That shouldn't be a problem.
    Mr. Mansker. No, sir.
    [The listing follows:]

    TOP TEN CONTRACTORS OF COMMERCIALLY PROCURED PRINTING AND BINDING
                                SERVICES
                        [in millions of dollars]
 
 
------------------------------------------------------------------------
News Printing Co...........................  $24.8
    Claysburg, PA.
Monarch Litho, Inc.........................  20.9
    Montebello, CA.
Fry Communications, Inc....................  15.9
    Mechanicsburg, PA.
Braceland Brothers, Inc....................  13.0
    Atlanta, GA; Philadelphia, PA;
     Steubenville, OH.
Commercial Data Center, Inc................  12.8
    Eaton, OH; Miamisburg, OH.
Von Hoffman Graphics, Inc..................  11.4
    Frederick, MD; Eldridge, IA.
McDonald & Eudy Printers, Inc..............  10.8
    Temple Hills, MD.
Webco Printing Co..........................  8.6
    Omaha, NE.
Goodway Graphics of Va, Inc................  6.5
    Springfield, VA.
Gateway Press, Inc.........................  6.5
    Louisville, KY.
------------------------------------------------------------------------

                            COST OF PRINTING

    Mr. Moran. I would be interested in that.
    So your employees are unionized. Now, is the work you do 
competitive with the work that is contracted out, pricewise?
    Mr. Mansker. You are talking about in-house printing?
    Mr. Moran. Yes.
    Mr. Mansker. The in-house printing is mainly the type of 
printing for the House and for the Senate and for the agencies 
that may have a schedule or security needs or direct 
informational contacts that really we could not send out.
    Mr. Moran. So all the normal printing gets sent out, gets 
contracted out?
    Mr. Mansker. I would say that is a good phrase to use, yes, 
sir.
    Mr. Moran. Okay.
    Well, I am curious, do you have an average hourly 
compensation for your employees? I am just trying to figure out 
what the comparable prices are and whether this was the reason.
    Mr. Mansker. We can supply anything you need on that for 
the record. I don't have those figures right here with me. I 
would be glad to provide them for you.
    Mr. Moran. I would be interested to see what your printers 
are paid, and try to get some sense of what the other printers 
are paid that do most of the work.
    Mr. Mansker. Okay.
    [The information follows:]

    Highly skilled craftpersons in GPO are paid in a range 
between $26 and $29 per hour, depending on the craft. Our wages 
are generally comparable to wages paid in large metropolitan 
areas for similar work. We do not gather information on the 
wages paid by our commercial contractors. Commercial contracts 
are awarded to the most competitive, competent, and capable 
contractors.

                    Sale of Government Publications

    Mr. Moran. Now, is the sale of government publications a 
viable economic enterprise?
    Mr. Mansker. The sales program has been having difficulty, 
primarily because we have been charged with the responsibility 
of putting some of our best sellers on-line, free to the 
public.
    Mr. Moran. Why?
    Mr. Mansker. Congress has mandated it.
    Mr. Moran. What are your best sellers? Legislative Branch 
Appropriations hearings?
    Mr. Mansker. No. Congressional Records.
    Mr. Moran. Do you charge for these? I doubt it.
    Mr. Mansker. The Federal Register, the Congressional 
Record, Code of Federal Regulations. Those were tremendous 
sellers, but they are on-line free now. Sales have continued to 
go down year after year because we have added more and more of 
these publications on-line, free. We do not charge for anything 
that we have on-line.
    We had Federal tax products, all kinds of things--Official 
Gazette Patent Office, the Official Gazette Trademarks, 
Commerce Business Daily. All these things brought in a lot of 
revenue for the sales program previously that no longer bring 
that much in.
    Mr. Moran. Well, it is a subsidy for those who use them, 
and most of the users are commercial. The Commerce Business 
Daily, those are potential and actual contractors who use that 
information. I don't know why we have to give it to them for 
free.
    Mr. Buckley. The on-line version is free. We still sell 
many of those same items. The volume of sales has gone down.
    Mr. Moran. Of course it has gone down.
    Mr. Buckley. The free copies are given to libraries and the 
public.
    Mr. Moran. I can understand that. But for those 
publications that are used for commercial purposes--and there 
are a whole heck of a lot of outfits that simply take what they 
get from the government for free, put a new wrapping on it and 
sell it, aren't there?
    Mr. Mansker. Yes, sir.
    Mr. Buckley. Correct.
    Mr. Moran. And, they are able to sell it because they 
market it.
    Mr. Buckley. Right.
    Mr. Moran. So we are basically doing all the work, giving 
the product of all that work to people for free, and then they, 
since their costs are virtually nothing, they make all the 
profit off of it.
    Now, it would be feasible to have a Web site that you would 
subscribe to, wouldn't it?
    Mr. Mansker. Yes, sir.
    Mr. Moran. And that would generate income to offset your 
expenses, wouldn't it?
    Mr. Mansker. Yes, sir, it would.
    Mr. Buckley. For those companies that want to have the 
electronic information and remarket that, we do charge them for 
that service. If a company wants a data feed, for example, of 
Federal Register information that they are going to manipulate 
and sell, we charge them for that information.
    Mr. Moran. But how do you know?
    Mr. Buckley. If they want a special data feed, if they are 
not just taking it from our public Web site.
    Mr. Moran. Yes, but it is also on the public Web site. If 
you just have one minimum wage person take it from the Web 
site, right----
    Mr. Buckley. All government information is not copyrighted. 
Under separate legislation the government information is not 
copyrighted, so it is reused by many people in many ways. Some 
publishers are republishing it for business purposes; and 
citizens and students and so forth are also reusing that 
information.
    Mr. Moran. You don't keep any track of who is just taking 
Federal information and reselling it?
    Mr. Buckley. No, we don't really have the ability to do 
that.
    Mr. Moran. No, I don't imagine.
    Now, you are closing down your bookstores because they can 
get it for free on-line?
    Mr. Buckley. Yes, sir.
    Mr. Moran. So why pay for it, I guess.
    Mr. Buckley. The reduction in sales has made some of the 
bookstores uneconomical to maintain.
    Mr. Moran. I wonder if we could ask our staff director when 
this was done and who let it? It wasn't this committee, was it?
    Ms. Dawson. It was this committee.
    Mr. Moran. It was this committee?
    Was this your doing, Mr. Chairman?
    Mr. Taylor. I would like to think so, but I think it was 
before I assumed the chairmanship.
    Mr. Sherman. Mr. Chairman, the legislation was enacted in 
1993, Public Law 103-40. The committees that pushed it forward 
were the Senate Committee on Rules and Administration and the 
House Administration Committee. The law requires GPO to put 
certain publications on-line, including the Congressional 
Record and the Federal Register.
    The original legislation gave GPO the option to charge for 
this information. For a time, we did run a subscription service 
to it. It was a failure. People would not buy it because people 
expected their information from the Federal Government, when it 
is on-line, to be free. In point of fact, we provide the same 
kind of information that we make available online to the 
Library of Congress, where it is put on the Thomas information 
system, free of charge to the public.
    One of the strongest outcries we got to charging for the 
information was from the public interest community, which at 
that point came in and said, citizens should have the right to 
have free access to this information, just like the people who 
are close to the legislative process.
    So after a very poor experience with trying to sell 
information, Public Printer DiMario in 1995 made a decision to 
allow all of this information to be put on GPO Access, free of 
charge. It has been a tremendous success. We have now 31 
million downloads a month from our site. We have over 225,000 
titles up.
    The system has succeeded beyond anybody's expectations in 
making information available to the public, but the consequence 
is that we have been a victim of that success in the sale of 
hard copy publications through the sales program, and that is 
what has caused the retrenching actions we have been taking 
over the last several months, including the closure of certain 
bookstores.
    Mr. Moran. The more successful it is, the more money you 
lose, because the more effort it requires of you to provide 
material for free.
    Mr. Sherman. Yes, sir.
    Mr. Moran. And the less economically viable are your 
bookstores and other operations.
    Mr. Sherman. That is correct.
    Mr. Moran. I am glad to get that out on the table.

                          Early-out Authority

    You have done a 3-year extension of the early buyout 
authority. How successful is that?
    Mr. Mansker. So far, Mr. Moran, we have not had to use the 
buyout program. Within the sales program itself, however, we 
may have to use that if we downsize the program substantially 
to come into balance with our revenue. The sales program is 
just losing enough money now that we are going to have to 
consider doing that.
    We haven't made a decision to do it, but we do have that 
authority at hand, and it may have to be used.
    Mr. Sherman. To add to that, Mr. Moran, since the authority 
was originally provided, we have had 101 employees take the 
early-out portion of that. It is not the buyout, but the early-
out. That saved the agency about $5 million.
    Mr. Moran. Okay.
    All right, Mr. Chairman.

                        Questions for the Record

    Mr. Taylor. We appreciate your line of questioning, Mr. 
Moran. I have some questions that have been submitted to be 
answered for the record from Mr. Hoyer and Mr. Moran.
    Mr. Mansker. I would be glad to answer any of them.
    [The questions and responses follow:]

           Questions for the Record From Representative Hoyer

    Question. Since Sept. 11, how many requests have you had from 
agencies to withdraw documents from depository libraries? Please 
describe the circumstances. Do you have the discretion to refuse such 
requests?
    Response. We have had only one request since Sept. 11. In October 
2001, the U.S. Geological Survey requested that the GPO instruct 
Federal Depository Libraries that received a CD-ROM on characteristics 
of large surface-water supplies in the United States to destroy their 
copies. Shortly thereafter, the Superintendent of Documents ordered 
those libraries participating in the Federal Depository Library Program 
to withdraw this item and immediately destroy it. The legal authority 
for determining whether documents should be withdrawn is with the 
publishing agencies, not GPO.
    Question. In the course of closing six bookstores to date, have you 
encountered any negative public reaction in the affected communities? 
Can the public in these communities still acquire government 
publications easily, and if so, how?
    Response. There has been minimal negative public reaction in 
affected communities. The public can acquire publications by mail order 
from catalogues, online ordering (http://bookstore.gpo.gov), and 
telephone ordering (866 512-8000). Also, there are several local 
depository libraries in every city in which we have closed bookstores.
    Question. Please explain the accounting adjustment in your future 
workers' compensation liability.
    Response. The worker's compensation liability is simply an estimate 
of the future cost of the program. After several years of accepting 
GPO's calculations of its future liability, our external auditor 
suggested changes in the actuarial analysis GPO was using to calculate 
the liability. For example, a new category of claimants was added: 
those not designated by DOL as either permanent or death claimants/
beneficiaries. Also, a new factor was applied to the estimate to 
account for those injuries that are Incurred But Not Yet Reported 
(IBNR). The estimated future liability is now projected for 54 years 
for GPO as compared to 37 years used in precious estimates. The assumed 
claimant retention rate was increased which means that the number of 
employees removed from the database used for creating the estimates 
would do so at a slower rate. The impact of increased cost of living 
adjustments (COLAs) and medical inflation factors (CPIm) also 
attributed to the increase. These changes in assumptions and the 
increases in the inflation factors caused GPO's estimate of the long-
term liability to increase by $31.4 million from the prior fiscal year. 
It should be noted that the ``estimate'' of liability, in itself, 
causes no increase in expenditures--no impact on our cash position. The 
actual charges to the program have remained fairly constant for the 
past several years, and both GPO and our auditors are fully satisfied 
with GPO's estimate.
    Question. Do you have a formal worker-safety program? Have you 
lately experienced an increase in the number of workers injured in your 
facilities?
    Response. Yes, GPO has a comprehensive safety and health program. 
As stated in a GAO audit (GAO/HRD-93-1), ``As required by the act GPO 
has a comprehensive safety and health program that provides protections 
comparable to those required by OSHA standards and regulations. . . . 
Significant features include a clearly stated policy on workplace 
safety and health, employee involvement through joint labor-management 
safety and health committees, comprehensive safety and industrial 
hygiene surveys and inspections on a regular basis, a computerized 
tracking system to follow through on corrective actions required as a 
result of inspections, formalized accident investigations, a plan for 
hazard abatement and control, and hazard awareness training for 
employees and supervisors.''
    We have experienced a slight increase in our lost time injury rate 
in the last two years. However, the costs associated with injuries have 
remained flat. Additionally, the majority of these injuries were minor 
strain injuries. Given that our workforce is considerably older that 
the rest of the Federal Government, GPO average 49.3 to Government-wide 
average of 45, and the industrial nature of many of our operations, 
this is not an unexpected outcome.
    Question. Are your worker injury figures comparable to those of 
other federal industrial facilities doing similar work, such as the 
Bureau of Engraving and Printing, or the Mint? How do your figures 
compare with those of the Architect of the Capitol, and how would you 
explain any difference?
    Response. GPO's lost time injury and illness rates are comparable 
to those of BEP and the Mint. For the last four years that comparative 
data is available, GPO has been lower than BEP three of the last four 
years, and lower than the Mint one of the last four years.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    According to data from the OSHA Website, GPO's total injury and 
illness rates have been lower than those of the AOC each of the last 
four years (FY 97 to FY 00). GPO's lost time injury and illness rates 
were lower than AOC's for FY 97 and 98. AOC's lost time injury and 
illness rates were lower than GPO's FY 99 and 00. Other than difference 
in the type of work performed by the two agencies it is difficult to 
explain differences in the injury and illness rates. GPO has 
substantially more employees than AOC.
    Question. What effect does the workers' compensation accounting 
adjustment have on your cash position? Does this adjustment have any 
effect on your need for appropriations?
    Response. The workers compensation adjustment has zero effect on 
GPO's cash position. The adjustment is merely an estimate of future 
costs and is treated as an unfunded liability in GPO's accounting 
reports. Also, there is no effect on GPO's request for appropriations. 
GPO pays the Department of Labor annually for the actual cost of the 
program. The actual annual cost, not the unfunded liability, is built 
into GPO's rate structure.
    Question. Does your write-off of the Integrated Processing System 
have any effect on your cash position?
    Response. The write-off has no effect on GPO's cash. The system was 
paid for when it was purchased. Normally, the cost would be depreciated 
over a five-year period after the system was placed into service, in 
accordance with established GPO accounting procedures. However, since 
the implementation period for the Integrated Processing System exceeded 
the five-year period, the entire cost was written off in fiscal year 
2001.

           Questions for the Record From Representative Moran

                   PUBLIC PRINTER PAY RAISE LANGUAGE
    Question. Why are you requesting a statutory change in order to 
give the Public Printer a Pay Raise?
    Response. We are requesting that the pay levels of the Public 
Printer and the Deputy Public Printer be increased in order to restore 
parity with other comparable Legislative Branch officials as well as 
appropriate comparability with senior staff throughout the Government. 
At present, the Public Printer is paid below the level for the Director 
and Deputy Director, CBO, the Librarian of Congress and the most senior 
staff on Capitol Hill and in the Executive Branch. Additionally, every 
Member of Congress is able to pay staff members more than the Public 
Printer or Deputy Public Printer are paid, and many do so.
    Question. When was the current rate of pay established?
    Response. November 5, 1990, pursuant to P.L. 101-520.

                         EMERGENCY PREPAREDNESS
    Question. What is being done with the $4 million that was provided 
GPO for emergency preparedness this year?
    Response. These funds are being used to protect Government 
personnel and property and to ensure limited continuity of GPO 
operations in the event of an emergency. GPO is replacing its current 
fire protection, signaling, and public address systems. The present 
systems, now more than 20 years old, are obsolete and provide 
inadequate protection. Parts are no longer available for proper 
maintenance and readiness and the current state of these systems poses 
an unacceptable risk to GPO personnel and property in the event of 
failure.
    We are establishing a limited, remote printing capability to 
support Congress in our Laurel, Maryland, paper and publications 
storage warehouse. We are installing a digital roll-fed, on-demand 
printing system that will be used in routine operations, while 
providing a necessary alternative location in the event that our main 
plant is unavailable for essential congressional work in support of the 
legislative process.
    We also plan to establish a remote mirror site for GPO Access, 
GPO's Internet information site established pursuant to law. GPO Access 
currently has no redundant capability outside of Washington, DC. 
Establishment of a remote mirror site has been strongly recommended by 
the Federal depository library community. Under non-emergency 
conditions, the additional capability will support the primary GPO 
Access site during peak workload periods and provide necessary backup 
for critical information and communications capabilities.
    Question. What assistance are you providing to the Capitol Police?
    Response. We turned over the loading docks at our paper warehouse 
on North Capitol Street for the Capitol Police to use in screening 
deliveries to Capitol Hill, with up to 70 trucks a day passing through 
this process. When anthrax forced the closure of House and Senate 
office buildings, we also provided temporary space for personnel from 
the Office of the Clerk of the House and the Senate's Office of 
Legislative Counsel to continue their work.
    Question. What is your view of the proposal to merge the GPO Police 
with the Capitol Police?
    Response. If benefits would result to the broader Legislative 
Branch, we would certainly support such a merger. At the same time, we 
would want whatever new structure emerges to have adequate flexibility 
to effectively respond to specific GPO security concerns.

                 ALTERNATIVE OFF-SITE PRINTING FACILITY
    Question. Why did you see a need to establish a second printing 
facility?
    Response. During the recent anthrax incidents, it became apparent 
that some off-site capability is needed to help ensure continuity of 
printing support for the Government. This is also a means to take 
better advantage of existing facilities. When not being used in an 
emergency back-up capacity, the equipment will be used for normal 
production.
    Question. What was the cost to establish the facility?
    Response. The estimated cost is $1.9 million.
    Question. Is the new facility able to handle any excess capacity 
from your primary operation?
    Response. Yes, the digital roll-fed, on-demand printing system at 
the facility is needed for normal operations.
    Question. Will your revenues grow because of increased capacity?
    Response. There is expected to be a marginal increase, but this new 
equipment will primarily replace older, less-efficient equipment 
currently used in central office.
    Question. Will you be able to do more of your work in-house because 
of the new facility?
    Response. This will provide the capability to handle greater peak 
workloads.
    Question. Did you consider contracting the alternate facility out 
to a commercial printer?
    Response. The primary purpose is to provide off-site back up to 
produce core in-house printing support. The timing, specifications and 
control requirements are not generally suitable to contracting. GPO 
does have a printing procurement program that can also be used for 
suitable emergency requirements.

                         CLOSING GPO BOOKSTORES
    Question. What is driving the closing of bookstores?
    Response. The driving force is the decline in orders and revenue, 
which is primarily caused by free online access and, to a lesser 
extent, from duplication with NTIS and other publishers for the sale of 
certain best-selling publications.
    Question. How many bookstores were there at the peak of their 
operations?
    Response. There were 24 bookstores at the peak.
    Question. How many bookstores have been closed since this peak?
    Response. We have closed 6 bookstores.
    Question. Are other bookstores under consideration for closure?
    Response. Yes, as orders continue to decline, other bookstores will 
be considered for closure.
    Question. What is the process for determining when a bookstore 
should be closed?
    Response. Many factors are considered, including the cost of 
operating each bookstore, the impact on customers and employees. 
Affected parties are consulted and steps are taken to minimize any 
negative impacts.

              CONGRESSIONAL PRINTING AND BINDING SHORTFALL
    Question. What changes in workload levels are you projecting for 
2003?
    Response. Based on historical trends for first sessions of 
Congress, certain categories of work decrease and others increase. The 
categories expected to decline are: the Congressional Record, Bills, 
Business and Committee calendars, Document envelopes and franks. These 
reductions are largely offset by increases in hearings and committee 
prints.
    Question. How much is the Congressional Printing and Binding 
shortfall?
    Response. The shortfall is $5,875,000 for fiscal year 2001 orders.
    Question. Could you explain how this shortfall arose?
    Response. The shortfall arose because GPO is required by law to 
print publications ordered by Congress. In fiscal year 2001, the amount 
of printing ordered by Congress exceeded the amount appropriated.
    Question. How has it been addressed in past funding bills?
    Response. Since 1958, the appropriations bills have allowed 
shortfalls in Congressional Printing and Binding to be charged against 
subsequent-year appropriations, in order to avoid the need for 
deficiency appropriations. The Comptroller General (B-123964) 
recommended this procedure. Funding for shortfalls has been provided 
through supplementals, transfers or regular appropriations.

                          BUILDING MAINTENANCE
    Question. Does GPO maintain its own buildings on North Capitol 
Street or does the Architect of the Capitol provide these services?
    Response. The Architect of the Capitol does not maintain GPO 
buildings. GPO provides its own building maintenance and repair 
services, including engineering support.
    Question. Last year, we provided $6 million to replace air 
conditioning equipment and for energy efficient lighting. What is the 
status of this project?
    Response. We have awarded a contract for the much needed 
replacement of GPO's air conditioning system. The work schedule calls 
for the system to be installed and operational by the end of March 
2003. Work on the lighting improvements will follow.
    Question. Is there a potential health and safety problem at GPO 
related to asbestos?
    Response. Yes, we have discovered friable asbestos insulation in 
our main buildings. We plan to take abatement action in order to comply 
with safety standards. GPO has requested a $2 million supplemental for 
this work.
                            ELECTRONIC DATA
    Question. How much of the material you print has been 
electronically stored and available to Congress and the public by 
electronic means? What are your predictions on future trends? Will we 
foresee a day when no material is printed?
    Response. With a few exceptions, the material we print for Congress 
is available online through GPO Access and other sources. Hearings, 
unless specially requested by the Committee, and certain committee 
prints intended for working use by Committees are not available to the 
public by electronic means. Paper copies are used in different ways and 
indications are that demand for paper copies will continue.
    Question. What are the challenges you face in providing public 
access to Government information in electronic formats?
    Response. We face the following challenges:
    1. Discovery of publications on the Web.
    In the Web era, we lack the automatic and largely transparent 
system of adding riders to print orders that provides copies of printed 
publications to be distributed. GPO is developing systems and practices 
that enable us to effectively find publications that agencies are 
making available on the Web, and to efficiently gather the information 
about those publications that we need to drive our archiving and 
cataloging functions.
    2. Assuring ongoing integrity of content:
    In the print world, a user is assured that a publication from a 
Government agency, printed through GPO, had passed various approvals 
and is a fixed, official document. In the Web environment, publications 
are not consistently reviewed and are not fixed in time by the printing 
process. Yet users still need and expect the information to be 
official. GPO must build mechanisms that assure that trust, both for 
the publications we point to on agency servers, and the publications 
that we archive.
    3. Assuring ongoing access to content:
    GPO's current strategy for assuring access and integrity is to 
point to publications on the originating agency server for as long as 
possible, and to capture and maintain a working archival copy, to be 
invoked only at the point that the publication is no longer available 
from the originating site. In order for this strategy to be successful, 
we are adapting our cataloging practices to respond to the changing 
demands of this less stable environment, and are developing systems and 
processes for preserving data and reliably and consistently making it 
available to the user.
    4. Enhancing and extending the service role of depository 
libraries:
    The depository librarian is the link between Government 
information, technology, and users at all levels of skill, knowledge, 
and proficiency. More than ever, users need assistance in making sense 
of the mass of Government information, and not all users are equally 
enfranchised in terms of technological savvy and understanding of the 
Government. This traditional role for depository librarians must be 
expanded and emphasized.
    Question. Is the Federal Depository Library Program currently a 
predominately electronic service?
    Response. Yes, online information became the predominant form of 
dissemination in the Federal Depository Library Program in fiscal year 
2000. The transition to a more electronic program is continuing, as 
directed by Congress. Nearly 61% of the 37,600 new titles made 
available in FY 2001 and FY 2002 to date were disseminated 
electronically. Through its electronic information dissemination 
component, the program now delivers more content to users than ever 
before.
    Question. How are you planning to modernize the cataloging and 
indexing of Government Publications, including those born digital?
    Response. Funding was provided, beginning this fiscal year, for an 
Integrated Library System. The need to catalog, provide access to, and 
manage online materials requires capabilities that the current 
patchwork of legacy systems cannot provide. GPO is in the process of 
acquiring an up-to-date cataloging and library data management system, 
known as an Integrated Library Systems (ILS). ILS' are proven 
technology, and are used in libraries of all types throughout the 
country, including nearly all depository libraries.
    Currently, the Cataloging and Indexing Program is operated using a 
patchwork of legacy mainframe systems, stand-alone desktop applications 
and Web-based service applications that do not share data and do not 
talk to each other. This causes duplication and inefficiencies in work 
processes because data can only be exchanged in segmented portions and 
often in an untimely fashion. These systems are also costly to maintain 
and modify.
    GPO management favors purchasing Commercial-Off-the-Shelf 
cataloging and library data management software from the GSA Schedule, 
provided it meets our system requirements. With an ILS, GPO will be 
able to perform the statutorily authorized functions of the Cataloging 
and Indexing Program and the Federal Depository Library Program more 
efficiently and accurately. Integrated Library Systems typically 
include modules for public catalogs, acquisitions, serials control, 
interlibrary loan, circulation, etc.
                                STAFFING
    Question. How much has GPO employment declined since 1990?
    Response. Since 1990, GPO employment has declined by over 2,000 
employees.
    Question. How has this reduction been accomplished?
    Response. This has been accomplished primarily through attrition. 
We have also made use of separation incentives and early out 
authorities during that period. The use of improved technology, 
particularly information technology, in GPO operations has enabled this 
reduction. We have also consolidated operations by reducing the number 
of locations.
    Question. What employment level changes are you requesting for 
2003?
    Response. We are requesting an overall reduction of 38 FTE's in the 
ceiling for GPO in 2003. We are requesting an increase of 3 FTE's in 
the Salaries and Expenses Appropriation to deal with cataloging and 
providing public access to the increasing volume of Government 
publications in electronic format.
    Question. Last year, the committee provided GPO with a three-year 
extension of the early-out and buy-out authority. What has been your 
experience?
    Response. A total of 101 employees have taken the early retirement 
since this authority was provided in 1999, including three so far this 
fiscal year, since it was extended. The savings achieved is estimated 
at about $5 million per year. To date, we have not exercised the 
current separation incentive authority. It is important that we have 
this management tool available to deal effectively with the rapid 
changes impacting certain GPO operations, particularly the Sales 
Program. Should these trends continue, it might become necessary to 
implement this authority in a targeted manner.
    Question. Has GPO recently concluded negotiated wage agreements 
with major employee unions?
    Response. Yes, GPO has successfully concluded three wage agreements 
covering the majority of GPO employee unions, including AFGE-PCJC, GPO 
Police and the Joint Bargaining Committee, which represents eight craft 
unions. The Joint Committee on Printing has ratified these agreements. 
We are currently negotiating with three remaining unions representing 
machinists, electricians, and typographical workers.
 
                            SALES PROGRAM
    Question. What is your plan to address losses in the Sales Program?
    Response. The losses in the Sales Program are primarily caused by 
our own success in providing free online access to government 
information. While this has been an enormous benefit to the public, it 
has resulted in a reduced volume of paper sales and an under-recovery 
of cost in the Sales Program. Since we do not expect this trend to 
reverse, our strategy is to adjust the size and cost of operations to 
match the reduced volume of orders. Our budget reflects a reduction of 
60 FTE's in the Sales Program over the next two years and the closure 
of additional bookstores. If the trend of declining sales continues, we 
will have to accelerate this process and consider alternative funding 
options.
    Question. Is there duplication between GPO and NTIS in selling the 
same publications?
    Response. Yes, there is some duplication regarding certain major 
sellers and regulatory materials, notably IRS publications. GPO and 
NTIS perform similar sales functions.
    Question. How was the Sales Program financed prior to 1978?
    Response. Prior to 1978, GPO was appropriated annual amounts for 
administrative costs to operate the General Sales Program, as part of 
the Salaries and Expenses Appropriation of the Superintendent of 
Documents. In addition, GPO was allowed to retain customer receipts to 
offset printing and postage costs, and any excess receipts were 
returned to Treasury.
    Question. Does the Sales Program provided an important and 
necessary public service?
    Response. Yes, through the Sales Program, an information-seeking 
American public is able to buy copies of many government publications, 
which they would not otherwise be able to purchase. This allows the 
public to obtain government publications for personal use and for use 
in libraries, businesses and non-profit organizations.
    Question. Is the sale of government publications a commercially 
viable enterprise?
    Response. There is little commercial interest in selling the 
majority of government publications because the volume of sales for 
many titles is very low and the profit margins are below industry 
expectations. Some historically significant publications, such as the 
Constitution, are kept indefinitely. Titles are carried to meet 
specific needs of a program.

                          GPO CLOSING REMARKS

    Mr. Taylor. Thank you, gentlemen, for appearing. Thank you 
very much. We will take a brief recess while the General 
Accounting Office is coming into the hearing room.
    [Recess.]
                                         Wednesday, April 24, 2002.

                       GENERAL ACCOUNTING OFFICE

                               WITNESSES

DAVID M. WALKER, COMPTROLLER GENERAL OF THE UNITED STATES
GENE L. DODARO, CHIEF OPERATING OFFICER
SALLYANNE HARPER, CHIEF MISSION SUPPORT OFFICER
RICHARD L. BROWN, DEPUTY CHIEF MISSION SUPPORT OFFICER AND CONTROLLER

                  COMMENDATION FOR SUPPORT TO CONGRESS

    Mr. Taylor. The subcommittee will come back to order. The 
final agency that we will hear from today is the General 
Accounting Office. We have with us the Comptroller General, 
David M. Walker. Greetings, sir. You have several staff with 
you. We are pleased to have them with us today.
    Before we proceed with our line of questioning, I would 
like to take a moment to thank you and the entire staff of the 
GAO for the highly efficient and professional manner in which 
the GAO responded to our needs for temporary office space and 
facilities this past year. Your organization is to be commended 
on the fine job that you did to assure the continued operations 
of the House of Representatives. On behalf of all of my 
colleagues in the House, I would like to thank you and ask that 
you pass that word on to the entire staff of your organization.
    I would like to commend you for your efficient and 
courageous handling of the GAO organization since you came 
aboard. I am very pleased with that.
    Mr. Moran, do you have any statement that you would like to 
make before we go into questions?
    Mr. Moran. Actually, I agree with your comments. I think 
Mr. Walker and his organization have shown courage and 
integrity, and they are to be applauded for their courage and 
integrity. It is a very professional operation. I appreciate 
its being so.
    Mr. Taylor. Mr. Walker, would you like to introduce your 
staff?

                            Opening Remarks

    Mr. Walker. Thank you, Mr. Chairman and Mr. Moran. I think 
both you and I have a little touch of a cold or something. 
Hopefully, we will both get over it quickly.
    To my left, Mr. Chairman, is Gene L. Dodaro, our Chief 
Operating Officer; to my immediate right is Sallyanne Harper, 
our Chief Mission Support Officer; and to her right is Dick 
Brown, her deputy and our Controller, as well.
    If I might, Mr. Chairman, I will hit a couple of highlights 
and then go to Q&A. I will be brief. We are going to provide 
each of you a copy of our performance and accountability 
report. I would commend it to you when you have a little extra 
time.
    We believe it is important that the GAO lead by example in 
all ways. Even though we are not covered by the Government 
Performance and Results Act, the CFO Act, and others, we have 
voluntarily complied in order to lead by example; and I think 
you will find that of interest.
    With regard to last year, we believe we had an excellent 
year, $26.4 billion in financial benefits to the Congress and 
the Nation. That is a return on investment of $69 for every $1 
invested in GAO, number one in the world. In nonfinancial 
benefits, we contributed a number of ways, including election 
reform, and homeland security, just to mention a couple.
    With regard to our budget request for this next year, as 
you know, basically we are asking for our mandatories, which 
are about 5.1 percent. The only exception to that is, we are 
asking for $4 million for certain safety and security issues to 
make sure that we are up to Category 2 security standards for 
our building, as well as, quite frankly, to benefit from some 
of the lessons learned by having hosted you and your colleagues 
in our building. We also want to make sure we are prepared as a 
contingency facility to the extent that anything might happen 
so that we would be able to host you again.
    Mr. Chairman, I am very pleased and honored to head the 
GAO. We have about 3,200 top-quality professionals. I think we 
are making a difference for the Congress and the country, and 
we are going to try to continue to be as good or better than 
anybody out there.
    I would be happy to answer any questions you have.
    Mr. Taylor. Without objection, your complete statement will 
be entered into the record.
    [The statement of Mr. Walker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                   RESULTS OF EXIT INTERVIEW SURVEYS

    Mr. Taylor. As part of your ongoing human capital 
improvement program, you have implemented an exit interview 
survey to solicit views from departing employees. I think that 
is commendable.
    I would like to ask what you have learned from those 
surveys and how many changes have been implemented, or new 
programs that have been implemented, based on what you have 
found out in those surveys.
    Mr. Walker. Mr. Chairman, the exit survey is just one way 
that we try to obtain feedback from current and former 
employees at GAO. With regard to the exit survey, in general, 
the results have been that employees have found that GAO is a 
very good place to work. They view their positions as giving 
them a significant challenge that allows them to make a 
difference for the Congress and the country.
    Some of the areas that they felt we could improve further 
were in trying to continue to streamline and simplify our 
processes, looking for additional advancement opportunities for 
people within the organization, and continuing to provide 
alternative product lines and services to the Congress. We have 
and are taking steps in each of these areas.
    But I think it is important to note that we don't want to 
just rely on getting feedback from people when they are leaving 
the organization. It is important to have mechanisms in place 
in order to get feedback from individuals when they are first 
coming in and throughout their tenure in the organization. We 
have a number of mechanisms to do that, such as employee 
feedback surveys, periodic focus group meetings, as well as our 
employee suggestion program.
    Furthermore, we have formed an Employee Advisory Council, 
which is a representative group of GAO employees whom the 
executive committee meets with every quarter. They put together 
the agenda, and we talk about issues of mutual interest and 
concern. That has resulted in a tremendous number of 
improvements and an acceleration of the cultural transformation 
that we need to achieve at GAO.

                   BASING COMPENSATION ON PERFORMANCE

    Mr. Taylor. Another program that you have spoken about is 
linking performance and compensation to results. You state that 
the majority of the GAO's annual compensation increases are 
automatic, as required by law. However, you plan to review your 
pay systems to identify ways to increase the percentage of 
compensation tied directly to performance contributions and 
results.
    Two questions: If the majority of your increases are 
automatic, how are you able to tie the increases to performance 
and results?
    Secondly, will you need any legislative changes to enable 
you to accomplish your goal?
    Mr. Walker. First, Mr. Chairman, I think there is 
additional progress that we can make within the constraints of 
existing law. In fact, we are taking a number of steps to do 
that. We have designed and implemented a new performance 
appraisal system for the vast majority of our employees. That 
system, which is directly linked to our strategic plan and core 
values, is focused on desired outcomes. It evaluates people not 
only on their contributions, but also on the key competencies 
we think are necessary for them to be able to perform well and 
be successful at the agency.
    We are increasing the amount of dollars that we allocate to 
incentive compensation, not just with regard to individual 
performance, but team performance as well. We are in the 
process of relooking at our banded compensation system, which 
provides additional compensation both as it relates to 
assignments as well as overall performance. I expect we are 
going to make some further adjustments in order to make our 
compensation systems even further results-oriented.
    I will say one thing that we may ultimately come back to 
the Congress at some point in time. Under current law, we are 
required annually to give cost-of-living increases and locality 
pay adjustments to every single person in the agency unless 
they are performing unsatisfactorily.
    Obviously, the objective is not to have anybody performing 
unsatisfactorily, and therefore that means an overwhelming 
majority of our employees automatically get a cost-of-living 
increase, as well as locality pay.
    We would like to try to be able to figure out whether or 
not it could be restructured in some manner. That might require 
a legislative change. But we would want to look at that in the 
context of a broader set of reforms before we would come back 
to the Congress.
    Mr. Taylor. I have some questions that I will submit to be 
answered for the record at this time.
    [The questions and responses follow:]

            Performance-Based Reward and Recognition Program

    Question. You are requesting a 4-percent increase for your 
performance-based reward and recognition program. This increase will 
give you a base level of $2.7 million.
    (1) Are all employees eligible for rewards under this program?
    (2) Can you give us some examples of prior accomplishments that 
employees have made for which they were rewarded?
    Response. Yes, all GAO staff that meet the eligibility requirements 
may be nominated for an award by both managers and peers. GAO's awards 
program recognizes individuals and teams for noteworthy achievements 
reflecting GAO's mission, strategic goals and core values. GAO's awards 
program has four major components: GAO inside honor awards that are 
presented by the Comptroller General annually to honor outstanding 
achievements; unit awards that are presented annually and throughout 
the year by unit directors to reward outstanding performance and 
contributions; suggestion awards that are presented by the Comptroller 
General to recognize noteworthy suggestions for improvement; and career 
service awards which are granted upon completion of 10 years of federal 
service, and for each 5th year thereafter.
    GAO's awards program includes recognition for human capital 
management, distinguished service, meritorious service, team 
achievement, client service, customer service, equal opportunity, and 
community service. A few examples of accomplishments for which 
employees were rewarded include:
    <bullet> For outstanding relationships with and outreach to key 
congressional committees in successfully facilitating GAO's 
appropriations and legislative initiatives;
    <bullet> For exceptional leadership, vision, and performance in 
guiding GAO's highly sensitive and critical work on military readiness 
and threats to national and global security forming the basis for 
future anti-terrorism efforts;
    <bullet> For developing a comprehensive, trend-setting IT 
investment assessment framework being used government-wide and by 
industry as the benchmark for IT capital planning assessments;
    <bullet> For calling attention to, and recommending solutions for, 
the year 2000 computing glitch, helping to ensure that critical systems 
supporting the delivery of vital public services continued to function 
at the turn of the century;
    <bullet> For developing commercial best practices for acquiring 
weapons systems, thereby improving the capacity for GAO's weapons 
reviews and strengthening DOD's acquisition processes;
    <bullet> For helping to facilitate government-wide management and 
institutional reforms needed to build as well as sustain high-
performing organizations and more effective government;
    <bullet> For managing GAO's efforts to improve both performance and 
accountability in the federal government through identifying major 
challenges for management and program risks as well as assisting the 
Congress during the presidential transition;
    <bullet> For leading GAO's analysis of HUD's budget, resulting in 
billions of dollars in accomplishments and significant management and 
program improvements;
    <bullet> For significant improvements in the way the food industry 
operates and federal agencies oversee the safety of meat, poultry, and 
seafood; and
    <bullet> For outstanding collaborative efforts to perform a 
complex, multi-team review of the status of the nation's election 
systems, which has helped focus the debate on federal election reforms.

            Recruitment, Retention and Recognition Benefits

    Question. One million two hundred fifty nine thousand dollars 
($1,259,000) is required to maintain and expand your current 
recruitment, retention and recognition benefits program.
    (1) What are the individual components of this program?
    (2) How do they compare with similar programs within the executive 
branch and other agencies within the legislative branch?
    (3) How do you measure that these programs help to attract and 
retain high-caliber staff.
    Response. The components of the benefits portfolio that we offer to 
enhance the attractiveness of GAO as an employer of choice includes an 
onsite day care center, fitness center, health unit, development and 
career transition assistance, recognition awards, diverse training 
opportunities, frequent flyer benefits, recruitment and retention 
bonuses, student loan repayments, and transit subsidy benefits. Our FY 
2003 budget requests funds to increase the student loan repayment, 
transit subsidy, and training components of our benefits portfolio.
    At the present time, the federal government is only beginning to 
recognize the potential of many of the available recruitment and 
retention tools. Student loan repayment programs are a new development 
in the federal service--only a few agencies have made repayments to 
date--but many agencies are developing programs to meet their 
particular needs. GAO's student loan program is similar to those being 
developed by other legislative branch entities and will operate within 
the bounds and criteria developed and recommended by the Legislative 
Branch Financial Managers Council.
    Our transit subsidy benefit is comparable to the benefit that 
executive branch agencies are required to provide their staff. In the 
area of training, world-class professional service organizations 
similar to GAO's multi-disciplinary workforce typically invest nearly 6 
percent of their budgets in training for staff. In fiscal year 2002 and 
2003, GAO's total annual investment in training its staff is about 4 
percent.
    We assess the impact of GAO's employee benefits program, work 
environment, and business processes through a number of measures. We 
closely track attrition and periodically conduct an agency-wide 
employee survey to obtain staff feedback. We also survey new staff and 
departing staff to provide insight into the reasons for joining or 
departing GAO to determine whether salary, benefits, job 
characteristics or other factors impacted staff decisions. In addition, 
the Comptroller General meets periodically with GAO's Employee Advisory 
Council and other interest groups to obtain input and seek feedback on 
a variety of issues of mutual concern, conducts agency-wide telecasts 
at least quarterly, provides opportunity for agency-wide input on 
significant changes to agency policy, and provides other forums to 
foster staff involvement and empowerment. Collectively, through these 
means we obtain feedback on programs of interest to staff that affect 
the quality of life and our ability to attract and retain staff.

                       EDUCATION LOAN REPAYMENTS

    Mr. Taylor. Last year the committee provided $410,000 to 
fund the Education Loan Repayment program. This year you are 
requesting an increase of $810,000 to meet the current program 
commitments. Could you tell us a little bit about this?
    I am getting very concerned regarding the whole area when 
Federal employees, have locality pay, have salaries, we have a 
substantial benefit package, have transit subsidy 
contributions; and now we start an education loan repayment 
program, and then other things come along. It gets kind of hard 
to compare what we are paying employees here compared with what 
is common around the rest of the country, since most companies 
do not provide these benefits.
    Can you tell us what are your current program commitments, 
how many employees receive the benefits, and what is the 
average amount provided to each participant?
    Mr. Walker. Mr. Chairman, we have recently issued a 
proposed order to implement this new authority. Basically the 
way that it works is that we are first identifying critical 
occupations where we are having difficulty attracting an 
adequate number of qualified employees. We are targeting 
assistance first and foremost to those areas.
    For example, we are having difficulty in attracting an 
adequate number of Ph.D. economists, also entry-level 
attorneys. There are tremendous supply-and-demand imbalances in 
the marketplace in connection with these areas.
    You are correct that you really need to look at a total 
compensation approach. But even if you look at a total 
compensation approach for people with those types of skills, as 
compared to what we offer, there is an imbalance.
    So, as a result, what we found is that student loan 
repayments can be helpful. A lot of times people that go into 
public service are going to make less money than they otherwise 
would in the private sector. That differential could be 
compounded with the fact they have significant debt that they 
have accumulated in order to obtain advanced degrees, and that 
might, therefore, preclude them from going into the government.
    Mr. Chairman, 95 percent of the professional employees that 
we hired in FY 2001 had either a Masters or Ph.D. degree. So we 
have a very highly educated workforce.
    With regard to this year's program, we anticipate that 
there will be probably less than 20 people that will be in our 
targeted employment areas. We also want to use student loan 
repayment for retention purposes. We want to be able to provide 
some loan repayment relief to those individuals who are strong 
performers and who are in their first 3 years of experience at 
GAO, because our history has shown that if we can keep people 
for at least 3 years, we have a very good chance of keeping 
them long term. The turnover that we have after years 1 and 2 
is much higher than it is after they stay 3 years.
    So we are targeting our assistance to those critical 
occupations to try to enhance retention for people that have 
from 1 to 3 years of experience, primarily.
    Mr. Taylor. Unfortunately, these types of actions become 
commonplace, and while you have a highly educated workforce 
that you are trying to retain and attract, you pass it across 
to a variety of other agencies, and all that disappears; and in 
fact, there may not be any trouble finding employees in many of 
those areas. I have several questions that I will submit at 
this point to be answered for the record.
    [The questions and responses follow:]

                        Transit Subsidy Benefit

    Question. You are requesting an increase of $335,000 for your 
transit subsidy program in order to increase the monthly allowance from 
$65 a month to $100 a month. The committee understands that increase 
was effective January 1, 2002.
    (1) Did you increase the allowance to your employees at that time 
or are they being held at the $65 level?
    (2) How many employees participate in the program?
    (3) You state that you want to extend the program to new hires. Is 
there a reason why they have been excluded prior to this?
    Response. Yes, in January 2002, we increased the monthly benefit 
from $65 to $100 to provide GAO staff benefits similar to those 
existing in the executive branch. This benefit will enable GAO to be 
competitive with the executive branch for the same pool of highly 
qualified job applicants.
    As of March 2002, GAO had over 1,400 participants in its Transit 
Subsidy Program. We have never excluded new hires from participating in 
the program, but rather we offer the benefit to new hires as they are 
brought on board. Our fiscal year 2003 budget requests an increase of 
$335,000 to cover fiscal year 2003 hires, as well as fund the 
annualized cost of the January 2002 rate increase.

                             LEAVE PAYMENTS
    Question. You have a current base of $2.2 million for leave 
payments. You have requested an increase of $1.5 million, which brings 
your base to $3.7 million. It is assumed that from the time a person 
leaves your organization until a replacement is selected a certain 
amount of time should elapse.
    That being the case shouldn't there be a time period that you are 
not paying salaries or benefits and therefore should accumulate some 
savings that would be used to make these leave payments?
    Response. No, there are no savings available to cover estimated 
leave payments. The savings from estimated staff attrition has already 
been offset against the cost of planned hires, promotions and merit 
increases for staff.
    Our fiscal year 2003 request for funding terminal leave payments 
anticipates an increase in the number of staff retirements than had 
been previously experienced. For example, in fiscal year 1999, 71 staff 
retired. In fiscal year 2001, staff retirements had almost doubled, 
reaching 130. In the first half of fiscal year 2002, we already have 
had 130 staff retire, including 52 staff that exercised the option to 
retire under our recent early-out program. By the end of fiscal year 
2003, we estimate almost 20 percent of our current staff and executives 
will be eligible to retire.

                       ASBESTOS ABATEMENT PROGRAM
    Question. We touched on this area last year and I said at that time 
that I've been on this committee since 1993, and the asbestos abatement 
program has been an issue the entire time. Again this year you speak to 
the fact that your plans are to complete this program during the 
current fiscal year.
    (1) What is the projected completion date for the project?
    (2) What is the projected completion date of the final phase of the 
construction of office space in the GAO Building?
    Response. We plan to complete the final phase of asbestos removal 
and construction of office space in the GAO building in the spring of 
2003. Our fiscal year 2003 budget request does not contain any funds 
for the asbestos removal project. Asbestos has already been removed 
from all office space, except the sixth floor, which is largely 
complete.

                OPERATION AND MAINTENANCE OF FACILITIES
    Question. There is a price level increase of $789,000 for operation 
and maintenance of facilities.
    (1) Does this cost only cover the main GAO building?
    (2) In addition to rental payments are there any operation and 
maintenance costs associated with your 11 sub-offices?
    (3) By sub-office what are your annual rental payments?
    Response. Yes, this $789,000 covers utility services and operation 
and maintenance costs only for the GAO headquarters building. In 
addition to the rental payments, there are minimal costs for operations 
and maintenance costs for some field offices that are not included in 
the rental payment, such as security maintenance and monitoring, 
preventive maintenance, and miscellaneous services.
    Our fiscal year 2003 estimates for rent payments by field 
location are as follows:

------------------------------------------------------------------------
                                                                FY 2003
                           Location                             Estimate
------------------------------------------------------------------------
Atlanta......................................................   $883,396
Boston.......................................................    892,278
Chicago......................................................    766,895
Dallas.......................................................    876,197
Denver.......................................................    457,123
Huntsville...................................................    117,349
Los Angeles..................................................    651,902
Norfolk......................................................    511,485
San Francisco................................................    706,430
Seattle......................................................    702,478
------------------------------------------------------------------------

    We do not pay rent for our Dayton field office located at Wright 
Patterson Air Force Base. However, we pay a nominal amount for 
operations and maintenance services.

           QUARTERS, COST-OF-LIVING AND EDUCATION ALLOWANCES
    Question. You have requested funds to cover quarters, cost-of-
living and education allowances. These types of payments are usually 
paid to employees stationed outside the United States. I understand 
that these payments are being paid to employees that you have detailed 
to NATO.
    (1) If these employees are detailed I assume you are being 
reimbursed for all costs associated with those details?
    (2) If that is the case, why are you requesting funding for a non-
cost item?
    Response. We only have one employee currently on assignment to 
NATO. Annually, we budget for the anticipated cost of compensation and 
benefits allowances for staff on detail to NATO. Since we do not 
receive reimbusements in advance of actual expenditures, appropriated 
funds are earmarked for this purpose. As we bill the Department of 
State for actual costs, the reimbursement is used to offset our total 
compensation and benefits costs.

                         SECURITY ENHANCEMENTS
    Question. You are requesting $4 million dollars to implement 
critical security and safety enhancements. We touched on this area 
during last year's hearing but since September 11th security has become 
a major initiative throughout the country.
    (1) Has GAO prepared a comprehensive security and safety 
assessment?
    (2) If so, what were the major findings?
    (3) What are the total projected costs for your needed security and 
safety enhancements?
    Response. Yes, GAO has prepared a comprehensive security and safety 
assessment. The safety and security of GAO's staff, guests, 
information, and assets are a top priority for GAO. In the aftermath of 
the September 11 terrorist attacks and subsequent anthrax incidents, we 
designated safety and security as a key management challenge. As a 
result, we hired a contractor who conducted a comprehensive assessment 
and evaluation of our security, including potential physical, nuclear, 
biological, chemical, and radiological threats. The contractor made a 
number of recommendations to enhance building access control, perimeter 
security, personnel security, and physical security. We have assessed 
the contractor's recommendations and are refining our implementation 
plan to further strengthen security and safety within GAO. We would be 
pleased to brief the Committee on the contractor's specific findings 
and recommendations.
    We currently are implementing initiatives to screen mail offsite; 
upgrade air handling systems to protect against chemical and biological 
intrusions; and upgrade building access control, emergency 
notification, and intrusion detection systems. We are also assessing 
security needs at our field offices. We currently estimate the total 
cost of identified security and safety enhancements in fiscal years 
2002 and 2003 at $10.3 million. However, we have not completed our 
emergency preparedness planning activities with other legislative 
branch entities.

                PRESIDENT'S RETIREMENT COSTS INITIATIVE

    Mr. Taylor. One last question: The President proposed a 
government-wide initiative to transfer accountability for 
accruing retirement benefits and post-retirement health benefit 
costs from OPM to individual agencies. The cost to the 
Legislative Branch agencies this fiscal year, excluding the 
Senate, is $112 million.
    Do you have any observations or recommendations for this 
proposal?
    Mr. Walker. Well, Mr. Chairman, from the standpoint of 
economics and accounting, it clearly has conceptual merit to do 
that. I understand the administration is saying their intent is 
not to reallocate resources and not to change its bottom line. 
As you know, only the Congress can allocate resources in the 
first instance.
    I have said in my capacity as chairman of the Joint 
Financial Management Improvement Program that this program has 
conceptual merit. But obviously how you go about implementing 
it makes a big difference as to what the real impact is going 
to be, if you do decide to implement it.
    Mr. Taylor. Thank you. We will open for the other members.
    Mr. Moran.

                     TECHNOLOGY ASSESSMENT PROGRAM

    Mr. Moran. Thank you, Chairman Taylor. In last year's 
legislative branch report, we gave GAO the responsibility for 
developing a technology assessment capability as a pilot 
project. I would like to just get a little short status report 
of where we are on that.
    Mr. Walker. You are correct, Mr. Moran. In fact, in last 
year's legislation there was a $500,000 allocation for a pilot 
program. We have under way, right now, one such project that we 
are undertaking in partnership with the National Academy of 
Sciences. The subject matter involved is the use of biometric 
technologies to control the U.S. borders. We believe it is a 
timely topic given some recent events.
    We are considering the possibility of additional projects, 
as well. But as you know, with the finite amount of dollars and 
the limited amount of time, there is only so much one can do.
    Mr. Moran. Could you ever do more than one or two reports a 
year with the money that is made available? Do you think that 
GAO is the right location for this?
    Mr. Walker. First, Mr. Moran, I would respectfully suggest 
that this is something that is worthwhile, and that we have a 
lot of knowledge and expertise within GAO that can help to 
accomplish this objective. Given that fact, I don't know that 
it makes a whole lot of sense to create a new governmental 
entity to do something that can be done either by GAO, or 
probably more likely, as in the case with this project, in 
partnership between GAO and maybe the National Academy of 
Sciences and other parties on the outside.
    How many projects we can do in a particular year obviously 
depends upon not only how much the resources are, but also the 
nature of the projects, how labor-intensive they are and how 
much expertise we have to buy from the outside that we may not 
end up having on the inside.

                        TRUTH IN REGULATING ACT

    Mr. Moran. The Truth in Regulating Act, do you think that 
you are the appropriate place to develop that kind of 
expertise? Did you ask for any money to implement the Truth in 
Regulating Act?
    Mr. Walker. It was never funded. We did request, as I 
recall, last year, funding for TIRA. The way that legislation 
was drafted, it was only operational if it was funded. The 
Congress, to date, has not decided to fund TIRA. But I think 
TIRA was a 3-year program scheduled to expire in FY 2003.
    Mr. Dodaro. Congressman, the authorization for the Truth in 
Regulating Act expires in fiscal year 2003. We did request 
supplemental funding in fiscal year 2001, and then again for 
fiscal year 2002 in our budget; neither was approved.
    We were prepared to implement the legislation if it was 
funded. We do believe we have the expertise in-house to carry 
it out, and we were prepared to, if funding had been provided.
    With regard to the National Academy, as Mr. Walker 
indicated, we have worked out an arrangement with the Academy 
to get expedited access to the appropriate technical expertise 
that we need, and we are actually using the National Academy on 
a number of projects now. So we think we will be able to handle 
those issues.

                    ENERGY POLICY DEVELOPMENT GROUP

    Mr. Moran. The last subject matter, you have been asked, as 
we all know, to obtain information on the Energy Policy 
Development Group. Can you share with us what information you 
have requested and why you need it?
    Mr. Walker. Mr. Moran, at the request initially of two 
ranking minority Members of this House, we began this project. 
Their request was subsequently joined by four committee 
chairmen in the Senate in January of this year.
    As you undoubtedly know, our statute says we shall do work 
for committees. Therefore, our view was we were compelled to 
proceed. I am not happy with the fact that we have had to bring 
suit in this matter. I generally don't think it is a good idea 
for one branch of government to sue another branch of 
government. I don't think there are any winners when you sue, 
other than the lawyers who end up making some money out of it.
    However, in this particular circumstance I believe we were 
compelled to proceed. We tried very hard to work it out. I 
personally made efforts on various occasions over a 6-month 
period to try to work out something that would prevent us from 
having to file suit.
    There were statutory mechanisms available to the President 
and the Director of OMB that could have prevented us from 
filing suit which they did not take advantage of. They did not 
claim executive privilege. I think it is unfortunate, but 
unless we are able to reach some accommodation, then I think it 
is an issue in which only the courts can decide. I just hope it 
isn't a precursor of other problems down the road.
    Mr. Moran. You have hired an outside law firm to represent 
you?
    Mr. Walker. That is correct. We have hired Sidley & Austin, 
which is one of the largest firms in the country. Our lead 
litigator is Carter Phillips, who was a member of Reagan's 
Justice Department. He has appeared before the Supreme Court at 
least 20 times in the past.
    Mr. Moran. Is there any other area of inquiry where you 
have not been able to obtain information, whether it be 
homeland security or whatever else?
    Mr. Walker. One area we are concerned about right now--but 
we have not been denied access, we just haven't been provided 
information yet--is the Office of Homeland Security.
    This is another situation where we issued a ``demand 
letter'' yesterday dealing with the Commerce Department, and I 
am going to be meeting with the Director of OMB about that 
issue. I think there are some legitimate issues we need to talk 
about and hopefully can resolve.
    The Office of Homeland Security says they want to cooperate 
with us, but so far they haven't, and I am hopeful they will 
soon. If not, we may end up having to take additional steps.
    Mr. Moran. Which would be similar to what you have had to 
do with the energy policy?
    Mr. Walker. Well, we are not that far yet down the road, 
Mr. Moran. Clearly, what we want to do and what I am doing 
right now is communicating with interested parties on the Hill.
    In the case of homeland security, I think it is distinctly 
possible. The reason I say that is we have 61 requests to do 
work on homeland security. Most are from committee chairs. Most 
are bipartisan. Some are bicameral. There is a broad-based 
interest in this subject matter.
    For 58 of the 61 we believe we can get everything we need 
from departments and agencies. Only three require information 
from the Office of Homeland Security, and we are trying to 
really narrow our requests of that office, because we have a 
big job to do and a limited amount of staff to do it.
    But, in the end, I think these are legitimate requests; and 
I am hopeful they are going to be cooperative.
    Mr. Moran. And you haven't gotten any information from 
them?
    Mr. Walker. Not yet.
    Mr. Moran. Thank you very much, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Moran.
    I haven't discussed with the administration this matter, 
but I don't think there is anything sinister. I think you have 
the Vice President, who, as a Member of the House, and a leader 
in the House in the past, has written historically about the 
procedures of the House. I think he genuinely believes in his 
position, and hopefully down the road we could find some way to 
avoid the legal expense. You have had to move forward without 
that; and I commend you, Mr. Comptroller.
    Mr. Moran has submitted some questions to be answered for 
the record.
    [The questions and responses follow:]

                               FTE LEVELS
    Question. FY 2002 was the first year for the past several years 
that GAO has been provided sufficient funding to staff up to your 
authorized FTE level. What progress have you made in recruiting and 
retaining staff with the skills needed to fulfill your mission? Are you 
expecting a significant number of retirements or other turnover in the 
next few years that may necessitate advanced hiring to provide overlap 
for succession planning purposes?
    Response. We are making great progress this year in recruiting and 
retaining staff with the skills needed to fulfill our mission. In 
formulating our hiring and workforce plans for fiscal years 2002 and 
2003, we considered potential staff retirements, other turnover, and 
succession planning issues anticipated in the next few years. Our 
fiscal year 2002 staffing plan anticipates about 300 staff will retire 
or leave the agency during the year. Also, our workforce planning 
analysis indicates that almost 30 percent of our workforce will be 
eligible for retirement by fiscal year 2005. To help address these 
succession planning issues, our fiscal year 2002 staffing goal is to 
hire about 450 permanent staff and about 150 summer interns. We have 
already received about 4,900 applications for entry-level positions, 
almost double the number that we received in fiscal year 2001. Our FY 
2002 acceptance rate from staff offered entry-level positions is a very 
impressive 76 percent. Based upon our progress to date, we expect to 
accomplish our hiring goal by the end of the year.
    As a result of our human capital assessment, we implemented a 
number of human capital initiatives to address recruitment and 
retention. For example, we have developed an active summer internship 
program to attract prospective entry-level applicants. Of those staff 
who interned at GAO during the summer of 2001 and were offered 
permanent jobs after the summer, about 65 percent accepted--an increase 
of 13 percent compared with the acceptance rate in fiscal year 2000. We 
also recently revised our recruiting and college relations strategies 
to become more competitive with private and public organizations in 
targeting and hiring diverse, high caliber, entry-level staff with the 
skills and abilities needed to achieve our strategic goals and 
objectives. We are now recruiting on the campuses of over 50 of the 
nation's top colleges and universities with a wide diversity of 
students, and have initiated an outreach program to private sector 
firms to expand our recruiting base. In addition, we have established a 
Professional Development Program to maximize the opportunities for 
entry-level staff to succeed. The program exposes them to a variety of 
work experiences to help them assess where their interests may lie, and 
enables GAO to obtain a broader perspective on the staff's capabilities 
and make informed decisions on how their skills might best be used.
    We are also seeing progress in staff retention. We ask departing 
staff to complete an exit questionnaire and continually monitor staff 
departures to provide insight into the reasons for departure to 
determine whether salary, benefits, job characteristics or other 
factors impacted staff decisions. During my term as Comptroller 
General, the number of staff with less than 5 years of service has 
increased dramatically, from 12 percent in fiscal year 1999 to about 33 
percent in fiscal year 2002.
    In addition, over the last several years, we have expanded employee 
empowerment; enhanced employee involvement and benefits; and enhanced 
GAO's work environment and business processes, such as enabling 
technology, to provide staff a stable, productive work environment and 
encourage retention. We have also begun implementing a strategy to 
address succession planning and skills imbalance issues. We identified 
staff likely to retire over the next several years through an employee 
survey, reassigned staff to other areas to fill skill vacancies and 
help further develop staff, and identified employee knowledge, skills, 
and abilities to assist in our workforce planning efforts.
    As a result of our human capital initiatives, we reversed a trend 
that existed between 1992 and 2000 of the number of separations 
exceeding the number of hires, made significant progress in reshaping 
the workforce to achieve a better balance among the different levels, 
and enhanced the diversity of our workforce.
    Question. What do you think the ``right size'' for GAO is in terms 
of positions?
    Response. We believe that our current authorized full-time 
equivalent (FTE) level of 3,269 is adequate for the present time to 
fulfill our mission. In considering our workforce needs for fiscal 
years 2002 and 2003, we analyzed our past workload, productivity, and 
staffing levels, as well as our pending workload and anticipated future 
work under our draft strategic plan to support the Congress in fiscal 
years 2002 to 2007.
    During the past 5 fiscal years, we have responded to congressional 
demand for our work, covering a wide range of issues of national and 
international importance and resulting in significant financial and 
non-financial benefits for the Congress and American taxpayers. Under 
our draft strategic plan for fiscal years 2002 to 2007, we see our work 
continuing in a manner similar to that of recent years, but becoming 
increasingly challenging and complex. We believe that a workforce of 
3,269 FTEs provides the staffing level and human capital necessary to 
remain responsive to congressional requests on issues of growing 
complexity, begin addressing various congressional requests awaiting 
GAO assistance, and conduct a reasonable amount of research and 
development work necessary to prepare us to assist the Congress in 
evaluating other emerging and breaking issues. The requested FTE level 
also provides the amount of flexibility we need to continue addressing 
the human capital challenges facing our workforce.

                            TRANSIT SUBSIDY
    Question. You have requested increases in your transit subsidy and 
student loan repayment programs. Explain what you hope to achieve 
through these programs, and why you believe the increases are 
necessary.
    Response. Our transit subsidy and student loan repayment programs 
provide GAO additional tools needed to help achieve a level playing 
field comparable to executive branch agencies and other professional 
service entities with whom we compete for talent. The requested 
increase for the transit subsidy program will allow GAO to continue to 
provide benefits that are comparable to the executive branch and to 
cover anticipated new program participants.
    Public accounting and management consulting firms provide 
competitive starting salaries, often far above federal entry salary 
rates, and lucrative incentive pay to attract the best graduates and to 
retain the best employees. While GAO has been successful in marketing 
itself as the premier accountability organization in the federal 
government and has leveraged the flexibilities of federal salary rates 
for new hires wherever possible, the transit subsidy and student loan 
repayment programs help to narrow or offset the gap between federal 
base pay and compensation packages offered by competitors, especially 
for recent college graduates with significant debt.
    Since fiscal year 1999, we have experienced a steady decline in 
staff with 5 to 10 years experience with GAO. These benefits are 
imperative to assist us in helping to retain entry-level staff and 
staff with skills critical to active engagements. Our experience has 
been that if we retain entry-level staff for at least 3 years, we have 
a very good chance of keeping them long-term.

              INFORMATION RESOURCES AVAILABLE TO CONGRESS

    Mr. Taylor. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    I guess I could spend a lot of time following up on that 
line of questioning, but first let me start by saying to you 
that I value at the highest possible level the information that 
the Congress can get by way of the work of an organization such 
as yours. We have so many resources around here that range from 
people who belong in the third House, which is known as the 
lobbying group, the Library of Congress, nonprofit and other 
organizations and universities. There is a plentiful flow of 
information, but making sense out of that is not always easy. 
In the meantime, we depend an awful lot on you to help us sift 
through a lot of that.
    So I would like to have some better way of knowing or 
having a line of communication from my job as the Chairman of 
the Subcommittee on Defense, where we fund all national 
security and intelligence agencies, to those priority requests 
that rise to the top of your thinking and your people's 
imagination. That way we would at least not look at one request 
as just another part of a list of 1,000 requests, because there 
are endless reports around here.
    I am not sure if there are ways whereby you can help 
someone like our organization do that. Let me have you respond.
    Mr. Walker. Mr. Lewis, absolutely.
    First, there are several things we have done and there are 
other things we contemplate doing to try to help in this 
regard. For one thing, we have improved the transparency of the 
work we are doing for the Congress. We have available on-line--
available to you and other Members--all of the requests that we 
have accepted, what the nature of the requests are, and various 
other information.
    Second, we are trying to increase our outreach efforts, 
particularly with committee chairmen, subcommittee chairmen and 
ranking members, to try to obtain a better understanding of 
what is on their agenda, what are they concerned about, and 
what are the issues they are having difficulty with.
    We also, to the extent we end up having more requests than 
we have allocated resources, try to work with the committee 
leadership to help prioritize what we ought to be spending our 
time on.
    As you undoubtedly know, 85 percent of the work we do is 
specifically at the request of the Congress. The other 15 
percent benefits congressional needs. This document you have 
been provided a copy of has the framework of our strategic 
plan, which is put together in consultation with the Congress 
such that we try to end up filling in the gaps in those areas 
that are in this strategic plan with that 15 percent that 
otherwise we are not getting requests.
    I would be more than happy, along with my colleagues, to 
visit with you at any time and give you a status report on 
where we are at and what we see as some of the key issues that 
you may want to pursue.
    Mr. Dodaro. Congressman, right now we have the update of 
our strategic plan for serving the Congress in discussion draft 
that we made available to everybody. We also make a concerted 
effort every year to have an outreach discussion with either 
the Members or the staff directors of every committee in 
Congress to talk about setting priorities. Our strategic plan 
is updated every 2 years to coincide with every new Congress to 
make sure we are planning ahead.
    We also have set in our congressional protocols a clear 
priority scheme for how we react to requests from the Congress. 
Priority one are requests from either the leadership or 
committee chairs or ranking minority Members. Priority two are 
requests from members on a committee of relevant jurisdiction. 
Priority three are requests from Members that are not on a 
committee of relevant jurisdiction and are just asking for GAO 
assistance as part of their interest in a particular topic or 
subject area.
    So through the strategic plan or outreach activities and 
trying to set these priorities, we balance the workload, 
hopefully, to address the critical issues, both as we see them 
and as the requests come in from the Congress.
    Mr. Walker. Mr. Lewis, I would be more than happy to sit 
down with you and cover this issue at your convenience. I think 
it would be great to be able to do that.

                     TRANSFORMATION OF THE MILITARY

    Mr. Lewis. I have always felt it is often not what but who 
is involved, and we have very, very fine staff helping us with 
this defense funding material that covers half of our 
discretionary appropriations funding.
    I'd like to look at one area, specifically the area of 
military transformation. It is a word that is bandied around 
here a lot, but it goes from soup to nuts. I don't know if 
anybody within GAO is in a position of beginning to get a 
handle of what may actually be changing or actually figuring 
out how you can double up on legacy systems. That area of 
expertise is very helpful.
    Mr. Dodaro. Actually, we have a number of efforts under way 
concerning the transformation efforts in the services, whether 
it be the Army or the Navy. So we have requests and have in our 
plans to do additional work in that area and have already 
started.

                   MILITARY'S HUMAN CAPITAL CHALLENGE

    Mr. Walker. The other area on transformation, as you know, 
Mr. Lewis, some people view transformation as platform 
transformation, and platforms are an element of transformation. 
But, frankly, the biggest challenge I see at DOD and in the 
services with regard to transformation is a human capital 
challenge, the people challenge, the cultural transformation 
challenge, and that is something that I would love to have a 
chance to talk to you about.
    I will tell you, one of the things we are also doing with 
the administration is that, despite the frustrations associated 
with the piece of litigation that Mr. Moran mentioned, we have 
probably never had a more constructive working relationship 
with Cabinet-level officials and OMB than we have right now.
    We have had several meetings with Secretary Rumsfeld, 
Deputy Secretary Wolfowitz, Under Secretary Aldridge, et 
cetera, talking about some of the challenges at DOD and what 
our views are as to what needs to be done in order to try to 
help transform that organization, which is a multi-year effort. 
It is seven-plus years. But there is never a good time to 
start. Actually, there always is. It is now. We need to stick 
with it.
    Mr. Lewis. Well, I must say that, within that mix, it is 
absolutely vital that you know the personalities who are 
plugged in with one another. But as long as we are going to 
spend this much money it ought to be in my view, for America's 
leadership for peace 15 years from now. How we get there and 
are able to afford that is critical. So between now and then 
the kind of analysis you are capable of providing and your 
guidance in helping us find directions could be very valuable 
if we all give it priority.
    Anyway, Mr. Chairman, you are more than generous with my 
wandering here.

                        QUESTIONS FOR THE RECORD

    Mr. Taylor. Fine. Mr. Moran, did you have other questions?
    Mr. Moran. That is all right.
    Mr. Lewis. He is on my subcommittee, too, so he won't care.
    Mr. Taylor. We will submit for the record any further 
questions we have, for you to answer. In addition, supply for 
the record any reprogramming request approved by the committee.
    [The questions and responses follow:]

           Questions for the Record From Representative Hoyer

    Question. Your testimony describes efforts to improve efficiency by 
enabling staff to access GAO resources from anyplace at any time. The 
anthrax experience has highlighted a need for such improvements for the 
House. What benefits have you realized in this area that might benefit 
the House, and the government generally?
    Response. As a result of recent events and subsequent planning 
efforts, we have implemented several initiatives that will:
    1. help ensure that continuity of our operations;
    2. minimize disruption in service to the Congress;
    3. provide support to Members of the House of Representatives and 
staff;
    4. provide staff some additional flexibility to telecommute; and
    5. ensure access to GAO data and systems from remote locations, 
including non-traditional workstations within the building.
    For example, we accelerated our plans to establish an offsite 
disaster recovery facility for network operations and critical 
information systems that allow for minimal disruption in staff 
productivity and continued service to the Congress. We also upgraded 
our communications capacity by increasing the number of telephone 
lines; expanded our voicemail system to allow more simultaneous users; 
installed antennas to facilitate the use of cell phones and Blackberrys 
within the GAO building; and provided wireless, remote access to the 
GAO's agency-wide network and email systems.

                          MANDATORY INCREASES
    Question. Your budget request includes about $20 million to cover 
mandatory pay and benefits increases. Most of these benefits are 
automatic under current law. On page 33 of your justification, you 
indicate that you will review the GAO pay systems and structures to 
identify ways to increase the percentage of compensation tied directly 
to performance. Please elaborate. Will staff be held harmless under 
your plans? How will this affect GAO's budget in the future?
    Response. We plan to initiate a review over the next year to 
determine what changes we can make within existing statutory authority 
to more directly link all pay increases to performance results and 
contributions to our strategic plan for serving the Congress. We do not 
expect that recommended changes would impact our budget request or 
result in the need for additional funds. An employee's existing pay 
level at the time that a new pay system is implemented would not be 
reduced, and such employees would be held harmless.
    At GAO, we have already taken significant steps to better link 
compensation, performance, and results. We recently revised the 
performance appraisal system for all staff to incorporate GAO's core 
values and strategic goals. We also recently revised the performance 
appraisal system for analysts to reflect performance competencies and 
best practices. We are now revising the performance appraisal system 
for attorneys and mission support staff to incorporate performance 
competencies.
    In addition, the merit increases granted under our analyst and 
attorney compensation systems are based on performance results. We are 
currently reviewing the compensation system for our mission support 
staff to develop a system that better links merit increases to 
performance results.

                              GAO STAFFING
    Question. Since 1992, GAO staffing has been reduced by about 40 
percent. In 2000, Congress gave you additional flexibility to manage 
GAO's human capital and last year we provided funds to increase 
staffing. Please describe your progress in increasing your staffing 
levels. How have you used these new human capital flexibilities?
    Response. We are making great progress this year in recruiting and 
retaining staff with the skills needed to fulfill our mission. Our 
fiscal year 2002 staffing plan anticipates about 300 staff will retire 
or leave the agency during the year. Also our workforce planning 
analysis indicates that almost 30 percent of our workforce will be 
eligible for retirement by fiscal year 2005. To help address these 
succession planning issues, our fiscal year 2002 staffing goal is to 
hire about 450 permanent staff and about 150 summer interns. We have 
already received about 4,900 applications for entry-level positions, 
almost double the number that we received in fiscal year 2001. Our FY 
2002 acceptance rate from staff offered entry-level positions is a very 
impressive 76 percent. Based upon our progress to date, we expect to 
accomplish our hiring goal by the end of the year.
    As a result of our human capital assessment, we implemented a 
number of human capital initiatives to address recruitment and 
retention. For example, we have developed an active summer internship 
program to attract prospective entry-level applicants. Of those staff 
who interned at GAO during the summer of 2001 and were offered 
permanent jobs after the summer, about 65 percent accepted--an increase 
of 13 percent compared with the acceptance rate in fiscal year 2000. We 
also recently revised our recruiting and college relations strategies 
to become more competitive with private and public organizations in 
targeting and hiring diverse, high caliber, entry-level staff with the 
skills and abilities needed to achieve our strategic goals and 
objectives. We are now recruiting on the campuses of over 50 of the 
nation's top colleges and universities with a wide diversity of 
students, and have initiated an outreach program to private sector 
firms to expand our recruiting base. In addition, we have established a 
Professional Development Program to maximize the opportunities for 
entry-level staff to succeed. The program exposes them to a variety of 
work experiences to help them assess where their interests may lie, and 
enables GAO to obtain a broader perspective on the staff's capabilities 
and make informed decisions on how their skills might best be used.
    In addition, over the past several years, we have expanded employee 
empowerment; enhanced employee involvement and benefits; and enhanced 
GAO's work environment and business processes, such as enabling 
technology, to provide staff a stable, productive work environment and 
encourage retention. We have also begun implementing a strategy to 
address succession planning and skills imbalance issues. We identified 
staff likely to retire over the next several years through an employee 
survey, reassigned staff to other areas to fill skill vacancies and 
help further develop staff; and identified employee knowledge, skills 
and abilities to assist in our workforce planning efforts.
    As a result of our human capital initiatives, we reversed a trend 
that existed between 1992 and 2000 of the number of separations 
exceeding the number of hires, made significant progress in reshaping 
the workforce to achieve a better balance among the different levels, 
and enhanced the diversity of our workforce.
    In fiscal year 2001, we began implementing some of the new 
personnel management authorities provided under the human capital 
legislation enacted in October 2000. After developing policies for the 
new voluntary early retirement authority, we provided our staff an 
opportunity to apply for early retirement, which resulted in the 
departure of 52 employees. In addition we established several senior 
level positions authorized by the legislation. We are currently in the 
process of developing updated policies and procedures for reduction-in-
force and voluntary separation incentive payments.

                     STUDENT LOAN REPAYMENT PROGRAM
    Question. This year you are implementing a student loan repayment 
program and have requested an increase for fiscal year 2003. Please 
describe the need for this increase and the benefits you expect to 
realize. What criteria do you have to qualify employees for this 
program?
    Response. GAO plans to use the student loan repayment program as a 
recruiting incentive for shortage category positions, such as 
economists, and especially as a retention incentive to help address our 
succession planning challenges. Public accounting and management 
consulting firms provide competitive starting salaries, often far above 
federal entry salary rates, and lucrative incentive pay to attract the 
best graduates and to retain the best employees. While GAO has been 
successful in marketing itself as the premier accountability 
organization in the federal government and has leveraged the 
flexibilities of federal salary rates for new hires wherever possible, 
the transit subsidy and student loan repayment programs help to narrow 
or offset the gap between federal base pay and compensation packages 
offered by competitors, especially for recent college graduates with 
significant debt.
    Current law and regulation require employees to sign a 3-year 
service agreement, allow staff to receive up to $6,000 annually, and 
establish a lifetime maximum of $40,000. We are in the process of 
developing our implementing guidelines and criteria consistent with 
these regulations. In addition, we have identified hard-to-fill 
positions for which we plan to offer student loan repayments as a 
recruiting incentive. We have also identified critical skill needs for 
on-going engagements for which we would offer student loan repayments 
as a retention incentive.

                         SECURITY ENHANCEMENTS
    Question. The House appreciated GAO's hospitality during the 
anthrax episode. You have requested $4 million for security and safety 
enhancements. Have you completed your security threat assessment?
    Response. The safety and security of GAO's staff, guests, 
information, and assets are a top priority for GAO. In the aftermath of 
the September 11 terrorist attacks and subsequent anthrax incidents, we 
accelerated our efforts to address safety and security as a key 
management challenge. As a result, we hired a contractor who conducted 
a comprehensive assessment and evaluation of our security, including 
potential physical, nuclear, biological, chemical, and radiological 
threats. The contractor made a number of recommendations to enhance 
building access control, perimeter security, personnel security, and 
physical security. We have assessed the contractor's recommendations 
and are refining our implementation plan to further strengthen security 
and safety within GAO. We would be pleased to brief the Committee on 
the contractor's specific findings and recommendations.

                          CAPITOL POLICE BOARD
    Question. Last year, this Committee requested that you review the 
role and operations of the Capitol Police Board, its satutory 
underpinnings and its mission, and to recommend possible alternatives 
to ensure that appropriate oversight of the U.S. Capitol Police is 
achieved. Please describe your progress and findings.
    Response. Pursuant to the Committee's direction, we reviewed four 
topics regarding the Capitol Police Board: (1) the Board's roles and 
responsibilities and the statutory authority to carry them out; (2) the 
Board's current functions and principal operational processes; (3) the 
extent to which the characteristics of the Board's functions and 
processes are consistent with applicable standards of corporate 
governance and internal and management control; and (4) options for 
alternative structures for the Board. To address these topics, we 
analyzed relevant documents; compiled a composite benchmark of 
prevailing standards of corporate governance, internal and management 
control, and police management and administration; and interviewed 
current and former Board members and Capitol Police officials, and 
selected current and former Senate and House congressional staff who 
have interacted with the Board. To present the results of our review, 
we have drafted a report that is currently undergoing review. In 
accordance with discussions with Committee staff, we anticipate 
submitting the final report to the Committee on or about May 31, 2002.

    [Clerk's note: Following are the reprogramming request 
approved by the subcommittee.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            CLOSING REMARKS

    Mr. Taylor. We appreciate you and all of your staff coming 
today. We appreciate the fine work you do.
    The subcommittee stands in recess until Thursday, April 25, 
at 10 a.m., at which time we will consider the budget request 
of Architect of the Capitol and the Congressional Budget 
Office.
                                        Thursday, April 25, 2002.  

                        ARCHITECT OF THE CAPITOL

                               WITNESSES

ALAN M. HANTMAN, FAIA, ARCHITECT OF THE CAPITOL
MICHAEL G. TURNBULL, ASSISTANT ARCHITECT OF THE CAPITOL

                           Opening Statement

    Mr. Taylor. The subcommittee will come to order.
    We will take up the Fiscal Year 2003 budget of the Office 
of Architect of the Capitol. We have the Honorable Alan 
Hantman, the Architect of the Capitol, and several members of 
his staff.
    Good morning to all of you.
    Before we begin, I would like to take this opportunity to 
thank the Architect and all of his employees for their 
diligence and commitment to this institution after October 
15th. These individuals were heavily involved in the 
displacement and temporary relocation of congressional 
employees, all aspects of the anthrax remediation and 
reoccupation of our buildings.
    These efforts, many times went unnoticed. They involved 
hours upon hours, mostly late in the night, that did not make 
the front page of Roll Call, but they were core to the success 
of this endeavor.
    Alan, you personally deserve our praise not only for 
guiding your employees, but as a member of the Police Board on 
which you serve, you were constantly involved in making 
difficult and historical decisions during this unprecedented 
time. I thank you not only on behalf of myself but also on 
behalf of all my colleagues in the House for the work that you 
did last year.
    Mr. Moran, do you have a statement before we proceed?
    Mr. Moran. I think that is fine. I have a lot of questions, 
but I don't believe I need to make a statement. I don't know if 
Mr. Hoyer, ranking member of House Administration, needs to 
make a statement.
    Mr. Hoyer. No.
    Mr. Taylor. Alan, could you introduce your staff. I know 
you have a prepared statement and it will be inserted in the 
record. If you would like to make a short comment, and then we 
will go into questions.
    Mr. Hantman. Good morning, Mr. Chairman. May I introduce 
Michael Turnbull, Assistant Architect, and Amita Poole, who is 
our Chief of Staff. And we have other supporting folks for 
technical questions as we go further with the questioning.
    First of all, Mr. Chairman, on behalf of the agency, I 
truly thank you for those sensitive and appreciative words that 
you spoke. The Congress and we, as an arm of the Congress, have 
gone through a very difficult time since September 11 and the 
anthrax problems that we suffered. So many people in this 
agency and the police force and the Sergeant at Arms Office, 
throughout all of the officers and offices in Congress, really 
responded in such a positive, upbeat, ``can do,'' ``let us keep 
the ball rolling'' type of attitude. I mean, we had people in 
our organization who virtually worked or were available around 
the clock to try to provide information to the Centers for 
Disease Control, to all the folks who were remediating our 
buildings and trying to deal with this new initiative, this new 
threat to security since our last hearing.
    All I can do, Mr. Chairman, is once again thank you so much 
for that recognition. I know it means an awful lot to me and 
the 2000 people in my agency; and it is critically important to 
do that. Thank you, sir.
    [The opening statement of the Architect of Capital, Mr. 
Hantman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        CAPITOL COMPLEX PROJECTS

    Mr. Taylor. Thank you.
    I know we have a lot of questions about the construction 
that is going on outside the Capitol. Would you provide the 
Subcommittee with a time line for the construction of the 
Visitor Center and the House perimeter security construction 
and other pertinent property projects, especially around the 
Capitol, because our members are getting a lot of questions 
about what is happening? And I think you have the material 
here, to answer these questions and that would be helpful to 
start with.
    Mr. Hantman. Thank you, Mr. Chairman. It is so difficult to 
really visualize what is really happening over here.
    In reality, we have four projects going on virtually at the 
same time, and we just brought a couple of boards to be able to 
talk you through it, explain it. And I think what we really 
need to do down the road is to be able to have an opportunity 
to present it to a much wider range of membership, both the 
House and the Senate, to answer whatever questions they have 
and to have a real quiet time to talk about it.
    But in terms of a brief overview, one of the projects that 
you see happening on the Capitol grounds right now relates to 
the scaffolding that you see going up on the west and at the 
dome. This is part of the $41.6 million painting and temporary 
remediation project we have for the Capitol dome.
    As you know, Mr. Chairman, we completed the $7.5 million 
crack study evaluation, connection evaluation, all that; and we 
had originally talked last year about the need for 
approximately $50 million for renovation of the Capitol dome. 
With all the work we have going on around here, this is a 
temporary type of effort that we have, which will be repainting 
the dome over the existing paint as opposed to stripping it 
down to base metal and repainting it.
    We will be making a couple of splices on some structural 
members that don't want to wait. We will be doing other 
cosmetic things and basically putting that project to bed for 
the next 4, 5 years until we can come back to you, Mr. 
Chairman, with the full scope of work for the Capitol dome.
    Mr. Taylor. This is on top of the work we did a few years 
ago inside the dome and the work that was necessary there?
    Mr. Hantman. Exactly, Mr. Chairman. The dome had been on a 
painting cycle of something like every 4 years. The last time 
the dome was painted was in 1988 so we are really overdue. So 
if we are not going to do the major project of stripping it 
down to base metal, starting to sew together the cracks in the 
metal plates and things of this nature, replace some of the 
rusted out segments, this scope of work is meant to essentially 
keep it whole until we can initiate that major project down the 
road when we have less happening on our plate in other areas.
    This project will be complete basically at the end of the 
summer and out of the way.
    Another piece of work you will see initiated next week will 
be on the west side of the Capitol, generally in this area. As 
you know, the Memorial Day concert is coming up. The National 
Park Service, with Mr. Colbert, is doing a great job in 
producing that.
    I don't know if you folks were aware at the last Memorial 
Day concert, we had a deluge. There was so much rain that 
people were virtually sitting in pools. So they have 
commissioned the design of a new tent on the west front of the 
Capitol, and that new tent will have the ability to house all 
of the band, the entertainers and the dignitaries that come up 
to perform on the stage. And they will be putting in new 
anchors for this larger tent on the west front. That is an 
activity you will see, starting next week.
    What we see now also, though, throughout the Capitol campus 
is the perimeter security program going on. We are coming to 
the end of a program which basically took the perimeter 
security. And as you have seen on the west side, we have 
completed the area, removed the bollards, removed the jersey 
barriers in conjunction with the entry walkways on the House 
and Senate sides.
    We have also run the bollards up the west drives and we are 
at the point right now we are working at the intersection of 
the south entrance to the Capitol where most folks from the 
House come in. We have the police kiosk in place, the island in 
place where the kiosk is situated, and there is a turnaround 
island that we will also be replacing. And I will show you a 
photograph of that in a moment.
    The work over here will be progressing towards the east, 
and we project by September to complete all of this work on the 
House side for the perimeter security work. The areas you see 
in green along the East Capitol Street entrance, and also on 
the Senate side, really won't be completed until the Capitol 
Visitor Center is completed, because we have a tunnel on New 
Jersey Avenue that will be put under Constitution Avenue; and 
all of our truck deliveries to the Visitor Center will be 
coming under there, so we didn't want to install the bollards 
and the security measures over there in a permanent manner 
until we had that excavation work done. So that will be done 
later on, as will the reinforcement of the walls and the 
perimeter security on the eastern side of the Capitol. That is 
pretty much what you see happening right now as far as the 
Visitor Center--as far as the perimeter security is concerned.
    [Subsequent to the hearing, the Architect of the Capitol 
provided the following:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                             VISITOR CENTER

    Mr. Hantman. As far as the Visitor Center is concerned, Mr. 
Chairman, this is the outline of the Visitor Center; but maybe 
we can show a quick rendering before we go ahead to that.
    Mr. Taylor. Yes, that is fine.
    Mr. Hantman. This shows the view of the East Capitol Plaza. 
The white line out here is the footprint of the Capitol Visitor 
Center. The yellow line defines the construction staging areas 
that we will be defining throughout the east front. What will 
be happening is basically, in June, we will be completing the 
fence line that you see under construction right now and will 
be using these eggs as staging areas for the Capitol Visitor 
Center project.
    Back in 1958, 1960, when the east front was extended, when 
the dome was last worked on and the Senate tunnel was worked 
on, that was the function that was used as well. And what we 
are doing now in work, Mr. Chairman, is being able to clear out 
this footprint for the excavation work of all the utilities 
that currently are in that footprint--the steam lines, the 
water lines, the sewer lines that exist in this area--so that 
when we award the contract for the foundation work that they 
will not have any impediments in their way.
    This is kind of preconstruction work. And what you see on 
the south end of the Capitol area is relocation of many of 
those lines. In fact, there is a steam line relocation project 
occurring on the west side of the Capitol as well. So most of 
the construction you see on both the House and the Senate side 
is part of this relocation of utility work that we have going 
on.
    What I would like to explain to you also is the kind of 
accommodations we have made to allow this work to go on while 
the day-to-day operations of the Capitol are not impeded. If we 
could see the next board, please.
    What we are trying to do is to assure that day-to-day 
operation of the House and the Senate can proceed most 
appropriately, that visitors can come on in. This shows the 
area down by the House steps. The fence line that we show here 
is being built now and will be in place in June. What we are 
going to be doing is allowing a new drive facility, so cars 
will be able to come in, drop people off to be able to go to a 
vote, to enter the building, and that we will be able to still 
accommodate that. But the ability to park cars in the short run 
on the plaza, they will have to be moved so we can actually do 
the work, do the excavation work over here.
    What this shows, Mr. Chairman, is the fact that Members 
will still be able to access the House side going up the 
stairs, going into the doorway under the driveway and also 
utilize the entrance from the south end. So all of those 
accesses will be in place. But the access at the Memorial Door 
and the Library Door will be used only for emergency egress as 
opposed to access for anybody else. And all of the visitors 
will be relocated essentially to coming into the west side.
    What this shows, Mr. Chairman is the Capitol Building over 
here, the west side of the Capitol heading towards The Mall. 
Tour buses will be coming in on the west side now, dropping 
their people off over here. They will be marshaled in the area 
down on the west opposite the Botanic Garden. From there, they 
will walk up the walkway to the new temporary screening 
facility that is under construction right now; and you can see 
that basically on the south side of the Capitol. That temporary 
screening facility will be available in the middle of May and 
people then, instead of going to the small little kiosk we have 
on the east side, they will be relocated here.
    They will be coming in from the west side and screened 
remotely in this temporary visitor facility and come up onto 
the plaza, onto the terrace area, and walk through the west 
side of the Capitol and then have access into the Capitol for 
their tours. And they will also egress on the west side of the 
Capitol.
    So all of the work you are seeing right now is all 
preparatory for clearing the way on the east front for the 
major foundation work to occur.
    We currently have the foundation contract out to bid. We 
are getting good response from the industry at this point in 
time. We are looking forward to getting those bids back in 
June, awarding the contract by the end of the month. The 
contractor would probably be mobilizing by July and actually on 
site by August and doing heavy construction work at that point. 
In point of fact, Mr. Chairman, if you and other members of the 
committee or the House would want to take a little visit over 
to the World War II Memorial, they are using a slurry wall 
construction technique that we will be using here; and you will 
be able to visualize a lot better what we are going to be in 
for and the type of disruption and debris that we will be 
seeing as this project proceeds.
    So the time line basically says that we will be awarding 
that foundation contract. We will then be awarding a second 
contract for the rest of the building. That work will then be 
proceeding, so that by the time of the inaugural in January, 
2005, we will be able to support the inaugural and, at that 
point in time, finish the interior of the facilities, install 
the exhibits, take care the finish treatments inside the 
building; and by fall of 2005 have an opening to the public for 
the full utilization of the building. But we will be supporting 
the inaugural in January, 2005 for screening activities and 
other security-related measures.

                             CVC QUESTIONS

    Mr. Taylor. Before we proceed any further into other areas, 
why don't we have a session of questions primarily on the CVC, 
and then we will proceed into other matters.
    Mr. Moran. I will defer to Mr. Hoyer initially, because 
being on the House Administration Committee, he has been very 
much involved in this.
    [Clerk's note. The following questions from Mr. Moran were 
submitted to be answered for the record.]

                         Capital Visitor Center

    Question. Please provide us with a status report on this project.
    Response. CVC Past Year Milestones:
    <bullet> Total funding for CVC project appropriated.
    <bullet> The CVC remains on budget with two independent estimates. 
The resulting reconciled estimate confirmed the estimated cost of the 
construction to be below the $265 million budget for this project at 
the 75% design stage. The additional elements added to the project, 
such as the Library of Congress tunnel construction and the House and 
Senate shell face fit-out, are not included in this estimate.
    <bullet> CVC starts on schedule: Expanding the pre-construction 
work to include the relocation of utility lines--steam, electrical, 
telephone, and water--that currently feed the Capitol through the East 
Front, as well as the tree preservation package, allowed the project to 
proceed without full funding nor jeopardizing the impact to the 
Capitol.
    <bullet> Approval of the initial exhibit floor concept received 
from the CPC Leadership.
    <bullet> CVC design meets enhances security standards: Defense 
Threat Reduction Agency (DTRA) review, after the September 11th 
attacks, resulting in verifying the design includes provisions which 
mitigate risks from external attacks, when coupled with a secure 
perimeter of the Capitol.
    <bullet> CVC team uses best value source selection process to 
obtain contractors: Source selection process is being conducted jointly 
with GSA.
    <bullet> A Request for Proposals (RFP) for Sequence 1 released 
February 2002: (Technical, management and past performance for the 
excavation, foundation and structure.) RFP Pricing portion released in 
April; award expected in June 2002.
    <bullet> A traffic management study completed: Resulting in DC 
Public Works approved designed routes for construction vehicles 
entering and leaving the project site.
    CVC Projects Under Contract:
    <bullet> Tree Preservation contract awarded October 2001.
    <bullet> Utility relocation contract awarded October 2001; most 
work to be completed by July 2002.
    <bullet> Temporary visitor receiving facility under construction. 
Scheduled opening mid-May 2002.
    <bullet> Design continues for the main building project; Sequence 1 
completed in April 2002. Sequence 2 design will continue until later 
this year.
    <bullet> Construction site security developed with Capitol Police 
coordination.
    <bullet> Relocation activities (to vacate East Front affected 
areas) being coordinated with the Senate and House, most relocation 
plans are the responsibility of the House and Senate, with AOC 
providing scheduling and milestones.
    <bullet> General conditions and miscellaneous utility contracts 
being completed advance of main construction.
    <bullet> Relocation of the media's ``Elm'' site is under design. 
Location for the temporary location is on the terrace of the Cannon 
building.
    <bullet> Historic preservation of the Olmsted landscape elements to 
be for bid in May 2002. Provides removal and eventual replacement of 
historic elements to the Capitol grounds to allow CVC construction in 
the areas they occupy.
    <bullet> CVC security system design continues under the 
surveillance of the U.S. Capitol Police.
    <bullet> Design for House Expansion space stated; currently working 
with House Leadership to finalize requirements.
    Question. Have any issues come up that could impact the budget or 
timing of this project?
    Response. Yes. The main issues, which could affect the budget and 
schedule, are:
    <bullet> Timely approval of obligation plans.
    <bullet> Timely relocation of occupants in the East Front of the 
Capitol, from the areas affected by the CVC construction, which is the 
responsibility of the House (and Senate) to vacate by the end of 
February 2003;
    <bullet> Expansion space planning and decisions by the House must 
be made within the next two months for the project team to allow this 
part of the project to be completed within the timeframe for the main 
CVC project. If decisions are not reached within this time, then the 
cost for expansion space will increase due to the fact that it will be 
a separate project and not completed within our construction manager's 
contract.
    <bullet> Conflict between construction and on-going Capitol 
operations, this includes work stoppages due to staff requests or 
dignitary visits.
    <bullet> Unforeseen site conditions during excavation.
    Question. How are you balancing the need to move quickly on this 
project against the need to continue business-as-usual here at the U.S. 
Capitol?
    Response. Communication and planning are and will continue to be 
the keys to ensuring the project stays on schedule while minimizing 
disruption to the Capitol community. First, though close coordination 
with House and Senate Leadership, the Capitol Preservation Commission, 
the Capitol Police, the Capitol Guide Service, building management and 
other key players, we have established clear lines of communication to 
keep all parties informed of ongoing and upcoming activities as well as 
how these activities may impact their daily routines. Weekly meetings, 
site walks, presentations for Members and staff, the distribution of a 
weekly CVC construction summary, and a project well site are some of 
the tools we have used to keep the Capitol community aware of CVC 
construction activates.
    Second, through careful planning, we expect to reduce the 
likelihood that work will be stopped due to noise or other 
construction-related disturbances. For example, we have worked and will 
continue to work during recess periods to execute utility relocations 
and other work potentially disruptive to building operations. In 
addition, much of the tree removal effort, necessary to clear the 
project footprint for excavation, was done during evening hours so as 
to minimize impacts to parking. These, and other pre-construction 
activities are being accomplished in advance of the main excavation 
contract, thereby allowing us to minimize the risk of unforeseen 
conditions once excavation begins. Further, we have phased project 
activities to keep portions of the project area accessible for fire and 
life-safety needs during excavation and foundation work.
    <bullet> In other efforts to maintain normal working conditions for 
Members and staff, the CVC project team will install sound-dampening 
windows on all East Front windows to minimize noise disruption during 
construction. Temporary parking facilities, swing space trailers to 
accommodate personnel displaced from the East Front, and temporary 
House and Senate media sites (outside the project footprint) also will 
facilitate the continuance of normal operations. Temporary visitor 
screening facilities are being installed on both the North and South 
ends of the Capitol to keep tours flowing through the building 
throughout construction. All of these planning efforts, combined with a 
proactive communications plan, will maximize our ability to maintain 
our schedule while ensuring that Members' and staff's can maintain our 
schedule while ensuring that Members' and staff's can maintain 
``business as usual.''
    Question. Do the business realities add significant costs to the 
project?
    Response. Yes. If you were to compare doing this project adjacent 
to a completely vacant building, the cost to do this project would be 
significantly less. Having to relocate utilities and to keep the 
building fully operational adds additional cost to the project. The 
project has done the following recently, to keep the building 
operational, which would not have been done if business reality were 
not present:
    <bullet> Temporary screening facility: allows visitors to be 
screened in a location other than the construction site, which added 
approximately $1 million to the project cost.
    <bullet> Acoustic window treatment: allows occupants to remain 
within the building by reducing the sound from the construction site, 
adding approximately $400,000.
    <bullet> Parking facilities: CVC has provided temporary parking 
lots to reduce the impact to Members and staff for the areas displaced 
by construction, adding approximately $200,000 to the project cost.
    <bullet> Plans for State Funerals: while it may seem minor, the 
construction of the CVC on the East Front has disrupted the funeral 
arrangements for the Capitol, requiring planning to accommodate this 
need.
    <bullet> Temporary building entry canopies: allowing for dignitary 
visits and Member drive ups, the CVC is providing tents and other 
measures to accommodate Members and events to enter the Capitol while 
the East Front parking area is not accessible. Added cost is 
approximately $100,000.
    <bullet> Trash and building supplies: Removal of the building 
``lifts'' requires that an alternate means of trash removal and 
deliveries into the Capitol are provided. This is still undergoing 
study, thus the cost to provide for this service to keep the Capitol 
operational is not estimated yet.
    <bullet> Media sites: The Swamp (Senate) and Elm (House) media 
sites will be out of use due to construction, so the CVC office has 
provided a temporary site during the construction period for the House 
and Senate (the House will be on the Cannon Terrace). Approximate cost 
is $200,000.
    <bullet> Temporary utilities: if the Capitol were not occupied 
during construction, there would not be a need for installing temporary 
utilities that will be displaced due to construction, but would be 
operational, after completion. Approximately cost to relocate utilities 
due to keeping building operational has not been estimated separately 
from the utilities which require relocation due to new building, thus 
no cost is available.
    Question. Do you see some major logistical problems arising as 
construction to renovate the Supreme Court and build the new Capitol 
Visitors' Center get underway? Will there be a need to close First 
Street?
    Response. No major logistical problems anticipated. First Street 
will have some minor utilities installed, but closure of this street is 
not required. Communication between these two projects has already 
started and will continue during the planning phases.

                        Visitor Center Briefing

    Mr. Hoyer. Thank you very much. I have been by, and I think 
Bob Ney, has also been by for a briefing on what was going on 
here, because our committee gets a lot of questions.
    Alan, you were not very specific, but we have asked the 
Architect's Office to give a briefing to all Members with the 
visuals on a screen large enough so people can really get a 
feel, because they are going to be living with this for the 
next 3\1/2\ years, into the fall of 2005, and they are going to 
be getting questions from constituents who are coming here; 
moreover, Members, are going to be substantially inconvenienced 
in terms of access to the entire parking area in front of the 
east front of the Capitol.
    Mr. Chairman, I really don't have any specific questions of 
the Architect on this, but I do reiterate that the sooner we do 
this, Alan, with full presentations, with the renderings that 
you have discussed in terms of what it is going to look like--
particularly with respect to security the better off we will be 
so that Members and the public will have a better 
understanding.
    This has come at a time when security and other 
improvements have interfaced, and Members are very concerned 
about having a Capitol that is accessible, having a Capitol 
that does not look like an armed camp, and having a Capitol 
that continues to be open to visitors coming from around the 
country to see their Capitol.
    I think that will be the result, but I think Members are 
having a hard time visualizing it at this point in time.
    Mr. Taylor. Will you be furnishing refreshments?
    Mr. Hoyer. Whatever you want.
    Mr. Moran. Mr. Chairman, I do have some questions, if it is 
okay.
    Mr. Taylor. Let me move ahead to Mr. Wamp, if we could?

                       Cannon Building Elevators

    Mr. Wamp. Quick question, Mr. Architect.
    What is the status of the elevators in Cannon? I get a lot 
of complaints about that. Is there a schedule for replacement?
    Mr. Hantman. Yes. We have a program for replacing all of 
the elevators, campus wide.
    Do you have the specific schedule, Mike?
    Mr. Birkhead. We have awarded the contract on that and the 
work has not actually begun. And I believe it is a 2-year 
schedule to replace all of the elevators in Cannon and to 
upgrade them all.
    Mr. Wamp. The adventure continues. It is a lot of fun to 
ride those elevators, but you never know when you are going to 
get where you are going. I will hold my other questions.
    Mr. Taylor. Anyone have any other questions regarding the 
Capitol Visitor Center.

                     East Plaza Access--House Side

    Mr. LaHood. I do have some questions. I am going to say 
this, and I hope it is taken in the right way.
    The main job that we have when we come here is to vote. I 
mean, we do a lot of other things, but we are sent here to 
vote. I think the inconvenience that is going to be created by 
discontinuing the opportunity for Members to drive through the 
plaza and rerouting Members is going to be a huge, huge problem 
for Members, and for some Members, unexplainable.
    Now, we have Members that drive to the Capitol from their 
office for every vote, for whatever reasons they do that. They 
are not going to want to walk underground and they are going to 
want to be able to come in and have it be convenient.
    Now, I see from your diagram, somebody could drive in. But 
what you are going to have is a huge backup of cars, which 
already exists because of the crazy system, whether it is 
temporary or not.
    I want to suggest this, Mr. Chairman, and I want to suggest 
to the Architect, I don't know if there is a way you can make 
it convenient, but in my opinion--and I am only one Member--you 
need to make it convenient for Members to come to the House to 
vote; and this is inconvenient. And I don't know--and I know 
you have already got this in place, so I am speaking for 
myself. I don't have, you know, the clout of leadership or 
anything else.
    This is a bad idea for the idea that Members come here to 
vote, and it is not going to work. And you are going to have 
Members screaming about their inability to get to the plaza. 
You are going to have traffic backed up to kingdom come out 
onto the streets because--I think this is a lousy system, even 
to be able to have staff drop their Member off to come in.
    Mr. Turnbull. Congressman, if I might add something, we 
have been working very diligently with the House Sergeant at 
Arms on parking issues on the drives and associated areas; and 
I think this is another area where we can work with him and 
maybe come up with some options of parking on the drive for 
Members during that period.
    Mr. LaHood. You have to give Members closer access to be 
able to come over. People are coming from committees, coming 
from meetings in their offices. You are going to have Members 
missing votes; and I think this is a lousy system, I really do, 
particularly in the context of the idea that our main job is to 
come to the Capitol to vote.
    It has got to be convenient. This is not going to be 
convenient. I am opposed to it, and I think it is a bad idea, 
and I don't know if it can be changed or not.
    Mr. Hantman. We will work with the Sergeant at Arms, look 
at the other options on the driveways and what could be 
accommodated to make that operational.
    Mr. LaHood. Right now, it is so inconvenient to drive a car 
on the plaza. There are people walking, there is traffic backed 
up. Sometimes they check your trunk sometimes they don't, 
sometimes they scan you with the mirror, sometimes they don't.
    I am going to tell you this: There are a lot of Members 
that like the convenience of being able to drive up to the 
steps, and some of it is for health reasons; and you are going 
to prohibit a lot of opportunities for that.
    Mr. Taylor. Other questions about the outside of the 
Capitol?

                          Security Consultants

    Mr. Wamp. One, Mr. Chairman. I had a company in my district 
that was actually involved in the teaming of the security for 
the recent Olympics in Utah. Are outside vendors used for 
security in terms of planning? What is the coordination?
    I know the Sergeant-at-Arms is hands-on involved, and there 
is a team, but are any contractors used that have had 
experience at staging public places and facilities from the 
outside, so that we are using the knowledge of what else has 
worked recently?
    Obviously, the Olympics was one of the biggest security 
staging areas that we have had of late, and it went off without 
a hitch. People in my district were involved in that.
    Are we using any outside consultants to set up perimeters?
    Mr. Hantman. We are working with both governmental and 
nongovernmental groups. DTRA, DOD certainly advise us. We also 
have RTKL, people who are very active in the State Department 
construction and security issues as well. SAIC is another firm 
we are using.
    So we are calling on significant outside resources to look 
at, advise us, and verify effectively what we are planning to 
do.
    Mr. Wamp. There is a system called ``responder assets 
management system,'' which I think you will hear more about in 
formulating this public safety system which was involved in the 
Olympics. I would like to talk to you about that in the coming 
days.
    Mr. LaHood. Mr. Chairman, could I say, I really feel 
strongly about this.
    I don't know if you are here at 1 or 2 in the morning, Mr. 
Architect, when some of us are trying to drive from our 
apartments, and people are sleeping in their offices.
    This is a joke. This is not going to work when we are in 
session at 1 or 2 in the morning, and you have hordes of people 
trying to drive in--trying to get to the plaza to vote. This is 
a lousy idea.
    Mr. Taylor. Mr. Moran.

                     EAST PLAZA ACCESS--SENATE SIDE

    Mr. Moran. Did you want to underscore that point once more? 
That is fine. I think your concerns are legitimate.
    Once you give the overall presentation, as Steny has 
suggested, to all the Members, you are going to hear a lot of 
this. Ray is not speaking in a vacuum. You are going to hear 
objections from a lot of Members.
    I have a number of questions on other related subjects, but 
on this specifically, I would like to ask, what you are doing 
on the Senate side. If there are any people that are more 
difficult to please than those on the House side, they are our 
colleagues on the Senate side.
    How are you going to handle the Senators?
    Mr. Hantman. The Senate side, Mr. Moran, is a little more 
complicated than the House side.
    Could we show the big overview?
    As I pointed out on the plan earlier, we have the 
construction of the underground facility, which is going to be 
coming from New Jersey, under Constitution and up and under 
here because the truck dock will be serving the entire Capitol 
from the Senate side. So while the perimeter security program 
will be completed for the House basically this summer, that 
perimeter security won't be completed for the Senate on a 
permanent basis until the Visitor Center is completed. So the 
traffic island, that turnaround, all of the issues related to 
bollards will not be in place until the Visitor Center major 
construction is done and we are closing up that area and the 
tunnel.
    And they also have various similar turnaround capabilities, 
the same issue of drop-off and moving off the plaza. There are 
areas that will be paved on the triangle for additional 
parking, I believe--is that true, Joe, on both sides?

                             VISITOR ACCESS

    Mr. Moran. Alan, are all the visitors going to enter and 
exit on the House side?
    Mr. Hantman. The majority of the visitors, the tourists, 
actually do come in from the House side. So there is going to 
be--they will not enter from the House side necessarily. They 
will be coming from the west side. Right now the House and the 
Senate are talking about which doors they will come in from the 
west side and which doors they will exit. They are talking----
    Mr. Moran. Looks like you are channeling all visitors over 
to the House side. Wherever they originate from, they are going 
to have to go over to the House to get through.
    Mr. Hantman. In terms of screening, that is true. Except 
the Senate gallery tours will be screened, and there is a small 
structure that will be built here also for Senate gallery tours 
here.

                            STREET CLOSURES

    Mr. Moran. Now, are you going to renovate the Supreme Court 
at the same time as the Visitor Center?
    Mr. Hantman. The Supreme Court will be under renovation.
    Mr. Moran. Are you going to have to close down First Street 
during construction?
    Mr. Hantman. No. We have met with the Department of 
Transportation of the District of Columbia, and we have worked 
out routes for the trucks to come in and out of to avoid 
inconveniencing the community or closing down key streets. So 
that entire program has been worked out with the District of 
Columbia Department of Transportation.
    And, in fact, we presented that at a hearing; it was 
basically a presentation to the Capitol Hill Restoration 
Society, the Chamber of Commerce about a month ago; and we 
talked about routes of traffic and levels of convenience or 
inconvenience to the community.

                             BOTANIC GARDEN

    Mr. Moran. Well, I don't relish your job at all.
    But in addition to the concern--Mr. LaHood has raised, that 
we have got to vote.
    The second concern, I suppose, is that we need to make sure 
that this place is secure--the buildings and everybody that 
works in the buildings.
    The third concern is that there should be some priority on 
the appearance of the Capitol. It is the Capitol of the free 
world. It is something that everybody all over the world comes 
to see. It is supposed to leave them with an awestruck feeling.
    Unfortunately, the aesthetics are just awful. I mean, it 
looks like a dump ground. It is a place under siege.
    Now, I understand all the reasons, but there have been 
times when I felt that there were things you could have done to 
improve the appearance, and it was just inexplicable. One thing 
that continues to gripe me is the open space in front of the 
Botanic Garden, facing west.
    You know, the garden was closed a year before any 
construction began. You let the grass grow, you cut all the 
trees down. It looked like a dump. And, it was a dump many, 
many months before construction began. Today, it is still a 
dump.
    When people come to see the Capitol, oftentimes, it is the 
first thing they see. It looks awful. In Alexandria, at least 
in Old Town, we would have condemned the place. But here it is 
part of the U.S. Capitol Grounds, and we couldn't care less, 
apparently, what it looks like.
    I am not going to belabor this, but we do care about these 
grounds and their aesthetics. There are some areas where we 
really could do a much better job and improve the appearance 
and impression this place leaves people with.
    At this point, let us move on to some of the other issues, 
and we will just keep that in mind.
    Mr. Taylor. Mr. Sherwood is recognized.
    [The following question from Ms. Kaptur was submitted to be 
answered for the record:]

             Condition of Area by the U.S. Botanic Gardens

    Question. I share the concern expressed by my colleagues regarding 
the condition of the land on the south side of the U.S. Botanic 
Gardens. Until the new garden is built, aren't there any steps that can 
be taken to level the land and provide some level of maintenance so 
that it presents a better image to visitors?
    Response. The Capitol Grounds crew has cleared away debris, a 
combined crew of Botanic Garden and Capitol Grounds staff is mowing and 
weed whacking the property. The area immediately adjacent to the West 
End of the Conservatory is still being used as storage for stone and 
pavers for the two courtyard gardens (Children's & Contemplation). My 
plan is to build a screen to mask this construction and storage site.

                       VISITOR CENTER APPEARANCE

    Mr. Sherwood. I am a little behind the curve here. I want 
to know what it is going to look like when you are all done.
    In other words, the footprint scares me. Show us what it 
looks like when it is done. The inconvenience in the 
construction is one thing but----
    Mr. Hantman. We have a model in the crypt right now that we 
can certainly give you a detailed walk-through on it.
    Mr. Sherwood. Do you mean we are going to build a building 
right up to the Capitol steps?
    Mr. Hantman. Three-story underground structure, totally 
underground.
    Mr. Sherwood. What is it going to look like on top?
    Mr. Hantman. The only thing you are going to see on top is 
all of the asphalt paving that we see there now will be 
replaced with a granite pavement. When you come in on East 
Capitol Street, a new alley of trees, all of the people coming 
to the screening--to the Visitor Center will be screened 
remotely basically under where the existing fountains occur.
    We currently have driveways----
    Mr. Sherwood. The blocks we see is the granite paving?
    Mr. Hantman. This is all granite paving on the same 
elevation that we see currently.
    Mr. Sherwood. And there are some green areas up close 
there.
    Mr. Hantman. These green areas, panels, pretty much where 
we see the existing green panels, except we will have skylights 
in them to bring some light down below into the Center.
    One of the new elements that we are going to see over here 
are two major skylights in the plaza trying to humanize the 
scale of the plaza so people will feel welcome, be able to come 
in and sit on the edge--it is essentially a water feature 
around the skylight to give a human scale to what essentially 
is a very large and open space.
    Mr. Sherwood. Basically, the historical appearance of the 
Capitol will look very much the same as it always has?
    Mr. Hantman. Yes, sir. We have been very conscious of 
making sure that the main show, the only show, is the Capitol 
Building itself.

                  VISITOR CENTER CONSTRUCTION SCHEDULE

    Mr. Sherwood. And the construction projects and the 
inconvenience that we are worried about, and the looks of the 
place that we are concerned with, how long is this construction 
project going to take?
    Mr. Hantman. The majority part of the exterior construction 
will be completed in time to support the 2005 inaugural in 
January, 2005. Most of the successive work after that will be 
inside the underground structure, doing the finishing work, 
putting in the exhibits, putting in the cafeterias and all of 
those supporting facilities.
    Mr. Sherwood. But for 3\1/2\ years we will put up with the 
setup that we have now?
    Mr. Hantman. One of the major rationales for the 
construction methodology we are using, sir, is we are using 
something called top-down construction.
    I referred to the slurry wall foundation construction 
methodology that they are using at World War II, which will 
basically build the outline of the facility. Once that is done, 
we will be casting a slab on the top to make sure that most of 
the future work will occur under that slab and will be able to 
use that for emergency vehicles, for access, for some staging 
for the project as well.
    A lot of the noise and dirt will be done under that cap, if 
you will, once that is done--within the first 2 years, 
essentially.
    Mr. Sherwood. So when will we get back to a normal traffic 
flow?
    Mr. Hantman. This is Joe Sacco, who is our Project Manager.
    Mr. Sacco. Mid-2005, we are restoring the plaza.
    Mr. Sherwood. I thought you were going to do all that work 
underground.
    Mr. Hantman. In terms of the finish work of getting the 
skylights in and getting the paving done, much of that area 
again will be needed to bring equipment and materials down 
below grade to do some of that work. So the final finishes will 
be beaten up pretty badly by the construction equipment serving 
that, and the trucks, if we didn't install it when most of that 
work was basically in place.
    Is that correct, Joe?
    Mr. Sacco. Yes.
    Mr. Sherwood. You said there would be a great deal of work 
that would be done after. Do you mean, there would be a great 
deal of work that would be done after the inaugural of 2005?
    Mr. Hantman. Underground there will be a lot of work still 
occurring in terms of finishing the exhibits, the visitor 
spaces. We will not be seeing a hole for the length of that 
project because the cap will go on and we will be able to drive 
on that surface for emergency vehicles and equipment.
    Mr. Sherwood. You have got to understand we are not 
construction people, we are not architects and engineers, but I 
guess it is a little hard for us to understand that this 
project is going to take so long.
    Mr. Hantman. One of the things I think would be very 
informative when we get into these presentations with the 
membership, we have essentially a whole series of phases where 
we can show what will be happening during this 6-month period, 
this 6-month period, where the construction will be going and 
what you will basically be seeing. And we will be able to show 
that and discuss that in detail during those presentations, 
sir.
    Mr. Sherwood. But--we did establish that the general 
disruption on top of the ground and the limited access is going 
to continue for 3\1/2\ years.
    Mr. Hantman. That's correct, sir.

                      BOTANIC GARDEN CONSTRUCTION

    Mr. Taylor. We thought we prepared you with the Botanic 
Garden Project.
    Mr. Wamp.
    Mr. Wamp. Speaking of the Botanic Garden, you have got to 
know when you are talking about this project, we need to learn 
from our mistakes. One of our biggest problems with the Botanic 
Garden was the workers needed to finish the construction on 
time.
    We had a booming economy. As I recall from the hearings 
when we asked the question as to why we were over budget and 
why there are still lawsuits, there was a worker shortage, 
correct?
    Mr. Hantman. No lawsuits.
    Mr. Wamp. But there are settlement questions with the 
contractor on cost issues, overruns, somebody has to pay those 
bills.
    Mr. Turnbull. We are going through the process now and 
analyzing with the contractor the various open change orders. 
Obviously, the contractor has his point of view and we have got 
ours. We are waiting for documentation to have him substantiate 
his position on any of those change orders.
    Mr. Wamp. Alan, bottom line, the last big construction 
project here was the Botanic Garden, and it was not as 
efficient as it should be. It was not finished on time and it 
went over budget. Hopefully, we have a grasp on it, but part of 
it was a worker shortage.
    Alan, these plans look good. I love the top-down 
construction method. I appreciate the fact that you are not 
going to dig a hole and leave it open for very long because we 
don't want people calling us the ``Big Dig on Capitol Hill.''
    My greatest fear is that this schedule, which is 
understandable at this point, slips substantially into the 
future. We are at war. If we have other problems, I want to 
know how long does your tenure as Architect last?
    Mr. Hantman. Another 5 years.

                       VISITOR CENTER COMPLETION

    Mr. Wamp. You need to stay until this is done. Don't leave. 
If this thing starts--I am dead serious--if this thing starts, 
your career is this project.
    It needs to be on time. It needs to be on budget. This is 
the biggest construction project of a generation, plus more 
generations. This Capitol is the most precious building in 
America in my view. We have got to do this right, and it can't 
slip past this schedule.
    We have got to make every provision on the front end. We 
have to dot our i's, cross our t's and finish this thing; and 
mitigate the anxiety and the inconvenience and all the things 
that have been addressed here, because--Alan, your career is 
this project.
    Mr. Hantman. You are absolutely right, sir. And what we 
have done is put several major issues into place to try to 
avoid some of the problems that we had on the Botanic Garden.
    One of them, of course, is we have gone to an outside 
construction manager. We went to a national selection process, 
which GSA helped us with, and we have Gilbane Construction day-
to-day on this site, making sure that this project is well 
planned, that we go through managing all of the contractors and 
subcontractors appropriately.
    One of the things, of course, we have in our contract is, 
we are going to smack your knuckles if you don't do well, but 
we also have the carrot along with the stick.
    One of the things we are doing here is, we have an 
incentive program. If the contractor performs different 
milestones as he proceeds with the project, he gets a little 
sweetener in the pot. So there is an incentive for the 
contractor to want to finish on time and do the best possible 
job, because we are going to evaluate him at every step of the 
process.
    Mr. Wamp. You talked about the 6-month step that you can 
report to us.
    Does that mirror the incentive process, so we know that the 
guy is doing his job and the contractor is on schedule?
    Mr. Hantman. Do you want to talk about that a little bit, 
Joe?
    Mr. Sacco. We have the evaluation periods tied to his 
payment schedule. It comes out to about five periods throughout 
the contract. And so we are monitoring his performance; we will 
be constantly monitoring his performance and reporting.
    Mr. Wamp. Well, whoever is rebuilding the Pentagon, those 
are the people we need to use.
    Mr. Hantman. He is our Project Manager.
    Mr. Wamp. It is amazing, when you want to do something on 
time, it happens.
    Mr. Hantman. Joe Sacco from the Pentagon. And we brought 
him over to head up our project team and coordinate the work of 
Gilbane and make sure we do just that.
    Mr. Taylor. I am going to join Mr. LaHood. Between this 
project and the security plan no one is going to get into the 
Capitol or the offices. That means that I would like to go to 
North Carolina and vote, and have everybody come down and join 
us down there, because I am not sure we are going to be able to 
get in and out of our Washington offices.
    Now that we got that out of our system we will go into 
other areas and ask further questions of the Architect.
    There have been several management issues, Alan, that 
needed to be addressed; and that is why the committee requested 
GAO to conduct a general management review of the Architect of 
the Capitol. I am pleased that your office isn't taking this 
confrontationally but rather as a partnership to improve the 
Architect's Office, especially given these challenges we have.
    I would like to ask Mr. Moran to ask questions in this area 
first.

                            O'NEILL BUILDING

    Mr. Moran. Thank you very much, Mr. Chairman. I have to 
leave in 5 minutes or so, and then I will be back; but I am 
going to be gone for about 15 minutes, so I think the Architect 
may be gone by then. So there are some questions I want to 
raise. Please respond to the ones you can answer quickly, and 
those that take longer time, save for last.
    First, I am interested in knowing why is the O'Neill 
Building still standing, if it is not occupied? Is it being 
used?
    Mr. Hantman. We have just vacated the last police officers 
from the O'Neill Building.
    Mr. Moran. It is empty now.
    Are you planning on taking it down?
    Mr. Turnbull. Yes, Mr. Moran. We are approximately 70 
percent complete on the demolition documents. We expect to 
award that contract in September. It will take 5 months, and it 
will be down in January 2003.
    [The following question from Mr. Moran was submitted to be 
answered for the record:]

                            O'Neill Building

    Question. Could you tell me why the O'Neill House Office Building 
is still standing? Is it occupied?
    Response. We are presently in the process of demolishing the 
O'Neill Building. The AOC is in the process of renovating office space 
at the Ford and Cannon Buildings to relocate the remaining occupants of 
the building. The building should be empty of all occupants by mid to 
end of June. The AOC is currently performing hazardous material removal 
in the unoccupied floors. The contract to demolish the building is 
scheduled for award in September 2002. The actual demolition of the 
building will be started in October 2002 with completion scheduled for 
January 2003.

                             FITNESS CENTER

    Mr. Moran. Fitness center, where are we on the fitness 
center? Mr. LaHood wants to hear the answer to this, too. Staff 
Wellness Center, quickly, where are we on that? Are we thinking 
about it?
    Mr. Hantman. There are a series of needs that have been 
outlined in broad terms on the House side, the Fitness Center 
being one of them, the future use of the O'Neill site. There is 
a master plan study, trying to put all of these issues 
together, that is being initiated, so we can look at the big 
picture of that, working with the Speaker's Office.
    Mr. Moran. We asked the Chief Administrative Officer. I 
know he is doing the survey. I just wanted to see if you were 
doing anything else in that regard.
    [The following question from Mr. Moran was submitted to be 
answered for the record:]

                             Fitness Center

    Question. Where are we in developing a plan for a staff fitness 
center?
    Response. This is a CAO action. We have worked with the CAO to 
investigate possible sites for the fitness center. The CAO has 
performed a market survey.

                             TUNNEL REPAIRS

    Mr. Moran. There is an old subway tunnel that you have in 
your request to repair. Is it the Constitution Avenue tunnel?
    Mr. Turnbull. Yes, Mr. Moran. There are two tunnels, there 
is the South Capitol tunnel which is not a pedestrian tunnel, 
but there is a Constitution one. We have major safety issues 
with both of those that were addressed by a study, and that is 
what we are requesting.
    Mr. Moran. Is there one that is used by staff?
    Mr. Turnbull. No. They are strictly utilitarian tunnels.
    [The following questions from Mr. Moran were submitted to 
be answered for the record:]

                             TUNNEL REPAIRS

    Question. What is the cost of the Constitution Avenue Tunnel repair 
project in your request?
    Response. Currently $8.5 million is requested to repair the 
Constitution Avenue tunnel. This work will correct structural 
deficiencies discovered as part of the Office of Compliance 
investigation. In December 2000, the Office of Compliance issued a 
citation to correct the structural life safety issues.
    Question. Which tunnel--the old subway tunnel or the subway tunnel 
currently in use--is being repaired?
    Response. The work is to correct structural deficiencies in a 
utility tunnel. This tunnel provides the distribution network for steam 
and chilled water from the Power Plant to the buildings located on 
Capitol Hill. Access to these tunnels is restricted to AOC maintenance 
staff.
    Question. If it is the old subway tunnel, why do you need to spend 
so much to repair a tunnel that is not used by the staff?
    Response. Please see above response.
    Question. How much of the cost of the Constitution Avenue Tunnel 
repair project is associated with the Capitol Visitors' Center work 
that is underway?
    Response. The tunnel repair work is not associated with the CVC 
project.
    Question. Please describe the South Capitol Steam Line project?
    Response. The steam lines routed along South Capitol Street are 
aging and in need of replacement. Leaks have started to develop. This 
project will replace these steam lines. During the construction of the 
CVC, this is the only steam line capable of serving the Capitol and 
House Office buildings. This line must be repaired immediately, or the 
possibility exists that steam service to the Capitol will have to be 
shut-off in order to correct future steam leaks.
    Question. Is this project driven by security considerations or is 
it strictly to repair a situation that has developed?
    Response. There are no security enhancements related to this 
project.

                           VISITOR SCREENING

    Mr. Moran. This building that they are building for the 
Capitol Police, the off-site delivery and screening project, 
that is the one you told us about on the south piece of the 
lawn there?
    Mr. Hantman. This is for the visitors coming into the 
Capitol.
    Mr. Moran. And the cost of that?
    Mr. Hantman. Do we have a number on that, Joe?
    We can get back to you.
    Mr. Moran. I think it would be interesting to get the cost 
of that. We see it being built every day.

    The Temporary Screening Facility, located on the south lawn, is 
comprised of many elements:
    <bullet> Main structure being built just south of the Capitol's 
terrace is approximately $800,000 (which includes site work, 
foundations and utilities);
    <bullet> Ramps needed on the terrace for ADA compliance = $300,000;
    <bullet> Kiosk for visitors at First St. S.W. = $100,000;
    <bullet> Five mobile carts to transport people with disabilities or 
those who cannot walk the hill = $65,000.

                           SECURITY EQUIPMENT

    Mr. Moran. Are there going to be additional requests for 
security equipment?
    Mr. Hantman. They will be using standard magnetometers for 
doing the inspection. I am not aware of any additional 
equipment.

                        WEST REFRIGERATION PLANT

    Mr. Moran. One other thing that I was curious about, $81 
million you are asking for a West Refrigeration Plant. Is that 
associated with the demands created by the new Visitor Center?
    Mr. Turnbull. It is a combination of both, Mr. Moran. I 
think the Visitor Center sort of brings it to a highlight.
    The current equipment in the old refrigeration plant, the 
East Refrigeration Plant, is defunct. That refrigerant we use 
is R-12. It is an ozone depleting substance, and is no longer 
made. We need to replace that to get more efficient equipment 
to be able to serve the needs of the Capitol complex.
    We are estimating that when the CVC comes on-line that is a 
specific need--if we don't have the new power plant, we would 
be approximately 13,000 tons short of chilling to be able to 
serve the needs of the complex.
    Mr. Hantman. The equipment in the east chiller plant is 
something like 50 years old. Half of it is not operable 
anymore. We are pirating parts from those that are not operable 
to keep the ones that are operable going.
    [The following questions from Mr. Moran were submitted to 
be answered for the record:]

                        WEST REFRIGERATION PLANT
    Question. In the fiscal year 2003 budget proposal, I understand 
that you have requested several new construction projects. Please tell 
me about the $81 million requested for the West Refrigeration Plant?
    Response. The Capitol Power Plant serves the heating and cooling 
requirements of the Capitol Complex. The chilled water generation 
capacity is split between the East Refrigeration Plant and the West 
Refrigeration Plant. The firm capacity of chilled water generation is 
currently in a critical shortfall. The East Refrigeration Plant, while 
still in operation, can no longer reliably serve chilled water to the 
Capitol Complex. Maintenance cannot be accomplished due to 
unavailability of parts. The equipment in the East Refrigeration Plant 
uses R-12, an ozone depleting substance, which is currently under 
restrictions by the EPA. Due to the age of the equipment (45+ years) 
the operating efficiency is extremely low. The West Refrigeration Plant 
has a useful life of 10-15 years; however, the capacity of the West 
Refrigeration Plant cannot meet the known and anticipated load growth 
of the campus.
    In an effort to address the immediate need for capital improvements 
at the Capitol Power Plant, the Office of the Architect of the Capitol 
commissioned a Comprehensive Utility Master Plan in November 1999 which 
was completed in July 2000. The objective of the utility master plan 
was to determine the most optimum and reliable approach to provide 
utility service to the United States Capitol and legislative group of 
buildings over the next 25-year period. The results of this Master Plan 
clearly indicated that the chilled water generating capacity of the 
Capitol Power Plant is approaching a critical shortfall and must be 
addressed immediately.
    An economic analysis included in the Master Plan indicated that the 
most cost-effective solution to reliably serve the Capitol Complex's 
cooling requirements over the next 25 years was to expand the existing 
West Refrigeration Plant. This expansion would allow the phased 
installation of approximately 30,000 tons of refrigeration equipment to 
the Capitol Power Plant.
    As part of the West Refrigeration Plant Expansion project, 
architectural, landscape and security improvements are also being made 
to the Power Plant grounds.
    Question. How much of the cost of this project is associated with 
the increased capacity necessary to support the Capitol Visitors' 
Center?
    Response. The cooling load for the Capitol Complex increases 
annually. This load escalation is a function of new buildings being 
added to the cooling loop, and renovation of existing buildings. The 
West Refrigeration Plant Expansion would be required with or without 
the construction of the CVC. The CVC will amplify the immediate need 
for chilled water upgrades to the central system, but does not change 
the long-term requirements of the chilled water system.

                 BOTANIC GARDEN OUTDOOR BEAUTIFICATION

    Mr. Moran. Lastly, what are you going to do about the junk 
yard in front of the Botanic Garden? Are you ever going to 
restore it?
    Mr. Hantman. Mr. Moran, we have had for awhile 100 percent 
construction documents ready to go out to bid. There is a 
501(c)(3) that has been raising private funds to do the 
National Garden directly adjacent to the Botanic Garden. As 
soon as they transfer funds to us, so we don't have an 
antideficiency, we will go out to bid and will be under 
construction.
    We can do that shortly. It is a question of when they get 
their dollars together and transfer to us, so that we can, in 
fact, begin construction. That has been a frustration in terms 
of not being able to fully utilize that site.
    But you are absolutely right. We need to do a better job. 
We are going to get our landscape folks out here to mow it and 
clean it up.
    Mr. Moran. So this wasn't unreasonable to suggest that this 
chain-link fenced area, that looks like somebody's junk yard, 
is inappropriate in front of the Nation's Capitol?
    Mr. Hantman. We were hoping we would have been under 
construction quite awhile ago.
    Mr. Moran. How much is this going to cost us?
    Mr. Hantman. This is a $14.5 million project. And these are 
all privately raised funds. So with this 501(c)(3) raising the 
funding, as soon as they get the money in their hand and 
transfer to us, we will go out to bid and begin construction.
    Ms. Kaptur. Will the gentleman yield on that just for a 
moment? What is the 501(c)(3)? Is that the State garden clubs, 
or which group is that, please?
    Mr. Hantman. The National Fund for the U.S. Botanic Garden, 
and that was set up by the Congress to allow them to raise 
funding. Teresa Heinz is the Chair of that right now, and there 
has been a whole board of directors that has been set up. 
National garden clubs are involved, key people throughout the 
country are involved.
    Mr. Moran. I understand there is $16.5 million authorized 
for the trust fund, but reassure me that if these folks are not 
successful in their fund-raising, we are not going to leave it 
there indefinitely until they raise the money themselves.
    It has to be fixed. I am sure it will be--okay. I won't 
hold you up any longer.
    Thank you, Mr. Chairman.
    [The following question from Chairman Taylor was submitted 
to be answered for the record:]

                             BOTANIC GARDEN
    A laborer/motor vehicle operator position is requested who will be 
assigned duties such as raking, snow removal and custodial duties 
including maintenance of the National Garden.
    Question. Should this not be a shared cost between the BG 
appropriation and the National Garden trust?
    Response. The National Fund has been charged with raising the funds 
to build the National Garden. Oversight of the garden's construction 
will be done by the AOC. Once the National Garden is completed it 
becomes a part of the U.S. Botanic Garden and will be cared for by BG/
AOC employees. This additional Laborer/Motor Vehicle Operator is one 
person added to the BG staff to serve in support of this garden 
expansion. Once the National Garden has been built the Fund's 
additional fund-raising efforts will support public programming at the 
USBG.

                       AOC MANAGEMENT CHALLENGES

    Mr. Taylor. You have some major management challenges that 
you are facing. What are the top three major challenges you are 
facing and how do you plan on addressing them given all the 
things we have talked about here?
    Mr. Hantman. Well, first of all, Mr. Chairman, I fully echo 
your up-front comments talking about GAO and the relationship. 
We welcome their input and welcome their ability to take a look 
at our operation and give us the type of perspective that they 
have on approving--reviewing what we are doing.
    I think their report was basically a fair one, and it was 
balanced. And they certainly pointed out the need for strategic 
planning, for performance measures and basically making sure 
that people throughout the agency have this commitment to 
change and to improvement in services.
    We have had a group that is actively working to move our 
strategic planning process forward, and our focus includes a 
number of strategic requirements that will be part of the plan. 
This will include measures for results, organizational business 
plans, linkages to individual performance, customer assessment, 
and input. All of these things need to be looked at and 
incorporated, and we look forward to working with GAO on that.
    I also, Mr. Chairman, see the need for additional 
organizational changes. We have been actively studying a number 
of alternatives that have as a goal improving customer service 
delivery, project management, managerial span of control, staff 
accountability; and this effort, in conjunction with a 
significant number of management changes that have occurred 
this past year, will help to improve our overall organization.
    As you know, we have made significant changes in terms of 
bringing on a Chief Financial Officer for the first time in the 
history of this agency, a new Accounting Officer, a new Budget 
Officer. We have reinforced the fire and life safety team to a 
great extent and we are having good results on that, strategic 
planning, project planning; all of these people we have begun 
to bring on so we can respond to the types of needs and 
directives that GAO is pointing out, and we look forward to 
continuing to build in a very positive mode.
    Mr. Taylor. Mr. Wamp, do you have any questions?
    Mr. Hoyer.
    [The following questions from Chairman Taylor were 
submitted to be answered for the record:]

                Rebuilding the Foundation of the Agency

    Question. You state that you are proud of what has been 
accomplished so far in rebuilding the foundation of the agency.
    What are those accomplishments?
    Response. I am proud of what the AOC has accomplished in the last 
year, as we have been aggressively and successfully working to bring 
our little city here on Capitol Hill into the 21st Century with respect 
to many types of projects. Many of these projects are in the realm of 
Fire Safety--from replacing revolving doors with code compliant 
swinging doors for safe egress, to installing alarm and sprinkler 
systems for fire detection and suppression in all of our office 
buildings, to upgrading elevators, etc. Fire Safety has been and still 
is a priority and we have responded with over eighty-five significant 
projects campus wide.
    Worker safety, has also been a priority and we have continued to 
build our Occupational Safety staff, put policies and procedures into 
place, provided more than 16,000 hours of training, and made 
unannounced visits to shops and work-sites to inspect for safety, and 
to ensure proper use of protective equipment. Although we still have a 
lot left to do, OSHA statistics show that we have reduced the injury 
rate by 38% in one year. Current statistics indicate that this downward 
trend is continuing this year as well.
    With respect towards major projects, I am proud about the fully 
renovated and upgraded Cannon Garage, which was completed on schedule 
and came in under budget in correcting structural problems and life 
safety deficiencies. As well as the relocation of the House Page Dorm 
from the O'Neill Building to a fully renovated and rebuilt 501 First 
Street, was completed on time, and to great user satisfaction, 
providing a quality dormitory for the Pages, in a code compliant 
facility.
    On an annual basis the AOC/HOB Staff completes approximately 65,000 
work orders, in addition to performing preventative maintenance for all 
building systems, and last year completed or managed over 30 projects, 
about 10 involving Committee Hearing Room improvements, about 10 
involving Life Safety/Security and three involving elevators and 
escalators.
    Over the past few years this agency has been going through a great 
deal of change, some of which was acknowledged by the GAO preliminary 
findings (we have revamped the Human Resource Program, have implemented 
several planned phases of FMS, hired a CFO, new Budget Officer and 
Accounting Officer that are revamping our approach to budget planning 
and execution, have implemented a best practices approach to assist in 
construction management, have made tremendous strides in reducing 
employee on-the-job injuries, actively working on completing an Agency 
Strategic Plan, and we are adding the finishing touches to a senior 
management performance management system. I am pleased to report that 
the budget execution, purchasing, accounts payable, disbursement, and 
accounts receivable modules of the Financial Management Systems (FMS) 
went live this month. The Fixed Asset module will be up and running 
this October. All of this builds on the standard General Ledger module 
that we implemented in September, 2000, and gives us the foundation for 
an FMS system that is a potential model for the Legislative Branch 
Financial Managers Council.
    Question. What else needs to be addressed?
    Response. Our challenge is to effectively manage the change efforts 
we already have underway, to fold into this effort additional 
initiatives as recommended by GAO, and continue to provide the broad 
range of other services we provide to the Congress. The opportunity 
this provides to us is validation to our management team that we are on 
the right track on a number of initiatives, and that in partnership 
with GAO we have the opportunity to further stimulate organizational 
change through their assistance and by incorporating a number of very 
good recommendations. With their input and assistance we can continue 
to advance management, organizational and cultural change within the 
AOC.

                       FT. MEADE STORAGE FACILITY

    Mr. Hoyer. Thank you very much, Mr. Chairman.
    Zach, listen to this because you would be interested. In 
1993, as you know, Congress provided $3.2 million for a remote 
storage facility, known as Module 1, for the Library of 
Congress. It was 1993, Zach. Not a very big project, $3.2 
million. It is not occupied to this very day. And it is going 
to cost us additional monies.
    Tell me the status of that, when the Library of Congress is 
going to be in; and mention also what Module 2 and Module 3's 
schedule is, please.
    Mr. Turnbull. That building is--should be occupied this 
year. We are working with the Library. There are some 
outstanding contractual issues that we have to finish up with 
the contractor, but in working with the Library to implement 
their program, we are looking to complete that work. And 
working with their installation program--they have boxes that 
are necessary, that are used to fill the structure. We are 
working with them, and they will be in that building this year.
    Mr. Hoyer. I represent the Patuxent River Naval Air 
Station. And we have put over $350 million of capital 
improvements in 10 years. They are all operating and doing very 
well. We had very, very few contract disputes.
    Turner did a lot of the work. I don't know whether Clark 
did any of the work there or not.
    But Mr. Wamp's point is a good point. On both sides, as all 
of you know, there is a concern about getting projects done on 
time without all these contract disputes. Frankly, they occur 
so frequently on so many different projects, it can't be that 
the contractors are always wrong. There has got to be some 
endemic, systemic, underlying problem, because----
    Mr. Turnbull. Mr. Hoyer, I just need to point out, on this 
particular project with this contractor, we are no longer 
working with just the contractor, we are working with his 
bonding company. He is in very difficult trouble.
    Mr. Hoyer. I don't assert there is anything wrong with what 
we have done, other than we appropriated this money in 1993. It 
was quite some time ago, a $3.2 million project.
    Mr. Turnbull. We have entered into an agreement with the 
Corps of Engineers to help us do construction management and 
planning, since they are situated at the base; and we think 
this is a positive step to help rectify and control some of the 
issues that are going on out there.
    [The following questions from Chairman Taylor were 
submitted to be answered for the record:]

                      Fort Meade Storage Facility

    The Fort Meade storage facility was originally presented to this 
Committee in fiscal year 1989 as a secondary book storage facility for 
the Library of Congress. At that time, the Library proposed to lease 
and outfit a remote book storage building. That request was denied and 
for the next three years the issue was reviewed and evaluated resulting 
in an appropriation, in FY 1993, of $3.2 million dollars for an ``off 
Capitol Hill storage facility.'' The AOC prepared a time schedule for 
this facility, which was to begin April 1, 1994, and occupancy to take 
place in June 1996. As of today we have not moved into this facility. 
In fact, during fiscal year 2003 it was planned that the Library would 
be moving into the third module.
    Question. Can you tell us what went wrong?
    Response. There are many issues that have caused delay with the 
design and construction of this project. During the program and design 
phases, the standards, codes, and criteria for these unique facilities 
were under dynamic changes. Prior to starting the design process in 
1996 the Library of Congress spent approximately three years 
determining the need for a robotic or manual book storage system. These 
factors led to difficult and challenging design documents and the on-
going change continued to burden the construction phase. The primary 
challenges in the design documents were the highly sophisticated and 
unique mechanical temperature and humidity control systems as well as 
the extensive fire protection code issues on this type of facility. The 
sophisticated temperature and humidity control systems were so 
challenging that the first mechanical design subcontractor was 
dismissed from the project for his inability to properly design the 
system.
    A. The most significant issues that plagued the construction 
schedule was a challenging set of design documents which led to the 
issuance of 38 change orders. These change orders primarily resulted 
from ``Requests for Information (RFI's)'' from the general contractor 
because the design documents were missing information and were poorly 
coordinated. Identifying, engineering and executing the changes 
contributed to the delay in project completion.
    B. It took the low bid contractor over eight (8) months to submit 
an approvable set of shop drawings for the highly sophisticated 
mechanical humidity control unit for the storage module and over ten 
(10) months to fabricate the unit.
    C. Due to a dynamic and changing industry with respect the 
development of an accepted level of fire protection for high-density 
archival storage facilities, the design of the protection system in the 
storage module was never finalized during the design phase. The code 
requirements the AOC was directed to follow (NFPA-13) and the program 
demands for storage volume were incompatible. One or the other could 
not be met. This problem, unresolved in design, plagued the 
construction phase. No determination as to the acceptable level of 
property loss had been defined which would have unknotted this dilemma.
    D. Finally, the contractor lost two project managers, a scheduler 
and his on-site superintendent during the course of construction which 
caused considerable delays and a loss of focus to complete the project. 
These major delays as well as numerous smaller issues have caused this 
project to fall significantly behind schedule.
    Question. Has there been a breakdown in communication between AOC 
and the contractor, or between the AOC and the Library that caused this 
delay?
    Response. There has not been a breakdown in communication between 
the AOC and the contractor. We understand that the contractor 
experienced financial difficulties, which resulted in his bonding 
company becoming involved in the project. These financial difficulties 
appear to have impacted his subcontractors to various extents in 
completing their work. Similarly, there has not been a breakdown 
communication between the AOC and LOC. Our project teams have met 
regularly through the design and construction process to ensure open 
communication.
    Question. Were there design changes made as the project proceeded 
along?
    Response. Yes, there were several design changes made during the 
construction phase. Approximately 38 change orders were processed on 
this contract. Additionally, there were several field issues that were 
resolved short of becoming change orders. These issues further 
distracted the efforts of the contractor and the AOC.
    Question. Who requested those changes?
    Response. The contractor through the RFI (Request for Information) 
process requested the majority of the changes. The AOC and the LOC made 
no requests for any changes. The majority of the changes stemmed from 
poorly coordinated design documents.
    Question. Did your office approve the changes?
    Response. The majority of the 38 change orders that were issued on 
this contract addressed the corrections to the contract document 
errors/conflicts/omissions and/or construction means and all were 
approved by this office.
    Question. So, if your office approved the changes why is there a 
problem with the completion of the project?
    Response. The problem with the completion of the project did not 
stem from the approval of the change orders issued on the contract. The 
major contributing factors for the construction delays were the 
identifying, engineering and executing the changes as stated in the 
response to Question #1.
    Question. Do you currently have adequate funding to bring this 
project to closure?
    Response. There are several key decisions, which remain to be made 
on this project which could impact funding. Until these decisions are 
made and the final negotiations are complete with the contractor, we 
can not accurately predict the funding needs. While the facility is 
safe from a life safety perspective, the facility does not meet 
National Fire Protection Association (NFPA) 231C with respect to 
property protection code. Meeting this code at this point would require 
significant funding and many months to execute.
    We have developed a risk based assessment methodology to aid the 
decision making process on an acceptable property loss. AOC staff and 
Library officials have reviewed this data and methodology in several 
recent meetings. I'm confident that a final decision will be reached 
regarding acceptable levels of risk for the books planned to be stored 
in Module 1 within the coming weeks. This decision will be made in 
light of the relative safety of the overall facilities for the Library 
of Congress, the time and expense of crating a facility which poses no 
or minimal risk to property and the specific books planned for storage 
in Module 1 which may fairly easily be replaced if necessary.
    Question. What is your current estimate of when we will take 
possession of the facility?
    Response. We are currently commissioning major building systems and 
expect to close out the contract in the next few weeks. Our in-house 
forces will accommodate all required non-contract work, which we expect 
to complete in July. Should our risk-based assessment for property loss 
indicate that the facility is acceptable, occupancy can occur in the 
July/August time frame. Should the property loss assessment indicate 
that full compliance with NFPA 231C is required, several additional 
months of design and construction will be required.

                          AGENCY CAPABILITIES

    Mr. Hoyer. Let me follow up on the chairman's question.
    You run a very large agency, 2,000 employees, thereabouts, 
very significant budget. You are now undertaking some very 
large construction projects. Your problems have been compounded 
and made much more difficult by the security challenges that 
the Capitol confronts.
    Any organization's capacity to take on responsibilities is 
finite. Have we stretched your agency too far?
    Mr. Hantman. Mr. Hoyer, it is an excellent question.
    What Mike Turnbull just started to allude to is the fact 
that we need to change the way we are doing business. So where 
he is talking about Fort Meade bringing in the Corps of 
Engineers essentially to be our construction managers, to do 
design, build for us and work through our Project Manager with 
the Library to determine needs for Modules 2, 3 and 4.
    And we have a program at the Library, right, for Module 2 
as soon as they sign off on that. The Corps of Engineers will 
be able to start moving ahead with Module 2 and planning 3 and 
4.
    Mr. Hoyer. I asked you a general question, and I appreciate 
that--let me ask you on the specific. What if we transfer the 
responsibility to get this project done to the Library itself, 
which has the most immediate interest in getting this done?
    Mr. Turnbull. Actually, that discussion has been talked 
about with the Library, and the Associate Librarian has said 
that that is not their core mission and that they would like 
the Architect of the Capitol to be on board and sitting with 
them.
    Mr. Hoyer. Now the Architect.
    Mr. Hantman. So the Fort Meade issue of bringing on the 
Corps is one of the other issues, for all of our major 
projects, Mr. Hoyer; and as I indicated earlier, what we are 
doing now is we are bringing on other entities to do the day-
to-day construction management under our fiduciary control.
    So where we talk about the Capitol Visitor Center--for 
instance, we have Gilbane Construction that has been brought 
on, a nationally recognized construction management firm. We 
also have a dedicated team that was hired and paid for through 
that project as opposed to tapping the skills and the time of 
our core staff.
    Where we talk about the Supreme Court, the same thing will 
be done. We have a construction manager coming on under a 
dedicated project management team to work on that, not our core 
staff.
    The same issue in terms of projects we are working on. We 
have brought on NAVFAC, the Naval facilities people, who did a 
great job down at South Capitol Street. And they are currently 
working on 67 K Street for the Capitol Police, and we foresee 
using them on any other issues that the Capitol Police get 
done, whether it is an off-site inspection station, whether it 
is headquarters types of facilities.
    So basically what I am saying, Mr. Hoyer, is, we do 
recognize that we are stretched thin and that is why we are 
tapping into the NAVFAC, the Corps of Engineers, outside 
construction management firms, so they can essentially do the 
day-to-day report back to us, so we can essentially manage the 
projects much more effectively.
    This is unprecedented in terms of the volume of work that 
we have. This agency has never had this kind of volume, and we 
are trying to keep our arms around that and make sure we make 
the internal changes to handle these projects more efficiently.
    [The following questions from Mr. Hoyer were submitted to 
be answered for the record:]

                           MANAGEMENT REVIEW
    Question. With respect to the General Accounting Office (GAO) 
Management Review, which Congress mandated last year, and which is now 
underway, GAO has reported preliminarily that the AOC has already 
demonstrated a ``Commitment to Change.'' As you work to change your 
organization, what do you see as your biggest challenge? Your biggest 
opportunity? What aspect of your organization would you most like to 
change?
    Response. Over the past few years this agency has been going 
through a great deal of change, some of which was acknowledged by the 
GAO preliminary findings (we have revamped the Human Resource Program, 
have implemented several planned phases of FMS, hired a CFO, new Budget 
Officer and Accounting Officer that are revamping our approach to 
budget planning and execution, have implemented a best practices 
approach to assist in construction management, have made tremendous 
strides in reducing employee on-the-job injuries, actively working on 
completing an Agency Strategic Plan, and we are adding the finishing 
touches to a senior management performance management system.
    Our challenge is to effectively manage the change efforts we 
already have underway, to fold into this effort additional initiatives 
as recommended by GAO, and continue to provide the broad range of other 
services we provide the Congress. The opportunity this provides to us 
is validation to our management team that we are on the right track on 
a number of initiatives, and that in partnership with GAO we have the 
opportunity to further stimulate organizational change through their 
assistance and by incorporating a number of very good recommendations. 
With their input and assistance we can continue to advance management, 
organizational and cultural change within the AOC.
    Question. Your total number of injuries fell from 395 in fiscal 
year 2000 to 306 in fiscal year 2001, a decline of 22.5%. Your report 
says you are working on a Five Year Safety Master Plan, ``that will be 
used as a road map for (your) safety program.'' Is that mapping effort 
on track so progress can continue?
    Response. The 5 year safety master plan developed last year was a 
very high level plan designed to comply with OSHA as mandated by the 
Congressional Accountability Act and to reduce the number of injuries. 
I am happy to report that we are on track with these high level 
initiatives and our injuries in Fiscal Year 2002 show a continued 
decrease from last year's injury rate (11.02, a 38 percent decrease 
from Fiscal Year 2000 rate of 17.9 per 100 employees).
    Last year our emphasis was on hiring needed safety staff, providing 
personal protective equipment to all employees, raising safety 
awareness, promoting safe work practices, and developing safety 
programs targeted at the most potentially hazardous work.
    This year, our emphasis has expanded to include improving our 
injury reporting process, analyzing and understanding our injuries, 
developing measures to prevent injuries, developing a self inspection 
process, performing job hazard analyses, implementing the approved 
safety programs, and ensuring safety roles, responsibilities, and 
expectations are clearly communicated across the workforce.
    In these efforts, we are receiving technical assistance from the 
Office of Compliance, the Occupational Safety and Health 
Administration, the Public Health Service, the General Administration 
Office, and DuPont Safety Services.
    I have set a Fiscal Year 2002 goal of 9.9 injuries per 100 
employees, a 10 percent decrease from our Fiscal Year 2001 rate (11.02 
injuries per 100 employees). I am confident that with the steps we are 
taking and the help we are receiving, we will exceed this goal and 
continue toward our ultimate goal of preventing all avoidable injuries 
and illnesses.

                     SOUTH CAPITOL STREET ENTRANCE

    Mr. Hoyer. What I think Mr. Wamp and the Chairman of the 
committee are saying is, you need to be very candid and hard-
nosed with us in saying, there are things we can do, we can't 
do, with the resources that we have.
    Mr. Chairman, let me go to one additional matters. I would 
like to show the members of the committee two pictures. I have 
others, but I want to show you those two. I am involved in a 
project that I think would be the project that I would most 
like to be associated with at the end of my service in 
Congress.
    These pictures depict the South Capitol Street entrance to 
the Capitol of the United States. Jim Moran mentioned the 
problem that we have at the front of the Botanic Garden. This 
depicts what we constructed as one enters the Capitol, as every 
major foreign dignitary enters via this street.
    They land at Andrews Air Force Base, and they come down 
Suitland Parkway and come across the South Capitol Street 
Bridge, and this is the entrance that they see.
    And I want to make my point even more dramatic. If you look 
at almost every city on the Atlantic Coast you will find the 
southeast part of that city is either industrial or where poor 
people live. Why is that the case? Because in our Northeast 
cities the high ground is in the northwest. The rivers flow 
downhill, sewage flows downhill. So when cities were developed, 
it was the lower part of the cities that became the industrial 
or poor areas. The land was less expensive. As a result, what 
we have done with the Southeast is, very badly, to spoil it.
    Every city in America is reclaiming its waterways. The 
Mayor of Washington has a major project called the Anacostia 
Waterfront Initiative. It is going to be like the Pennsylvania 
Avenue Development Corporation. It will transform the face of 
this city, and will be the city's major project in coming 
years.
    The reason I bring this up at this point in time, Mr. 
Chairman, is that this committee needs to be involved in this. 
This will be a major accomplishment for every Member of 
Congress, where we are going to change the Anacostia waterfront 
into what will be one of the most visited sites--other than the 
Capitol and the monuments in the city. There will be shops and 
billions of dollars spent to revitalize this area of the city. 
All the committees are going to be involved in it, and it is 
going to take a quarter of a century to get this done.
    I wanted to do this at this point in time.
    And, Alan, with that prefatory comment, would you briefly 
explain what is a major eyesore now, as one enters that we are 
responsible for, the Power Plant.
    In Frederick, Maryland, there is a project where they are 
lowering the smoke stacks from 178 down to 123 to try to 
diminish citizen opposition to a Duke Power Company power-
generation facility.
    Obviously, the relevance is, one of the major things is the 
stacks that we have there at the Power Plant. We have to 
straighten out the bridge, and we have to widen the boulevard. 
I am going to show you this area from the Capitol to the 
Anacostia River; interestingly, that length of property is 
about the length between the Champs Elysees and the Eiffel 
Tower.
    We can make this, with all of us working together, an 
extraordinarily beautiful, aesthetic, powerful entrance to the 
world's greatest symbol of democracy.

                          CAPITOL POWER PLANT

    Mr. Hoyer. Alan, tell us briefly about the Power Plant. Mr. 
Chairman, I would like the opportunity at some point in time to 
meet with the committee and brief you on what we have done so 
far and what we need to do because the Capitol and our work 
here will make a major impact on this project. Thank you, Mr. 
Chairman for your tolerance.
    Mr. Hantman. Thank you, Mr. Hoyer. As you know, I recently 
met with the Federal city council and Andy Altman of the D.C. 
planning group, Terry Goldin and the Anacostia Waterfront 
folks. I am impressed with their plans and they are doable. I 
think your analogy to the Pennsylvania Avenue effort is a good 
one and I think we need to plan long term to make that happen.
    One of the things that we have incorporated into the 
request for the $81 million for the chiller refrigeration 
plant, our plant is a very heavy, brutal type of structure. It 
really does not relate well to South Capitol, in which it sits, 
or the neighborhood in which it sits. As we propose to expand 
our west chiller plant, we have included in our budget dollars 
to be able to integrate the existing with the new in a way that 
breaks down the scale both on South Capitol Street and in the 
community, and also the desire be able to set it back from 
South Capitol, plant trees, plant trees on the other sides of 
the properties to be better neighbors both to the immediate 
area as well as those who visit the Capitol coming in from the 
southern end.
    Since we last talked, Mr. Hoyer, we have taken a look at 
the ability for us to do a study to either lower the stacks, to 
soften them, the big house that is between the stacks that 
takes the particulate matter out of the air stream. The 
preliminary numbers that we have in, we could begin to do a 
study for the range of 125- to $150,000 to take a look at the 
height of the stack, the emission levels, and what we can do to 
minimize the physical presence and objectionableness of those 
taller elements of a power plant.
    Mr. Hoyer. Thank you. Thank you very much, Mr. Chairman, 
for giving me the time.
    Mr. Taylor. Mr. Lewis.
    [The following questions from Chairman Taylor were 
submitted to be answered for the record:]

                          Capitol Power Plant

    You currently receive $4.4 million annually as a reimbursement for 
steam and chilled water provided to non-Congressional entities.
    Question. What are your estimates of the increased reimbursement 
resulting from the West Refrigeration Plant expansion project?
    Response. We are not estimating any increase in the reimbursement 
rate at this time. We anticipate that normal cost escalation and the 
volatile fuel and power markets as well as other capital projects will 
impact our reimbursable requests.
    You have requested $81.8 million for the West Refrigeration plant 
expansion. The total cost of this project is estimated at $120 million.
    Question. Will we realize any return on investment?
    Response. A Utility Master Plan was completed in July 2000 which 
evaluated various options for serving the long-term utility needs of 
the Capitol Complex. This Master Plan determined that the best option 
when evaluating life cycle cost was to expand the West Refrigeration 
Plant.
    By expanding the West Refrigeration Plant, we will see a savings of 
over $4.5 million in annual operating expenses for the plant. Most of 
the savings will be electric; however, there are also maintenance 
savings associated with this project. Using the project estimate of 
$81.8 million, the project will have a simple payback of 18 years. 
Similar payback is expected for out year budget request for equipment 
installations.
    Question. What are your estimates of potential savings?
    Response. The chilled water generation and distribution systems 
that are being installed as part of the West Refrigeration Plant 
Expansion are more efficient that the existing systems at the Capitol 
Power Plant. The new system is expected to reduce operating and 
maintenance expenses by over $4,500,000 per year. The following 
outlines the major operational benefits and the predicted operating 
savings (estimates are based on projected electric cost of which 
sensitivity analysis have been completed).
    Installation of a ``free cooling'' system (a heat exchange system 
designed to limit mechanical refrigeration requirements during reduced 
wet bulb conditions)--$530,000 per year installation of a new efficient 
distribution pumping system--$550,000 per year installation of turbine 
driven chillers--$2,500,000 per year; reduction in maintenance costs--
$270,000 per year; installation of more efficient chillers--$600,000 
per year.
    Question. Are we in danger of not meeting our cooling requirements?
    Response. Yes--The projected cooling load for the Capitol Complex 
including the CVC is 31,000 tons. Our reliable plant capacity in 2005 
will be 18,000 tons if the West Refrigeration Plant Expansion project 
is not on-line in early 2005--a deficiency of 13,000 tons. In response 
to this deficiency, we would be forced to rent costly temporary 
chillers to supplement the cooling load, and would likely have to start 
a chilled water curtailment program during peak conditions, which we 
believe is an unacceptable solution.
    Question. If this project is delayed for just one year what effect 
will it have on continued operations?
    Response. Due to the age and condition of the equipment currently 
located in the East Refrigeration Plant, the equipment can no longer 
reliably serve the cooling requirements of the Capitol Complex. If the 
project were not funded, temporary chillers would be required in 2005. 
These chillers are costly, operate inefficiently, and would be 
installed in the Capitol Power Plant parking lot, which would have 
community impact due to unacceptable noise levels. It is questionable 
if sufficient temporary chiller capacity could be installed, thus 
potentially requiring a chilled water curtailment program be 
established on hot summer days.
     south capitol street steam line and constitution avenue tunnel
    You need $11 million to repair the South Capitol Street steam line 
and $8.5 million dollars for the Constitution Avenue tunnel.
    Question. What is the urgency of these projects?
    Response. The $8.5 million request for the Constitution Avenue 
tunnel is to correct structural deficiencies in the tunnel. The tunnel 
roof is spauling and large chunks of concrete are falling to the floor 
causing hazardous worker conditions. This was cited in the Office of 
Compliance safety report and a corresponding citation was issued.
    The $11 million request for the South Capitol Street steam line is 
to replace the existing steam lines serving the Capitol, the House 
Office buildings, and the Botanic Gardens. These lines, originally 
installed in 1932, are currently leaking and in need of replacement. 
Timing is critical. During the construction of the CVC, the South 
Capitol stream lines will be the only lines providing service to the 
Capitol. If a major leak in these lines were to occur during 
construction of the CVC, heating service to the Capitol would have to 
be discontinued until the line could be repaired.
    Question. Are these life and safety issues?
    Response. Yes--The Capitol Power Plant was issued a citation by the 
Office of Compliance in December 2000 to repair the spauling concrete 
in the Constitution Avenue tunnel. Portions of the tunnel roof are 
falling and could injure personnel working in the tunnel. South Capitol 
Street Line has not been issued a citation, however manholes on the 
line have been reconstructed to repair roof collapses in the structure.
    Question. Are these the only steam lines coming from the power 
plant?
    Response. No--The basic utility distribution is as follows: The 
East Line is run from the Power Plant under North Carolina Ave to 2nd 
Street to Constitution Ave West then under 1st Street to Postal Square. 
Steam lines are run from 2nd Street to the Capitol between the Library 
of Congress and the Supreme Court. The West line runs from the Power 
Plant under South Capitol Street to the Capitol. The Capitol Complex is 
served from these two main distribution lines from the CPP. Branch 
lines are taken from the main distribution to serve the heating 
requirements of the Capitol Complex. When the Construction of the CVC 
begins the Capitol will only be fed from the South Capitol Street Steam 
line and will have no redundancy.
    Question. If we have other lines that we must be concerned with, 
what are your estimates of when these lines will need to be repaired?
    Response. A study was completed addressing the structural condition 
of the tunnels and corresponding budget requests have been made to 
address the deficiencies. The study indicated the structural condition 
of the tunnel was generally sound and has at least a 15-year life. 
Other recommendations to make immediate repairs and replace the 
Constitution Ave Tunnel roof have been or are in the process of being 
implemented.
    A budget request to study the long term requirements of tunnel 
system is in the 5 year Capitol plan which will address the long term 
needs of the distribution system capacity and structural integrity of 
the tunnel system. The study will provide recommendations for a course 
of action, timeline of repair if necessary and cost estimates.

                          AGENCY RESTRUCTURING

    Mr. Lewis. Thank you, Mr. Chairman. Mr. Hantman, if I 
recall correctly, you voluntarily applied for this job, did you 
not?
    Mr. Hantman. At that point, nobody could have described it 
to me, Mr. Lewis, what the job was all about. No doubt about 
it.
    Mr. Hoyer. I would like to say, Jerry, he is a lot like us.
    Mr. Lewis. I always say nobody holds a gun to our head. It 
is a pleasure to be with you, nonetheless. I was just reading 
comments regarding your restructuring plans with some interest. 
And indeed, it is commendable to try to reorganize a very thin 
agency, rethink the way we use our resources, and re-examine 
how we can do a better job. With that in mind, and with your 
objective of having the AOC be a model Federal agency--you talk 
about a contract with the Navy. I think you alluded to that 
briefly in connection with other things a while ago. I have an 
interest in the military's ability to help people be more 
efficient and restructure, et cetera.
    Would you share with me some thoughts, some illustrations 
and experiences with the Navy and what they have to offer?
    Mr. Hantman. NAVFAC specifically, we took a tour down with 
Mr. Boudrieu at the Navy Yard and we took a look at some of the 
wonderful work they have done taking old buildings, 
rehabilitating them.
    Mr. Lewis. That is here in D.C.?
    Mr. Hantman. The Navy Yard here, yes. They have an ability 
to do a soup-to-nuts job from programming to design. And not 
necessarily design internally, but bringing on outside firms to 
work with them, much as we do, and then essentially oversee the 
construction, let the contracts move forward with that.
    And we look forward to building on officially our initial 
piece of work that we are working with them on, which is again 
essentially the vehicle maintenance facility for the Capitol 
Police. So they are, in effect, doing the design work and they 
will be doing the construction oversight for that with us, 
still having fiduciary responsibility for that, and with the 
master plan for the Capitol Police take a look at their long-
term needs with respect to offsite inspection of major vehicles 
before they come on to our campus grounds.
    With respect to their growth and potential headquarters 
issues, we look forward to working with NAVFAC at the outset of 
those projects to continue having them do that and look for 
other opportunities to work with them, much as we are planning 
to work with the Corps of Engineers at Fort Meade.
    Mr. Lewis. That is very interesting commentary. I was not 
aware that the Navy was the driver in terms of administering 
and handling some of those changes. I am somewhat familiar and 
impressed with what is being done there. I was giving credit to 
other people.

                        AREAS AROUND THE CAPITOL

    With respect to Mr. Hoyer's questions regarding Southeast 
D.C., there are those who look at, having 8th Street going 
north from the Navy Yard became like a Georgetown adjacent to 
the Capitol. Are we involved in that? Is your office involved 
in that thinking?
    Mr. Hantman. I have just been invited to join the Federal 
city council as an ex-officio member. I have not been involved 
in the planning. But the meeting that we had with the people 
from the District, with Terry Goldin of the Federal city 
council was really very impressive. Because of the improvements 
at the Navy Yard and the contractors that have to serve the 
Navy Yard having to be in close proximity to it, that entire 
sector of the city is beginning to boom. Property values are 
rising. The issues of other private sector dollars being 
invested in this is real.
    So cleaning up the Anacostia River and beginning to move 
northwards towards the Capitol is pretty, I think, much what 
Congressman Hoyer is talking about. And I really think that is 
an wonderful opportunity. It is going to happen and we need to 
help that happen.
    Mr. Hoyer. Jerry, essentially from RFK Stadium around to 
Maine Avenue is what this plan would envision. And one of the 
exciting things that you saw in The Washington Post a few days 
ago is what the committee bidding for the Olympics in 2012 has 
in mind for the RFK Stadium area and then coming down towards 
the Navy Yard.
    Mr. Lewis. I was at one time involved in a small little 
subcommittee that has to do with VA-HUD, and EDI grants are a 
part of that activity. During that time I was involved 
specifically in trying to encourage funding for the 8th Street 
project. That project could do a lot to attract people to 
Capitol Hill as they are attracted to Georgetown. I am 
intrigued by it. I think this committee ought to play a role 
above and beyond private dollars. I think we ought to play a 
real role in terms of real money assisting with moving that 
forward. I wanted you to know about my interest. There are ways 
that we could help and we should be helping.
    Mr. Hantman. Whatever role I can play as interface between 
the community and us, I would welcome that opportunity to do 
that.

                          VISITOR CENTER SPACE

    Mr. Lewis. Can you tell me, if the Chairman would allow me 
to go back just a moment to the Visitor Center, both about the 
Visitor Center and this project that Steny is talking about 
that has been around ever since I have been in Congress? I am 
interested in knowing if there are remaining any significant 
issues between the two bodies, the Senate and the House, 
relative to the use of that space when it is eventually 
developed and how you are going about--settling or at least 
helping us think through some of those contests.
    Mr. Hantman. The core issue of the function of the Visitors 
Center, which is dead center on access with the Capitol dome, 
there are no open issues between the House and the Senate on 
that.
    Mr. Lewis. There are none?
    Mr. Hantman. The issue of the expansion space for the House 
and the expansion space for the Senate, roughly 80,000 or so 
square feet for each body, is totally within each body's 
control in terms of how they use it and grow into it over time 
and what functions they want to use. Those are the major issues 
which are individual to the bodies.
    I think one of the things that still needs to be settled is 
some of the things that we were talking about earlier in terms 
of the tour routes and how the operating plant for the CVC has 
not been determined yet.

                     VISITOR CENTER SECURITY SPACE

    Mr. Lewis. Is there any ongoing discussion regarding using 
those facilities as secure facilities in case of potential 
disasters like the 9/11?
    Mr. Hantman. First of all, there is a 450-seat auditorium 
on access and it would be a joint facility which will be 
essentially a SCIF type of space where briefings could be used 
for the House and the Senate and mixed bodies. And there are 
issues relative to each individual body in terms of what they 
want to put in those expansion spaces. Security spaces are also 
among the considerations that are being looked at.
    Mr. Lewis. Thank you, Mr. Chairman.

                         SUPREME COURT PROJECT

    Mr. Taylor. When you are talking about using the Navy and 
the Corps of Engineers and so forth, have you thought about 
giving them a specific project rather than just a variety of 
tasks? Say, for instance, have you thought about giving the 
Supreme Court's $100 million project to the Navy considering 
the sizable effort needed for the project?
    Mr. Hantman. What we have done, sir, is we have, again, 
with the General Services Administration, gone out for national 
selection on a construction management firm and we are just 
about to award that contract to people that the Court 
themselves were also involved with. So the issue of long-term 
involvement, bringing outside people with expertise in to that 
building, was brought again to a national bid condition and 
those are being evaluated and finalized right now.
    So as far as whether it is the Navy, it is Corps of 
Engineers, we certainly look forward to significant 
opportunities down the road, but that one basically had been 
committed to with the Supreme Court.
    Mr. Taylor. Ms. Kaptur.
    Ms. Kaptur. Thanks, Mr. Chairman. May I inquire of the 
time? Do we have a vote here?

                     HOUSE BUILDINGS ROOM NUMBERING

    Mr. Taylor. 6\1/2\ minutes right now. We have 3 votes.
    Ms. Kaptur. We have 3 votes coming up.
    I wanted to begin and say, Mr. Hantman, that I really envy 
you your position being a city and regional planner myself. In 
spite of all the grief you have to take, I always thought yours 
was the greatest job in the world.
    I wanted to ask, starting with simple questions first. The 
other night, again, I became a tour guide in the Capitol in the 
Rayburn Building explaining to tourists that 2300 Rayburn was 
not in the same region as 300 Cannon. And I cannot tell you the 
countless times I have had to help the public negotiate between 
these buildings based on the way they are numbered.
    Now I am sure over the history of this country there have 
been 7,000 studies done on how to number the offices and if we 
change the numbering, 435 Members of the House would have to 
change their cards. But I must ask you, for the convenience of 
the public, is there not a better way to number the floors and 
offices in these buildings? It is totally confusing to the 
public. These were literate people. Some teachers. There was a 
senior citizen with them. They had to walk over two more 
buildings. It is the craziest numbering system. It truly 
represents what some people consider the Government. Who else 
would have the third floor numbered 2300?
    Where else have you ever gone on an elevator in a building 
where it starts out with 2 when you are on the first floor?
    I hope this is a simple question--to what extent have you 
studied the numbering systems in Cannon, Longworth and Rayburn 
Buildings, and are there any proposals that could be generated 
from the Architect's Office on how to deal with the public that 
wanders around until they finally find a spot through these 
mazes?
    Mr. Hantman. Your observations are obviously on target. And 
we have been working on developing a way-finding program, a 
package for internal as well as external signage which we 
certainly could sit down individually, explain to you where we 
are planning to go on this. We do not have the funding to 
implement this yet, but the concept again is to try to solve 
the type of problems that you are describing.
    People can easily get lost over here. The signs grew up 
over the period of years. They are not cohesive. They are not 
comprehensive. They do not essentially deal with the needs of 
today in terms of ADA as well. So that is what this program 
would be meant to address. And we certainly would look forward 
to sitting down with you, showing you what we have proposed, 
and hopefully get your support to move it forward.
    Ms. Kaptur. In other words, are you saying that perhaps one 
could consider renumbering the offices?
    Mr. Hantman. I guess it is a question of maps, kiosks, 
signage.
    Ms. Kaptur. You are saying you are not going to change the 
numbers, you are just going to provide more maps? Am I hearing 
you right?
    Mr. Hantman. Basically, the program--I do not think it was 
aimed to revamp the current numbering system. It was meant to 
help people find the rooms and the spaces more easily.
    [The following question from Ms. Kaptur was submitted to be 
answered for the record:]

         Elevator Signage in the Rayburn House Office Building

    Question. In addition to the confusing nature of the room numbers 
in the House Office Buildings, I also find that visitors are misled by 
the static ``Members Only'' sign on the Rayburn elevators. These signs 
are present at all times, so there are many occasions, including days 
when the House is not even in session, that visitors believe they 
cannot use these elevators. I believe that in all buildings, there are 
electronic signs that are lit only when there is an actual vote in 
progress. What can be done to correct this problem, and how long will 
it take?
    Response. The Rayburn Elevators are to be renovated as part of the 
House Office Building Elevator Modernization Program. This program is a 
multi year program designed to modernize all the elevators in the HOB 
including replacement of the controls and providing electronic 
displays. We are presently modernizing the elevators in the Cannon 
Building with fiscal year 2002 funding. We are in the process of 
developing the construction documents for the modernizing of the 
Member's elevators in the Rayburn Building and trying to obtain funding 
to accomplish this. The construction will be completed in fiscal year 
2003 if funding is obtained. We will finish the modernization of the 
Cannon Building elevators with fiscal year 2003 funding and modernize 
the remainder of the Rayburn Building elevators in fiscal year 2004/
2005.

                      CUSTOMER SATISFACTION STUDY

    Ms. Kaptur. Have you ever, sir, in the records of your 
office, have you ever done a study on the number of lost 
tourists? Have you done a customer satisfaction study or 
customer location study of what is going on around here?
    Mr. Hantman. There is no doubt in my mind, Congresswoman, 
that there is a need for a way-finding sign program to allow 
people to find their ways more comfortably and more efficiently 
around the Capitol.
    Ms. Kaptur. I am not finished with my questioning, but I do 
have to go up and vote.
    Mr. Wamp [presiding]. We will keep the committee hearing 
process going, we will not recess, and soon as the Chairman 
gets back, I will go and vote. You are welcome to go with me 
and continue to talk, continue your line of questioning, and 
you and I will walk up. We will not miss the vote, Marcy.
    Ms. Kaptur. I want to be assured that there is going to be 
some type of analysis done of what happens to visitors when 
they come into these buildings.
    The money you are going to spend on kiosks and so forth, I 
do not object to, but I do not think that that is really the 
answer. I think there is a fundamental numbering problem in 
these buildings, and it is extremely difficult for the public 
to understand. I got quite a few laughs when I began this 
little lecture here and I know you people in here have had to 
direct others as well simply because the fundamental system is 
not intelligible.
    Mr. Lewis. Would the gentlewoman yield?
    Ms. Kaptur. Yes.
    Mr. Lewis. I am very interested in your commentary about 
the numbers and I think that is something to seriously 
consider. But I hope that when you pursue this further, Ms. 
Kaptur, you make sure they have a piece of the program to help 
people like me, because if they change my room number, I will 
get lost. I will not know how to find my office.
    Ms. Kaptur. The design of the buildings is another 
question, Mr. Chairman. You would have to change your little 
cards that you give out. I have seen this so much now, and I 
thought there has to be a better way to do this, even if you 
called them Building A, B and C, or C, L and R.
    Mr. Hantman. This is certainly something that we could 
bring up with the Sergeant-at-Arms and the Capitol Police board 
and the tour guides as well and see what kind of 
recommendations they would come up with in this area.
    Ms. Kaptur. It would be a good idea to do a survey of those 
that actually work in these buildings. It would not take much 
and then you would get a better feel of what is happening to 
the public as they get lost around here on a regular basis. I 
hope that you can respond to me by letter as opposed to a 
visit, and describing what is going to be done to evaluate the 
numbers system based on usage.

                      O'NEILL BUILDING DEMOLITION

    Mr. Taylor. Alan, I am going to continue with questions and 
I may go back to some of the issues we have already covered, as 
might other Members who come back. We are having a series of 
votes that each of us has to get to.
    What is the status of the demolition of the O'Neill 
Building and the long-term use of that block?
    Mr. Hantman. This is Frank Tiscione, our superintendent of 
the House office buildings.
    Mr. Tiscione. We are in the process of moving all the 
occupants out of the building. We should have all the 
construction that we have to do to provide occupancy for the 
people that are in that building now by the end of May. We are 
currently in there right now doing the HAZMAT removal on the 
upper floors which are unoccupied. The contract should be 
awarded in September and we will start demolition in October 
and complete in January of 2003.
    In the meantime, we were going to be doing a study. We have 
been given $150,000 in this year's appropriation to do a study 
of what we can do with that site as far as building on that 
site.

                       BOTANIC GARDEN RENOVATION

    Mr. Taylor. What was the total cost of renovating the 
conservatory in the Botanic Gardens? How does that compare to 
the appropriations?
    Mr. Hantman. Mr. Chairman, as you know, the appropriation 
was $33.5 million, and we are still within that appropriation. 
As Mr. Turnbull indicated earlier, we are working actively with 
the contractor to look at the change orders that he is 
suggesting, that he is claiming, reviewing the backup material 
for that, and settling each one as we can go.
    Our sense of the value of the change orders that he has is 
that we are within the budget. The issue, of course, of any 
future claims, which has not been formally filed at this point 
in time, we do not have a handle on that.

                          CONSTRUCTION DELAYS

    Mr. Taylor. There were 391 days of delay which Clark 
Construction attributes to the Architect of the Capitol. In 
September 2001, Clark Construction Company provided an informal 
document for settlement purposes that suggests they have a 
claim in the neighborhood of $20 to $30 million on this 
project. These amounts are 60 to 90 percent of the original 
appropriation.
    I know you are in discussions with the contractor, but more 
importantly, we passed legislation to unbelievably hold the 
contractor accountable to finish a contract in a reasonable 
period of time. I believe where we were before is they could 
not charge us more money, but they could sort of stay there 
forever if they wanted. Is there anything else we need to do as 
a Congress to tighten the legislation necessary for moving 
ahead in these multitude of projects that we have? Are there 
things that we could do to see that we are not going to be 
sitting here with 10 of these type claims and discussions 10 
years from now?
    Mr. Hantman. One of the things that I alluded to briefly 
before, Mr. Chairman, on the Capitol Visitor Center project, to 
try to make sure that that does not happen, as Mr. Wamp was 
indicating, is that we have learned from the Pentagon. And 
again, Joe Sacco was a project manager at the Pentagon and he 
brought over the concept of not only the stick, but the carrot 
as well. So the incentive issue, dollars that can be earned for 
good performance, for on-time performance, for quality 
performance.
    We have an evaluation system that has been developed and 
will be part of the contracts for the Visitor Center to assure 
that if the contractor wants to share in dollars that he will 
not get otherwise, he is going to have to perform, he is going 
to have to bring the problems to us, work with us together to 
be able to solve them, as opposed to having an adversarial 
relationship. We think that that certainly has worked at the 
Pentagon. We have good faith that that is going to work with us 
also at the Capitol Visitor Center. And this may be something 
of a model. Since it is being used in other areas of the 
Government, we want to explore in more detail for certainly the 
major project.

                         CONSTRUCTION PENALTIES

    Mr. Taylor. That is a carrot. What about a stick. Is there 
a penalty other than the fact he just will not get a reward? Do 
we need anything in that area?
    Mr. Hantman. Well, we certainly have the liquidated damages 
clause that is a standard part of the contract. Depending on 
the nature of the project and the time frame in the project, 
that may or may not be a big enough stick for the contractor. 
So the question is trying to be fair on both sides.
    Mr. Taylor. Well, without getting into your ability or 
giving up any of your negotiation activities, obviously if this 
fellow thinks he is due $30 million, which was almost the 
entire project cost, and I am not maintaining that it is 
anything like that, but if he thinks there were that many 
changes, can we put in our contracts and tighten the 
requirements to the point that it would be even more 
preposterous for someone to make that kind of claim in the 
future?
    I do contracting, I do construction, and I know that there 
is nothing but surprises, always, and there are things you have 
to change and there are other things that happen causing 
delays, and all the costs cannot be borne by one side. There 
are opportunities. But to negotiate, as you are pointing out, 
the carrot here is if I am doing construction, I should come to 
you quickly, work the thing out before it festers and becomes a 
multimillion dollar problem or something that could be 
adjusted.
    We have got probably hundreds of millions of dollars of 
projects here and that is why I ask is there any other thing we 
can be doing? Or are you studying that possibility?
    Mr. Turnbull. Mr. Chairman, if it is appropriate, I think 
we could have our general counsel take a look at some of those 
clauses and work with the committee on some additional ideas to 
tighten it up. And I think that is very appropriate.
    I think, unfortunately, in the nature of the contracting 
business, you are still going to have posturing by the other 
parties, and right now it is posturing. There has been nothing 
submitted. It is numbers floating out there and there is 
something to substantiate that cost.

                      FT. MEADE STORAGE MODULE TWO

    Mr. Taylor. We are hitting on several things because many 
Members of the committee want to ask various questions and that 
is reasonable for them to do at this time. But could you go 
back on some of the things? We talked about the Library of 
Congress, and you are thinking this year you will be moving 
into module number 1. What about number 2? Have you issued a 
contract for design work for the module 2 out at Ft. Meade?
    Mr. Turnbull. Yes, we have executed an agreement with the 
Corps of Engineers. We will get the contract signed about the 
library hopefully this week, and then once we do that we will 
be able to sit down and initiate the design process with an 
architect and an engineer.
    Mr. Taylor. Have you consulted with the library on the 
requirements that they have? And are you working closely so we 
will not get to a point and find out maybe we put it in the 
wrong spot?
    Mr. Turnbull. We have an official program that we have been 
working closely with the LOC staff and our staff to come to a 
point where we now have a definitive program for this next 
facility.
    Mr. Hantman. Which will be signed both by the Library of 
Congress and by myself, so that this is our understanding, this 
is the foundation we build on and we go forward.
    [The following questions from Mr. Moran were submitted to 
be answered for the record:]

                      Library of Congress Storage

    Question. What is the status of the design work on Phase II of the 
Fort Meade storage facility?
    Response. We have recently completed the written program of 
requirements for Phase II. This is a major milestone and improvement 
over Phase I where we never had a written set of requirements before 
starting the design process. Once we have a final signature from the 
Librarian of Congress on the program of Requirements, we will issue the 
document to the Corps of Engineers for execution of a design contract. 
We expect this to take place in June 2002.
    Question. Why are construction funds not included in the fiscal 
year 2003 budget?
    Response. We are currently preparing and will submit a budget 
amendment requesting funds for the construction of Module 2 and design 
funds for Modules 3 and 4 in our fiscal year 2003 budget.
    Question. Why has it taken so long to design a facility that is 
very similar to the Phase I facility?
    Response. The most important element in any project is a clear 
definition of the requirements before starting the design process. The 
dynamic situation in the criteria for these facilities continues today 
and is further complicated by the class of materials stored in a 
module. To this end, we have been very deliberate in this process and 
have worked very closely with the Library to develop a fully 
coordinated written Program of Requirements prior to starting design. 
We now have that document complete and upon final signatures, will move 
this project into the design phase.

                       CAPITOL POWER PLANT ISSUES

    Mr. Taylor. I know there is $82 million requested for the 
west refrigeration plan expansion that you have requested. Are 
there any environmental issues that need to be addressed?
    Mr. Turnbull. Yes, Mr. Chairman. As I explained earlier, 
the refrigerant that is currently used in the east chiller 
plant is no longer manufactured. It is an ozone-depleting 
substance. It has to be discontinued by the year 2015. The 
extra capacity needed by the Visitor Center is imminent in 
2005. And unless we are able to complete this facility, we will 
have a shortfall in the overall complex.
    Mr. Hantman. One other issue, Mr. Chairman, is the EPA 
permissible levels of emission at this point in time. We are 
meeting those levels of emission by burning 80 percent coal and 
20 percent gas, and our permit will take us out several more 
years on that level of emission which we will be successfully 
meeting.
    If the EPA standards are tightened up, we will have to take 
a look at changing these fuel economics and making other 
adjustments to stay within the guidelines for emissions from 
the EPA.
    Mr. Turnbull. Mr. Chairman, I want to add that we also have 
just had a second independent cost estimate brought into our 
office which confirms that that order of magnitude is correct.
    Mr. Hantman. What that does, we take another lesson from 
what we are doing on the Visitor Center. We have 2 estimates, 
different firms looking at the project from the same 
perspective, the same drawings, and try to work out the 
differences between costs that they may see to confirm that the 
budget is in the right order of magnitude. So we have, as Mr. 
Turnbull indicated, a second confirming estimate which now says 
that the $81 million that we are requesting is the right order 
of magnitude, and we can certainly share that information with 
you to say that this is a real number. And now that we have got 
100 percent design and we have confirmed it at the suggestion 
and requirement of this committee, that we are comfortable that 
that is the right amount for us to go out there and bid the 
project.
    Mr. Taylor. All right. We are going to have a brief recess. 
I think Ms. Kaptur had a couple of other questions and we have 
2 5-minute votes, and so we will have about a 10-minute recess.
    [Recess.]

                    RAYBURN BUILDING ROOM NUMBERING

    Mr. Taylor. The committee will come back to order.
    Marcy, you had a couple of questions?
    Ms. Kaptur. Yes, thank you, Mr. Chairman. We ended with the 
issue of numbering here. I would like to place on the record in 
the Rayburn Building, if you take the numbers at ground level 
and go up, we have a building with 4 second stories. It is the 
strangest building to work in. I will not even get into the 
garages because most people cannot find their way in and out of 
them. If you get lost, you will not come out for two months.
    Mr. Lewis. There is an old saying around here: if you have 
been here long enough not to get lost in the Rayburn Building, 
you have been here too long.
    Ms. Kaptur. I would beg you to look at that issue. This is 
interesting, too. My able staff member Roger Szemraj reminds me 
that the Russell Building had 3 digits for the office numbers 
and the Dirksen had 4 digits. So this is endemic to both sides. 
And it is actually kind of an agglomeration system rather than 
a system that is thought through for the convenience of the 
public and the users. But I think a better numbering system 
complemented with the kiosks and information that you are 
talking about would be long overdue.

                    CAPITOL POWER PLANT USEFUL LIFE

    Ms. Kaptur. I wanted to just ask about the power plant. 
What is the life? I know you are doing repairs and a lot of 
things to it. What is the actual remaining life of this power 
plant? And I will tell you where I am coming from. I am coming 
from not wanting to have to pay, as I read this, $1 million--
whatever the fuel costs were for purchases of oil in 2001. I am 
assuming that is $1.7 something--is that million?
    Mr. Turnbull. Yes.
    Ms. Kaptur. And then coal is $970 million?
    Mr. Hantman. $2.5 million for the coal, $1.7, you are 
correct for the oil, and natural gas was $4.5.
    Ms. Kaptur. So natural gas is the largest purchase that you 
are making.
    Mr. Hantman. Except for electricity. We do not produce our 
own electricity. It is only steam and chilled water. We spend 
$23 million with PEPCO to provide us with electricity.
    Ms. Kaptur. What percent of power that is used here is 
purchased versus produced?
    Mr. Hantman. All of the electricity is purchased and so is 
the natural gas. But--all the utilities are purchased. So we 
produce our own steam, we produce our own chilled water. Other 
than that, it is standard utility costs that we pay.
    Ms. Kaptur. It is just a pass-through. Basically we are 
buying from PEPCO.
    Mr. Hantman. For electricity, yes. Or gas.
    Ms. Kaptur. I did not realize that. I thought you did more 
down there.
    Mr. Hantman. Steam and chilled water.
    Ms. Kaptur. And the steam is used for?
    Mr. Hantman. It is used for chilling, for heating, for 
year-round type of needs. And we burn mixtures of coal and gas 
to produce that.
    Ms. Kaptur. There is not time to go into this in this 
hearing, but I would appreciate some type of overview summary, 
maybe two or three pages, in terms of the Architect of the 
Capitol's perspective on our power system, what type of system 
you want it to be 20 years from now, whether we want to 
continue purchasing or producing.
    I am a new Member to this subcommittee, but I am very 
interested. I am obviously someone who votes beyond the 
petroleum age, I am way beyond that. And as I look at the new 
Botanical Gardens being built, one of the questions I ask, not 
having been on this subcommittee, is to what extent we could 
have used photovoltaic systems to heat and cool in that 
building. I do not know how power is being provided in that 
building. It is a huge greenhouse and there are ways--I 
represent the largest greenhouse growing county in the State of 
Ohio. There are ways to deal with heat and cooling that do not 
rely only on plugging into a centralized system.
    I am very interested in renewables and I would appreciate 
when that summary is written if one could talk a bit about 
looking at a new power future for the Capitol itself, to what 
extent renewables, co-generation, are being considered as a 
national example of what the Nation must do. And at the same 
time, as you are spending so much of your budget on building 
higher barricades and securing this place from even a fly, I 
think we have to, every single American has to think about why 
are we in this mess to begin with?
    And in my opinion, and I have said this at other meetings, 
our oil dependence, particularly on undemocratic places in the 
Middle East, has played very heavily into the support of 
regimes that have created great instability in their own part 
of the world and now they are striking back at us. But part of 
the solution that we need to take care of here at home is to 
become energy-independent here at home. And there is no better 
place to start than here in the Capitol. So I am interested in 
your perspective on power production for this system, and also 
the vulnerability of this facility to any kind of interruption 
of power because of its location and how that is factoring into 
your thinking about how to prepare for a different future.
    Mr. Hantman. Thank you.
    [Clerk's note. The overview report requested by Ms. Kaptur 
will be supplied to the Committee at a future date.]

    Ms. Kaptur. Finally, on that power question, when I asked 
about how much is generated versus purchased, would you say 10 
percent in terms of heating is actually generated on site for 
the steam heat versus the acquisition of power from PEPCO and 
the gas purchase?
    Mr. Hantman. If we can get back to you on those numbers, we 
would be more than happy to provide that information.

                          Capitol Power Plant

    Question. How much power is generated versus purchased, would you 
say 10 percent in terms of heating is actually generated on site for 
steam heat versus the acquisition of power from PEPCO and the gas 
purchase?
    Response: The Capitol Power Plant (CPP) currently is not capable of 
producing electric power. Steam is generated at the CPP for heating the 
Capitol Complex by burning coal, oil and natural gas. Fuel selection is 
based on current fuel pricing. Steam will also be used to supply steam 
for steam turbine drives to operate chillers installed as part of the 
West Refrigeration Plant Expansion project. Installation of these 
turbine drives will reduce the electric consumption of the CPP and save 
approximately $2.5 million per year in utility costs. All power for the 
Capitol Complex is purchased by PEPCO. Our current contract with PEPCO 
does not require any information regarding the source of power to be 
disclosed. PEPCO is required to adhere to all federal and local 
emission requirements.

                       BOTANIC GARDEN MASTERPIECE

    Ms. Kaptur. All right, I would be very interested in that. 
On the Botanic Garden, which I think is a masterpiece--and 
Thomas Jefferson and Teddy Roosevelt and lots of other 
Americans would be pleased with the fact that this great 
botanical garden is right next to the Capitol of the United 
States--as a Member of the Agriculture subcommittee, I could 
not be happier.
    Mr. Hantman. I am not sure if you are aware that we are 
about to get an award from the Washington Chapter of the 
American Institute of Architects, from the Art Deco Society of 
Washington, and from the Horticultural Society, claiming this 
as a national horticultural monument. We are getting several 
awards for the work that we have done on that and I fully agree 
with you, it is magnificent.

                            NATIONAL GARDEN

    Ms. Kaptur. The American people, working through you and 
this Congress, have a great deal to be proud of, and what it is 
today and what it will become over the years. And one of my 
questions to you really has to do with a long struggle to try 
to get the life sciences more visibility along the Mall, and as 
opposed to just the space sciences, aeronautics and so forth. I 
have had a long-standing struggle with the Department of 
Agriculture to showcase some of its incredible work which is 
hidden in research greenhouses around this country. One of my 
questions really to you is--thinking about that Botanical 
Gardens and the incredible number of visitors that you are 
receiving and will receive. It will only grow with the years. 
It will probably be one of the most popular exhibits in 
Washington, D.C.--who pays for any programming that could be 
constructed by the staff there that could eventually not just 
be bound up inside that building, but could be beamed across 
the country to classrooms and to settings where youth could 
learn because of the collections there and their ability to 
link to, for example, Department of Agriculture research that 
exists related to horticulture and the plant sciences? Who pays 
for that? Is it you? Is it the Smithsonian? The programming 
itself, who pays for that?
    Mr. Hantman. In line with the discussion that Congressman 
Moran and I were having before about the National Garden, that 
is exactly what this private nonprofit is planning to do, to 
endow us with dollars to be able to do those kind of programs. 
The interpretive learning center that would be part of the 
National Garden has classrooms in it which should have the 
satellite capability to be able to broadcast those programs to 
schools nationwide.
    We have cooperative agreements with different agencies and 
groups, including the Smithsonian, to exchange exhibits, 
traveling exhibits with other institutions around the country 
are things that we are into. We are trying to do it 
economically. We had a wonderful exhibit with orchids that was 
done in concert with the Smithsonian that just ended a little 
while ago. We are really trying to piggyback on other agencies, 
other institutions, and share with them around the country.
    The reality is, though, once the National Gardens gets up 
and running, if we get that endowment from this 501(c)(3) 
group, we should be able to produce some of those programs and 
do a lot more programming than----

                        NATIONAL GARDEN FUNDING

    Ms. Kaptur. You see it being funded by this 501(c)(3). How 
large is it, this 501(c)(3), going to be? How much money?
    Mr. Hantman. What is the cap on that? 16\1/2\ million as a 
total. Some millions of dollars over and above the cost of the 
construction could be put towards endowing future programs.
    Ms. Kaptur. So you do not know the amount that would be 
available? That would be an interest-bearing account, you are 
saying?
    Mr. Hantman. Conceptually speaking.
    Ms. Kaptur. Well, I will tell you, I am very interested in 
cooperative relationships with the Department of Agriculture to 
link to the Botanic Gardens. I think we can work on that. We 
should talk about that further. There is a book that has been 
produced after enormous effort called ``Food, Land, and 
People'', which is a teaching curriculum that every classroom 
in America should have for our children. There is no reason 
that the programming that would be established at the Botanic 
Gardens could not access work that is already out there like 
that. I do not think that amount of money, the 16.5 million, 
which is not solely for programming, is sufficient to do what I 
am talking about.
    So I would be very interested in talking to the set of 
people, whomever they are, that are concerned about programming 
for the future and what the Botanic Gardens can do for our 
country and indeed the world.
    Mr. Hantman. Well, I think when our first President, George 
Washington, envisioned a botanic garden in concert with the 
Capitol, education was certainly one of the goals that he had 
in mind, and anything we can do to enhance that would be 
wonderful.
    Ms. Kaptur. Let me ask you, the memorial to 9/11, we had 
talked about incorporating something on that in some of the 
gardens that are being planned there. We never got a response 
following the meeting on that subject. If you could check with 
your staff and have somebody get back to us, we would 
appreciate it very much. And I thank you, Mr. Chairman
    [Clerk's note.--The office of the Architect of the Capitol 
is currently working with the leadership of the Congress and at 
this time 9/11 memorials are still under review and 
consultation.]

                       VISITOR CENTER EAST PLAZA

    Mr. Taylor. Mr. LaHood.
    Mr. LaHood. Mr. Architect, I think your job around here is 
maybe one of the hardest jobs there is, and it may be an 
impossible job. I did have an opportunity when I went up to 
vote to talk to Ted Van der Meid in the Speaker's Office about 
my objections to your layout for Members getting to the 
Capitol. And I think if I can just say one more word about it, 
I hope you will go back and look at it again. I think it is 
going to be a disaster.
    And I go back to what I said before, the one reason we come 
here is to vote. And Members have to have easy access to the 
Capitol. So if you could look at it again. I have very strong 
objections to it. And I know that Mr. Hoyer has made 
arrangements for you to brief the Members. I think you are 
going to hear a lot of screaming in that meeting if you come 
with that board that you have here and present that as a way 
for Members. Because, with all due respect, I do not think 
there is any way, shape or form that you will ever complete the 
work that you want to do with the Visitor Center and the 
Capitol on time. And I do not say that out of disrespect for 
you. I just think it is going to be impossible to do it. I 
really do. So I hope you can, but I do not think you will.

                        NATIONAL GARDEN FUNDING

    Mr. LaHood. I missed something along the way on the Botanic 
Gardens, so if you could, just for my own benefit. You told Mr. 
Moran that what he characterized as the junkyard was going to 
be cleaned up. When the 501(c)(3) gets a certain amount of 
money, then they are going to do the work? Is that the deal?
    Mr. Hantman. We have designed basically the entire rest of 
the block to be a work in concert with the Botanic Garden 
conservatory and that would take us over towards the American 
Indian Museum. It is bounded by Maryland Avenue, Independence, 
et cetera. We have full construction documents designed to 
build this out. The program was developed in concert with the 
501(c)(3) and with our officers of the Botanic Garden to 
supplement the type of exhibits we have inside the BG and to, 
we were talking with Ms. Kaptur, talk about this interpretive 
learning center and those other elements. That design is there, 
ready to go, ready to be bid. It will be bid and run through 
this office.
    Basically what needs to happen is this nonprofit needs to 
transfer the money to a government account.
    Mr. LaHood. Do they have the money?
    Mr. Hantman. They are still short some of the money.
    Mr. LaHood. How much?
    Mr. Hantman. I think $1.7 million or something like that. 
They have something like $10 million now.
    Mr. LaHood. And they need $12 million.
    Mr. Hantman. Basically $12 million for the construction.
    Mr. LaHood. And they will not transfer the money until they 
get it in hand?
    Mr. Hantman. We would not be able to bid it with the anti-
deficiency issues unless we had all the money in hand.
    Mr. LaHood. And when you talk to them about this, what do 
they say?
    Mr. Hantman. We have been talking to them in recent weeks. 
We are very frustrated about that. They are saying they are 
working on their donors and they will get back to us shortly, 
and we can certainly keep you informed of that.
    Mr. Turnbull. They had anticipated getting a bridge loan 
without that funding support. That has not happened and so they 
are still going back and looking at their donors for additional 
support.
    Mr. LaHood. I wonder if they would want to check with 
either Senator Corzine or Senator Kerry on this matter?
    Mr. Hoyer. The Chair is probably available.
    Mr. LaHood. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Moran, do you have any further comments?
    Mr. Moran. No, I think we ought to give this guy a break 
here. Enough is enough.
    Mr. LaHood. It is about time you gave him a break after all 
the grief you have given him.
    Mr. Moran. All I want to do is follow through on some 
ideas. I think we have exhausted this subject matter. We have 
full access to your reports over the next few weeks.
    Mr. Taylor. Mr. Sherwood? Mr. Hoyer.
    Mr. Hoyer. I have a number of questions, but I am going to 
submit them for the record, and ask if we could get answers to 
them relatively soon so we could have them before the markup.
    [The following questions from Mr. Hoyer were submitted to 
be answered for the record:]

                         House Office Buildings

    Question. Please provide an overall update on your work on Fire and 
Life Safety projects in the House complex, including at the Library of 
Congress (LOC). I appreciate your providing the ``Milestones'' that the 
House Inspector General recommended for addressing the deficiencies at 
the LOC. Do you have any concerns about being able to keep that 
schedule going forward?
    Response. It is difficult to be brief about the massive efforts 
underway in the area of fire safety. In fiscal year 2000, we received 
$17.9 million in supplemental funding and in fiscal year 2002, we 
received another $14.5 million to address fire and other safety needs. 
Between these two appropriations alone, there are over 85 projects 
addressing fire and other safety issues on Capitol Hill. As you know, 
many of our buildings were built long ago, under the codes of their 
time. We are in the midst of bringing the buildings on Capitol Hill 
into compliance with today's more stringent fire and life safety codes.
    The House of Representatives Page Dorm located at 501 First Street 
SE meets modern fire code requirements.
    Fire Detection: Great strides have been made in ensuring prompt 
detection of fires. Firemen's phones have been installed in all 
buildings. Smoke detectors and fire alarms are now compliant with 
modern codes in House of Representatives Office Buildings except the 
Cannon and Longworth where the remaining architecturally sensitive 
areas (5%) are under study.
    Fire Suppression: Sprinkler systems are in place in over 90% of 
House of Representatives Office building spaces except the Rayburn 
Building. The Rayburn Office Building Renovation project, 75% complete 
now, will provide a fully sprinkled building. Studies and construction 
are underway to fully sprinkler each building.
    Egress: Three revolving doors in Cannon and one in Longworth have 
been replaced (remaining revolving door replacement contract awarded 
replacement scheduled for later this year).
    The US Capitol is approximately 70% compliant in smoke detection, 
90% compliant in door swing, and 25% compliant in fire alarm, fire 
suppression, and egress. Just this month, the East Front revolving door 
was replaced. Earlier this year, the Capitol Public Address system 
became operational. Fire detection and alarm installation is ongoing. 
Fire suppression and egress are being addressed as part of the US 
Capitol Master Plan currently under development. The latest advances in 
fire modeling and fire code equivalences are being used extensively to 
ensure that we provide adequate life safety while balancing historic 
preservation needs.

                     LIBRARY OF CONGRESS BUILDINGS
    Fire Detection: Smoke detectors and fire alarms are now compliant 
with modern codes in: 60% of the Thomas Jefferson building; 75% of the 
John Adams Building; 98% of the James Madison building.
    Studies and construction are underway to provide smoke detection 
and alarms throughout all three buildings.
    Fire Suppression: Over 90% of the Library of Congress building 
spaces have sprinkler coverage. Studies are underway to sprinkler the 
remaining areas in each building.
    95% of the Thomas Jefferson building; 98% of the John Adams 
Building; 90% of the James Madison building.
    Egress: Over 75% of the Jefferson and Adams buildings and 99% of 
the Madison building are compliant with modern egress requirements. 
Studies have recently been completed.

                              CAMPUS WIDE
    Campus wide, fire pumps and fire alarm systems have been tested. 
Fire alarm audibility (can you hear it) and intelligibility (can you 
understand what is being said) surveys have been completed. Evacuation 
drills have been held in conjunction with the US Capitol Police and the 
LOC Police. The US Capitol Police and my staff have developed new 
evacuation brochures. The US Capitol Police will be distributing them 
shortly.

                                SUMMARY
    Great progress has been made but there is much left to do, 
especially in the areas of egress, smoke control, and fire alarm 
audibility. These improvements will not come quickly or inexpensively. 
Egress and smoke control improvements require time staking fire 
modeling, extensive engineering evaluation and design. Fire alarm 
audibility and intelligibility improvements require extensive design by 
acoustics experts. In these areas, I anticipate a two-year design 
process and a multi-year construction process for our complex 
historically sensitive buildings.

                        HOUSE RECYCLING PROGRAM
    Question. The Superintendent of the House Office Buildings has made 
changes to the House Recycling Program, including changing the 
containers and creating a special recycling crew to collect the 
materials each evening before the regular cleaning crew begins its 
work. Have program results improved since last year? Are you 
considering other changes to the progam?
    Response. Over the course of the past year, HOB staff has been 
implementing improvements to the recycling program by making the 
program more user friendly for participants. We distributed 10,865 
newly labeled containers. In addition, in an effort to decrease the 
contamination rate, the color of the wet waste containers has changed 
from blue to gray, thereby distinguishing between recycling (blue) and 
wet waste (gray) containers. When comparing the first five months of 
fiscal year 2001 to the first five months of fiscal year 2002, we 
achieved the following results: high grade paper increased by 9 tons/
month; newspaper increased by 21 tons/month, cardboard increased by 6 
tons/month and aluminum can/glass and bottles increased by 2 tons/
month. However, as a result of the closure of the buildings due to the 
anthrax contamination and the lack of incoming mail, the amount of 
mixed paper decreased by approximately 10 tons/month. To date, over 
sixty percent of the House offices have received the new gray wet waste 
containers and modified recycling containers. Eighty-five percent of 
participants recently surveyed stated that they were satisfied with the 
program. The other fifteen percent stated they were unsatisfied because 
they wished to make some minor adjustments to the types of containers 
they originally ordered, their requests were immediately fulfilled.
    During the initial phases of implementing the modifications to the 
program, HOB recycling staff held over 33 seminars for all staffers to 
inform them of the changes. In addition, when containers are switched 
out in an office that has submitted an order form every employee in 
that office is given a recycling brochure and informational sticker to 
post on their computer monitor or filing cabinet. Enhanced marketing 
efforts are being carried out to inform offices about the recycling 
program. For example, information regarding available containers and 
the recycling brochure has been posted on the AOC Internet with 
additional information to follow: HOB recycling staff will be 
distributing a recycling newsletter, which will emphasize the positive 
results that have been achieved. (We recycle an average of 2,000 tons/
year). The cable channel has been used in the past and will be utilized 
again to promote the program.
    In an effort to decrease the contamination rate, HOB staff will be 
exchanging old blue wet waste containers with new gray containers in 
those offices that have not yet had time to have all of their 
containers updated. This should have an immediate positive impact on 
the contamination levels because staffers will now be asked to use only 
the gray containers for their wet waste and their blue containers for 
recycling materials. HOB staff is currently working on salvaging as 
much material as possible from the O'Neill building before its 
demolition. In addition, HOB staff has been reviewing the demolition 
specs to ensure that the contractor will recycle as much of the 
building materials (i.e. metal, wood etc.) as possible. HOB recycling 
staff will be working with the AOC Resource Conservation Manager to 
reduce the amount of construction and demolition material from within 
the House Office Buildings going to the landfill.

                          RAYBURN GARAGE FLOOR
    Question. You seek $1.4 million in fiscal year 2003 for design of 
the Rayburn Garage Floor Repairs, and you anticipate requesting $14 
million for the work in fiscal year 2005. These repairs are urgently 
needed, but will greatly disrupt parking arrangements for quite some 
time. Are you including in your plans special arrangements to minimize 
the burdens on the hundreds of Members and staff whom park in the 
Rayburn? Are there any new, post-9/11 security concerns or 
opportunities that come with this project?
    Response. A December 1998 structural condition assessment revealed 
considerable deterioration of the floors of the Rayburn garage due to 
road salt and water penetration. This project is to arrest that 
deterioration. The AOC has requested design funding in fiscal year 2003 
for developing the contract documents to repair the structural flooring 
in the Rayburn HOB garage. Construction funds will be requested in 
fiscal year 2005. During the design phase, consideration will be given 
to phase the construction such that impact on members and staff will be 
minimized. Also, discussions will be held with the Committee on House 
Administration to address this issue and determine alternatives during 
the design phase. This approach was used in the Cannon Garage 
Renovation and was very successful with minimal disruption to members 
and staff.
    The security emergency supplemental will address most security 
concerns. We continue to work with the Sergeant at Arms and the Police 
to improve our security posture. Given the sensitivities on specific 
projects, it would be best to address them in a different forum.

                     RECRUIT ADDITIONAL CUSTODIANS
    Question. At last year's hearing, the Superintendent of the House 
Office Buildings discussed his ongoing efforts to recruit additional 
custodians to assure adequate staffing each day for this essential 
function. Has the situation improved in the last ten months?
    Response. The day policing efforts and quality have improved over 
the last year. We have implemented a Quality Assurance program to 
monitor the cleanliness of the public spaces. We presently are cleaning 
the female restrooms in the Cannon and Rayburn buildings with 
contractor employees and the remaining public bathrooms and other 
public spaces with AOC staff. The present cleaning standards being 
performed do not meet the requirements of a Class A office building. 
Due to shortage in resources, the HOB is performing day cleaning at 
reduced intervals. As an example, we presently police the public 
bathrooms 3-4 times daily as opposed to every hour. We are presently 
performing a thorough analysis to determine the resource requirements 
to maintain day policing efforts to meet the industry standards for a 
Class A building.

                         FLAG-FLYING OPERATIONS
    Question. How much money did the flag-flying operation generate in 
each of the last three years for which complete data are available, and 
what was its disposition?
    Response. Flag flying fees are collected and deposited into the 
treasury. For fiscal year 1999 to fiscal year 2000 funds were received 
as follows: FY 1999--$337,167.45; FY2000--$387,796.95; FY2001--
$398,922.30.

                         ART REPRESENTING WOMEN

    Ms. Kaptur. Mr. Chairman, very briefly, I completely forgot 
a subject quite important to myself and to the Women's Caucus 
and that relates to the art collections of the Capitol and to 
what extent they reflect the contributions of women to the 
development of this Nation, and it is a topic that we had 
written and worked with the Architect on. I am not sure that 
there is complete understanding of what we are talking about 
here. We are not just talking about acquiring art that may have 
been produced by women but, in fact, a reflection of the 
contributions of women to American life beyond Pocahontas, 
which is the one major painting in the central dome. So we had 
asked the Architect for some studies of how paintings and 
frescos and art works could be rotated through here, and we 
have never really gotten a very coherent reply.
    It is something that does not appear to be that 
complicated. When the Visitor Center is built, that is another 
opportunity, but it is not the only need here, looking at the 
numbers of children that come through these buildings. I am 
wondering what you can report on that, if anything, to the 
committee and how you can follow up with us on making these 
buildings more representative of the fullness of American life.
    Mr. Hantman. As you implied, Congresswoman, there are 
opportunities for new art in the CVC. And as you know, it will 
take many years to bring the CVC those art works. There is no 
line budget right now in the project for the CVC for 
commissioning art work. Perhaps that comes from outside 
sources. As far as saving some space for future generations, I 
think that needs to be done. Everything should not be filled up 
from day one. But both the House and the Senate, in terms of 
leadership, are actively looking at what we should be doing in 
terms of these opportunities, whether we move existing art work 
or sculpture or borrow things from the Archives.
    Ms. Kaptur. May I just give you an example? I hate to 
interrupt you and I do not want to drag this out, but I was 
looking for a painting of a woman named Mary Norton. This is 
what goes on in this Capitol, and I am going to put it on the 
record because nobody else does, and I am really tired of it. 
She was very important. She served during the Roosevelt years, 
and she is responsible for the most significant labor 
legislation ever signed into law, the minimum wage, time and-a-
half overtime, 40-hour week, no child labor. I tried to find 
her painting. Now I do not know who is responsible for hanging 
or putting it up. She also chaired the D.C. Committee as a 
woman back before World War II. I finally located her painting 
in an annex, not even on the main Capitol grounds. I was so 
outraged. I got it hung in my office because it cannot be hung 
around here. So how is that possible? It is not your fault. It 
has been endemic and she is not the only one.
    Congresswoman Lindy Boggs, incredible human being, served 
with us so many years. We have, I suppose you could call it a 
portrait, but it is not really oil, in the women's reading 
room, which is barred to 97 percent of the people who visit 
here. That is how we think. And we have to think a new way. 
This is the 21st century.
    So the fact that I have tried for so many years--I tried 
politely at first. I wrote letters. I met with people. I got 
little reports, but nothing ever happens. Congressman Hoyer is 
helping us do a revision of ``The Women in Congress.'' Most 
people will never read that book. We need to have this place 
visually represent who we are and what we have done as a 
people, and women are absolutely not up on these walls. I 
believe that is your responsibility, and you have to work with 
the Fine Arts Commissioner and whoever else who is around here 
responsible for the arts. But we have been trying for many, 
many years. I have had it. And so you are on the receiving end 
of this anger this morning, but I would like to see something 
done about this.
    Mr. Hantman. Certainly. In terms of planning for the CVC 
and moving that forward, I will be taking an active role and 
working with the commissions from both the House and the Senate 
side to try to talk about art and the appropriateness of art.
    Ms. Kaptur. You talked about the Visitor Center. Is that 
what you were talking about, or are you talking about the whole 
Capitol?
    Mr. Hantman. The Senate has its own curator and the House 
has its own curator and the Architect of the Capitol also has a 
curator, so it is a question of working all of those components 
together and making decisions from both the House and Senate 
and the Architect's side in terms of what is commissioned, if 
it is new work, and what is to be hung. You are perfectly 
right.
    Ms. Kaptur. I believe they hung an additional painting in 
the Senate for Hattie Carraway. She was known as Silent Hattie 
during her years of service here. There is one additional 
portrait of a woman on the Senate side.
    Mr. Chairman, I am complete, but I would ask the Architect 
to submit for the record--I think Mr. Hoyer had a very good 
suggestion here--and that is an inventory of all art 
representing women in the Capitol
    [The inventory of all art representing women in the Capitol 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            HISTORICAL TOUR

    Mr. Taylor. I would like you to take a historical tour that 
I give for women. We start with the Jeannette Rankin statue and 
go to the Lindy Boggs room. When we get in, we think we ought 
to be able to get the pictures displayed of the number of 
women. A lot of people do not realize the number of women who 
have served in the Congress and that gives a vivid display. And 
I could go on, but I thank you, Mr. Hantman, and for the work 
you are doing and your presentation here today. We thank you 
very much.
    Mr. Hantman. Once again, Mr. Chairman, your opening remarks 
were truly appreciated in terms of recognizing the work of the 
many men and women who contributed to the Congress over this 
last year. I thank you, sir.

                           EMPLOYEE SALARIES

     Mr. Hoyer. Am I correct, your budget submission includes a 
4.1 percent raise for your employees, consistent with the 
present proposal? The good news is from the legislative 
branch's standpoint throughout, they have done parity, which 
has not been true of the executive department which Mr. Moran 
and I and others are going to be working on.
    Mr. Taylor. Thank you Alan for your appearance here today.
    [The following questions from Chairman Taylor were 
submitted to be answered for the record:]

                         General Administration

    The AOC is requesting 26 additional FTE's to support various 
existing operations and a new office of ``energy conservation and 
management''; this office will have the responsibility to achieve a net 
reduction of 20% in energy consumption compared to the FY 1991 
consumption levels.
    Question. This was a requirement that was included in the FY 1999 
Legislative Branch Appropriations Act (section 310). Why has it taken 4 
years for you to address this issue?
    Response. The Energy Conservation effort is continuing but 
certainly not at the desired pace due to the lack of dedicated staff 
for this function. Currently efforts such as developing the 
documentation to establish the 1991 baseline consumption data are 
underway as are continuing energy conservation efforts related to 
specific project design in the buildings and at the Capitol Power 
Plant. This staffing request has been submitted in previous years and 
declined.
    Question. Will this be a temporary operation established just to 
meet the requirements outlined in the 1999 act?
    Response. This effort is in response to the 1999 Act but is not a 
temporary operation. In order for an energy conservation effort to be 
successful it must continue. If improvements to operation and systems 
along with awareness are not provided with continuing oversight the 
savings realized will diminish with time. In addition, the Act requires 
certain ongoing efforts such as annual reports to Congress. The 
Architect's office anticipates a continuing effort to review operations 
and projects on an ongoing basis, provide continuing guidance on the 
procurement of energy efficient equipment and services, continuing 
awareness efforts, etc. to assure continued efficient use of energy 
throughout the complex.
    The AOC has requested a funding increase for 43 additional 
positions.
    Question. How many of these are managerial positions?
    Response. Five positions are managerial: an ECM Branch Chief, a 
HVAC Branch Chief, a Facilities Manager, an Assistant Director of A/E, 
and a supervisory management analyst for workforce management.
    Question. Does it make sense to hire additional management 
personnel prior to the completion of GAO's review?
    Response. Yes, however I am reexamining my request for these key 
positions.

                       COMPUTER FORENSIC SERVICES
    The AOC has a request for $55 thousand dollars for computer 
forensic services to perform investigations related to policy 
violations.
    Question. What would be a policy violation?
    Response. According to AOC Order 8-1 dated July 5, 2000, ``The AOC 
provides e-mail as a tool for business communications, and users have 
the responsibility to use this resource in an efficient, effective, 
ethical, and lawful manner.''
    The policy also provides more specific information relating to 
policy violations in section 6:
    6.0 E-MAIL AND INTERNET POLICY
    1. In general, users may use AOC e-mail and Internet access as 
required in their assigned positions or as directed to fulfill their 
official duties and responsibilities. An exception to this general rule 
is the use of AOC e-mail and the Internet for incidental personal 
purposes, for example, use concerning home and family, where the 
message would not violate any provisions of this order. This exception 
does not apply if such use: (1) directly or indirectly interferes with 
the AOC e-mail or Internet systems or (2) interferes with an AOC 
employee's performance of official duties or other obligations to the 
Government or (3) involves the transmission or receipt of offensive, 
harassing, obscene, or threatening or otherwise objectionable material. 
The determination of whether messages or other material constitutes 
offensive, harassing, obscene, or threatening or otherwise 
objectionable material will be based on standards that are applicable 
in the business community. The fact that a recipient of e-mail does not 
personally find the e-mail to meet these criteria is only one factor in 
the analysis and, by itself, may not be determinative. Any 
determination in this regard will be within the sole and exclusive 
discretion of the AOC. Further guidance on the standards of conduct 
applicable to users may be found in the Office Policy for the Architect 
of the Capitol, Standards of Conduct, May 11, 1989, paragraph 4.4.
    2. The use of e-mail or the Internet for viewing or disseminating 
sexually explicit or obscene material is strictly prohibited and is a 
violation of this order.
    3. The use of e-mail or the Internet to disseminate or print 
copyrighted materials, including text, images, or software, in 
violation of copyright laws is strictly prohibited and is a violation 
of this order.
    4. The use of e-mail for soliciting funds, promoting outside 
business interests, sending ``chain'' letters, transmitting jokes, 
cartoons or other non-business related material, supporting political 
purposes, advertising goods or services, or participating in any news 
group not related to AOC or the performance of a user's official duties 
is strictly prohibited and is a violation of this order.
    5. Users shall maintain a businesslike and proper tone in all of 
their messages, respect the sensibilities and privacy of others, and 
insure the appropriateness of message content. For example, messages 
that contain or disseminate gender, racial, ethnic, religious, age, 
national origin, or disability slurs are prohibited. The use of e-mail 
and the Internet for disseminating abusive, discriminatory, or 
defamatory messages or materials is strictly prohibited.
    6. Users should not download browser plug-ins, application 
freeware, or software from the Internet. Users shall not download or 
play any other material that would be in violation of other provisions 
of this order.
    7. Users of e-mail must safeguard the confidentiality of any 
documents related to AOC business. The exchange via e-mail of 
proprietary information or any other privileged, confidential, or 
sensitive information other than within the performance of official 
duties is prohibited.
    8. Messages sent or received via AOC e-mail are not private. All e-
mail accounts maintained on the e-mail systems are the sole property of 
AOC. AOC has the right to monitor any employee's e-mail account for any 
reason, including verification of compliance with this Order, 
validation of employee performance, and investigations prompted by 
reasonable suspicion of activities that violate this Order. For these 
and other reasons, users should have no expectation of privacy in 
connection with the use of the AOC e-mail or Internet, or with the 
transmission, receipt, or storage of information in these systems.
    9. Permission to use AOC e-mail and access to the Internet using 
AOC equipment may be revoked at any time. As stated above, violations 
of this order may also result in disciplinary action against a user, 
including termination.
    Question. In the past have you encountered any criminal violations 
that you forwarded to the Capitol Police for investigation?
    Response. Yes, the AOC discovered a serious violation, which was 
forwarded to the U.S. Capitol Police for investigation. The incident 
led to the request for computer forensic services to be made available 
to the agency on an annual basis in order to make expert resources 
available should other serious violations occur.

                       INTEGRATED DIGITAL SERVICE

    You have a request for $1 million to subscribe to an 
integrated digital service to address human resource, workforce 
management, and other administrative processes.
    Question. Did you have a set of system requirements defined 
before selection of the system?
    Response. Yes, AOC has developed its Technical Requirements 
Document for selection of an automated system. Requirements for 
the system selection were generated based on personal 
interviews with Human Resources staff, Agency managers and 
employees, Information Technology staff, as well as interviews 
with other federal agencies currently using such a system.
    Question. What were those requirements?
    Response. A summary of the specifications is outlined as 
follows. The Requirements Document is available for review.
    1. Recruitment, Staffing and Classification
    2. Work Force Management
    3. Succession Planning and Salary Management and 
Organizational Forecasting
    4. Security and Privacy
    5. Infrastructure and Interoperability
    6. Implementation
    Question. What if any other systems have you evaluated?
    Response. AOC has reviewed the following systems: Resumix, 
QuickHire, Peoplesoft. Currently, each one of these systems 
does not provide for staffing and classification of federal 
positions. The first two systems do not provide an integrated 
approach to classification, recruitment, and workforce 
planning. Peoplesoft is a payroll and personnel processing 
system. Based on the General Services Administration Schedule, 
no other systems provide an integrated federal product for 
classification and job content services.
    Question. What other government agencies use this service?
    Response. United States Department of Agriculture 
Consortium
    Forest Service
    USDA Headquarters
    Office of the Secretary
    US Coast Guard
    Department of Transportation Mode Consortium
    Transporation Administrative Services Center (TASC)
    Federal Highway Administration (FHWA)
    Federal Railroad Administration (FRA)
    Federal Transit Administration (FTA)
    Maritime Administration (MARAD)
    Research & Special Programs Administration (RSPA)
    Office of the Inspector General (OIG)
    National Highways Traffic Safety Administration (NHTSA)
    National Transportation Safety Board (NTSB)
    National Cancer Institute
    National Institutes of Environmental Health Sciences 
(NIEHS)
    National Institutes of Health--Office of Research Services 
(NIORS)
    Health & Human Services--Program Support Center Consortium
    Program Support Center (PSC)
    Food & Drug Administration (FDA)
    Health Resources and Services Administration (HRSA)
    Substance Abuse and Mental Health Services Administration 
(SAMHSA)
    Administration for Children and Families (ACF)
    Agency for Healthcare Research and Quality (AHRQ)
    Department of Justice Consortium
    Justice Management Division (JMD)
    Office of Justice Programs (OJP)
    Community Relations
    Office of the Inspector General (OIG)
    U.S. Trustees
    Executive Office of Immigration (EOI)
    GSA--National Capital Region
    United States Agency for International Development
    Federal Emergency Management Agency
    Department of State
    Environmental Protection Agency
    In addition, memoranda of understanding have been signed 
with the following affinity groups: Blacks In Government (BIG) 
and the Federal Asian Pacific American Council (FAPAC).
    Question. Have you surveyed any of the current users:
    Response: AOC's project team has conducted on-site 
interviews with the following federal agencies:
    Library of Congress--Office of Human Resources, Office of 
Inspector General, Office of Information Technology
    U.S. Forest Service*
    U.S. Coast Guard*
    Environmental Protection Agency
    *AOC surveyed these agencies due to their extensive skilled 
and unskilled labor force.
    Question. The Library of Congress is a user of this system. 
Have you spoken to the Library concerning the capabilities of 
this system?
    Response. Yes, AOC's project team has worked extensively 
with the Library of Congress concerning the capabilities of the 
automated system. The LOC System Project Manager has provided 
AOC with hands-on demonstrations and system design plans from 
the Library's perspective and has been invaluable in terms of 
feedback and implementation guidance. In addition, AOC's 
project team has met with the Director and Deputy Director of 
the Information Technology Branch to discuss system features, 
security framework issues, and platform considerations. Members 
of the team have also conducted phone interviews with the LOC 
Inspector General concerning a recent review of the LOC system.

                       REIMBURSEMENT TO THE ARMY

    You have a $200 thousand base for the operation and 
maintenance of the existing landscaping and structures located 
at Fort Meade and for reimbursement to the army for services 
provided by them. Considering we only have warehouses at the 
base, $200 thousand for maintenance and landscaping seems high.
    Question. What is the break down between operation and 
maintenance costs and reimbursement costs to the Army?
    Response. The anticipated breakdown between operation and 
maintenance costs and reimbursement costs to the Army for 
fiscal year 2002 is 65% for operation and maintenance and 35% 
for reimbursement costs to the Army.
    Question. Are the reimbursement costs to the Army shared 
costs between all the tenants of the base?
    Response. It depends on the service being provided. For 
Fire Prevention and Protection, the reimbursement cost is based 
on a fixed unit cost per square foot, which is the same for all 
tenants. Other reimbursement costs, such as communications, 
minor facility repair and maintenance, and utilities, are based 
on actual costs.
    Question. What are the services that are provided?
    Response. Fort Meade provides the following services: Fire 
Prevention and Protection, Minor Facility Repair and 
Maintenance, Communications, and Utilities. As previously 
stated, other than Fire Prevention and Protection, all services 
through Fort Meade are paid for based on actual cost/usage. 
Landscaping and Snow Removal services are performed by an 
independent contractor, hired by the AOC, which has resulted in 
considerable savings, improved service, and a much better final 
product.

                           CAPITOL BUILDINGS

    The Capitol Police have requested an off-site delivery/
screening center, projected cost of $22 million, to be used to 
accommodate the projected vehicle load of over 200 inspections 
per day.
    Question. Has this facility been designed?
    Response. No. The facility has not yet been designed. The 
facility as proposed is based on the 1999 United States Capitol 
Police Master Plan. This Master Plan is currently being updated 
to reflect modifications to the requirements due to the 
incidents of September 11, 2001. The revised Master Plan will 
be received in June 2002.
    Question. Have you selected some potential construction 
locations?
    Response. Part of the effort of the Master Plan update 
includes the identification of potential sites for this 
facility utilizing the guidelines identified by the USCP such 
as proximity to the Capitol complex.
    Question. What is the basis for your $7 million estimate 
for the purchase of the property?
    Response. The $7 million estimate was based on land 
identified during the development of the 1999 USCP Master Plan 
with escalation based on information obtained on the increase 
in prices in property adjacent to the Capitol complex.

                            CAPITOL GROUNDS

    You have a base of $200 thousand for shuttle bus services.
    Question. How many people use these buses daily?
    Response. The shuttle bus service currently transports 
approximately 40 passengers daily. The service picks up the 
majority of its passengers during the morning rush hours and 
the afternoon rush hours. During the day, fewer passengers 
board the buses.
    Question. Is the use of these buses limited only to AOC 
employees?
    Response. Passengers on the AOC shuttle bus service must be 
Members of the House of Representatives, Senators, staff of the 
House and Senate, and staff of the Architect of the Capitol. 
Prior to boarding, passengers must show the shuttle drivers a 
current and valid legislative identification tag.
    Visitors are not allowed on the shuttle bus.

                         HOUSE OFFICE BUILDINGS

                            SAFETY PROGRAMS

    A GS-12 safety specialist position has been requested to assist the 
safety specialist position funded in 2001 to implement and oversee 40 
or more safety programs scheduled to be implemented in the near future.
    Question. What are these safety programs?
    Response. The following is a list of the 43 safety programs. The 12 
programs shown in bold are approved programs, which are currently being 
implemented. The remaining programs will be implemented between FY 2002 
and FY 2004.
    FY 2001: Hazard Communication; Confined Space, Personal Protective 
Equipment; Bloodborne Pathogens; Fall Protection; Respiratory 
Protection; Lead; Asbestos; Lockout & Tagout; Electrical Safety; 
Scaffolding; Machine Guarding; Hand & Portable Power Tools; Welding, 
Cutting & Brazing; Materials Handling; Forklift Operations; Manlift 
Operations; Hazardous Materials & Spill Response; Spray Finishing 
Procedures; Trenching & Excavation; Radiation Safety; Working & Walking 
Surfaces; Medical Surveillance; Portable Fire Extinguishers; Hearing 
Conservation; Recordkeeping & Reporting; Safety Color Coding, Labeling 
& Marking; Contractor Safety; Air Quality & Dust Control; Mishap 
Prevention & Reporting; Hazard Reporting; Hazard Abatement & 
Inspections; Workplace Emergency Preparedness; Ergonomics; Industrial 
Safety; Data Processing Facilities; Hazardous Waste; Office Safety; CPR 
& First Aid; Cable Fault Locating & Telecommunications; Evaluation of 
New Products Procedures & Equipment; Special Operations Requirements; 
Silica.
    Question. If you have not implemented these programs, how have you 
determined that you need additional staff?
    Response. Currently, the Safety Specialist in the jurisdiction is 
responsible for implementation of the programs, developing Standard 
Operating Procedures (SOP's) for the specific jurisdictional 
responsibilities, establishing training requirements and developing 
tracking systems for record keeping. Additionally, amongst several 
other safety duties, the Safety Specialist conducts safety inspections, 
monitors work place safety, handles any indoor air quality issues and 
establishes and tracks hazardous material operations. His 
responsibilities are primarily involved with the day shift in HOB 
employees.
    This new position would have the same responsibilities but would be 
responsible to the safety program implementations for the night shift 
HOB employees. The majority of this staff is predominantly comprised of 
laborers and custodians who historically have the highest rate of 
injuries. This position would serve as a focal point for safety program 
implementation and execution of all aspects of safety awareness and 
training for the night time staff.

                      LIBRARY BUILDING AND GROUNDS
    There is a request of $1.6 million to begin for replacement of 
windows at the Library buildings that could cost as much as $47 
million. We recently completed a restoration and renovation project of 
two of those buildings that cost $81.5 million.
    Question. How can it cost $47 million to replace windows?
    Response. As a result of the Blast CADD study, the Capitol Police 
have indicated that all windows on Capitol Hill be replaced with 
``Level D, 10 PSI (pounds per square inch)'' blast resistant windows. 
This would require replacement of every window on all LOC buildings. 
The windows would have \3/8\" laminated glass with heavy duty frames 
and would be bolted to the building structure every eight inches around 
the perimeter of each window. A very detailed cost estimate has been 
prepared for the Cannon Building and costs for the other buildings on 
Capitol Hill have been extrapolated from this estimate.
    Speaking of the restoration and renovation project (R&R) you are 
requesting $2.2 million to repair the roof under the east parking lot 
of the Jefferson building.
    Question. Why was this not part of the original R&R project on the 
Jefferson and Adams buildings?
    Response. The scope of the R&R project was developed in 1982, 
designed in 1984 and construction started in 1986. This leaking problem 
was found long after the R&R project was complete.
    We have a request before us for $100 thousand for planning and 
program development for an estimated $22 million state of the art 
warehouse facility at Fort Meade to have copyright deposits.
    Question. Considering you can't seem to complete the book storage 
facility, what makes you believe you can build a state of the art 
warehouse facility?
    Response. Both the AOC and the LOC have learned a great deal during 
the design and construction of Module 1 of the Book Storage Facility. 
We have also spent considerable time analyzing our deficiencies on 
Module 2 and making plans for future projects at the Ft. Meade site. We 
are recruiting a Ft. Meade project Manager to be dedicated to these Ft. 
Meade projects and we are partnering with the Baltimore District of the 
Corps of Engineers to manage the design and construction process.

    [The following questions from Mr. Moran were submitted to 
be answered for the record:]

                 Off-Site Delivery and Screening Center

    Question. What is the cost of the Capitol Police off-site delivery 
and screening project?
    Response. The current projected cost for this facility is $22M. 
This estimate is based on the 1999 USCP Master Plan as a basis and was 
escalated for time extension and the anticipated dramatic increase in 
land values in the general area. The USCP Master Plan is currently 
being updated and the update will be submitted in June 2002.
    Question. What work does this project entail?
    Response. The facility identified in the 1999 Master Plan is a 7-
bay facility for screening of all deliveries to the House, Senate and 
Capitol Buildings, as well as the Supreme Court and general mail 
deliveries to the Library of Congress. The estimated cost includes 
design and construction costs for the facility including furnishings as 
well as the land acquisition costs.
    Question. Does this request include any specialized security 
equipment that will be used in the facility? Or, will we see 
corresponding requests in future budgets of the U.S. Capitol Police 
(USCP)?
    Response. This question has been passed to the Capitol Police as 
following within their jurisdiction.
    Question. Will this facility also alleviate any of the USCP's 
overcrowding issues they are currently facing?
    Response. This facility will only resolve overcrowding issues 
currently being experienced at the existing off-site delivery center.
                                          Thursday, April 25, 2002.

                      CONGRESSIONAL BUDGET OFFICE

                                WITNESS

DAN L. CRIPPEN, DIRECTOR, CONGRESSIONAL BUDGET OFFICE

                             BUDGET REQUEST

    Mr. Taylor. We will now take up the Fiscal Year 2003 budget 
request of the Congressional Budget Office. We have the 
Director, Dan Crippen, with us today. Good morning, sir. We 
understand that Barry Anderson, the Deputy Director, will not 
be with us.
    Mr. Crippen. Barry has been called to testify before the 
House Budget Committee, so he will not be able to join me.
    Mr. Taylor. The budget request we will consider for the 
Congressional Budget Office for Fiscal Year 2003 is 
$32,390,000. This is an increase of 1.6 above the enacted level 
and includes a request to increase the FTE's from 232 to 236.
    Your prepared statement has been distributed to the Members 
of the committee and will be inserted in the record, if you 
would like to make a short statement, then we will move 
directly to our line of questions.
    [The prepared statement of the CBO Director follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                         TECHNOLOGICAL PROJECTS

    Mr. Crippen. Mr. Chairman, I will forego any opening 
statement on the budget, but I would like to take a few seconds 
just to say that since my term is up at the end of this year, 
this is likely my last appearance before this committee. I 
thank you and the committee for all the support that you have 
given the CBO over the years and certainly during my tenure. 
And we are very appreciative. We are a small band over in the 
Ford Building, but we certainly appreciate the support the 
committee has given us.
    Mr. Taylor. Some of your major projections for fiscal year 
2003 are to update older work station hardware and software and 
automate key administrative processes. You have not requested 
any additional funding. Are we to assume that you have 
sufficient funds to carry out your objectives.
    Mr. Crippen. Yes, sir. We have moved from the House 
Information System at its request to another vendor for 
computer processing, and ultimately we will bring that back in-
house on PCs, but in the process we are saving money.
    Mr. Taylor. Can we anticipate a base reduction next fiscal 
year?
    Mr. Crippen. We will have one more year of savings as we 
convert to using the PCs. After doing so, it will be $115,000 
of contract spending that we will not be needing.
    Mr. Taylor. I have some questions that I will submit to be 
answered for the record.
    [The questions and responses follow:]

                         Technological Projects

    Question. What are your costs estimates for these projects?
    Response. About $150,000 is budgeted for workstation hardware 
replacement, and a little over $50,000 is planned for workstation 
software replacement. Approximately $227,000 is requested for 
automating key administrative processes.
    Question. What administrative processes and other internal services 
have you recently automated?
    Response. A variety of data and service delivery systems are now 
provided by the new CBO Intranet, such as systems for supply inventory 
and distribution, conference room reservation, job applicant tracking, 
project tracking, and purchase requisition & procurement. We also 
created a new system for tracking telephone services.
    Question. What is your estimate of the cost savings that have been 
realized as a result of these changes?
    Response. Automating administrative processes does not necessarily 
translate into easily measurable cost savings. However, it does result 
in faster and more efficient ways of doing business that improve the 
quality and success of our operation. Still, there have been recent 
examples when legacy systems have been replaced and yielded cost 
savings as well as the other benefits. For example, the new procurement 
system has allowed us to reduce our contractual payments for 
administrative support by over $25,000, and the implementation of the 
new applicant tracking system will save us upwards of $10,000 per year 
for temporary administrative support that will no longer be needed. We 
also expect better management of office supplies and monitoring of 
telecommunications to reduce costs for these items.

                            WORK ENVIRONMENT

    Working with the Architect of the Capitol you have developed a 
range of strategies to address your space problems. We understand that 
the architect has spent approximately $15,000 towards some basic 
improvements.
    Question. What are your space problems and how have you addressed 
them?
    Response. Prior to 2000, about 40 professional staff occupied 
inadequate office space. For example, we had larger spaces divided by 
bookcases for three or four professional staff to share, smaller spaces 
that required walking through other offices to enter, and workstations 
in hallways and open common areas. We also had fewer workstations than 
needed for our authorized staffing. It became necessary to find 
creative solutions to accommodate current staff and recruit high-
quality staff from an increasingly competitive market. By redesigning 
our current space and installing modular wall and furniture systems, we 
have been able to make better use of the interior spaces that were 
originally designed for a much larger support staff. In this 
renovation, we have also been able to absorb additional FTEs without 
requesting additional space.
    Question. How much has CBO spent on space improvements?
    Response. In fiscal year 2000, we obligated $86,211 for movable 
modular wall systems and $23,315 for modular furniture, and in fiscal 
year 2001, we obligated $159,143 for modular wall systems and $181,894 
for modular furniture.
    Question. What are the cost estimates and time frame required for 
completion of the program?
    Response. We estimate that total spending on wall systems will be 
approximately $137,000 and on modular furniture, approximately $77,000 
in fiscal year 2002. In fiscal year 2003, we expect to complete the 
renovation, spending $95,000 on wall systems and $67,000 on modular 
furniture.

                            BUDGET PROPOSAL

    Mr. Taylor. The President has proposed a government-wide 
initiative to transfer accountability for accruing retirement 
benefits and post-retirement health benefits costs from the 
Office of Personnel Management to individual agencies. The 
costs to the Legislative Branch this fiscal year, excluding the 
Senate, is $112 million. Do you have any observations or 
recommendations regarding this proposal.
    Mr. Crippen. Mr. Chairman, we have been asked by a number 
of committees to look at the proposal, analyze not only its 
costs but the appropriateness of this kind of accounting for 
this purpose. We are within days, I think, of issuing that 
report. And I will certainly, both in writing and otherwise, 
report back to you the conclusions we have reached.

                       Visiting scholars' program

    Mr. Taylor. You are requesting four additional FTEs and 
$455,000 to expand your visiting scholars' program. What is the 
current number of FTEs allocated to this program?
    Mr. Crippen. Mr. Chairman, over the course of the years, we 
have used one or two FTEs a year roughly for visiting scholars. 
What I would like to accomplish before I leave, frankly, is to 
have a more permanent visiting scholar program--which would be 
nationally prominent--in which we could solicit folks to come 
join us for a period of time. We have found it to be extremely 
valuable to get folks in for a limited period of time to give 
us new ideas, new criticism, new work; and many of the best 
minds, when it comes to public policy and economics, are 
tenured professors who have other careers they have been 
unwilling to give up to become full-time permanent employees of 
the Federal Government. So this allows a way to invite them on 
a sabbatical or for some other term to come help us. And our 
request this year includes making that a formal program for 
which we would have the designated slots and solicit requests 
for scholars to come join us for a year or so.
    Mr. Taylor. What is the time period, in which each 
individual participates in the program?
    Mr. Crippen. Just offhand, I can tell you we have had 
people there as little as three months (and we will have one 
again this summer) and as long as 18. But my guess is that most 
of the time, the period would be 12 months or less. Summers are 
easier for these folks who are in academia. But 12 months.
    Mr. Taylor. Are they eligible for any personal benefits?
    Mr. Crippen. Many of them, if they come from other 
Government institutions, could continue to receive benefits 
from their primary employer. But anyone who is on our payroll 
for over a year would otherwise automatically get full 
benefits.

                 RECRUITMENT BONUSES AND AWARDS PROGRAM

    Mr. Taylor. In your recruitment bonus program, you are 
asking, as part of your goals to strengthen that program. You 
would like to expand your awards program and the utilization of 
recruitment bonuses. What guidelines or policies determine 
whether an individual receives a recruitment bonus?
    Mr. Crippen. Largely, Mr. Chairman, we only offer 
recruitment bonuses in areas that we have had a very difficult 
time filling. It may have been a specific slot for which we 
have made a number of offers or an area like health care, where 
resources are very short and in much demand. So the criterion 
in general is use of recruitment bonuses only in those places 
where we have had difficulty finding people in the past. We 
compete just in Washington with the Federal Reserve and the 
World Bank, both of whom pay significantly more than we do. And 
sometimes a few thousand dollars in cash makes a difference to 
a newly minted Ph.D.--to either move or start a new life in 
Washington.
    Mr. Taylor. I have some questions I will submit to be 
asnwered for the record regarding this issue.
    [The questions and responses follow:]

                 Recruitment Bonuses and Awards Program

    Question. What is the dollar range of the bonuses?
    Response. Given our current bonus cap, we have generally attempted 
to keep bonuses as small as possible, with a target range of $3,000 to 
$4,000. Thus far in fiscal year 2002, the range has been from a low of 
$2,000 to a high of $5,000, averaging approximately $3,580.
    Question. How many have you authorized to date?
    Response. From the inception in fiscal year 2000 through April 
2002, we awarded 19 recruitment bonuses.
    Question. Do you have a retention bonus program?
    Response. We do not have a retention bonus plan. However, our 
system of rewarding strong performance with merit pay and performance 
bonuses adds to our ability to retain our most talented staff.
    You state that one-third of the staff was recognized in fiscal year 
2001 under the awards program. These awards were given to outstanding 
performers.
    Question. What was the amount of the average award?
    Response. CBO has three types of performance awards. Star Awards 
are spot awards given for strong performance on a specific project. 
Director's Awards are given annually at the CBO anniversary celebration 
in recognition of exceptional achievement in that year or for sustained 
outstanding performance. Management Leadership Awards are the CBO 
analogue to SES bonuses. In fiscal year 2001, the average for all of 
these awards was $1,924.
    Question. What are the lowest and highest amounts that any one 
individual could receive?
    Response. In fiscal year 2001, the lowest amount was $200 for a 
Star Award and the highest was $8,000 for a Management Leadership 
Award.

                       ADMINISTRATIVE PROVISIONS

    Mr. Taylor. You have requested two administrative 
provisions. One provides for the ability to detail CBO 
employees, and the other provides authority to enter into 
procurements without advertising. To whom would your employees 
be detailed and what would be gained as a result of these 
details?
    Mr. Crippen.  First, Mr. Chairman, while the authority 
would be broader, Federal agencies are certainly the first 
place that we would like people to spend some time. We rely now 
on agencies for a lot of data and some analysis, many in the 
executive branch, but we do not have experience in all of those 
agencies and how they operate.
    Secondly, institutions of higher education; some of our 
folks are more academic-oriented. We have 74 Ph.D.s, and going 
back to an institution or work with another professor would be 
the second highest priority we would have.
    Mr. Taylor. Mr. Moran, do you have questions?

                  RECRUITMENT AND RETENTION CAPABILITY

    Mr. Moran. Yes. Thank you, Mr. Chairman. I serve on the 
Budget Committee. Mr. Crippen knows, we call on CBO all the 
time, Republican and Democrat alike. He has been 
extraordinarily helpful. I do not know how he does all he does 
with the limited resources he has to draw upon. I am very much 
concerned over the fact that CBO has had trouble in competing 
for the kinds of top-flight financial economists, the health 
analysts, the budget people that you need to give us the best 
information. So I would like for you to elaborate a little bit 
more on your recruitment and retention capability, because I 
know you are competing against institutions like the World Bank 
and the Federal Reserve. That is the quality level that you 
need and that we demand, and yet the others seem to be paying 
more. The chairman mentioned a visiting scholar program and 
alluded to the performance and bonus awards. What else can we 
do to assure that CBO gets the best top-flight talent?
    Mr. Crippen. I appreciate that question, Mr. Moran. When I 
started this a little over three years ago, we were down about 
20 from our authorized strength and funded level, which for 200 
people is a fair number. So one of the first things that Barry 
and I did was form a recruitment program. We hired someone to 
help us. We never had a formal recruitment program until the 
late 1990s, but having one has paid off in spades, frankly. We 
have a terrific woman who put it together. We are now going to 
more institutions and getting a more diverse workforce because 
of that. In the past, we tended to recruit where everybody came 
from. And so a guy who was from Harvard went back to Harvard, 
and we recruited people that looked like him. We have expanded 
that considerably to good end for both the workforce and 
diversity. So at the moment, I can tell you we are staffed up. 
We still have a couple of problem areas in getting Ph.D.s, as 
you cited: specifically, financial economics and health care. 
We are employing things other than trying to put more money 
into filling such positions because obviously we are limited. 
We could not compete with the World Bank on dollars alone. The 
motivation has to be the quality of the work, the excitement of 
being involved with the public policy of the Congress close up. 
And on that, we are doing a better job of selling people. Part 
of that is going out and recruiting early--not early in the 
year but early in the cycle of Ph.D. development. If you get 
people who are interested in public policy and give them an 
ability to come to Washington as an intern maybe before they 
have been a Ph.D. (or their professor has been with us for a 
year doing something), it gets them interested in the kinds of 
issues we deal with, and it is growing the crop of people to be 
interested in what we do. And I think that more powerful than 
money, ultimately, is the quality of the work. Incentives are 
very important for individuals in certain cases, and we have 
asked for a slight increase in order to provide them. But at 
the moment, I think it is not just a matter of dollars. We have 
to show we are a better place to work than the Fed. Some days 
that is hard to do, but others, it is pretty easy to do.
    Mr. Moran. Thank you very much, Mr. Crippen. As far as I am 
concerned, you are doing a very good job, and I hear that from 
both Republicans and Democrats alike. That is the real test.
    Mr. Crippen. I know it is not unanimous.
    Mr. Moran. It may not be unanimous, but the people I 
respect the most believe so. So I will not have any further 
questions. Thank you. I have some questions that I will submit 
to be answered for the record.
    [The questions and responses follow:]

          Quesions Submitted for the Record by James P. Moran

    Question. CBO has found it increasingly difficult to hire needed 
experts and prohibitively expensive to use consultants or contracts for 
some major tasks or longer term assignments. Most of the needed 
experts--financial economists, health economists, etc.--are in high 
demand by the private sector and other prestigious government agencies, 
Federal Reserve, World Bank, etc. Could you elaborate on how your 
visiting scholars program works. How would this program change if 
additional resources were available?
    Response. CBO has an extremely broad mission, which requires it to 
have experts on virtually every government program and endeavor, as 
well as technical experts in finance, econometrics, tax analysis, 
macroeconomics, health, and many other areas. There are some areas that 
are so specialized and some in which professionals are in such high 
demand, that CBO can neither attract nor afford to retain those experts 
on a permanent basis. We fill these needs in a variety of ways, 
including hiring consultants; contracting out highly specialized tasks; 
aggressively recruiting such experts; and, from time to time, bringing 
on board academic experts for limited term appointments.
    Since 1999, we have experimented with limited term appointments of 
midcareer scholars. We wish to expand this program to include up to 
four scholars concurrently, one for each of its most technical 
divisions. To do so, we are requesting an increase in our staff ceiling 
from 232 to 236. Scholars, who stay from 12 to 18 months, bring a high 
degree of specialization and cutting-edge skills. Although such 
specialists may be unwilling to permanently relocate to Washington, 
they are often interested in temporary assignments at CBO. Two recent 
scholars brought particularly useful econometric modeling and financial 
analysis expertise, which was invaluable in our most difficult modeling 
projects, including such tasks as estimating the benefits provided by 
housing GSEs and improving our economic forecasting.
    Question. I understand that you have some authority to set aside 1 
percent from your salaries and expenses account ($190,000) for 
performance and recruitment bonuses: one-quarter ($47,500) for 
recruitment and three-quarters for performance awards. Would you 
support increasing the amount that could be set aside for this program? 
Should the one-quarter/three-quarters limitation be applied?
    Response. Yes, we would support an increase in this authority and 
would ask that the current cap on the recruitment bonuses be 
eliminated. The increase we are asking for (+0.25 percent of our pay 
base) would add approximately $55,000 to the overall bonus fund, and we 
would reserve as much of that increase as necessary for recruitment 
bonuses. This authority has been limited to 1 percent of payroll since 
its inception and is used to provide both recruitment incentives and a 
variety of performance awards. The recruitment bonuses were further 
limited to one-quarter of the 1 percent allocated, providing $47,000 in 
fiscal year 2001 for that purpose. This restriction meant that most of 
the bonuses given were small (a few thousand dollars), were used very 
sparingly, and were targeted almost exclusively to specialists who are 
difficult to attract. Nonetheless, we used the entire budget last year 
and could have used more, particularly for new Ph.D.s and health 
specialists, for whom our starting salaries are not always competitive.
    Question. How much flexibility do other legislative branch agencies 
have to use for their bonus programs? How about executive branch 
agencies?
    Response. The Library of Congress (LoC), the Congressional Research 
Service (CRS), and the General Accounting Office (GAO) generally have 
and use all the same authorities to give performance and recruitment 
bonuses as executive branch agencies.
    Executive branch agencies may pay recruitment bonuses up to 25 
percent of base pay. CBO used nearly all of the amount allotted for 
recruitment bonuses in fiscal year 2001. The amount provided for 10 
bonuses averaged less than 6.5 percent of the starting salaries. For 
example, in hiring a health analyst at a base pay of $70,000, the 
executive branch could pay up to $17,500 in recruitment bonus, whereas 
the highest recruitment bonus we have paid to a health analyst at CBO 
is $8,000.
    Providing performance incentive bonuses is also an area in which 
CBO lags behind the executive branch. Performance awards for non-SES 
staff in the executive branch may range up to 10 or 20 percent of 
salary. The largest nonmanagement award at CBO last year was $2,500, 
far less than 10 percent of the average salary at CBO. SES bonuses in 
the executive branch may range from 5 to 20 percent of base pay and the 
average SES bonus in 1999 (the most recent year for which data were 
available) was $9,844. President Bush awards can be as much 35 percent 
of base pay. CBO's Management Leadership Awards in fiscal year 2001 and 
fiscal year 2000 averaged approximately 6 percent of the average salary 
for managers.
    Question. CBO has been accused of being too insular and too guarded 
against outside perspectives and ideas. While I would object to any 
cozy relationship being established, how do you strike a balance 
between being influenced by outside groups that have a particular 
agenda, e.g., dynamic scoring, etc., and risking familiarity or an 
understanding of new perspectives in budget analysis?
    Response. CBO has always believed that it can provide objective 
budgetary analysis and still maintain a strong, two-way communication 
with the analytical and policy community in which it operates. Our 
staff are encouraged to attend professional meetings where they present 
papers, sit on panels, and interact with their colleagues. Attending 
these meetings simultaneously exposes CBO's methods to outside experts 
and our staff to the latest research in their fields.
    Internally, the CBO review process is rigorous, focuses strongly on 
the clarity and rigor of the analysis, and strives to present all 
points of view on an issue. Moreover, CBO reports and studies are often 
submitted to outside experts for peer review. In addition to meetings 
of our Panel of Economic Advisers, which occur twice a year to review 
our major economic and budget projections, we regularly hold forums on 
topics that present special analytical challenges, such as long-term 
modeling, prescription drug pricing, and high-cost Medicare patients.
    To provide more transparency, all assumptions are presented clearly 
in reports and studies. Since our publications are distributed to a 
wide spectrum of technical experts, assumptions and analyses are open 
to critique. And we expect that by increasing our use of visiting 
scholars, we will bring on board the skills and expertise needed to 
keep our methodologies up to date.

                            THE WORK OF CBO

    Mr. Taylor. Mr. Hoyer.
     Mr. Hoyer. Mr. Chairman, I am inclined to attack Mr. 
Crippen vociferously and vigorously because I think it may help 
him. However, I am constrained, like Mr. Moran, to say I think 
Mr. Crippen has done an outstanding job for the Congress and 
the American people. The questions I was going to ask were 
essentially along the lines that you asked, and Mr. Moran, in 
terms of his recruitment and retention of the kind of people we 
need to give us the soundest advice. I think that the major 
problem confronting the country when you get beyond the specter 
of terrorism and homeland and national security is the fiscal 
posture of this Nation and the management of the Nation's 
finances. I would tell you that I believe we are on a path that 
will put this country in a critically bad position 10 years 
from now if we do not divert from it. We have differences on 
this, and it is not his job to argue the policy, but to argue 
what are the ramifications of our policy. But if we do not have 
honest advice in dealing with that issue, our country is going 
to be in trouble.
    I think Mr. Crippen and his folks have given their honest 
analysis and took on what the result of what policies are and 
what is the present economic status, to the extent that we can 
foresee for the future. I think that has been very important 
and I thank you, Dan, for that. Your service will be 
appreciated by most, and we wish you the very best in the 
coming year as you continue your duties, and in the future as 
well.
    Mr. Crippen. Thank you, Mr. Hoyer.
    Mr. Hoyer. I have a question I will submit to be answered 
for the record.
    [The question and response follow:]

          Question Submitted for the Record by Steny H. Hoyer

    Question. You are requesting an increase in the limits on your 
recruitment and performance awards that were originally established 
when you received authority to make such awards. Please elaborate on 
why you think this change is necessary and the impact the proposed 
change would have on your budget.
    Response. The requested increase in authorization and funding will 
allow us to be more competitive in compensation practices, therefore 
improving CBO's recruitment and retention of talented staff. In 
particular, it will enable CBO to more readily compete with executive 
branch agencies, where recruitment bonuses can be as high as 25 percent 
of base pay. CBO used nearly all of the amount allotted for recruitment 
bonuses in fiscal year 2001. The amount provided for 10 bonuses 
averaged less than 6.5 percent of the starting salaries.
    To increase CBO's authority to pay recruitment bonuses without 
adding to the total funding available would detract from our ability to 
reward strong staff with incentive bonuses, thereby having an adverse 
impact on our retention and staffing overall. Providing incentive 
bonuses is an area in which CBO also lags behind the executive branch. 
The lack of additional funding would make these bonuses unsustainable 
even at the current less-than-competitive rates.
    Increasing the bonus limit to 1.25 percent and ending the earmark 
for recruitment awards would give CBO an additional $55,000--for a 
total bonus budget of $272,000--and allow it to spend more of that 
total on recruitment.

                         CONCLUSION OF HEARINGS

    Mr. Taylor. Thank you, Mr. Crippen, and we appreciate your 
service and your report here today. The committee stands in 
recess, subject to the call of the Chair.


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2003

                              ----------                              

                                         Wednesday, April 24, 2002.

                        HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. JAY EAGEN, CHIEF ADMINISTRATIVE OFFICER
HON. JEFF TRANDAHL, CLERK OF THE HOUSE
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS
STEVEN McNAMARA, INSPECTOR GENERAL
GERALDINE GENNET, GENERAL COUNSEL
JOHN MILLER, LAW REVISION COUNSEL
M. POPE BARROW, LEGISLATIVE COUNSEL
DR. JOHN EISOLD, ATTENDING PHYSICIAN

               Opening Statement--Fiscal Year 2003 Budget

    Mr. Taylor. Good morning. The Subcommittee on the 
Legislative Branch will come to order. Today we begin our 
hearings on the budget requests of the various agencies of the 
legislative branch on their fiscal year 2003 budgets. It is our 
hope to complete these hearings, the subcommittee markup, full 
committee markup and floor action by the end of June. Our 
Chairman has said he hopes to have all these subcommittees 
completed before we break for the 4th of July.
    The total appropriation request that will be considered by 
the subcommittee is $2.6 billion. This is $112 million less 
than the amount reflected in the President's budget request. In 
accordance with committee-wide policy, the amounts requested 
for accruing the cost of retirement and health benefits has 
been removed from each individual budget request, therefore the 
amended increase is $108.8 million, or 4.3 percent, above the 
fiscal year 2002 enacted level.
    In accordance with comity between the two Houses we will 
not consider the budget of the other body. The Senate will 
consider its own request. If the Senate items are included, the 
total legislative branch request is going to be somewhere in 
the $3.4 billion range.
    With that in mind, I would like to welcome Mr. LaHood, who 
is with us today, and we will have other members coming in as 
we continue the hearing.
    Mr. Hoyer, we just opened the committee hearings. Do you 
have a comment or something to say at this time?
    Mr. Hoyer. No.


                        HOUSE OF REPRESENTATIVES


    Mr. Taylor. All right. We will move forward. We begin our 
hearings this morning with the budget request for the House of 
Representatives. The Chief Administrative Officer, assisted by 
the Office of Finance, submits the House budget each year to 
the Office of Management and Budget. That material is then 
included in the President's budget. The House budget request 
totals $949.6 million, which is $29.8 million, or about 3.2 
percent over the fiscal year 2002 enacted level.
    This request provides funding for the operations of 
members' offices, committees, leadership, and the 
administrative operations of the House. We want to welcome the 
officers of the House today who are with us. Jeff Trandahl, the 
Clerk of the House, Wilson Livingood, the Sergeant at Arms, and 
Jay Eagen, the Chief Administrative Officer. We also have 
Geraldine Gennet, the House General Counsel, John Miller, the 
House Law Revision Counsel, M. Pope Barrow, the House 
Legislative Counsel, Steve McNamara, the House Inspector 
General, and Dr. John Eisold, the Attending Physician.
    Before we proceed with our line of questioning, I would 
like to thank the officers of the House for the highly 
professional manner in which the relocation of the House 
operations was completed this past year. You are to be 
commended on the fine job you did to assure the continued 
operations of the House of Representatives. On behalf of all 
Members of the House, I would like to thank you and ask that 
you pass the word on to the entire staff.
    Mr. Moran has joined us. Would you like to make a comment 
before we start?
    Mr. Moran. No, go ahead.

                           Opening Statement

    Mr. Taylor. I would like to have the officers recognized 
and we will start with Jeff Trandahl. If you would like to make 
any comments please do so. Any items that you do not wish to 
comment on will be submitted for the record.
    Mr. Trandahl. We were told to keep our comments brief here 
this morning, so I guess I just want to start and say that what 
we greatly appreciate in our office--and I want to say the 
other officers--is the support of this subcommittee, especially 
during the last 6 months here, which were fairly difficult and 
challenging-times that none of us anticipated. And I want to 
say that I feel honored and privileged not only to have worked 
with the organization that I work with and its people, but I 
want to recognize their extraordinary efforts. At the same time 
I want to commend the subcommittee for stepping up and being of 
incredible support to us during a difficult time. I want to say 
I am very proud and honored to work with the gentlemen that I 
work with sitting next to me because we really pulled together 
and the team that was formed on a very quick, short emergency 
situation definitely performed well. So thank you for letting 
us appear today.
    Mr. Taylor. Thank you. Mr. Eagen, would you like to make a 
comment?
    Mr. Eagen. No comments, Mr. Chairman. Our statement has 
been submitted for the record.
    Mr. Taylor. Thank you, Mr. Eagen. Mr. Livingood, any 
comments you would like to make?
    Mr. Livingood. My comments have been submitted for the 
record, sir, but I would just like to thank the committee and I 
would like to thank all of Capitol Hill, the Members, the 
staff, for their commitment, their help and their caring since 
9/11 and the anthrax incident on October 15th. We could not 
have done the job that we have--we, our office and the Capitol 
Police--without the commitment and the caring from this 
committee and from other committees, and from Members and 
staff, and I feel very strongly about that, sir, and I feel it 
an honor and a pleasure to serve all of them.
    [The prepared statements of the witnesses follow:]
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      OVERVIEW OF MAIL OPERATIONS

    Mr. Taylor. Thank you. Thank all of you gentlemen. This has 
been a very trying time. Of course it is not over. We are in 
the middle of it. All you have to do is step outside and see 
that.
    A lot of things are going to be done, changes to be made. 
We will have a closed hearing later to examine again some of 
the things that we are trying to do to make sure that we are 
adequately funded and moving in the wisest direction that we 
can contemplate. But I do thank all of you. It has been a tough 
time and fortunately we have not sustained any real loss at the 
Capitol, and that has been in large measure to your fine work.
    We will proceed directly into our questions. Mr. Eagen, the 
events of October 15th have caused significant changes in the 
House mail operations. What have the changes been and what are 
your long range plans?
    Mr. Eagen. Thank you, Mr. Chairman. I think it would be 
beneficial if I put the changes in context by going back to 
last fall and quickly reviewing what transpired, because what 
has happened since then is directly impacted by last fall.
    You recall that October 15th, a Monday, was the day that 
the letter was discovered in Senator Daschle's office and the 
anthrax contamination was first confirmed. On October 17th, the 
leadership of the House made a decision to evacuate all the 
House office buildings. That was a Wednesday. The prior Friday, 
the House had actually started to quarantine its mail after 
having put in place a new sampling system to check for biologic 
intrusions into the House mail stream.
    On the 18th, the day after the evacuation, the first House 
side contamination was found at the P Street offsite X-ray 
facility. And on the 21st, contamination of anthrax was 
confirmed in the Ford mailroom in the Ford Building.
    Over the next few weeks, as the environmental assessment 
team conducted its work, additional contamination was found in 
the Longworth Building and again in the Ford Building, on the 
first floor.
    The impact of all those contamination confirmations was 
that the Ford mailroom was shut down and a decision has been 
made to permanently keep it closed. It is not appropriate to 
have that kind of facility in an office building where about 
1,000 people work and where the House has its child care 
facility.
    The House also lost its X-ray capabilities, as did the 
Senate, at P Street. In sum, the House lost all of its mail 
processing capabilities in those couple of weeks last fall.
    In addition, the Postal Service lost the Brentwood 
facility, the location for the government mail processing 
capability for the Metropolitan Washington Area. So what you 
had happen in a couple of weeks time was the virtual 
elimination of all the automation and facilities that served 
not only the House and the Senate, but basically the government 
sector as well.

                            STERILIZED MAIL

    The macro impact was that the Postal Service and the House 
postal operations went from having the responsibility to 
deliver mail in a speedy and accurate manner to not only trying 
to deliver mail in a speedy and accurate manner, but also 
deliver sanitized or sterilized mail. It was a new business 
mission that did not exist and never had been tried before.
    We also got into the business of actually attempting to 
store mail. For those weeks when the mail operation was shut 
down, both within the Postal Service and here on the House 
campus, our facilities and systems weren't designed to store 
the mail, they were designed to push the mail through as 
quickly as possible. Now you had the Postal Service attempting 
to take trailer upon trailer upon trailer of mail and catalog 
them and keep them in storage and figure out how to deliver 
them at a later date.
    The anthrax threats and other biological threats led to a 
change in the whole system. On the front end, the White House 
put together a task force through the Office of Science and 
Technology Policy that recommended and verified irradiation, e-
beamed irradiation, as a sterilization method of the mail. That 
is being done by the Postal Service in two facilities, one in 
Lima, Ohio, and another one in New Jersey. That is now 
shrinking down to one facility in New Jersey.
    Here on the House campus, on the back end, we are doing 
additional verification sampling to ensure that the 
sterilization done by the Postal Service has been effective. We 
have brought the mail back onto the campus in stages. It took 
the Postal Service and the White House some time to determine 
that irradiation was in fact the proper solution and they did 
not indicate that they would be ready to use that until late 
November.
    We did briefings for Members' staff in late November and 
the mail flow actually started in early December. Initially we 
were receiving simply first class mail and what are called 
flats, mail items of this size or smaller.
    In January, we went into phase two through a proposal to 
start receiving national courier deliveries. By ``national 
couriers,'' I mean organizations like UPS and FedEx. In March, 
a third phase was put into effect to start receiving Postal 
Service parcels and third class mail. All of those have 
different associated backlogs associated with them, depending 
on how long the mail was shut off and what it requires to 
undertake processing through the new systems.
    What we are seeing today is that the Postal Service was 
forecasting a 7-day turnaround for first class mail basically 
from the date of postmark. In reality it is as much as 7 days 
to 15 days on the front end. On the back end, once we receive 
the mail from the Postal Service, we have been told that it 
will take about 4 days for the sampling at the time to take 
place. In reality, that is often taking longer when you factor 
in weekend time when the labs are not open and constructing the 
testing that the House needs to confirm the sterilization of 
the mail.

                        DIGITIZATION OF THE MAIL

    For the future, we are investigating a concept called 
digitization of the mail, and the hope is that we would be 
putting in place a pilot very soon this year to test out 
whether this concept is a viable solution for the House. 
Basically it would involve that off campus the mail would be 
received, opened, a digital picture of the mail would be taken, 
and then the mail would be transmitted to offices 
electronically, so that for the most part the offices would 
never actually get a hard copy of the mail.
    Now there is obviously an issue involved in that. We would 
have to have authority from the offices to open their mail for 
them. There would have to be a separate mail stream for the 
hard kinds of items that the offices need to receive that would 
still have to be sterilized.
    There are still many challenges facing us because we feel 
that digitization may have a solution for the House not only on 
the security side and sterilization side, but also economies 
for offices that if digitization can be hooked into the mail 
systems within the offices themselves, the correspondence 
management systems, you would actually get your data directly 
into your system and be able to respond to your mail more 
quickly.
    For the long run, I am often asked the question when are we 
going to get back to normal, and I always respond and say we 
are not going to get ``back'' to normal. We have to move 
forward to normal. Last fall changed things irreparably. That 
is almost a cliche now, and we are not going to be able to go 
back to exactly the way things were last fall, and the 
challenge is how do we design them to move forward to speedy 
and accurate mail but also safe mail for all the House 
customers.

                   IRRADIATED MAIL/MEDICAL COMPLAINTS

    Mr. Taylor. Dr. Eisold, you have done a fine job, not only 
keeping me healthy these last number of years, but you did a 
fine job in attacking this problem. Could you make a comment 
regarding the Postal Service irradiation of mail?
    Mr. Moran. Come up to the witness table and use a 
microphone.
    Mr. Taylor. Thank you.
    Dr. Eisold. Although we have nicknamed the irradiated mail, 
``fried mail,'' we have taken it very seriously from the start. 
When people started to have complaints, we developed a 
comprehensive screening protocol. We put it out to all of our 
nurses and our physicians and set up a mechanism whereby 
anybody who had a complaint or thought they had a complaint 
that could be related to the mail could come to us and be 
evaluated medically. We could get an epidemiologic history and 
try to figure out what the cause of the mail complaints were.
    As we marched along in that process, NIOSH also got 
involved in doing a scientific study to see if there were any 
toxins or substances that were uncommonly seen or had high 
levels that could be detrimental to a person's health. That 
study went on in parallel with us.
    Another thing that went along in parallel is that, although 
Mr. Eagen did not go into the details, there were some changes 
in the degree to which the mail was irradiated and how it was 
handled after it was irradiated. That kicked into place in 
January and has been modified since that time, which is 
probably why--and then I will get into some of the specifics--
when we tallied all of our numbers, they peaked in late January 
and then gradually fell down to a point now where we might get 
one or two complaints a week, which quite frankly may be just 
background noise and has nothing to do with the mail.
    Clinically speaking, what was clear was that the complaints 
that people were having were absolutely legitimate and that 
some people had red eyes and some people had irritation on 
their hands. And as we put this together, we concluded that the 
cause of the peoples' complaints was simply that some people 
are allergic to by-products of the irradiation on the plastic, 
dust etc. People were allergic to certain irritants that they 
had on their hands or fumes that got in their eyes.
    So we found it to be an allergic phenomenon and not a 
significant medical problem. The complaints that we saw mainly 
had to do with skin irritation and eye irritation. That clearly 
has fallen off tremendously now that we have cleaner mail. When 
I say cleaner mail, it is one thing to irradiate mail that is 3 
months old and full of dust than to irradiate a piece of mail 
that is fairly new in the system. It is also different if you 
ventilate the mail in a wide open area after it has been 
irradiated to get some of these toxins to flow away. So 
procedurally a lot of things have happened.

                           MEDICAL CONCLUSION

    Again, my conclusions were that the symptoms were real but 
they were more of an allergic or contact dermatitis type 
phenomenon and not a serious medical problem. That may be borne 
out by the NIOSH study, which as I said has been going in 
parallel and has just come out. They interviewed almost 400 
people. They sampled many spots throughout the Capitol and 
their results really did not find anything that would qualify 
as an environmental contaminant that could account for any 
expectation of long-term medical consequences.
    So I think that it is a good news/bad news story. It was 
bad news that we had some symptoms. It is good news that as we 
looked at the whole situation, it has come back towards 
baseline, and it appears that the attention to the problems 
have helped. Certainly the plans for the future that Mr. Eagen 
talks about should even make this less of a problem.
    Mr. Taylor. Well, it speaks well for all the staff, your 
office and the entire group of you gathered here. I imagine 
this is the first urban attack of this nature and you had to 
learn a lot of things that you did not know, and you have 
learned a great deal about it and you have handled it very 
well.
    I don't know where else in the world you would go for 
experience because this was probably the first major urban use 
of that sort of biological disease.

                    OFFICE OF EMERGENCY PREPAREDNESS

    The Office of Emergency Preparedness has been established 
under the Speaker and Minority Leader of the House. Mr. 
Trandahl, as Chairman of the board, which oversees this office, 
would you bring us up to date on its current status and what 
its responsibilities will be?
    Mr. Trandahl. Sure. As the subcommittee is aware, during 
the supplemental last winter and December, language was 
included to create an Office of Emergency Preparedness for the 
House. It reports and operates beneath the Speaker and the 
Minority Leader. Through the winter we advertised the creation 
of a Director for that office. Seventy-four candidates were 
identified. More than 20 people were interviewed in the process 
and the Speaker and the Minority Leader's office selected a 
candidate last month. I am pleased to say that the Director of 
that office began working as of this Monday.
    As far as the responsibilities of that Office go, they are 
basically put in place to help the officers coordinate our own 
planning and processes. We have in place what we call the HORT, 
the House Officer Recovery Team, along with a large manual that 
goes with it. It is to deal with fires, to broken pipes, to 
simple issues--to now much more significant issues as we 
learned last fall.
    The office itself is in place. We are looking forward to 
doing some additional hiring for that office in the not too 
distant future and get them under way in terms of updating 
procedures and processes for the House.
    Mr. Taylor. Will all the funding requirements related to 
emergency preparedness, other than security, be coordinated and 
verified by this office?
    Mr. Trandahl. That is probably the most significant 
function for this office, to help us to identify weaknesses 
and, more importantly, help us to improve our coordination. We 
have a lot of good people. That is a great asset here in the 
House. There will be things that we will need to add in, but as 
we discovered through the two incidents last fall, it is really 
a matter of pulling together people and coordinating people as 
quickly as possible to respond to situations. So yes.

                            CURATORIAL STAFF

    Mr. Taylor. Thank you. Jeff, what is the status of your 
office's activities relative to creating a historical and 
curatorial staff in the Office of the Clerk?
    Mr. Trandahl. As I discussed at length last time with this 
subcommittee, I feel very strongly personally, that the House 
has been underrepresented and underserved when it comes to 
historical and curatorial activities here in the Capitol and on 
the House side of the complex. Ms. Kaptur, in particular, has 
raised that time and time again in terms of concern about the 
House collection, identifying inventory, preserving, and 
maintaining it.
    Fortunately, with the support of this subcommittee, and the 
SubCommittee on House Administration, we have now been able to 
go from basically a staff of three people to now a staff of 
eight. We have just added the first curator to the House, 
compared to nine on the Senate side, and we are hoping to add 
some more resources here again this year. As well, we have just 
proposed to the Committee on House Administration to separate 
that office out and create an Office of History and 
Preservation, which would take on the curatorial, archiving, 
and historical functions for the House.

                         HISTORICAL INFORMATION

    We are now making great progress. We are in the midst of 
doing several different projects, whether it is inventorying 
actual items in the House collection in the Capitol, to trying 
to work now with the Senate. The Senate has already begun a 
project where they have identified all the historical items in 
the Senate half of the Capitol building. The interesting part 
of their project is we found a lot of things that were 
purchased and brought into the House collection that somehow 
found their way to migrate to the Senate. Hopefully we will be 
able to engage in conversations and maybe bring a few of those 
things back to the House.
    Mr. Taylor. Are we working to coordinate both in getting 
those items back as well as with the Senate Sergeant at Arms 
and staff to coordinate any tours that we give? Whenever we 
take guests into the Capitol, they do not understand the break 
between the Senate, the House, the old Senate Chamber, and the 
old Supreme Court, which formerly was the old Senate Chamber in 
the beginning. We like to take people through that, as well as 
the things in the House. Can we coordinate things so that it is 
much easier to do? Can we contract for one person perhaps, in 
the House side, or hire a curator or someone so that we get the 
ability to go throughout the Capitol complex at one time rather 
than having to contact people to open, especially after hours, 
which is the best time to tour.
    Mr. Trandahl. Mr. Taylor, that is a big focus of this 
staff, to help not only do research back and to determine the 
history, but to help document and start creating publications, 
signage and information for people, so when you are giving a 
tour, not only do you know the location of items but you also 
know accurately the history of the items.
    The Architect of the Capitol will be appearing later in 
front of the subcommittee and can talk much more extensively 
about the Capitol Visitor Center. But a lot of our activities 
will help complement what we are trying to do at the Visitor 
Center with the tours to enhance the visitor experience and 
giving more information relative to many items in this 
building--items that probably many of you in this room aren't 
familiar with, or even exist, and their history.
    Mr. Taylor. Probably not. I appreciate what is being done 
and it is one of the reasons that I supported the Visitor 
Center in the early phases, because it will give an opportunity 
to students, and others, to come in before they come to the 
item, rather than just to walk through and assume they are 
going to get by osmosis the knowledge when they walk by an 
item.
    But it is going to be some time before we do that, and 
perhaps we can coordinate something for the Members that are 
still giving tours.
    Mr. Trandahl. Okay, we will work on that.
    Mr. Taylor. I appreciate that. And about getting our items 
back from the Senate, will your curator be working with the 
Senate to coordinate in that area?
    Mr. Trandahl. Yes, the interesting part about the Capitol 
here is there are three separate collections of historical 
items. There is a House collection, a Senate collection and 
then a joint collection that the Architect oversees. So we are 
working with all three groups of people to basically coordinate 
and identify and inventory all the items.

                        QUESTIONS FOR THE RECORD

    Mr. Taylor. Thank you. I would like to continue with you, 
but let me break at this moment and ask if Jim has any 
questions before we go further. Mr. Moran? Also I have some 
questions that I will submit at this time to be answered for 
the record.
    [The questions and responses follow:]

                      Financial Management System

    The CAO'S budget request is $99.9 million ($99,863,000). This is 
$9.3 million, or 8.6%, below the enacted level. The request includes 
$3.2 million for ``financial systems replacement.'' The House, as a 
member of the Legislative Branch Financial Managers Council, should be 
working alongside the other legislative branch agencies in an effort to 
share a common financial management system.
    Question. Is the House working with the Council (LBFMC) to achieve 
a common financial management system?
    Response. The CAO attends quarterly LBFMC meetings in which 
Legislative Branch entities share information on current efforts 
underway in their organizations to begin preparations for replacing 
their financial systems. The group has agreed that only systems meeting 
common Federal government functionality requirements, as defined and 
tested by the Joint Financial Management and Improvement Program 
(JFMIP), should be considered. Selecting one financial management 
system to meet all Legislative Branch entity requirements may be worth 
exploring, but compliance with JFMIP requirements will ensure the 
financial system selected by an entity contains the same basic core 
functionality, such as the U.S. Treasury Standard General Ledger 
(USSGL), that could enable common data to be extracted and consolidated 
for the Legislative Branch. Additionally, the CAO has included GAO and 
the LOC on its financial system replacement steering committee.
    Question. Have you selected a system?
    Response. No. The House is currently evaluating the results of a 
market analysis which indicates that viable vendor solutions are 
available that meet House functional requirements. One of the systems 
surveyed is being considered by other Legislative Branch entities. 
Should House stakeholders approve the CAO to proceed forward with an 
acquisition, various criteria such as acquisition cost, annual 
operating costs, ability to meet unique critical House requirements 
will be used in selecting a solution.
    Question. Does the House have such unique requirements that a 
common system could not be utilized?
    Response. The House does have certain unique requirements. For 
example funds are authorized on a Legislative Year for each Member and 
Committee for which there must be proper accounting. Such funds are 
appropriated on a fiscal year basis as well as 15 and 27 months for 
Committees.
    There is also a specific statute that has the appropriated funds 
canceled within a three-year period whereas with most other agencies, 
funds are available for a five-year period before funds cancel and must 
be returned to the U.S. Treasury.
    Question. What financial improvements will the new system provide?
    Response. The new system will improve and integrate financial and 
administrative support provided to House Members, Committees and other 
House entities. These entities will have real time access to their 
financial data available at their desktops. This means that a Member 
will know the status of their account during the year. The new system 
will be more user friendly and easier to navigate. The current 
financial system is an outdated mainframe based system whereas the new 
system will use new and advanced technologies that meet the House's 
needs and will consolidate aging subsidiary systems (legacy systems).
    Question. What is the estimate of the total cost of the system?
    Response. Cost outlays are estimated to be between $11.3 million 
and $14.8 million for the acquisition and implementation of the system 
and between $10.7 and $13.7 for 5 years of operational costs. This cost 
estimate is based on an analysis of information provided in the Market 
Analysis completed in March 2002 and currently under review. It is 
important to note that these estimates exclude any additional hardware 
and software or annual maintenance costs associated with backup 
capabilities. We do not own our current FFS system, but outsource with 
the Department of Interior (DOI), so this function is currently done by 
our vendor in Denver and is part of the overall annual contract. 
However, this function will become a house responsibility with the 
acquisition of a new system. It is best to estimate backup costs during 
the acquisition phase of a project.
    Question. What is your time frame for system implementation?
    Response. Assuming that an acquisition document is released by 
August 2003, implementation would occur during Fiscal Year 2006.
    Question. What will be the annual operating cost of the system?
    Response. The annual operating cost of the new financial system is 
estimated to be between $2.1 and $2.6 million. This estimate excludes 
any amount for backup capability as previously mentioned.
    Question. What backup will there be for system operations?
    Response. Currently, DOI, our contractor performs the back up 
function. Once the House implements its own financial system, the 
backup function will become a CAO responsibility and will be another 
consideration for the alternate data center.

                           Wide Area Network

    The CAO has requested $4.9 million for a ``Wide Area Network''.
    Question. Can you tell us about this project?
    Response. A Wide Area Network (WAN) is a geographically dispersed 
telecommunications network. The House's WAN project provides the House 
community with a highly reliable, fault tolerant, and high performing 
``highway'' to information services inside (e.g., House campus, Member 
Offices) and outside (e.g., Member district offices) of the House. Key 
areas within this project include:
    <bullet> Member to district office ``Flagship'' (frame relay/DSL) 
connections at 256K speeds
    <bullet> Monitoring and diagnostics for service issues and problems
    <bullet> Design, installation, maintenance, and documentation of 
the House's WAN (frame relay, private lines, Integrated Services 
Digital Network (ISDN), remote dial and broadband (Digital Subscriber 
Line (DSL), Virtual Private Network (VPN), cable)
    <bullet> Lifecycle replacements and/or upgrades for supporting 
hardware and software infrastructure
    <bullet> High speed access to the Internet through the House 
Intranet
    In fiscal year 2001, House Information Resources began the upgrade 
of Member Office Flagship connections to district offices from 56k to 
256k. This increase in connection speed allows Member Office staff to 
access information more quickly, therefore increasing opportunities for 
efficiency. As of mid April 2002, 192 district offices had been 
completed and the remaining district offices are slated for upgrade by 
the end of May 2002.
    Question. Will this be the total cost of the network?
    Response. No. The $4.9 million is in essence the annual sustainment 
cost associated with leasing and supporting data connections at 
anticipated speeds between the House campus and district offices and 
House business partners. If connection speeds remained relatively 
stable from one year to the next, we could expect our annual costs for 
the WAN to remain at or around $4.9 million. However, as Member Office 
requirements for faster data line connections increase between their 
Washington, D.C. and district offices, as well as expectations for 
faster and better connections to the Internet from the House network, 
the associated sustainment costs will probably increase to accommodate 
these higher levels of service.
    Question. What are the annual costs associated with the Network?
    Response. Practically the entire $4.9M is considered annual costs 
associated with the WAN. Specific sustainment (annual cost) items that 
comprise this amount include:

                                                               Thousands
    <bullet> 440 Flagship data lines (1 per MO)...............    $3,221
    <bullet> Data lines for Internet access...................       630
    <bullet> Infrastructure data lines........................       505
    <bullet> Lifecycle replacement of ``end of life'' routers.       150
    <bullet> Cisco hardware and software maintenance..........       166
    <bullet> Sustainment contractor support...................       150
    <bullet> As required equipment (maintenance/parts)........        82
                    --------------------------------------------------------------
                    ____________________________________________________

        Total (Non Personnel).................................     4,904

    As stated previously, as the requirement for faster data line 
connections increases, the annual costs associated with this project 
will also increase to address these increased service levels.

                            ADDITIONAL FTE'S
    The office of the CAO has requested an additional 36 FTE'S.
    Question. Where will the 36 additional staff for the CAO be 
deployed?
    Response. Additional staff for the CAO will be deployed in the 
House Information Resources (HIR) area and the Immediate Office of the 
CAO.
    Question. What will be the duties and responsibilities required of 
the additional staff?
    Response. The events of September and October 2001 have 
demonstrated the House's dependency on reliable information technology 
as it conducts business and Members staff communicate with each other 
during times of national or local crises. Immediately following the 
tragic events, the CAO conducted an in-depth organizational assessment 
to improve its coverage of House systems during unexpected emergencies. 
The assessment results identified the need to expand operations and 
technical support to 24 hours a day/7 days a week for key technology 
and communications support areas. The specific CAO operations which are 
proposed for 24x7 coverage are the following:
    <bullet> The Emergency Communications Center--which will also 
assume the duties of the HIR call center and the Network Control Center 
during non-core business hours
    <bullet> Information Security Systems Monitoring--this includes 
firewall, intrusion detection systems etc * * *
    <bullet> Messaging Systems--this includes Blackberry services
    <bullet> Internet/Intranet Systems Management--this includes the 
proactive monitoring of systems to include web servers and critical 
file/print servers
    In addition to the 24/7 coverage, we are requesting additional 
personnel who will be responsible for drafting and disseminating 
internal House communications normally performed by public affairs 
offices in government agencies and departments, both in times of 
emergencies and normal business operations. These personnel will also 
undertake to improve CAO internal communication efforts to improve 
House personnel knowledge of CAO services. Changes in CAO functions and 
services, together with normal House personnel turnover, have resulted 
in a lack of consistent awareness and understanding of services that 
are available to House Members, staff and offices.

                            W-2 INFORMATION
    With all the changes in the tax code, more and more people are 
using computer based or web based tax preparation services for their 
taxes. I've noticed that private sector employees make available the 
electronic transfer or download of employee W-2 information.
    Question. What, if any, barriers are there for the House of 
Representatives to make available to our employees the electronic 
transfer or download of employee W-2 information?
    Response. The main barrier is our current payroll system. No 
programmatic changes to this outdated, mainframe-based system are 
planned because the system will be replaced within one to two years. 
Once the new payroll system is in place, there should be no technical 
barriers to provide employees the electronic transfer or download of 
employee W-2 information.

                             COMMUNICATIONS
    At the time of the tragic disaster on 9/11, there were many 
instances of facilities such as AT&T's directory assistance facility in 
New York being temporarily put out of commission, thereby making it 
impossible for news media and others to access certain New York 
officials. I wonder what thought you have given in your office to the 
following types of questions:
    Question. How would Members and Staff be able to contact local/
state/federal officials in their own districts/states or other 
districts at the time of another disaster that knocked out a local 
telephone company's directory assistance or the House computer system? 
For example, if a Member was traveling and a tornado strikes the 
hometown, how can the Member conveniently come up with a number for 
FEMA or National Guard facility? Or if there were a disaster here what 
contact records could be accessed and how accurate would they be?
    Response. The House does not provide national directory assistance 
information. Maintenance of nation-wide information by the House would 
be cost prohibitive and unreliable. However, Members can call national 
directory assistance by dialing 1-area code 555-1212 to obtain 
telephone numbers in an emergency. As a general practice, however, all 
Members should maintain and routinely update emergency contact 
information specific to their state and local governments. This 
information can be easily stored in personal data assistance such as 
the Blackberry device or in the Member's cell phone. Other suggestions 
include preparing and carrying a small laminated card containing 
important emergency services contact information for their district, 
and having District offices maintain a complete contact list. Also, 
phone numbers for FEMA regional offices are available on FEMA's web 
site and there is a www.411.com directory assistance web site on the 
Internet.
    Question. How would Members be able to immediately contact local 
officials (e.g. the sheriff) in their constituencies?
    Response. During national emergencies and other crisis, Members are 
encouraged to use their Government Emergency Telecommunications Service 
(GETS) cards, which will improve probability of call completion through 
voice lines. However, if the local supporting telephone central office 
is destroyed or is out of commission, then the call will not get 
through until repairs/work-arounds are in place.
    Question. What steps are you considering that would ensure the 
continuity of Congressional business for Members, staff, Committees 
regarding needed interaction and accessibility to other government 
entities and important contacts within a Member's constituency? Have 
you given any thought to making available for Members, the Committees 
and even the Congressional phone operators an accessible data base that 
they could reach conveniently at anytime any place to reach needed 
contacts in an emergency or in the course of normal business?
    Response. The fundamental issue in providing assured 
telecommunications connectivity is avoiding a stressed public 
infrastructure. Unfortunately, most solutions to avoiding the public 
infrastructure are expensive. Several steps are being considered to 
enhance accessibility back to the Member's district. These include 
issuing GETS cards to the Members; issuing satellite telephones to 
Members; providing a frame relay backup to district offices (possibly 
via satellite and with a single phone line that avoids the public phone 
system (PSTN)); a private cell phone system for the downtown DC area; 
and, mobile communication vans to provide support to Members both 
during emergencies and for non-emergency off-campus gatherings of 
Members.
    The U.S. Capitol Telephone Exchange maintains an extensive database 
of Member's personal emergency contact information (for Washington and 
the district offices), provided the Member has volunteered this 
information. Contact information for government agencies and executive 
branch personnel is provided to the Capitol Exchange via the House and 
Senate telephone directors that are produced by the Clerk of the House 
and the Senate Sergeant at Arms. Outside of this information, the 
Capitol Exchange Operators depend on national directory assistance to 
obtain emergency contact information.
    Question. What can we do to best maintain the continuity, in this 
sector of communications concern, and resiliency of Congress after a 
calamity, wherever it might occur? What are the fail-safe back-ups--
logistically, geographically, the degree of accuracy and accessibility? 
What files should be available remotely?
    Response. There is no one system that can guarantee 100% 
communications connectivity during an emergency. We are pursing a 
strategy of multiple layers/methods to significantly improve our 
ability to support House communications. In addition to the methods 
listed above, we are considering upgrades to our campus telephone 
system (and how it connects to the public infrastructure) that will 
eliminate current single points of failure and improve our resiliency 
and access into the public network. Members have also been assigned 
Blackberry devices to enhance wireless communications via email and the 
distribution of GETS telephone calling cards will increase the 
probability of call completion during times of national emergency and 
crisis.
    Several different offsite facilities are being identified that will 
support House data and phone service, provide limited Member office 
support, support a House chamber, and house the U.S. Capitol Telephone 
Exchange and the database of Member's personal emergency contact 
information.
    All Member files on their servers will be backed up to the 
Alternate Computer Facility. Member offices have received information 
concerning the preparation of ``Go-kits'' for their office. These kits 
should be prepared for offices here in DC and in the district 
containing information/files that individual Members deem important. 
Members are encouraged to assist in planning for future emergencies by 
capturing important telephone numbers for state and local agencies and 
officials.
    Question. Please discuss the status of your efforts to facilitate 
reliable, remote accessibility to House computer systems.
    Response. The Office of the CAO prepared a report on this subject 
(Providing Remote Access for House Computer Systems--February 8, 2002) 
in response to the conference language in the FY 2002 Legislative 
Branch Appropriations Bill. In that report, the CAO described the 
progress on current activities in this area and identified areas that 
we are planning to pursue in the near future. Examples of the areas 
addressed in the report include:
    <bullet> Remote Dial-In and Virtual Private Network (VPN) 
Services--these tow technologies allow users to remotely access (e.g., 
from home or on travel) the House's network enterprise through secure 
means. We have recently upgraded these services such that we can now 
support approximately 192 concurrent dial-in users and 100 concurrent 
VPN users. Planned efforts in this area will include assessing business 
continuity/disaster recovery (BC/DR) requirements for concurrent dial-
in and VPN users and implementing necessary changes to the technical 
infrastructure to support these numbers. In order to ensure that only 
authorized House personnel can access the House network, we use secure 
ID cards (SecurID). We have recently implemented an upgrade to this 
system that will be completed this spring so that we can support 16,000 
cards.
    <bullet> District Office Flagship Service Upgrade--this effort, to 
be completed in May, will provide District Offices with an upgrade from 
current 56Kbps connections to 256Kbps. In doing so, these district 
offices will be capable of supporting additional staff should 
relocation be required and Members choose to use their District Offices 
as an alternate site for some staff.
    <bullet> Wireless Personal Digital Assistants (PDAs)--while not a 
replacement for a desktop computer, PDA devices are providing wireless 
access to email and related functions that are helping Members and 
staff ``stay in touch'' even when not in the office. Additionally, 
House Information Resources will pursue expansion of wireless web 
solutions for House PDA users so that they may access House Intranet 
information and ultimately extend the functionality of these devices 
beyond their current use. Support is currently being provided to over 
1700 Blackberry devices.
    <bullet> Alternate Data Facilities--we are working with a joint 
Senate and House task force to formalize requirements and identify 
sites that can be used to establish an alternate data facility. The 
intent of this effort is to ensure that in the event of a major 
disruption to the House's current Data Center, critical legislative 
business processes can continue. This facility will also support backup 
and storage of Member, Committee and other House entity data as 
requested.
    Other initiatives currently planned:
    <bullet> Secure Access--Anytime Anywhere--We are in the initial 
stages of investigating technologies and strategies to support the 
concept of secure, anytime anywhere access. This concept refers to the 
ability to access an organization's computing services from multiple 
devices (e.g., PDAs, laptops, home/personally-owned computers) and 
multiple locations. Essentially the theory is if you can get to an 
electronic connection (wired or wireless), either directly to the 
enterprise or through the public Internet, then you can get access to 
computing services to meet your specific business need. Once the 
investigative phase is completed, we intend to identify business areas 
that represent targets of opportunity for near term payoff and 
recommend appropriate pilot and/or implementation projects.
    <bullet> Thin Client Services--These technologies are currently in 
the investigation stage. We have incorporated analysis of this 
concurrently with our current Exchange 2000/Windows-Server Next 
Generation engineering study. Currently technology such as Timbuktu is 
used to allow remote access to a computer from a distant site. Use of 
Timbuktu can often times allow a home user that uses 56Kbps dial-in 
service to be able to achieve an improved performance experience. 
Specific offices are also supported with secure Citrix server 
implementation which allow remote access to office computing services 
across a slow network connection without the need to leave the specific 
user's office computer on.
    <bullet> Alternate Facilities--To date, the CAO, Clerk, Sergeant at 
Arms and other offices have been involved in establishing facilities 
for an Alternate Chamber, Alternate Member, Committee and Support staff 
offices and interim Data Center backup facilities. Memorandums of 
understanding are approved or in the final stages of development and 
for some facilities equipment and connections have already been 
established.

                         MAIL PROCESSING DELAYS

    Mr. Moran. Thanks, Chairman Taylor, and I agree with your 
assessment from all four individuals. I would like Dr. Eisold 
to join us again on the panel. You have done a superb job and I 
have great respect for our four officials today. I think Dr. 
Eisold and Mr. Livingood, particularly, at a time of stress and 
crisis have performed extraordinarily well.
    But let me ask some questions that I am concerned about. 
First, we will go to the mail issue. The Senate chose to 
process its mail basically by itself and we chose to contract 
it out, I understand. First of all, I would like to know the 
cost of that contract. I am getting mail even now that dates 
back to December. Two weeks ago we got the bulk of our 
Christmas cards. Last week we got some mail that was postmarked 
in February. So it is getting better. But it is not 
particularly helpful. Most invitations, for example, are sent 
about a month in advance. Most of the mail we get now, because 
it is so late, is useless.
    It is also crushed. I am curious what is the purpose of 
crushing the mail? And most importantly, I want to know what it 
is that we have protected ourselves from through all of this 
expense and delay and processing.
    Mr. Eagen.
    Mr. Eagen. I think that is primarily me, Mr. Moran. With 
regard to the time that it takes for some of the mail to get 
through, you are definitely correct. I have gotten Christmas 
cards myself in the last couple of weeks. And when we ask those 
questions of the Postal Service why that dated mail is still 
coming through, the explanation basically is what I referred to 
earlier, is that in the accumulation of trailer upon trailer, 
they are giving those to us in different order. Sometimes it is 
the most current mail, sometimes it is the older mail.

                    RECONSTRUCTING THE MAIL PROCESS

    Mr. Moran. So you are saying the fault lies with the Postal 
Service. What batches of mail they are giving to you, or is it 
the contractor?
    Mr. Eagen. No, it is definitely a combination of the Postal 
Service and the House's ability to process the mail in this new 
manner. The facility that we have constructed offsite through a 
GSA-leased facility has only come fully on line in the last 
month or so. Mr. Hoyer has been helpful over the weeks of 
working with the local county officials to get the permitting 
process through. And we are basically, as I mentioned earlier, 
reconstructing the entire House mail sorting and distribution 
process. In addition, we are adding all of this new sampling 
capability to verify that the irradiation is successful. It has 
taken us time to build all of those facilities.
    The Postal Service has been delivering trailers to us in 
inconsistent time frames. But then it does still take us time 
to process all of that mail, depending on exactly what it is.

                          MAIL PROCESSING TIME

    Mr. Moran. I just can't understand why it takes up to 3 or 
4 months to process mail. I just can't envision in my mind what 
the process is that would require that kind of time. Can you 
just explain to me in layman's terms the physical processing 
that takes that much time?
    Mr. Eagen. I will explain the front end of the process as 
best as I know it, which is a Postal Service process. The mail 
is put in a mailbox, obviously wherever in the country, and is 
sent into their stream. It comes to Washington, D.C., where it 
is sorted into streams of government and nongovernment, and the 
nongovernment mail goes on. All the government ZIP Codes are 
then going through the irradiation process.
    Mr. Moran. This irradiation process, this is a process that 
takes less than 24 hours.
    Mr. Eagen. From the date of the postmark, correct. And at 
that point, it is then trucked en masse originally either to 
Lima, Ohio, or to this facility in New Jersey and our 
understanding as of last week is it will be solely to the 
facility in New Jersey, where it is irradiated. It is not 
sorted within the government mail at that point. So it is just 
the bulk of all the government mail. It is then irradiated and 
then it is shipped back to Washington to what I understand is a 
tent out at the Brentwood facility where it is being sorted. 
And then it eventually comes to the House.
    Mr. Moran. Okay. Now, so the Postal Service sorts it out 
you are saying by ZIP Code and then?
    Mr. Eagen. That is for the government mail ZIP Codes. They 
do not sort within the government ZIP Codes.
    Mr. Moran. They sort out government and nongovernmental 
mail. And is it like recycling? After everybody recycles we 
throw it all in the same bin anyway? Why don't we keep some 
sense of the results of the sorting at that point? Is that 
impossible to do?
    Mr. Eagen. The Postal Service says that their process is 
better to just do it as one lump of the government and then 
sort it when it gets back here into these separate----
    Mr. Moran. So they are not doing the sorting out--so the 
beginning of that process does not take effect any longer? You 
were describing the process, and the mail comes in and they 
would normally sort it by ZIP Code. They do not sort it 
initially. It all just comes in, what, by region or something?
    Mr. Eagen. No, it is sorted by all of the government ZIP 
Codes into one separate government ZIP Code.
    Mr. Moran. All the government ZIP Codes in the Washington 
Metro Area?
    Mr. Eagen. Yes.
    Mr. Moran. And the government has separate ZIP Codes?
    Mr. Eagen. Yes.
    Mr. Moran. It does? So these Federal office buildings over 
in Arlington, they have a separate ZIP Code from the private 
office building next door?
    Mr. Eagen. I can't speak to each building, but the House is 
20515, the Senate is 20510, so on.
    Mr. Moran. Is our mail mixed with the executive branch 
mail?
    Mr. Eagen. Yes, it is.
    Mr. Moran. And the executive branch mail includes not just 
the Federal office buildings in Washington but the Metro Area? 
NIH? The Pentagon?
    Mr. Eagen. It is my understanding that it is the entire 
Metropolitan Area.
    Mr. Moran. And so it is thrown into this enormous mountain 
of mail. Anything that starts with 22, I suppose or something 
like that. They just throw it into this mountain? They do not 
go through the sorting process?
    Mr. Eagen. Well, just to clarify, they do go through an 
initial sorting process to take that out of the rest of the 
mail stream. So there is one sort.

                          IRRADIATION PROCESS

    Mr. Moran. So now they have hundreds of thousands of pieces 
of mail coming in every day, I suppose. And then they throw it 
all onto a truck and they have been driving this now to Ohio, 
this truck of unsorted mail. Now they just drive to New Jersey. 
It comes in there, and then do they take every individual piece 
and irradiate it?
    Mr. Eagen. No, it goes through in bags.
    Mr. Moran. So there is just a mass radiation in bags. So 
these letters that went to Daschle's office, irradiation would 
have killed any of those anthrax spores, John?
    Dr. Eisold. That is right. That is the process. And I know 
that the process as it proceeds even goes further because you 
know that you have a corner snipped off.
    Mr. Moran. You have a corner snipped off?
    Dr. Eisold. Most of my mail has. They look to see if there 
is any substance in there that might spill out. That is an 
extra safety factor, although we are confident that any 
biological agent in that envelope is killed.
    Mr. Moran. Is killed through irradiation?
    Dr. Eisold. Yes, but I still would not deliver some funny 
piece of mail that had dust in it.
    Mr. Eagen. It kills the anthrax but it does not remove the 
anthrax.
    Mr. Moran. The dead spores then. Have we found anything in 
this process, processing the tens of millions of pieces of 
mail?
    Mr. Eagen. Not yet.
    Mr. Moran. Nothing. So it was preventive, but if we had 
taken a chance and not done it, it would not have made any 
difference? Nothing has been found that actually justified all 
of this, other than preventive measures?
    Mr. Eagen. Well, except that there was the Daschle and the 
Leahy letters.
    Mr. Moran. But those were successful. Our actions haven't 
actually prevented anything, have they? I am trying to 
understand what the net results of the investment of time and 
expense have yielded.
    Mr. Eagen. The answer is we haven't had a positive sample 
so far.
    Mr. Moran. No positive sample. At this point it has all 
been precautionary.
    So we irradiate it. It is irradiated. Now that is--I can't 
imagine that to be a particularly long process. Probably a few 
seconds to throw it into a batch and blast it with radiation.
    Mr. Eagen. It goes through twice is my understanding, so 
not just once, but, no, I don't think it should be an 
exceptionally long process.

                     ALTERNATE IRRADIATION FACILITY

    Mr. Moran. So it goes to New Jersey to give it a blast of 
irradiation. We decided that there is no other place that could 
radiate it?
    Mr. Eagen. The facility in New Jersey has the largest 
capacity facility that they could find. The Postal Service has 
purchased four of the machines on their own and the intention 
for the mid to long-term is that they would install those 
capabilities in the Metropolitan Area to eliminate the trucking 
requirement.
    Mr. Moran. Are they working on that?
    Mr. Eagen. They have the machines. I understand they are 
struggling in finding locations.
    Mr. Moran. So there is nothing being done right now to find 
a closer place? So it comes into New Jersey, and so far, I can 
imagine it might take a few hours to drive up to New Jersey, a 
few hours back, so a day and then a few minutes to zap. I am 
trying to figure out what it is that is causing 3 or 4 months 
of delay.
    Mr. Eagen. Well, I think you have to separate out--in my 
mind you have to separate out the ideal mail flow from current 
mail, which my sense is we are getting to that, versus mail 
that got backlogged over the last couple of months either from 
the initial quarantine of the entire government mail stream, 
but then the follow-up results of trying to process that 
backlog and storing. Last week they delivered eight trailer 
loads of mail to us all at once.
    Mr. Moran. All at once?
    Mr. Eagen. Yes.
    Mr. Moran. They delivered eight trailer loads sorted?
    Mr. Eagen. Sorted for the House.
    Mr. Moran. So that is just dividing it into the House or 
the Senate--not the Senate, the Senate is doing their own 
thing.
    Mr. Eagen. That is right.
    Mr. Moran. Just giving you the House. Is the processing 
that used to take less than 24 hours, this processing by ZIP 
Code, and yet this is a process that is now taking 3 or 4 
months and we are paying how much to do this?
    Mr. Eagen. It is costing us--we are not paying for the 
irradiation. That is the Postal Service's cost. The House does 
not bear that cost.

                         PITNEY BOWES CONTRACT

    Mr. Moran. Yeah, but aren't we contracting?
    Mr. Eagen. We have historically contracted with Pitney 
Bowes in the House processing the mail, even prior to last 
fall. They have been the House mail contractor since 1995.
    Mr. Moran. But we are paying extra for this extra 
processing; right?
    Mr. Eagen. Yes, absolutely.
    Mr. Moran. How much are we paying?
    Mr. Eagen. Right now about double what it used to cost.
    Mr. Moran. Okay. I guess that is the thrust of my concern. 
Maybe I am being unreasonable, but it seems to me that the mail 
delivery has been virtually useless since September 11th. I 
mean to get something 4 months late. I suppose it is nice to 
know. Suppose I sent you a Christmas card 4 months ago, it is a 
little silly to respond at that point. But none of the 
invitations are helpful, I would rather not get mail that has 
not been answered for 4 months. I would rather say we never 
received it because nobody is going to believe that we got it 4 
months late.
    So it would have almost been better if we had not got any. 
So the mail has been, as far as I am concerned, a useless form 
of communication, and yet we are paying double for it. And 
there has got to be some explanation for why it is taking that 
4 months to be received. I still don't understand why that is 
the process. It is not irradiated one by one. The sorting 
process used to take place in 24 hours, and yet it is taking 4 
months. I think it is a legitimate area of inquiry. And I guess 
I would like a better explanation.

                              OFF-GASSING

    Mr. Eagen. I think there are other factors. Those factors 
are that there are additional steps. We did not finish walking 
through the process. When the mail comes back to the Washington 
area and to the Brentwood facility, it is left, I think, for 24 
to 48 hours for an off-gassing procedure.
    Mr. Moran. Off-gassing? What is off-gassing?
    Mr. Eagen. You want to speak to that?
    Dr. Eisold. It is much like I mentioned before. When this 
mail is irradiated everything in there, dust, bugs, mites, 
plastic takes a hit. And some of it melts or changes into 
different chemical substances. Some of it vaporizes. And so it 
is those type of by-products that we felt were irritating 
people. And they found it very effective to then spread the 
mail out in well-ventilated areas for 24 hours to let any of 
those by-products that developed drift away.
    Mr. Moran. I can understand why that would take a day.

                           BRENTWOOD FACILITY

    Mr. Eagen. The other factor that I mentioned in the opening 
statement, the Brentwood facility, where they had the high 
automation systems for all of this government mail and that 
facility is still closed. Only in the last couple of weeks that 
I started to read articles about the Postal Service's plan to 
clean that facility and make it possible to use all of that 
automation to sort all of this mail. So my understanding is 
they have been doing a lot of this by hand in tents and trying 
to use other facilities to pick up the sorting of this mail.
    So where once there was the high automation that you 
described of turning an envelope around in 24 hours, a lot of 
that capacity, both at the Postal Service and within the House 
itself, was destroyed via last fall.
    Mr. Moran. Brentwood had a high level of automation? But 
most Postal Services still do it by hand, and they still do it 
within 24 hours.
    Mr. Eagen. At one point they were telling us that the 
result of the dryness of the irradiated mail was hampering the 
machines that they used because of the higher dust level. They 
are encountering all levels of problems that are slowing down 
what used to be an extremely speedy automated system.
    Mr. Moran. Have all the periodicals been thrown out?
    Mr. Eagen. No, they are in the third class mail category 
that was approved to start flowing on March 25th.
    Mr. Moran. Okay. But again periodicals that are 4 months 
old are not particularly useful.
    Mr. Eagen. I understand that.
    Mr. Moran. Okay. I guess I have beaten this enough. I still 
do not fully understand why it has taken as long as it has. But 
I guess I should go on to Mr. Hoyer.
    But I have got some other questions about offsite 
facilities, about our preparation if we shut down, for remote 
computer communication for this mobile communication system 
that we have. So I will just give you some advanced warning I 
want to ask about that. But at this point we have got other 
members here that want to ask questions.
    Thank you.
    [Clerk's note.--Following are the questions submitted to be 
answered for the record from Mr. Moran.]

                             Remote Access

    Question. The events of September 11th and the anthrax incidents 
underscored the need to improve access to our computers and information 
systems from remote locations. While I applaud the efforts that have 
been undertaken to date, I suspect the additional improvements are 
still warranted. I would like to work with you in assessing this 
capability and finding the resources to enable Members, staff, and 
agency employees the ability to access their computers from a remote 
location. It is my understanding that the single most important 
technological device that would achieve this objective is to equip more 
offices and staff with laptop computers. Do you agree with this 
assessment?
    Response. Providing Members, staff, and other House employees 
(e.g., contractors) the ability to access their computers from a remote 
location requires an end-to-end solution. Our strategy is to provide 
access for Members and some staff (about 2,000) from an Alternate House 
Office Building. User terminal devices (e.g., PCs and Laptops) are 
required to provide this capability as well as a dedicated data network 
connection from the alternate site to the House Campus network. 
However, there are other required elements such as SecurID 
authentication devices, individual circuit connections, and House 
egress capability.
    Question. Since most offices may not have budgeted for this 
expense, do you think we should establish a one-time adjustment in 
accounts to permit the purchase of the necessary equipment?
    Response. A one-time adjustment to the appropriation for all House 
entities other than the MRA and the Committees could be used to defray 
the costs of the user terminal equipment (e.g., laptops). However, 
spending levels for the Members Representational Allowance and 
Committee authorizations are set by the CHA and any increase would 
require their approval. In addition, the capacity of House equipment 
and circuits would need to be expanded in order to provide an adequate 
level of access and throughput needed for the additional remote users.
    Question. I am still troubled by the difficulty with which Members 
and staff can access their offices from a remote location. In your 
estimation, what are the major roadblocks that have prevented most 
offices from gaining remote access?
    Response. In order to access the House network from a remote 
location, Members and staff need a laptop computer, a secure means of 
connecting to the House network, and a network with the capacity to 
bridge the remote location to the House network. Some design work and 
hardware procurement is required to complete the dedicated connection.
    Question. In the perfect world, what additional resources would 
make this goal more easily achieved?
    Response. Procurement of laptops and SecurID cards, some design 
work (contractor support) and procurement of network hardware to expand 
the current capability of the House network.

                       COMMITTEE ROOM RENOVATIONS
    Question. How much have you requested for Committee Room 
Renovations in FY 2003?
    Response. The request for Committee Room Renovations in FY 2003 is 
$4.5 million.
    Question. How many rooms will you be able to renovate at that 
funding level?
    Response. Depending on the results of a room-by-room assessment and 
room availability, between January and December 2003 approximately six 
rooms could be renovated. Outside of the basic standards, each room is 
unique in its audio and video requirements so it is difficult to 
determine exactly how many could be renovated at the requested funding 
level. The cost to renovate each hearing room could be as little as 
$210k for audio only to $800k for audio and video. The $4.5 million 
could cover additional costs outside the base standards that each 
Chairman chose to have done.
    Question. What is the process for prioritizing the schedule of 
renovations?
    Response. The Committee on House Administration (CHA) will 
determine which Committee is next on the implementation schedule based 
on where a Committee is in the Phase II design development and approval 
process. The CHA will notify House Office Building Commission (HOBC) of 
the prioritization schedule. For other Committees in the future, a 
letter of request will be sent to CHA signed by the respective 
Committee Chairman. CHA will again determine and notify HOBC of the 
prioritization schedule based on where a Committee is in the Phase II 
design development and approval process.
    Question. Are all rooms being brought up to a certain standard to 
assure infrastructure compatibility in the future?
    Response. In anticipation of technology improvements and at the 
request of Committee Chairmen, additional technological capabilities 
and enhancements will be completed during the Renovation Program. Each 
Committee room will have infrastructure build outs, electrical conduits 
and raceways that will accommodate the following technologies:
    Auto Streaming, Broadcast Cameras, Broadcast Network Feeds, Closed 
Captioning, Computers, Digital Microphones, DVD's, Limited Data Feeds, 
Plasma Screens, Polycoms & ``Squawk Boxes,'' Projectors, Speakers, 
Timers, Teleconferencing, and Transcribers.
    Question. What parameters are Committees given when their rooms 
come up for renovation?
    Response. Committees are required to follow audio standardization 
guidelines set forth by the CHA. A complimentary video standard is 
currently under development that Committees will also be expected to 
follow:
    Question. How many years is this project expected to continue?
    Response. This project will continue for a least 3 to 4 years.
    Question. How is this being coordinated between the CAO and the 
Architect of the Capitol?
    Response. Once the respective Committee has the CHA approved 100% 
Phase II drawings and specifications for their hearing room the 
drawings are provided to the Superintendents Office for a cost estimate 
for the infrastructure build out. After completion of the cost 
estimate, letters requesting approval and authorization for the 
construction are signed by the respective Committee Chairman, AoC and 
HOBC. Upon CHA receiving HOBC approval, the designated CAO program 
manager holds a coordination meeting with the CHA, Construction 
Management Division, FRC for dais and furniture repair and/or 
replacement, Superintendents Office, respective Committee staff, HIR 
for CAT 5 & fiber installation), design and installation contractor's 
and Office of Procurement for the team to address additional 
infrastructure comments or concerns and build schedule.

                           OFFSITE FACILITIES
    Question. Please describe some of the off-site facilities that are 
planned.
    Response. To date, the CAO, Clerk, Sergeant at Arms and other 
offices have been involved in establishing offsite facilities for an 
Alternate Chamber and Member Briefing Center to provide Members a 
location outside of the Capitol Building to meet and receive 
information from the Leadership and United States Capitol Police in the 
event of an emergency; Emergency Response Center to coordinate incident 
response activities of various agencies; Alternate Member, Committee 
and other House entity offices; and an Alternate Computer Facility. 
Memorandums of Understanding (MOU) are in the final stages of 
development and some facilities equipment and connections have already 
been established. Future efforts under this project include the 
development of comprehensive ``Go Plans'' for each facility such that 
various permutations of loss of House campus facilities can be 
supported. For example, if a single House building were inaccessible, 
pre-arranged offices would be available at the alternate facility, 
including House network connections, phone services, and basic office 
equipment that could be occupied on very short notice. Where 
unwarranted, sites will also include capabilities for remote access to 
support personnel that may not be in the alternate site but may be 
working from home or a District Office.
    Question. Are the offsite facilities going to support some of the 
day-to-day workload or are they going to sit idle?
    Response. The Alternate Computer Facility will be an active 
facility with a full-time staff of twelve, who will perform day-to-day 
activities in support of the House pending a declared emergency. As the 
other facilities are needed they will be brought online to provide day-
to-day functions in support of House operations.
    Question. What are you doing to achieve economies of scale with 
other organizations that are also establishing back up facilities?
    Response. A joint Senate, House, Architect of the Capitol, and 
Library of Congress task force has been working on establishing the 
Alternate Computer Facility to support the needs of the participant 
organizations.
    Question. Why is 24x7 data center coverage necessary?
    Response. The intent of this effort is to ensure that in the event 
of a major disruption to the House's core information technology 
infrastructure, regardless of the time of day, critical legislative 
business processes can continue. This facility will also support backup 
and storage of Member, Committee and other House entity data as 
requested.

                         MOBILE COMMUNICATIONS
    Question. How much is requested for mobile communications?
    Response. As part of the FY 2002 Emergency Supplemental, the CAO 
received funding for a concept called Mobile Communications. The intent 
of this concept is to provide a capability that would allow quick 
establishment of voice and data services at alternate locations where 
members and staff may be temporarily located during an emergency. In 
addition, under this project, we are investigating alternate wireless/
mobile voice communications services (e.g., private cellular, 
satellite-based) that would have a higher degree of reliability during 
emergencies than current public networks. The specific implementations 
that would be pursued are still in development as part of the CAO's 
overall Business Continuity/Disaster Recovery Program.]
    In FY 2003, the CAO has requested $5,100,000 to support the 
operation and maintenance of the Mobile Communications capability. The 
funding will be used for items such as recurring monthly charges for 
any purchased services, equipment maintenance and licensing, and any 
expansion to the capability that is not addressed on initial 
implementation.
    Question. What capabilities will we gain that we don't have at this 
time?
    Response. At this time, there is no off-site/mobile communications 
deployment capability that will backup and support the following:
    <bullet> Interim Member Briefing Center standup off of the main 
campus
    <bullet> Incident Response Center standup off of the main campus
    <bullet> Allow for continuous access (remote access) to House 
communications systems during an evacuation
    There is currently no assured form of cellular communications on 
campus, all cellular communications are in direct competition with the 
general public switched telephone network (PSTN). The establishment of 
a private cellular network on campus that extends approximately 3 miles 
beyond campus for House Members and key staff, will provide an assured 
layer of communications that is not dependent on the public network, 
which may be overloaded in times of emergency conditions. Current 
planning has the House and Senate sharing the cost of deploying this 
private cellular system. In order to provide true worldwide 
communications capability, satellite telephony is needed to keep House 
Members and key staff in communications with each other wherever they 
may be around the world. Satellite telephony is able to service 
locations around the world where cellular cannot. This effort is 
initially intended to provide satellite handsets to House leadership 
and key staff. At this time, it is estimated that 100 satellite 
handsets will be made available. If additional handsets are needed, 
they can be provided as requirements are identified.
    Question. How was this estimate developed?
    Response. These initial cost estimates were developed by talking/
meeting with vendors and carriers and getting their estimates of what 
it would take to provide these emergency communications capabilities. 
For example, a private cellular vendor successfully conducted an on 
campus demonstration of the capability for 90 days and it provided 
valuable insight into what it would take to implement the system 
campus-wide. These estimates will be updated as more relevant 
information becomes available.
    Question. What will be the recurring costs of this initiative?
    Response. The recurring cost for the offsite/mobile communications 
capability is estimated to be $210,000 per year. The recurring cost for 
the assured communications capability is estimated to be $1,030,000 
(private cellular service system and satellite telephony) per year.
    Question. What plans have been developed for housing the equipment?
    Response. The current plan is to house the offsite/mobile 
communications deployment capability in a communications vehicle that 
can accommodate all of the required communications equipment and 
support personnel. It will be a self-contained standalone capability.

                          STUDENT LOAN PROGRAM
    Question. Where do you stand with implementing the student loan 
assistance program?
    Response. In accordance with the direction of the FY 2002 
Legislative Branch Appropriation Conference Report, the Committee on 
House Administration has taken the lead in preparing a proposal for the 
student loan assistance program. Their draft provides for a significant 
role for the office of the CAO and we have provided technical 
assistance in drafting the proposal.
    Question. Have there been any uniform guidelines established to 
ensure consistency implementing this program among Legislative Branch 
agencies?
    Response. The Legislative Branch Financial Management Council has 
developed implementation guidelines. This question is properly 
addressed to the Committee on House Administration since they are 
drafting the proposal.

                            MAIL OPERATIONS
    Question. What was the amount spent for mail processing in FY 2001 
and what is the total you are projecting to spend in FY 2002?
    Response. Expenses in FY 2001--$3.3 million; Expenses in FY 2002.
    Labor costs for processing mail are capped at $592,877 per month. 
The contract with Pitney Bowes was modified in November 2001 to a time 
and materials contract with this amount as an upset price. Work is much 
more labor-intensive, labor rates are higher for new skill-sets 
required, and work includes processing packages as well as USPS mail.
    Payment to GSA for rent, utilities, security, etc. for the Capitol 
Heights offsite mail facility, $534,242 per year with LOC and Senate 
sharing costs.
    Estimated cost for completion of build-out of Capitol Heights 
$4,000,000 with LOC and Senate sharing costs (Subject to adjustment 
based on actual bids received by PBMS).
    Estimated costs for additional equipment $644,000 with LOC and 
Senate sharing costs.
    Question. If the additional costs are funded, what will be the 
total budget for mail processing in FY 2003?
    Response.

 
 
 
 
FY 2002 revised costs............  $7,114,525 ($592,877 monthly)
Est. annual costs/Digital Mail...  5,001,432 ($416,786 monthly)
Plus 50% of GSA occupancy          267,121
 agreement.
                                  --------------------------------------
    FY 2003 Estimated Postal       12,383,078
     Budget.
 

    Question. What functions have been added during FY 2002 and what 
other changes are anticipated in FY 2003?
    Response.
    1. Offsite mail facility.
    2. Additional manual processes for assuring sanitization of mail.
    3. Separate staff within Pitney Bowes for delivery and processing 
because of offsite location.
    4. Processing of all UPS, FedEx and Airborne packages that were 
previously delivered by shippers.
    5. Exploration of possible implementation of digital mail and pilot 
program for digital mail.
    Question How long is the average time between a letter being sent 
and delivery in a Member's office?
    Response. USPS has indicated that it takes up to ten days for mail 
to be processed and delivered to the House. The House has documented a 
rate of 4.7 business days for delivery to Member offices after receipt 
from USPS. Statistics vary from day to day, but on May 6, 2002, the 
House Inspector General found that 17% of the USPS delivered mail had 
postmarks older than March and 10% had postmarks in 2001.
    Question. Are the initiatives planned for FY 2003 designed to 
streamline the process?
    Response. The CAO is working with the Senate and Federal agencies 
on a task force at the Office of Science and Technology Policy at the 
White House to determine more efficient processes for detecting 
contamination in the mail and speeding up processing. The House is also 
working to identify a shorter, but just as reliable, method of 
detection of anthrax and other pathogens. The USPS has indicated that 
they are looking for a local site for an irradiation facility to 
eliminate the time necessary to travel to New Jersey for irradiation.
    Question. Are sufficient precautions being taken for the staff 
(both contractor and in-house) who handle the mail at various stages in 
the process?
    Response. Yes. Pitney Bowes has extensive safety requirements and 
procedures in place for their employees. The mail has been tested by 
Pitney Bowes, the National Institute for Occupational Safety and 
Health, and the Occupational Safety and Health Administration and no 
dangerous levels of contaminants have been found in the mail.

                       MAIL PROCESSING DAY-BY-DAY

    Mr. Taylor. Thank you, Mr. Moran. We are going to be in 
hearings most of the day, and we will try to move along with 
the various people coming in. Mr. Wamp, do you have any 
questions?
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Hoyer. Zach, would you yield one second?
    Mr. Wamp. Certainly.
    Mr. Hoyer. I think it would be useful, Jay, if you would 
submit for the record a day-by-day chronology of the mail 
processing, because I listened to Mr. Moran's questions. And I 
am not sure I could explain to another Member exactly why it 
takes as long as it does. I think Mr. Moran is right. I think a 
presentation of exactly the steps and the time it takes and why 
it takes that much time would be helpful.
    Thank you, Mr. Chairman.
    Mr. Taylor. Each member will have the opportunity to submit 
questions to the witnesses, for the record, if you do not have 
the chance to ask them today.
    Mr. Wamp?
    [Clerk's note.--The day by day mail processing chart 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         EXPRESSING GRATITUTDE

    Mr. Wamp. Mr. Chairman, I will try to be brief, but I think 
this is really important to share. We have the Attending 
Physician, the Sergeant at Arms, the Chief Administrative 
Officer, the Clerk of the House, the Inspector General, the 
General Counsel, et cetera, et cetera, all very important 
titles. But in the movie Braveheart, William Wallace said, 
``Men don't follow titles, they follow courage.'' I want you to 
know on behalf of my children, my wife, my constituents, that 
when that great call to courage came, you all performed 
incredibly well. Day in, day out, week in, week out. All the 
hundreds of people that work for you deserve our appreciation.
    We have not given those people our gratitude at an 
acceptable level thus far, the people that stood in the gap. I 
saw the pain on Dr. Eisold's face over and over again when we 
had the anthrax problem. I saw Bill stand courageously when he 
had to. Jay and Jeff, and others, it really is extraordinary 
the job that you did when we were in a crisis, and we are not 
out of the woods. And as Jay said, we are not going to come out 
of these woods, we have got to learn to operate in these woods 
from here on.
    You all signed up for jobs that have great titles, that 
have great prestige, but you never signed up for what you got. 
We did not either, but we get a lot of praise and you all do 
not get enough and the people that work with you and for you 
day in and day out do not get enough thanks from us. I just 
want it to be reflected for the record that this committee that 
funds the salaries and expenses of all of those people in these 
different categories--this is not the sexy subcommittee. This 
is not the sexy subject matter. This is kind of the grunt work 
of the appropriations process, and the grunt work of the 
operations of this form of government, which is the best in the 
history of the world.
    And you all are extraordinary people who have actually 
become even more extraordinary, much like our President has at 
a time where courage is necessary. People can either become 
great or fade away. I think we have all collectively stood the 
test of time.

                        COORDINATING ACTIVITIES

    I have two questions. One, Bill, can you give us a briefing 
on how well we are coordinating all of the activities with the 
Visitor Center construction and how we are going to wean off 
the overtime of the Capitol Hill Police and not go back to 
normal, but deal with the new paradigm, and how are we 
coordinating? Is there a group that meets every week that has a 
master plan for this that you all are each a part of? That is 
one question.
    Then I want Jay to talk to me about how people are doing 
and how are the families of your workers. Each of you all can 
respond because I am most interested in the people effect of 
what has happened and what this committee can do to make sure 
that the quality of life and the fear factor is manageable. 
Bill?
    Mr. Livingood. Yes, Mr. Wamp, thank you for your comments. 
I also feel the same way about everybody, and particularly 
employees in my office, the other officers' offices, and the 
Capitol Police. I feel very committed to that, and I feel very 
deep feelings about that every day.
    To answer your question is there one group that meets? No, 
sir, there are several groups that meet. For the Capitol police 
issues, the Capitol Police Board meets. We are meeting weekly, 
sometimes twice a week on these issues. One issue is trying to 
get the Capitol police back to some normalcy, trying to get 
them back to 8-hour shifts where they don't work excessive 
overtime and they can be at home with their families and yet 
still maintaining the vigil that is needed at the U.S. Capitol 
and the buildings.
    We also have a second group, and that is the group of House 
officers that meet periodically. We have a scheduled meeting. 
And we also have a third group that meets, and that is with the 
leadership staff and the officers. Also included is the 
Architect in all of these meetings. So I think we do stay 
cognizant and on top of the constructions, the Visitor Center, 
the security requirements, the day-to-day changes that are 
occurring, and try to keep each other informed more than ever 
before.
    This is new, and I think we do a fairly good job of keeping 
each other informed.

                           EMPLOYEE FAMILIES

    Mr. Wamp. Jay, how are the families doing?
    Mr. Eagen. I would say mixed. We did a survey last fall 
once all the buildings were back open. We had a professional 
independent firm come in and do a survey of all offices, member 
offices, committees, administrative offices like Bill's and 
Jeff's and mine, and tried to get a sense of how people reacted 
to last fall, what did they think of the communications, what 
did they think about the information, how did they feel about 
their safety and their health.
    Generally, the House campus was concerned about their 
health. A more specific kind of anecdotal example is the child 
care center which is under my purview is and located in the 
Ford Building, where the contamination was found in two 
locations. We had parents withdraw their children. They didn't 
feel completely safe while we were dislocated and while they 
didn't feel completely safe to come back, some of them have 
come back. Once they got a chance to come and tour the center 
and see it, they felt comfortable again and felt that we were 
taking the right steps to prepare for the future.
    Last fall one of the task groups that we put together--we 
had a Chamber Task Group and a House Office Building Task Group 
was a Human Matters Task Group, and we recognized exactly the 
point that you were referring to, is that not only our 
employees but your staff were going to have difficulty dealing 
with this, and the job of the Human Matters Group was to simply 
focus on that aspect, trying to think through what are the 
questions the people were going to have. When the conference 
calls were done with Members and Chief of Staff, we 
brainstormed the types of questions that we were having from 
staff and Members and tried to answer them up front so people 
had the best information that they could have.
    But I think there is still generally a worry out there, if 
you will, amongst a number of people and I think that is one of 
the reasons why when you ask the questions, Mr. Moran, that we 
do have serious decisions to make about what kind of security 
systems we keep related to the mail and peoples' comfort 
working in this environment, and it is not an easy question to 
answer. I want to assure Mr. Moran, I didn't say this in answer 
to your question, I understand the mail is not going as fast as 
it should. I don't want you to believe that I have thrown up my 
arms and it is the way it is. I will not rest until we find 
ways to make it meet your expectations. I want you to 
understand that that is the way we are going to go about our 
business.

                            Tighter Security

    Mr. Wamp. Let me address that in closing because I believe 
there is a silver lining in every cloud, and I believe as one 
member of this Committee that has been here 5 years on this 
Subcommittee, we need tighter security standards around the 
traffic in and around the Capitol, and that is the silver 
lining in this cloud, is that we can now do that for all the 
right reasons. And I have taken many school groups, as any 
Member of this House--I did this morning, last night--but we 
just can't keep our guard down, and that is the silver lining 
here. We can improve our security.
    Let me tell you this. We need to move quicker towards a 
paperless environment. It is absurd the kind of junk we throw 
away. We need to reduce our dependence on all this paper and 
move these offices to paperless, and this is a catalyst for 
that. So let us use this tragedy for positive things and move 
quicker on these things and not be so reliant on the mail. I am 
glad that it forces us to change and I hope everybody will 
respond.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Wamp.
    Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman. Mr. Chairman, let me 
inquire at the outset, are we going to have a separate hearing 
on the Capitol Police?
    Mr. Taylor. We are going back to a closed hearing that you 
requested.
    Mr. Hoyer. I don't know whether that was me or not.
    Mr. Taylor. Maybe not. But we will have a closed hearing 
continuing on from the one we had a few days ago.

                        Capitol Police Turnover

    Mr. Hoyer. I won't spend a lot of time but Zach mentioned 
it, Jim mentioned it and you mentioned it. I think, Zach, you 
are correct. I do not believe we have the complement of 
personnel in the Capitol Police at this time to effect the kind 
of security that you just said you thought was appropriate. And 
we have probably, am I correct, Bill, the highest turnover 
level that we have had in the Capitol Police since you became 
the Sergeant at Arms?
    Mr. Livingood. That is correct. Only in the last 3 weeks, 
Mr. Hoyer, and that is because of these other agencies, 
particularly one that we all know is a new agency that is 
hiring 40,000 new employees--that is the Transportation 
Security Agency--are just sweeping law enforcement officers 
from our department and other departments.
    Mr. Hoyer. Mr. Chairman, the TSA is taking law enforcement 
officials from a number of Federal agencies, not just 
ourselves, and those other Federal agencies are looking for 
officers as well. And frankly, unless the Capitol Police are 
competitive in terms of pay, hours, benefits and family-
friendly hours, we are going to lose a lot of people that we 
have spent a lot of money to train and who understand this 
Capitol, understand their responsibilities. I think we have a 
critical situation. I won't call it a crisis, but a critical 
situation confronting us to which we must respond.
    Mr. Livingood. And we are looking at that, Mr. Hoyer, and 
getting a briefing on that and recruiting weekly, and there are 
a number of people leaving. We have taken some innovative 
methods to increase our recruitment.

                          OEPPO Budget Request

    Mr. Hoyer. I look forward to the hearing that we are going 
to have, and I appreciate you doing it. Let me go on quickly to 
ask some other specific questions.
    Mr. Trandahl, you indicated we have on board now the head 
of the Office for Emergency Planning Preparedness and 
Operations. It is a $2.6 million budget request for that. Can 
you briefly outline how that would be spent and what you would 
expect the Director to accomplish.
    Mr. Trandahl. That budget request of $2.6 million comes in 
a separate part of the budget. It is actually under the Speaker 
and the Minority Leader and they control that budget. As I 
understand it, the way the request has come in, it is mostly 
oriented towards personnel and they are looking at a staff of 
five to six people. As well, there is a possibility of bringing 
in a contractor.
    Previously when the three officers were creating this House 
Officer Recovery Team the last 3 years here, we had used a 
contractor to help create many manuals, processes, and 
information. So there is that possibility of bringing in the 
contractor and contractor expense to complement that staff. 
Beyond that, I really know nothing more.

                             Page Dormitory

    Mr. Hoyer. Let me go to the page dormitory. How is that 
working out?
    Mr. Trandahl. It worked out very well. As the subcommittee 
is familiar, we had about an 18-month process in terms of 
working with the Architect of the Capitol, to renovate 501 
First Street. The pages were previously in Annex 1, which is 
slated to be torn down by the Architect because of the 
structural issues within that building. The construction was 
slow. We got it done on time, though. We got the kids relocated 
into the facility the end of last August, and we are in much 
better shape in terms of having the kids in that facility--a 
stand-alone facility, with the fire protection and evacuation. 
All those features that we can bring into the facility are a 
dramatic improvement for the page program.

                              Publications

    Mr. Hoyer. We have authorized a number of historical 
publications which you are helping to prepare. Ms. Kaptur and I 
and others are very interested in these. Can you give the 
status of the publications that chronicle the Women, African 
Americans, Hispanic Americans, and Asian and Pacific Islander 
Americans in Congress?
    Mr. Trandahl. And Women in Congress. All four of those 
publications are currently in the pipeline. Currently we have 
that historical staff that we have just expanded. We are 
looking to print those probably the spring of next year. As 
well, we will be making those publications as current as 
possible. We will have a new Congress coming in at that point.
    Mr. Hoyer. You expect by the next Congress they will be 
available?
    Mr. Trandahl. It will be in calendar year next, but it will 
depend on what changes will be effected by an incoming class of 
Members.
    Mr. Hoyer. So you are going to wait until the new class?
    Mr. Trandahl. Yes.

                Restaurant Customer Satisfaction Survey

    Mr. Hoyer. Jay, let me go to you briefly and this will be 
my last question, though I have others. I have been concerned 
since I got here about the quality of the restaurants on the 
House side, quality of the food, quality of the service. I am a 
very strong supporter of organizing workers. But I am also a 
strong supporter of performance and quality. We have increased 
somewhat the quality of both, but I don't think it is where we 
need to be.
    We have discussed customer-satisfaction surveys. Would you 
tell me whether they have been conducted and, if so, what the 
results and what action, if any, we are taking as a result of 
the surveys?
    Mr. Eagen. Yes. Guest Services, Incorporated, which has 
most of the responsibility for the House campus, everything 
except for the Ford Building, brought in an independent firm 
called the Food Group last fall once we returned to the 
buildings and did a customer satisfaction survey focused on the 
House building facilities. It was focused on customer service 
specifically, because that was an area that you had been 
raising questions about and we asked them to focus on customer 
service, how are customers treated by the staff, what is the 
accuracy of the order they get. Performance aspects, not 
specifically food quality aspects. Customers were asked three 
questions, and in each of these categories, does this exceed 
your expectations, does it meet your expectation or is it below 
your expectation. Rayburn Cafeteria and the Rayburn Deli, 
Special Orders Deli got a combination of 100 percent meet my 
expectations and exceed my expectations. The two lowest rated 
facilities were not food facilities, the convenience store and 
the dry cleaners. Lowest rated food facility was the 24 hour 
vending room, but that was still in the 90 percent combination 
meet expectations and exceeding expectations. So what was done 
on the dry cleaners is the lowest one, that was only 79 percent 
meet and exceed expectations. Guest Services made a decision--
that is a subcontracted operation. They kept the back end of 
the process with the subcontract provider, but they pulled the 
staff out and put their own staff into the facility to start 
running on the front end.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. LaHood.

                      Return to Old Mail Processes

    Mr. LaHood. Mr. Eagen, do you think you will ever come to a 
point where you will make a decision not to use all the 
processes that are currently used for processing mail? Do you 
think we will ever go back to the time when somebody drops a 
piece of mail in Peoria and it will arrive in Washington, D.C. 
Within 24, 48 hours to my office?
    Mr. Eagen. I think it will be difficult to do that.
    Mr. LaHood. Why? Particularly given the fact during the 
entire time that these processes have been in place, you 
haven't found one anthrax letter except for the one that was 
delivered to Senator Daschle's office, and I know that there 
was anthrax found in Mr. Pence's office and also another office 
up on one of the top floors of Longworth. But given the fact 
during this entire period of time there have been no letters 
delivered to Members of Congress with anthrax in them, at some 
point don't you reach the point where you say, maybe we can go 
back to some more normalcy.
    It is fine what Zach said about a paperless system, but I 
represent 20 counties in central Illinois. Some people can't 
afford to do anything other than to write a letter, hoping that 
some day it will reach their Congressman or their Senator. And 
I am wondering if you made the decision or somebody made the 
decision because there was anthrax in a piece of mail or some 
pieces of mail to Senators, that since there hasn't been any in 
a long time, do we ever think about maybe going back to a 
system where eventually it won't take 6 months to reach a 
Member of Congress?
    Mr. Eagen. I definitely think forward to the idea of 
achieving a system where it doesn't take 6 months or 3 weeks. 
But the fact remains even with the scenario of last fall, the 
perpetrators of the Leahy and Daschle letters haven't been 
found; the individuals that did what they did last fall to my 
knowledge are not in the hands of law enforcement officials. So 
maybe they are the only ones in the world that are going to do 
something like this. Even they are still out there, and they 
probably could do it again.

                       Alternative Mail Solutions

    Mr. LaHood. So is what you are saying until we find the 
people who sent the mail to Mr. Daschle and Mr. Leahy that we 
are not even going to think about going back to some sort of 
normalcy of this system of delivering mail to the U.S. Capitol? 
Is that sort of your benchmark, that once these people are 
apprehended that maybe you are going to think about going back 
to normalcy?
    We haven't found bin Laden but we are not waging the same 
kind of war because we have done a lot of the people in over 
there. But bin Laden is still out there somewhere.
    Mr. Eagen. Absolutely not and I think exploring solutions 
like digitization of the mail and working with the postal 
system to make the system as speedy as possible is what we need 
to do for the near term. But the guidance I have received from 
the leadership of the institution is that we do not want to be 
put in a situation where House office buildings have to be 
closed again for 6 weeks or 7 weeks or 8 weeks at a time and 
that we need to have the security protocols in place to protect 
the institution from those kinds of scenarios, and I proceeded 
with that mission in mind.

                        MAIL PROCESSING RAYBURN

    Mr. LaHood. Well, with respect to the processing of mail in 
the basement of the Rayburn parking garage, there is a group 
down there that is processing mail in an area where cars are 
supposed to be parked. The people there are violating the 
Federal law by smoking cigarettes; I didn't think you were 
supposed to smoke in a Federal facility. That is a mess down 
there, Jay. I don't know who is responsible for it, but you got 
people actually sitting in the right-of-way where people are 
backing their cars up and people pulling their cars in and it 
is not a very professional way to process mail, and I don't 
know if you are in charge of it or not but I want you to look 
into it.
    It needs to be eliminated. It is a mess down there. The 
people that are down there have been found to be sleeping--I 
don't know who they are working for, if they are under your 
jurisdiction, but I want you to look into it and something 
needs to be done. It is not a professional way to be processing 
mail in a building and it is not the area that it should be 
done in.
    Mr. Eagen. It is my responsibility and I will look into it.

                    EMPLOYEE PHYSICAL FITNESS CENTER

    Mr. LaHood. Let me ask you about another one of my favorite 
subjects, and I don't know if anybody did a study with respect 
to some kind of a gymnasium or a facility for the employees of 
Capitol Hill that we had talked about a year or so ago and 
included some language in the bill last year to look at that. 
Can you give us a report?
    Mr. Eagen. I can. The appropriations bill directed that the 
CAO in connection with the Architect--and we did an interim 
report in January where we did a survey of the campus and 
identified potential physical spaces where a facility could be 
established. We visited a number of other facilities in the 
Washington Metropolitan Area that were in similarly situated 
organizations and found potential business models that met the 
standards that were in the request, which is to have a self-
supporting facility. The next step that we recommended in the 
study that we are undertaking now is actually to do a survey of 
the staff to determine the level of interest.
    Mr. LaHood. Is that being done?
    Mr. Eagen. That is going to be done the end of this month.
    Mr. LaHood. How are you going to do that?
    Mr. Eagen. We hired Booz Allen Hamilton to do the survey 
for us and they will ask what kind of physical facilities would 
you like to be available to you, what kind of fees would you 
like to pay as far as monthly and initiation fee, how far would 
you walk from your office, what times of day would you use the 
facility. That would help us craft the business model.
    Mr. LaHood. Do you have a time model when you know that is 
going to be sent out and then calculated and all that sort of 
stuff?
    Mr. Eagen. The survey is scheduled to go out the end of 
this month.
    Mr. LaHood. I guess the firm then will provide the results 
to you?
    Mr. Eagen. Right.
    Mr. LaHood. And then you will mull it over and make some 
recommendation to us?
    Mr. Eagen. Yes, I think I will go back to that and apply 
that to a business model or potential business models that you 
may want to consider as to what the business solution to the 
House is budget-wise.

                              CONSTRUCTION

    Mr. LaHood. Who is responsible for the new mechanisms that 
we have for people entering the Capitol out here, the new--I 
don't know what the term of art is, but all the security out 
here. Is that you, Bill?
    Mr. Livingood. Yes, sir.
    Mr. LaHood. Is that permanent or temporary?
    Mr. Livingood. Talking about out on the south barricade, 
where that is?
    Mr. LaHood. Correct.
    Mr. Livingood. That is temporary. The construction which 
you see, which is humongus out there on the south is for the 
Visitor Center. They are putting in the utility lines. That is 
why the whole area almost as wide as this room is ongoing and 
that is expected to be finished, I think, the first week of 
May. Don't hold to me to that, but I think that is what the 
Architect said.
    Mr. Trandahl. Bill, I don't mean to jump in. I am going to 
correct you a little bit. The Architect will be appearing 
before the subcommittee, and they will be able to give you much 
more in the way of construction timetables. Actually what will 
happen is the construction that is going on out there right 
now, the utility relocation for the Visitor Center would have 
disrupted all the utilities that run into the building. They 
will finish the first half of that phase I believe on May 7 and 
the drive as it is right now will flip. Where we are walking 
and driving now will become the construction site and what they 
are working on right now will be finished to a point where we 
will be walking and driving on that side. And I think that will 
take another 5 or 6 weeks and it will be finished.

                           ARCHITECT BRIEFING

    Mr. Hoyer. Bob Ney and I have asked the Architect and the 
Officers to prepare a full briefing for all Members on what is 
going on. I know you get asked and I get asked every day what 
is going on, so that the Members will have a full briefing on 
present status, timeframes, what is permanent and what is not 
permanent. Hopefully they are also getting graphics as to what 
it will look like.
    Mr. LaHood. When is that going to take place?
    Mr. Taylor. We will have the Architect here tomorrow.
    Mr. Hoyer. They are trying to get renderings because when I 
met with them I said Members want to know what it is going to 
look like because they want some expectation that this isn't 
going to look horrific. The Visitor Center is going to be 3 to 
4 years in construction, so we are going to be under this for 
some period of time. But Members need to know what is the 
Visitor Center, what is security and what it is going to look 
like at stages and at the end. And we are trying to do it as 
soon as possible because Members have a great deal of interest.
    Mr. Taylor. We will receive more explanation tomorrow at 
the Architects hearing.
    Mr. LaHood. I have heard a rumor they are not going to 
allow Members to drive their cars onto the plaza. And if that 
is a fact and not a rumor, you need to be prepared for the idea 
that there is going to be a lot of screaming around here from 
Members who cannot walk from their offices to the Capitol 
either underground or above ground. So we need to be prepared 
for that.

                          CORRECTIONS CALENDAR

    Let me just finish, if I can, Mr. Chairman. Who is 
responsible for the line item called the Corrections Calendar? 
Anybody here or is that----
    Mr. Trandahl. The Speaker's office runs the Corrections 
Calendar.
    Mr. LaHood. Should I ask somebody in the Speaker's office?
    Mr. Trandahl. Yes, sir.
    Mr. LaHood. Should I tell him you had a scared look on your 
face?
    I will just make this point, in this session for the last 
year-and-a-half, I don't know of any activity with respect to 
the Corrections Calendar. Maybe there has been. But I will 
check with Ted on this, but the Corrections Calendar budget is 
going from $883,000 to $915,000. But, I will talk to Ted about 
that.
    Mr. Chairman, if I could just finish by saying I want to 
associate myself with what everyone has said about the 
extraordinary way that all of you folks have performed. I think 
all of us were scared not to death, but pretty scared by what 
happened on 9/11 and I think could not have been more reassured 
than by what all of you have done collectively and the people 
that work for you, and so you have done great work. You really 
have.
    And I think Zach put it the best that he could and I want 
to associate myself with him, but I also want to say the big 
thank you to all of you and all of the people who work in the 
Capitol who don't get any thanks for all the extraordinary work 
that goes on around here.
    Mr. Taylor. Ms. Kaptur.

                           SEPTEMBER 11, 2001

    Ms. Kaptur. Thanks, Mr. Chairman. I have enjoyed listening 
this morning and, as my colleagues, I want to thank all of you.
    Dr. Eisold, you are quite photogenic on television, by the 
way. I wish I could say the same about myself. And thank you 
for the tremendous service that you provided to our families 
and members not just on 9/11, but to the whole country really, 
and your composure and your professionalism and your service 
was very evident. So we thank you and thank your family for 
producing you letting us share you with the country.
    Mr. Livingood, also the service you provided to us as 
Members--though the first day was very confusing, I have that 
memory. This has changed my life. I love this. And I think it 
is very important that regardless of what happens in the future 
that we be allowed to function. I know it was very 
disheartening to me, I happened to be up at Bethesda at 9 
o'clock that morning--on 9/11 I happened to be up at Bethesda 
when all of that happened just trying to call in here and then 
trying to find the Speaker that day urging him not to shut down 
the broadcast facilities or to have alternate locations so we 
could at least keep broadcasting across the country. I thought 
that was so important, but just to locate him.
    I actually found a connection to him by calling into the 
Physician's office here, since I was up at Bethesda Naval, 
saying I need to find the Speaker, how do I get to the Speaker? 
And someone was sitting in his office was able to get a message 
to him. And then the next day--not that my message made a 
difference, but at least we were able to function. And just 
going through that experience and not feeling like you were 
connected to the main ship here, that you weren't able to get 
in was a very discomforting feeling, and so I support all 
efforts to keep us functional.
    We are our Country's first line of defense on the political 
front, and we ought to be present visually and in an audio 
nature, and I know people are talking about how to make sure 
that that happens regardless of what might happen to the 
Capitol area itself, and I fully support that effort.
    I don't want to go over the ground that has already been 
plowed but in general I think it is important for everyone in 
our country to think about what this teaches us and what we 
need to do to change the future. That is really our job and 
each of us has a special responsibility there. And to some of 
the future witnesses that come before us I am going to be 
asking a lot about the way we in the Capitol and the way we 
behave and conduct our lives can set an example for the 
country.

                       ALTERNATIVE FUEL VEHICLES

    For example, even in the way we generate power and the way 
we purchase it, the way we produce it, what example could we 
better set here in the way we function? We will have the 
Botanical Gardens up this afternoon, and I want to ask them 
questions about photovoltaics, about heating and cooling in 
that facility. And if I have a major economic goal, it is to 
sever this country's connection with imported fuels of all 
kinds, because it has too often become a proxy for our foreign 
policy.
    So my first question, and I think each of us in whatever 
dollars we spend and whatever dollars we have under our 
jurisdiction, we have to think about this. I want to ask Mr. 
Livingood if you could perhaps comment a bit--I was looking at 
the Capitol fleet and I think you own about 117 vehicles. At 
least that was the list I was given, and I know there are some 
plans to purchase some additional vehicles. I am going to 
submit for the record a list of alternative fuel vehicles that 
are manufactured by companies in our country, which largely are 
not--where? You don't have any auto plants in California but 
one, so you are dependent on our region of the country for 
that. But even most of these vehicles can be purchased.
    [Clerk's note.--The vehicle inventory of the Capitol Police 
and a listing of alternative fuel vehicles provided for the 
record follows.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  ALTERNATIVE FUEL VEHICLES CONTINUED

    Ms. Kaptur. It is interesting, most of these vehicles can 
be purchased but you can't buy the fuel. But if you want a real 
vivid example of where we are really that just brings this 
whole thing into perspective, where the Pentagon got hit, if 
you go up around the road and you face it, you are going to see 
a little gas station up there called Citgo, only place in the 
Capitol region where you can buy ethanol. I don't think you can 
buy biodiesel there yet. But I think we have a major 
responsibility even in the small fleet that you have 
responsibility for here, sir, I think people here would help 
you--how do we get America to change their habits to see there 
was a different way to the future.
    I thought there was no more vivid site for me than to look 
at the hole in the Pentagon and to see that little gas station 
frame and think to myself, oh, this is interesting, we are hit 
in the heart of our Nation's defense and there sits that little 
pump Citgo and that oil comes from Venezuela and that 
government almost toppled over the weekend. And now prices for 
many of our derivative products are going to go up because of 
what happened there.
    So I just wanted to ask, many of the vehicles you currently 
have--there are four Ford Tauruses, 12 Chevy Suburbans, 1 Chevy 
Tahoe, 5 Ford Explorers, 1 Ford van, 9 Chevy vans, 3 Chevy 
pickups--they all can accommodate alternative fuels. I wanted 
to ask if you have ever given any thought to this and also in 
the new purchases that you are going to be doing whether you 
have given serious consideration to purchasing vehicles that do 
not depend on petroleum as the source of their fuel.
    Mr. Livingood. To answer your question, 4 years ago we 
looked at alternative fuel vehicles and we tried to go to a 
couple manufacturers and see if we could just borrow some to 
see how they worked. At that time, the world has changed now, 
but at that time they were not very receptive in allowing us to 
borrow some. And we wanted to do that before we purchased them 
just so we knew the pickup; if they are patrol cars, do they 
have enough pickup to stop a vehicle. One of our concerns is 
that a lot of our vehicles are used in other locations than 
just the Metropolitan Area here, our dignitary cars, when we 
have congressional events outside the city. But we will--in 
fact the chief administrative officer from the Capitol Police 
is in the hearing today and we will look at that again.
    Ms. Kaptur. Well, you know I would just say as one Member 
of Congress, and I bet I could get a good dirty dozen to come 
with me, we would be happy to sit down with the CEOs of the 
largest manufacturers in this country and for the sake of the 
Nation try to help you find some alternatives. I think it is 
time we have to change and we all have to be a part of that. 
And wouldn't that be wonderful to be able to help to change the 
habits here and give a good example to the rest of the country?

                            ETHANOL VEHICLES

    Mr. LaHood. Would you yield? I have no doubt the Illinois 
corn growers would be able to provide you with as many ethanol 
driven cars as you would like. They drive them all over 
Illinois, and I am sure they would provide you as many demos as 
you would like to try.
    Ms. Kaptur. And one of my dreams--I don't know where your 
officers purchase their fuel, but I want a pump up here where I 
can buy the fuel for my car and I can't get it. You cannot get 
it here.
    Mr. Lewis. Would the gentlelady yield? I really apologize 
for doing this. But some years ago I was heavily involved in 
the air quality business in California. I had a bill that would 
require all cars that had a place they came back to at night to 
be able to be run by propane. An associate from the University 
of California Riverside came to me and said, hey, wait a 
minute, Jerry. We developed this idea but now we are learning 
that propane, when it goes through the combustion process, 
mixes with sunlight and forms a thing called propylene that may 
be worse.
    But in the meantime we were dealing with Detroit in those 
days trying to look for improvement in gas mileage, et cetera, 
et cetera. I have to tell you I have never seen a more 
nonresponsive group than those major automobile producers here 
in the United States. I am not surprised they don't have a car 
to lend you. I am sure they are all using them themselves. In 
the meantime don't get your hopes up. It is a long, long ways 
before they are to really help us.
    When OPEC came along, gas mileage improved. It didn't 
improve until then.
    Ms. Kaptur. I don't disagree with my good friend from 
California, and I have the highest respect for him and there 
has been no committee that has tried harder than our defense 
subcommittees to access vehicles over at DOD, and the Postal 
Service, by the way, has the best record in the Government of 
the United States in terms of purchasing and R&D related to new 
fuels and new vehicles. I would love to bring in these CEOs. I 
deal with them all the time and sometimes the national 
interest----
    Mr. Lewis. I must confess to the gentlelady, I converted a 
1965 Ford convertible, a beautiful vehicle, to be able to run 
on propane. You know, that baby never ran again.
    Ms. Kaptur. I have submitted this information for the 
record and I would very much enjoy meeting with the 
representatives of these corporations here, and I am going to 
ask the gentleman to submit additional information about your 
future purchases of vehicles that are----
    Mr. Livingood. I will commit to you that we will look 
strongly at purchasing vehicles with alternative fuel.

                              FOOD QUALITY

    Ms. Kaptur. I thank you very much. I have an additional 
question, Mr. Chairman, and that relates to food quality. I 
heard what Mr. Eagen said about these studies that were done. 
And as a member of the Agriculture Committee, it is interesting 
the term you used is what is in the machines met the 
expectations. I don't know what that means, but I have been 
amazed since my early years of service here to look at what is 
in the vending machines here and I don't know who hires or get 
the foods that is served in the cloakroom. That is the highest 
sugar, highest fat, least nutritious food I have ever seen. And 
you can't even get celery sticks. Maybe the guys around here 
like eating all this stuff. But the doctor takes care of them 
at the output end. And I think if I have a plea, it is that 
nutrient quality, not sugar, rich fat, be the only way we 
provide food in this--we should look at a set of alternatives, 
certainly in the vending machines. I don't know how we get 
these vending machines in here, whether we are paid by some 
vendor to take the machine or we pay a fee. We have high sugar 
in those drinks. You can't get a bottle of pure juice in this 
Capitol. Once in awhile you can get an apple. But if you were 
to do a survey of what is sold here in terms of food, it is 
absolutely junk.
    And it is the same message we give to every child in this 
country when we have these vending machines in our schools, and 
that is why a third of our kids are obese. We have the worst 
problem growing up across this country coast to coast, and we 
perpetrate that here. I am not asking you to get rid of the 
junk food. I am just asking you to fill the other half of the 
carousel windows with good food. How do I accomplish that in 
this Capitol?
    Mr. Eagen. I am the man that can try to do it for you.
    Ms. Kaptur. We would be pleased to bring people from the 
Department of Agriculture Nutrition Service in here to identify 
product lines and to find a way to provide nutritious food to 
the people who work here as well as those that visit. So I 
thank you very much, very much for that.
    I have some questions that I will submit to be answered for 
the record regarding the food quality and artwork.
    [The questions and responses follow:]

         Nutritional Quality of Food Served in House Facilities

    Question. I am concerned about the nutritional quality of food 
served in House facilities. I pass by the vending machines in the 
Rayburn building several times each day and have noticed an absence of 
nutritious choices for Members and staff. Is the nutritional quality of 
these foods a factor in the contracts you have with the vending 
companies?
    Response. Our contract with the food service vendors states, ``The 
variety and appearance of food shall be consistent with approved food 
service industry standards.''. The vending in the Rayburn subway area 
is primarily used as a quick service area. While more variety and 
nutritious selections are available in the 24-hour vending area, we 
have asked Vending Services, Inc., the vending subcontractor for Guest 
Services, Inc. to add more nutritious and healthy snack foods.
    Question. Please tell us who are the vendors and for how long the 
contracts run.
    Response. Ford House Office Building--Skenteris Family Inc; 
Capitol--Guest Services, Inc.; Cannon House Office Building--Guest 
Services, Inc.; Longworth House Office Building--Guest Services, Inc.; 
Rayburn House Office Building--Guest Services, Inc.; Vending 
subcontractor--Vending Services, Inc.; Catering subcontractors--Uptown 
Catering, Ridgewell's Catering.
    Ridgewell's Uptown and Vending Services Inc. are subcontractors 
under the Guest Services contract.
    The base period for the Guest Services, Inc. contract runs until 
December 19, 2002. The base period for the Skenteris contract expires 
on September 15, 2004.
    Question. What can be done to improve the selection of items 
available, along with making certain that there is greater similarity 
of offerings between the vending machines in Rayburn and Longworth?
    Response. A new 24-hour vending are will be added in the Rayburn 
House Office Building when the Rayburn Cafeteria renovation is 
completed. This new area will feature cold food vending machines with 
more nutritious and healthier offerings.
    Question. Similarly what concern is given to the nutritional 
content of the foods served in our cafeterias? I have noticed in the 
Rayburn cafeteria that there are days when the vegetable choices 
include several starches rather than a good variety. Certainly the 
options can be improved upon.
    Response. Guest Services, Inc. is revising the menu for all their 
cafeterias. They will include more seasonal fresh vegetables.
    Question. Do you know if anyone has ever given any thought to 
posting the nutritional profile of the foods being offered so that 
people can make more informed choices?
    Response. Yes, there are ongoing discussions with Guest Services, 
Inc. to publish the nutritional profile of their menus. We agree that 
this would be a valuable consumer service.

                         Artwork in the Capitol

    Question. What steps, if any, have been taken to respond to the 
concerns regarding the representativeness of artwork?
    Response. In addition to the new resources within the Legislative 
Resource Center, several new works of art are being created for the 
Capitol that reflect the diversity of citizens who have played 
important roles in our history. Statues of two Native American women, 
Sarah Winnemucca and Sacagawea, have been commissioned for inclusion in 
the National Statuary Hall Collection. Amelia Earhart will possibly be 
the subject of a statue in the same collection.
    The creation of a curatorial specialist enhances the ability of the 
House to research and locate potential artwork for acquisition and 
loan, and the position puts into place staff to research and coordinate 
the commissioning of additional art.
    Question. What is currently in the House inventory of artwork that 
represents women and their contribution to our country? Please specify 
whether it is displayed or in storage.
    Response. To date, Historical Services and the Architect of the 
Capitol have identified 20 women of achievement depicted in House 
artworks. Of those works, 18 are on display and two are in storage (see 
Table HS-1). In addition, there are several paintings depicting events 
in American history that include women, such as the Allyn Cox mural 
segment of the 1917 woman suffrage parade. Because an authoritative 
catalog of the House Collection is in process, Historical Services is 
not able to provide a complete count of this artwork.
    Women artists are also represented in House artwork. To date, 53 
works by women artists have been identified, including fifteen in the 
National Statuary Hall Collection (see Table HS-2).
    Question. As you know, I have a great interest in being sure that 
the artwork that is on display in the Capitol more fairly represent all 
of those who have contributed to our nation's history, including women. 
This committee has been very clear in recent years regarding 
expectations that this situation be corrected so that women are more 
fairly represented in our displayed collection. With respect to the 
House of Representatives, what changes have been made over the past 
three years with respect to what artwork is displayed?
    Response. The first step towards bringing greater diversity to the 
artwork of the House is to identify what already exists. Until 
recently, the House has relied upon the efforts of the AOC curator, in 
addition to its usual responsibilities, to identify and track House 
artwork. Two years ago the Office of the Clerk created within the 
Legislative Resource Center the Historical Services section, and this 
year a curatorial specialist was added to Historical Services. This has 
provided the House with the resources with which to identify gaps in 
the collection. The curatorial specialist can assist the AOC curator in 
carrying out this inventory. Historical Services staff can then 
identify individuals, groups, and events that are missing from the 
collection.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                             CAPITOL SAFETY

    Mr. Taylor. Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman, and, Mr. Livingood, 
I would like to congratulate you on your good judgment on 
buying all those Chevrolets. I don't want to go over the ground 
that has been plowed and harrowed. But I would like to add my 
words of appreciation for what you and your people as a class 
have done to protect us here and to make this system work in 
very unusual times. I do think, however, as representatives of 
650,000 people, we have to be able to take a certain amount of 
risk for ourselves and there is no way we can shut the place 
down and make it totally safe. We have to make the decisions 
that we can make, the threat assessment, and reduce the risks 
as much as we can, but the only way you can make it totally 
safe is for us to go home and stick our head in a hole and that 
is not what we want to do and that is not what we are elected 
to do.
    On the mail--and I realize we have spent an awful lot of 
time on it, but it is a very serious problem because it is the 
way so many of our constituents still contact their 
Congressmen. And I received a letter yesterday that was 
postmarked in the second week of October. So we still have 
those problems. And I think if we accept that level of service, 
we are sort of in a perverse way contributing to the problems 
that the Postal Service is having nationally right now. I mean 
their total financial performance since 9/11 has gone down the 
tubes and we have got to continue to help work that out. And I 
know that you have to have your security protocols, but somehow 
that has to be worked out where the system works. We can't be 
running a government where we are getting information from the 
people we represent that was sent in October.

                             CAPITOL TOURS

    Enough said. Mr. Livingood, the tours of the Capitol, and 
when I say that we have to accept a certain amount of 
responsibility for our own safety and take a certain amount of 
risk if we are going to have this wonderful job of representing 
650,000 Americans, I just would encourage you as you go forward 
in that to make sure the system is not so safe that it doesn't 
work. We still have to get our kids through the Capitol, and 
your people, whenever I call, they are very, very cooperative, 
but it is getting to be--the rules seem to change everyday. And 
anything we can do--I don't think that there is--if we shut it 
down so we can't take our school kids through the Capitol of 
the United States, I think the terrorists have won in a certain 
regard and I would like your comment on that.
    Mr. Livingood. You are correct. We are doing everything 
possible. We are meeting on tours every other day. This is one 
of our top priorities, from this committee and the Committee on 
House Administration. They are calling us every day. We have 
doubled the number of tours in the last 3 weeks, doubled on the 
South Door, and we have positioned guides out there. And you 
will find when you walk by in the afternoon, there is barely--I 
haven't seen more than 15, 20 people there waiting to get into 
tours, where there used to be maybe 100, 150. So I think we 
have made substantial gains.
    Plus when I walk in the afternoon or around this time, late 
morning, the Capitol is much fuller than it has been. So I 
think that we are trying to address the school groups. We have 
some other alternative solutions. The board meets early next 
week, at least from the House side are presenting some 
additional means to get people into the building. Where we are 
slow is on the public tour because we have the East Front 
screening center and that can only handle X number of people 
per hour to get them screened to get in.
    We have a new screening facility going on or being built 
right by my office. It is the southeast corner of the building, 
and that will be finished and ready for business May 20. That 
will put more people into the building safely, but I think it 
will address both our concerns.
    Mr. Sherwood. I just would like to reiterate my thought, 
the only way we will be totally safe is if we totally cease to 
function. And so I would encourage you to make those decisions 
knowing that we have to accept some risk. I think if we are 
going to be leader of the free world, we have to accept some 
risk.

                            COMPUTER SUPPORT

    Mr. Eagen, we get wonderful service on our computers and 
that sort of stuff generally through the vendors that are set 
up with your office. The suggestion that I would have is that 
sometimes--sometimes--if we are making a change, we ask what 
functions will be lost in the transition and sometimes there is 
some information lost there; in other words, we try to set up a 
big transition and we got it all done and it is all done but we 
lost some functions for a few days in the meantime that they 
didn't inform us we were going to lose, and that again goes to 
the issue of how responsive and how effective our offices are. 
And it ties in--we can't be effective if we don't get our mail. 
It is hard to be effective if our computer systems aren't up 
and running, and I just ask that maybe there should be a 
checklist developed so that when you make a change the offices 
are informed of what we are going to lose during the change.
    Mr. Eagen. We have something similar to that. Let me try to 
describe it to you and see if it meets your needs. Three years 
ago we started a program called a correspondence management 
system evaluation program. When we learned that one of the 
vendors is going to change its software, whether it is ACS or 
InterAmerica or any of the other seven or eight that are doing 
business on the Hill, we require them to submit it to us with 
their marketing, and we literally have set up a lab down in 
House Information Resources where we install the system. We 
have a database that is similar to the size that most Members 
have and we run that software through the paces and we measure 
it against the marketing that they are claiming of what it can 
and can't do and then we write up a report. We give the vendor 
a chance to respond to that report and depending on how they 
respond we do one of two things. We either reject the software 
because it doesn't match up to the marketing or we say it is 
okay, but then we publish the report on the Web as kind of a 
consumer reports information piece. So that is available to 
your systems administrator, and every time a vendor is planning 
a software upgrade we go through that regimen.

                        TECHNOLOGY VENDOR SURVEY

    Second, a year ago we started a contract with a combination 
of the Congressional Management Foundation and the Gartner 
Group. The Gartner Group is a leading technology consulting 
firm, and they did a survey of all systems administrators of 
customer satisfaction with the various CMS programs, was it 
performing, was it doing what it was supposed to do, what kind 
of service level are you getting in terms of the vendor being 
there when you need them and all those kinds of things. And we 
came up literally with ratings of the various vendors and their 
products.
    The survey is in the field for a repeat of that right now, 
and we hope to have that report out in the next couple of 
months before we get into the year-end buying season that 
usually occurs around here as Members consider upgrading their 
systems. The idea is now we have got a benchmark of a year-and-
a-half ago or 2 years ago and will now show what kind of 
progress the vendors made in terms of those that were weak, did 
they improve, those that were strong, did they get better, so 
forth and so on.
    Mr. Sherwood. I think it is our responsibility in our 
congressional offices to use our Congressional office as an 
example to the general public that government works, and we 
have to get our mail, our computers have to work, and we have 
to have our system set up in a tickler file so we know all that 
stuff goes back out, and I thought in my office we had that 
stuff working pretty well and since 9/11 the level of service 
that we have given our consumers, our constituents, has dropped 
significantly and we all have to work together to get that back 
up.
    And I would like to add my voice to the committee to thank 
your people for all their hard work and sacrifice in this time, 
and we very much appreciate it.
    Mr. Taylor. Thank you, Mr. Sherwood.
    Mr. Lewis.

                         ALTERNATE DATA CENTER

    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Livingood, friends, welcome. I have a number of 
questions. To begin with: 9/11. We have heard time and time 
again how that day caused us to rethink where we have been. 
Among other things I found fascinating is when those two 
buildings came down in New York, there were within them the 
central operations of some of our major financial institutions 
who depend upon information to carry forward their work, and 
responsibilities--responsibilities that are dramatically 
important to our economy. I learned that many of these people 
had anticipated the need for alternative availability of that 
information if something should happen to the systems in the 
building--I don't know if they thought their computers would 
fail or what. There was backup storage relative to that.
    I had questions about the Pentagon relative to the same 
issue after the plane crashed into it and learned that we were 
at least in the beginning stages of backup storage efforts at 
places like Fort Belvoir. A lot of money was being spent to 
make sure that data and information was available in a timely 
fashion regardless of crises.
    The Capitol has similar needs and I wonder if somebody can 
tell me what we are doing and what the prospects are to make 
sure we can function if our information systems were wiped out.
    Mr. Eagen. That is my responsibility and we are probably 
more like the DOD characterization that you did, that you made 
than we are Wall Street. We have a number of capabilities in 
place that allow us to remotely operate the systems and we have 
backup regimens in place for the central mission critical 
systems for the House. What we don't have is redundancy for 
those systems, and one of the proposals that was in the 
emergency supplemental for last fall is for the legislative 
branch to create an off-site alternative data center to 
undertake that mission. The House has already begun acquiring 
the front end of those kinds of capabilities.
    Mr. Lewis. What do you mean?
    Mr. Eagen. What is called the Secure Area Network. It would 
be equipment where the data as it is worked here on the House 
side is automatically copied.
    Mr. Lewis. So you are replicating the data and equipment?
    Mr. Eagen. Replicating the data through specialized 
equipment that serves that function. So if the facility in the 
Ford Building on the sixth floor were lost, we would still be 
able to function, yes, sir.

                    COSTS FOR ALTERNATE DATA CENTER

    Mr. Lewis. Would you submit for the record what the current 
costs are and what you anticipate the costs to be for the 
center so we have an idea?
    [The information requested for the record follows:]

    The estimated cost of the actual build out (data center 
infrastructure) is approximately $27 million. Included in this estimate 
are all systems currently operating within the House, Data Networks and 
Voice communications. The cost of sustaining these operations will be 
approximately $3 million per year for the first two years and $6 
million per year for the third and fourth year (due to life cycle 
replacements).
    Final costs associated with the property are still being 
negotiated.

                              MEMBERS' GYM

    Mr. Lewis. I especially want to welcome Dr. Eisold to the 
meeting today. The health of Members is an item of interest to 
many, especially to the individual member who may have health 
problems one way or another. I happen to have a great facility 
in California where there is a lot of experimental work that 
goes on at Loma Linda University Medical Center. They do all 
kinds of experimental things relative to how we get my hair 
grayer and things of that kind.
    I am very impressed by the services available to Members, 
and it is very important to not have physicians just sitting 
around waiting for a heart attack to occur or responding to a 
specific health emergency that is unexpected but rather to have 
a broader understanding of Member health issues. I would like 
to ask Dr. Eisold questions about that general membership.
    Well, let me first make a point: the gym is an interesting 
facility around here and what the percentage is of Members who 
use those exercise facilities I have no idea. But I do find the 
swimming pool empty a lot and it causes me to wonder. We have a 
guy who is a trained physical therapist down there, but unless 
a Member asks for specific ideas about what they might do 
better, there is a little interaction with health experts, not 
nearly as much as there might be. Have you ever spent any time 
in our gym? Have you worked out there?
    Dr. Eisold. I do not use a gym here. I use a gym near my 
home. It is too busy during the day to go away myself and use 
the House gym, but I work closely with the House gym and with 
people in the gym and have toured the gym, so I am very much 
aware of its capabilities. I think what you touch on is 
probably the hardest thing to do in medicine, and Congresswoman 
Kaptur touched on it, too, when she talked about nutrition. It 
requires individual discipline, will power and scheduling to go 
to the gym or eat the right things. And our job, either the 
people in the gym or my office, is to keep pushing those 
concepts with people like yourself or other people not using 
the gym.

                            MEMBERS' HEALTH

    Mr. Lewis. Mr. Chairman, I have often suggested and have 
had some interaction with physicians of the Capitol in the past 
about what might be the valuable result, especially for the 
young Navy physicians who are here, of programming exercise 
regimens that would specifically attack or impact the problems 
of individual Members, and actually be selling this to Members 
that they ought to be actively involved. And there is a good 
deal of money spent in this budget, and I think that would be a 
very exciting prospect for physicians who are interested in 
preventive medicine, and I am wondering if we couldn't use a 
significant piece of this budget to accomplish that.
    I notice that between 2001 and the proposed budget there is 
a huge decrease. It seems to me we could go a long ways towards 
educating Members about being more intensely aware of the 
importance of health relative to productivity.
    Dr. Eisold. Again, I think prevention, and you and I have 
had this dialogue before, prevention is really the most 
important aspect of the delivery of care. Primary prevention 
before things happen is key. All those capabilities are 
available to us in our present configuration, and our access to 
the Members is only limited by the Members' own desire to come 
down and be available. I think that everybody knows how 
accessible we are, and certainly it was no more visible than 
during the fall. We can be everywhere at any time and we are on 
a daily basis. The door is always open. And when people are 
voting, they are not very far from us.
    Mr. Lewis. Mr. Chairman----

                          PREVENTIVE MEDICINE

    Ms. Kaptur. Would the gentleman yield for a second? I want 
to endorse what you are suggesting, having served here long 
enough to see what has happened to many of my friends and 
colleagues over the years because of the pressure of this job 
and the lack of attention to their personal health. And let me 
speak on behalf of the women Members if I just might, because I 
don't know if the money is in this budget for the women's 
facility or not, but over the years trying to get equity in 
that has been an interesting journey and we are there now. But 
in terms of actual programming, we have to be programmed. We 
are programmed every minute of every day and we have to get 
this in.
    Frankly, I even thought doing a Weight Watchers class. 
Well, if we can't do it through these facilities, let us do 
Weight Watchers. They seem to be able to know how to do it. 
Some of our Members have gone on the wackiest diets I have ever 
seen, and it is not good for their health. You talk about 
prevention. If you call it diet, you will get a bigger turnout, 
take my word for it, because everybody has some idea of some 
diet that they are on here.
    But people need to attend to their health. We need a 
programmed way to do that. We have facilities, we just don't 
have--what you are saying--we don't seem to have the personnel 
in place or anybody interested in prevention and health that 
helps us tailor programs to whatever group of individuals might 
want. And I really after 2 decades of service this has been 
needed for a long time. And when you look at the number of hard 
cases we come up with here and all the different things that 
happen to people I couldn't believe the number of people who 
has collapsed intestines because of poor diets and stress. And 
it just seems to me that we will save money in the long run 
because we won't be having all these illnesses.
    I just support you so much in what you are saying, and I 
hope that there could be a more organized way of reaching out 
to the Membership, including the women, so we can--and 
generally you are not available at noon. I mean you have to do 
it after work or before work. And so I think people would do it 
if we could have a little leadership on the prevention side. So 
I wanted to endorse you.

                                PARKING

    Mr. Lewis. Mr. Chairman, if I could mention another item. 
Even in your State, Mr. Chairman, it is my understanding that 
some of the major employers, even the banks, provide no cost 
parking for their staff and executives. Sometime ago--this 
place is so nutty, the Members believe in self flagellation and 
we like to put flags out about how much we beat ourselves over 
the head--we began deciding to charge people for parking spots 
in the Capitol. I mean, that is really a nutty idea and I would 
ask one of my financial experts who has done so much for his 
own State to review that kind of idiotic policy as it relates 
to the individual Members and others around here.
    Mr. Taylor. I appreciate that. If members have other 
questions, please submit them for the record. We have covered 
many areas here today. Gentlemen, we appreciate your 
appearance. I would say to our Members it is the House Members 
that are going to determine what happens in the House. These 
gentlemen advise. They carry out our responsibility. But if we 
want to change this, don't blame it on them. We have to change 
it ourselves and direct them to do it, and I appreciate your 
willingness to do that. Thank you, gentlemen.

                             STUDENT LOANS

    Mr. Hoyer. Could I ask a brief question? The Legislative 
Counsel is here, and I would like to ask about a student-loan 
repayment program because we are talking about that in the 
House Administration Committee. Could you comment on that how 
useful that would be for your office?
    Mr. Barrow. I can comment on that. Our greatest challenge 
is recruitment and retention. I think it will be a big 
incentive for those people to stay in our office. We lost a few 
recruits in recent years because the heavy burden of student 
loans is something of great concern to prospective applicants, 
some of whom have loans totaling as much as $100,000.
    Mr. Hoyer. And competitors are offering to assist with 
those.
    Mr. Barrow. At this point it is available in the Senate and 
the entire executive branch. The House of Representatives is 
really the only agency in the executive and legislative 
branches of the Federal Government that does not participate in 
a student loan repayment program.
    Mr. Hoyer. Mr. Chairman, that is the key. The Senate is 
offering this benefit and other executive agencies are offering 
it, and we are starting to lose people to the Senate. And the 
Speaker has been very good on getting us more competitive, but 
that is something we need to focus on.
    Mr. Taylor. Gentlemen, thank you very much and we 
appreciate your job.
    [Clerk's note.--Questions submitted for the record by Mr. 
Hoyer follow.]

                              Public Tours

    Question. At present, persons taking public tours of the Capitol 
may not visit the House or Senate Galleries when the bodies are not in 
session. This is disappointing to Capitol visitors. Are there plans to 
permit tour groups to visit the galleries when the House are not in 
session?
    Response. We continue to review opening galleries to visitors when 
the House is not in session. However, due to lack of USCP manpower we 
are unable to adequately staff the galleries at this time. As staffing 
levels increase it is our goal to re-open the galleries for visitor 
access.

                            FIRE PROTECTION
    Question. Last year, as the House Inspector General, you reported 
that you were satisfied with the pace of progress on fire-protection 
work in the House and the Library, such as upgrading fire-protection 
systems. But you expressed concerns about progress on development of 
routine inspections, testing and maintenance schedules. Are things 
where they need to be in this respect, in your judgment?
    Response. As we reported, the AOC had not developed a comprehensive 
maintenance, inspection, and testing plan. There is an immediate need 
for such a plan. To date, the AOC has not yet completed such a plan. 
However, since our report, they have initiated actions for the 
development of a plan. Both House and Library Superintendents have each 
recently added a contracted fire protection engineer to their 
respective staffs to develop and implement a comprehensive plan. In 
addition, contracts have been awarded for the required annual 
inspection of the fire protection systems. These are initial steps in 
the right direction that must be followed through to complete the 
development of a comprehensive maintenance, inspection, and testing 
plan. We will continue to monitor and report on their progress.

                             HOUSE ART WORK
    Question. What are your long-term plans for maintaining House 
antiquities and artwork? How can the House improve its management of 
these treasures?
    Response. The key element in planning for the House collection's 
well-being is a complete collection inventory, which the AOC curator is 
in the process of creating. The results of this inventory--which will 
include assessments of current condition and exhibition--will determine 
the collection management needs of House artwork. Historical Services 
has begun coordinating with the AOC curator in assisting with the task 
of cataloging the House collection.
    Question. How will your new curatorial staff interface with 
existing functions in the Architect's office and the Senate?
    Response. Long term planning for the maintenance, acquisition, and 
interpretation of the House collection will require close cooperation 
among Historical Services, the AOC curator, and the Senator curator. 
Historical Services has initiated a series of meetings with these other 
entities in order to share institutional knowledge, coordinate our 
collective efforts, and prevent duplication of effort.
    Question. Do you have recommendations about how to improve 
procedures for accepting and maintaining portraits received by House 
Committees?
    Response. The curatorial function within Historical Services 
creates additional resources for providing guidelines to House 
committees and for monitoring the progress of acquisitions. Historical 
Services is actively evaluating current procedures for accepting and 
caring for committee chairman portraits in cooperation with the Fine 
Arts Board and the AOC curator.
                                         Wednesday, April 24, 2002.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
LAURA CAMPBELL, ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
RUBENS MEDINA, LAW LIBRARIAN
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
MARYBETH PETERS, REGISTER OF COPYRIGHTS
WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED
KENNETH E. LOPEZ, DIRECTOR OF SECURITY
LINDA J. WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
KATHRYN B. MURPHY, BUDGET OFFICER, FINANCIAL SERVICES

             Major Elements of the Library's Budget Request

    Mr. Taylor. The committee will come back to order. We will 
now take up the budget request of the Library of Congress.
    We want to welcome Dr. James Billington, Librarian of 
Congress, and (retired) General Donald Scott, Deputy Librarian 
of the Congress. We are happy to have both of you here, and we 
apologize that we asked you to be here at an earlier time and 
the prior hearing ran a little longer than we thought. One can 
never gauge the interest.
    The fiscal year 2003 budget request before the committee 
assumes total funds available will be $735.1 million, derived 
from a variety of resources, including appropriated funds, 
receipts, gift, trust, revolving funds, and reimbursable 
programs. The direct appropriations request is $511.5 million 
plus authority to spend receipts of $36.6 million. This 
request, as were all requests from the agencies of the 
legislative branch, has been adjusted by the amount required 
for retirement and health insurance accrual. Thus the increase 
requested is $29.9 million.
    The Library is requesting funding for 169 additional FTE's. 
The Library has 4,189 permanent FTE's in the current workforce. 
In addition, there are 173 indefinite positions, 32 supported 
in administrative jobs by receipts, 6 supported from funds 
transferred from other Federal agencies, 51 supported from gift 
and trust funds, and 165 supported from revolving funds. In all 
the Library has a grand total of 4,785 FTEs.

                       Introduction of Witnesses

    I would like to yield to Mr. Moran if he has any opening 
statement, and then we will move on to you, Dr. Billington.
    Mr. Moran. That is okay.
    Mr. Taylor. Thank you, Dr. Billington. It is good to see 
you and General Scott as always, and we would like you to 
introduce your staff that have accompanied you.
    Dr. Billington. Well, we have the Director of the 
Congressional Research Service Daniel Mulhollan; Associate 
Librarian for Library Services, Winston Tabb; our Chief of 
Staff, Jo Ann Jenkins; Register of Copyrights, Marybeth Peters; 
Laura Campbell, Associate Librarian for Strategic Initiatives.
    Mr. Moran. Could you have them stand? You are just pointing 
to the audience there. I would like to know who it is you are 
referring to.
    Dr. Billington. Laura Campbell, the Associate Librarian for 
Strategic Initiatives; Rubens Medina, the Law Librarian; Frank 
Kurt Cylke, the Director of the National Library Service for 
the Blind and Physically Handicapped; Kenneth Lopez, Director 
of Security; Linda Washington, Director of Integrated Support 
Services; John Webster, Director of Financial Services; and 
Kathryn Murphy, Budget Officer with Financial Services.
    So that is the cast.
    Mr. Taylor. Dr. Billington, we will be entering your 
statement in the record as well as the Register of Copyrights 
and the Director of the Congressional Research Service. If you 
or General Scott have a short opening statement or any comments 
before we go into questions.
    Dr. Billington. I think we are ready to answer questions 
directly, Mr. Chairman.
    [The prepared statements of the Librarian, Register of 
Copyrights and the Director of the Congressional Research 
Service follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 HIRING SYSTEM--IMPLEMENTATION PROBLEMS

    Mr. Taylor. There are a number of programs, events, and 
meetings that the Library provides that they invite all of us 
to attend, and I think it is very important for Congress and 
the Library of Congress. I urge all of you to attend those 
meetings if you possibly can because they are wonderful 
opportunities for us to see the Library as well as the 
multitude of people around the world that the Library 
communicates with, works with and serves.
    Dr. Billington, the committee is aware of what seems to be 
an ongoing implementation problem with your new automated 
hiring system and, because of these problems, you realigned in 
the current fiscal year almost $15 million from your salary and 
benefit accounts to contract service accounts to get the work 
accomplished, for which the committee provided personnel FTE 
funding. This $15 million is double the amount provided for new 
FTEs for the current fiscal year and is greater than the amount 
provided for new FTEs for the prior three fiscal years.
    For the benefit of the members, can you explain how this 
system was selected and any other comments you would like to 
make about it?
    Dr. Billington. I am sorry, I am not quite sure. You are 
talking about reprogramming or the current appropriation 
request?
    Mr. Taylor. We are talking about the automated hiring 
system.
    Dr. Billington. Well, I think, in brief, we have been 
implementing a new automated hiring system, which we wanted to 
achieve a variety of goals. We wanted to expedite the hiring 
process. We wanted to make sure that Amended Appendix B was 
fully comported with and exemplified in the new system, and we 
wanted to have an efficient, much more rapid hiring system than 
we have had in the past. We actually subscribed to a system, we 
did not purchase a system. We had a variety of things we had to 
do in a fairly short time span in order to satisfy the Amended 
Appendix B requirement. We had to move very fast.
    As with implementing any new system, there have been some 
problems and we are managing them. We have appointed a project 
manager, and General Scott has been in charge of implementing 
this. It was slow getting started. It has now gathered 
considerable momentum, and we are both continuing to hire and 
gather momentum and, at the same time, evaluating and 
developing standard operating procedures and other matters so 
we can evaluate this system against others to see if we want to 
continue with this particular service.
    But I will let General Scott get into the details because 
he has been in charge of this.

                         SYSTEM SELECTION GOALS

    General Scott. Thank you, Dr. Billington. Mr. Chairman, we 
do have a new system that we are putting in place and, as Dr. 
Billington has just expressed, we did have some unanticipated 
automation, as well as, process problems in addition to those 
we anticipated. Nevertheless, the Library has been able to hire 
167 new people under the new system. We expect that with the 
apparatus and the evaluation and analysis process that we have 
in place right now, that we will be able to hire nearly all of 
the people that we need for the rest of 2002--this calendar 
year.
    You asked, for the benefit of the members, why and how did 
we select this system. Basically, there was three goals in 
seeking a new system. One, the Library needed a system that met 
all the functional requirements of the negotiated settlement 
agreement between the Cook Class Plaintiffs and the Library's 
Amended Appendix B. Two, we did not want the system to be cost-
prohibitive. And, three, we wanted a system that could be 
implemented in a rather short period of time.
    With those three goals in mind, we knew that we could not 
build a system in-house--that would be too cost-prohibitive--so 
we evaluated several systems that are already in the 
marketplace. We looked at three systems: Avue, the Office of 
Personnel Management's Human Resources Manager, and Resumix. 
Because of the three goals that we wanted to meet, we picked 
Avue because they were the only vendor that had a system that 
met the Amended Appendix B requirements, and they were willing 
to work with us to make the system as responsive to our needs 
as it possibly could be. That is why we chose that system.
    Mr. Taylor. I have some questions that I will submit for 
the record regarding the new automated hiring system.
    [The questions and responses follow:]

                   Library's Automated Hiring System

    Question. Were your system requirements defined prior to the 
selection of the Avue system?
    Response. A written system requirements document as defined by 
contracting standards had not been developed. However, functional 
requirements were identified by the Library. Key factors in determining 
the contracting of an automated hiring system included: meeting all the 
functional requirements of the draft Amended Appendix B of the Cook 
Settlement Agreement (content-valid process), reducing the total time 
to bring new staff on board after posting a position, (current system 
was taking 178 days), operating within the Library's current budget, 
and becoming operational in a rather short period of time--since the 
Library only had three months from the court order to implement a 
system.
    Due to these goals, the Library had to focus on off-the-shelf 
systems, as an in-house or fully customized system could not meet the 
dollar and time constraints. Avue was the only vendor that had a system 
that met all these requirements and that expressed any willingness to 
modify their system to meet the unique needs of the Library within the 
time frame imposed upon the Library. Avue also indicated that it could 
reduce the average number of days required to fill a position to 60 
days, a reduction of 118 days from the Library's current system. 
Therefore, Avue was chosen and the Library's contract was an add-on to 
the existing contract of Veteran's Affairs Department, which was using 
the General Services Administration as a contracting officer.
    Question. If so, what were the requirements?
    Response. Based on the key factors, and guided by a Hiring 
Improvement Plan, as well as by the General Accounting Office's 
guidelines for automated hiring systems, the Library established the 
following functional requirements:
    <bullet>  Maintain the Library's position descriptions and job 
analyses.
    <bullet>  Enable selecting officials to update or create new 
position descriptions.
    <bullet>  Create draft vacancy announcements, applicant 
questionnaires, crediting plans, job analysis worksheets, interview 
questions and benchmark anchors.
    <bullet>  Enable users to apply online.
    <bullet>  Rate and rank applicants' questionnaires.
    <bullet>  Notify online applicants of their eligibility 
determinations.
    <bullet>  Generate a list of the highest-ranking applicants plus 
tied scores for the interview.
    <bullet>  Maintain all documentation for content-validity and 
compile a report at the conclusion of the selection process.
    Question. Have you reached a point that this system is not meeting 
your requirements?
    Response. The Library is in the process of determining whether this 
system can meet its needs in the long-term. While the system has been 
able to fill selections, the mechanics of the hiring process have been 
troublesome.
    Using the new system, the Library has filled 167 positions as of 
April 17, 2002. The Library expects to reach its projected hiring 
targets this year and surpass last year's hiring numbers--172 
selections in FY 2001.
    The completion of the Library's Standard Operating Procedures (SOP) 
and Customer Requirements Document (CRD) will enable us to make a 
decision as to what system will best serve the Library. The Project 
Team's review of these documents will be completed in June, at which 
time the Library will decide how to address its hiring process in the 
future.
    Question. What requirements have not been met?
    Response. The Library is in the process of determining whether this 
system can meet all the requirements of the Library and until that 
review is completed, it is difficult to know all the requirements that 
cannot be met. As noted, Avue and the Library have worked very hard to 
resolve many of the problems identified to date and will continue this 
process.
    One area in which Avue has not been able to meet functional 
requirements is benchmark anchors. Benchmark anchors are developed by 
the subject matter experts during job analysis and are used as 
evaluation standards to score candidates' responses to the interview 
questions. The Library has developed and continues to use a workaround 
for the benchmark anchor issue. Recently, this functionality became 
available, at no cost, as part of Avue's scheduled release of its 
software in spring 2002. The Library is currently evaluating this new 
release to see if it meets the Library's needs in the area of benchmark 
anchors.
    Question. What were/are your implementation problems?
    Response. The Library's initial priority was to install a content-
valid automated hiring system that reduced the time to hire quality 
employees and resolved outstanding Cook Class Litigation issues in an 
expedited manner. To that end, the Library negotiated Amended Appendix 
B which created a new hiring process for the Library.
    The constraints imposed by the new process and the pressures on the 
Library to get the new process quickly up and running to fill urgent 
staffing needs have complicated implementation for the following 
reasons:
    <bullet> The new hiring process differed radically from the old 
one; and Avue was an entirely new system for the Library. Both the new 
process and the new system required new and different roles for all 
staff involved in the hiring process. Training on the new process and 
the new system proved far more complex and time-consuming than 
anticipated.
    <bullet> The new negotiated hiring process changed the way in which 
applicants' qualifications are assessed. The new process relies 
primarily on a content-valid applicant questionnaire to determine 
whether an applicant should be considered. Because Library managers 
were unfamiliar with the process of creating an effective applicant 
questionnaire, many of the early candidates were not effectively 
screened. As a result, early candidate referral pools were much larger 
than anticipated and contained candidates who did not possess a 
satisfactory level of expertise. This created additional workload and 
frustration on the part of the hiring managers.
    <bullet> The manner in which Avue is designed to create and 
maintain position descriptions is very different from the way the 
Library has traditionally created and maintained position descriptions. 
Since Avue uses generic tasks to describe a position, the system lacked 
the content to describe many of the Library's unique and specialized 
positions. As a result, Library managers using Avue have not obtained 
the time-saving benefits that Avue was designed to produce and have 
experienced significant difficulty and frustration entering the data 
they feel necessary to accurately describe the position being filled.
    <bullet> As addressed by the Inspector General, the Library did not 
apply adequate project management tools to the implementation of the 
new process and the Avue system. There was no defined methodology for 
resolving the problems and addressing the concerns that occur in any 
new system or process implementation, which proved to be particularly 
acute under the Library's aggressive implementation timeline. Amended 
Appendix B, dated January 5, 2001, was to be implemented by March 1, 
2001. This timeline not only compressed implementation, but also 
increased pressure to abbreviate steps required for effective project 
management.
    <bullet> The Human Resources Services staff was tasked with 
implementing the new hiring process, managing the implementation of the 
Avue system, and learning how to use the new Avue system, all at the 
same time. Additionally, from March 1 to May 31, 2001, the HRS staff 
encountered an enormous workload in completing the vacancies begun 
under the previous hiring process. HRS was not sufficiently staffed to 
meet the additional demands of managing the implementation. As the 
Inspector General's preliminary findings indicate, standard operating 
procedures were not developed nor was there a fully operational Help 
Desk to provide assistance for managers and applicants.
    <bullet> Library users and job applicants identified several 
functionalities that they wanted either changed or created. Avue was 
responsive in making most of those changes during the last several 
months of 2001, but the lag slowed implementation.
    On October 10, 2001, the Library designated a new Project Manager 
and Team to assume responsibility for the Avue contract, to work 
exclusively on identifying any remaining issues through a post-
implementation review and to develop a stronger system requirements 
document. The Project Team is currently conducting a review to 
determine what aspects of the new hiring system are working and which 
ones will need to be revised to improve the process.
    Question. We understand that you have recently taken steps to 
address and correct problems you are having with the system. Could you 
explain what you have done or are doing.
    Response. The Library has taken various steps to address and 
correct system problems. A process audit by the Inspector General has 
been requested. A special team has been designated headed by a senior-
level Project Manager, to review and resolve problems associated with 
the new automated hiring system and to implement audit recommendations.
    On a continual basis, the Library is working with the vendor to 
customize the system to meet requirements identified to date, and 
tracking and resolving problems as they arise. The Library monitors 
hiring results on a weekly basis.
    In order to assist in evaluating the automated hiring system, a 
draft set of customer requirements and standard operating procedures 
that identify the Library's hiring system needs have been developed. 
When these documents are finalized, they will be a valuable tool in 
evaluating the automated hiring system. Additionally, the Library is 
also performing an evaluation of the hiring system (both Appendix B and 
the automated system) to determine if it meets the Library's needs or 
needs to be modified or replaced to achieve the hiring goals of the 
Library.
    Question. Provide to the Committee your hiring plan which reflects 
meeting your objective of working off the hiring backlog by summer.
    Response. As discussed, the Library has taken various steps to 
address and correct system problems. Despite the early problems, the 
Library has filled 167 jobs during the first seven months of FY 2002, 
compared to 172 selections in FY 2001. We are confident, because of the 
process now in place, that we have a system that will allow the Library 
to fill the jobs it requested in FY 2002 by the end of the year and to 
be ready to fill the jobs requested in FY 2003. Our statistics reflect 
growing momentum towards achieving these hiring goals.
    To facilitate hiring, the office of Human Resources Services (HRS) 
has hired additional staff in key areas. Service Units Administrative 
Officers (AO) have been certified and trained by the HRS Director to 
perform and facilitate the job analysis documentation process, which 
has sped up the time required to complete a hire. Controls have been 
put in place to ensure that the AO in the service units do not have 
access to applicant data. In addition, the work currently being done to 
create position descriptions in Avue can be used again, reducing the 
time required to create and certify position descriptions in the 
future. Finally, the project team's hands on work, coupled with the 
service units' growing experience with Avue, continues to improve the 
use of the system and the success of filling vacancies in a timely 
manner.
    Question. What was the total cost of the system?
    Response. The Library's subscription service has annual costs of 
approximately $415 thousand a year ($405 thousand for the subscription 
and $10 thousand for the GSA fee). The start-up costs were 
approximately $280 thousand.
    Question. What are your projections of the total costs (contractor 
and in-house) required to correct the Avue problems?
    Response. The total costs to date for correcting Avue problems is 
$310 thousand. No additional costs are projected at this time. However, 
the financial impact of the Project Team's evaluation of the hiring 
system will not be known until after the evaluation is completed and 
recommendations are proposed.
    Question. What has been your cost to date for correcting the 
problems?
    Response. As problems have been noted, Avue has worked to resolve 
them and has not charged the Library. However, additional costs have 
been incurred to meet the functional requirements and to expedite the 
hiring process. To date, that additional cost has been approximately 
$310 thousand. This funding supported Avue consulting services to 
augment the HRS workforce ($231K); General Services Administration 
service fee ($6K); development of interview questions and benchmark 
anchors ($43K); content analysis ($4K); and job analysis support for 
the Congressional Research Service ($26K).
    Question. We don't recall receiving any reprogramming request for 
the procurement of the system. Was there one made?
    Response. The Library did not purchase an automated hiring system; 
it purchased a subscription service. The Library had sufficient funds 
in its Human Resources Services budget to fund this subscription 
service.
    Question. Were any other users of the system surveyed prior to your 
selection?
    Response. Yes. Prior to selection, the Library surveyed the 
Smithsonian Institution, the Department of Veterans Affairs, and the 
Department of Justice. The survey methodology consisted of numerous 
telephone interviews. In addition, the Library's Office of Human 
Resources Services (HRS) also held meetings with human resource and 
information technology professionals from these agencies to discuss 
their experiences with the Avue classification module. The agencies 
contacted by HRS initially reported very positive results from the 
system and from Avue's staff and their support.
    Question. What if any other systems were evaluated before making 
the selection for Avue?
    Response. The Library evaluated several systems including:
    <bullet> Avue
    <bullet> Office of Personnel Management's Human Resources Manager
    <bullet> Resumix
    Avue was the only vendor that had a system that met the Amended 
Appendix B functional requirements and that expressed any willingness 
to modify their system to meet the unique needs of the Library within 
the time frame imposed upon the Library.
    Question. Are there any other systems available that will meet your 
requirements in order to get your hiring process on track, or are you 
so far into this system that you cannot start over with another system?
    Response. The Library is currently evaluating other vendor's 
systems, as well as the current system, to determine which will most 
effectively meet the Library's needs.
    Question. What was the number of vacancies prior to installation of 
the Avue?
    Response. In FY 2001, the Library had approximately 270 
professional/administrative vacancies.
    Question. You state that the system was to reduce the average 
number of days needed to fill a vacancy. What was the average number of 
days needed to fill a vacancy prior to Avue?
    Response. Historical data (from July 1, 1998 through June 30, 1999) 
indicates that, on average, 178 calendar days were needed to fill a 
vacancy. This number tracks from the day of posting the vacancy 
announcement, including the number of days in the posting period, 
through the final processing of the selection action.
    Question. What was the projected numbers of days after installation 
of the Avue system?
    Response. Under Avue, the projected number of days to fill a 
vacancy after posting is 60. However, based on vacancies filled to 
date, the median elapsed time from vacancy announcement to selection 
decision is 84 days; average elapsed time from vacancy announcement to 
selection decision is 95 days.
    Question. How many positions have you filled, by fiscal year, since 
implementation of the new system?
    Response. From March 2001 (when the Library's new hiring process 
was implemented) through September 30, 2001, the Library made 5 
selections through the new system. This was in addition to the 167 
selections made under the former hiring system, resulting in a total of 
172 selections in FY 2001.
    During the first seven months of FY 2002, the Library made 167 
selections through the new hiring system.
    Question. How does this compare with prior years?
    Response. The Library has averaged 189 selections per year for the 
five-year period from FY 1996 to FY 2000. In FY 2001, 172 selections 
were made. The Library has made 167 selections during the first seven 
months of this fiscal year, and should exceed the five-year average of 
189 selections.
    Question. The Committee understands that the system only covers 
positions in the professional, administrative, and supervisory 
technical fields. What percentage of the Library's work force are in 
those categories?
    Response. Approximately 61.3 percent of the Library's work force is 
in professional, administrative, and supervisory technical positions.
    Question. How are positions in the balance of the workforce being 
filled?
    Response. The Library is filling the remaining positions either 
through an automated system processed through the Office of Personnel 
Management, or through the traditional hiring process managed by the 
Library's Human Resources Office.
    Question. What other government agencies use the Avue system?
    Response. According to Avue, thirty-three federal departments and 
agencies use Avue's classification, staffing and/or workforce 
management products. The United States Coast Guard, the Forest Service, 
and six agencies of the Department of Justice employ both the 
classification and staffing products (e.g. the products used by the 
Library to classify positions and fill vacancies).
    Question. Have other users experienced the same problems as the 
Library?
    Response. Some agencies, who initially reported positive results, 
have more recently reported unfavorable experiences with Avue and its 
solutions. However, the Library's experience with Avue products differs 
from other agencies. It should be noted that the version of Avue being 
used by other federal agencies differs in many aspects from the 
customized system that the Library uses to be in compliance with 
Amended Appendix B. Therefore, even if there were no problems 
experienced by the other Avue users, their track record would not be a 
good indication or prediction for the problems encountered by the 
Library.

                          ARREARAGE REDUCTION

    Mr. Taylor. Thank you. One of the major priorities for 
fiscal 2003 is to continue to work off the arrearage reduction. 
Are you on target with the revised total arrearage goals 
approved by Congress?
    Dr. Billington. We are, Mr. Chairman. We are 56 percent 
ahead on printed materials. The printed arrearages are 25 
percent ahead of target for special materials; that is to say, 
with the revised time schedule that we presented in the year 
2000 when we implemented an Integrated Library System and 
realized that the dates were going to have to be extended. But, 
even with the implementation of that system, we are 
substantially ahead in both areas.
    Mr. Taylor. You have requested 14 additional FTE's and 
$896,000 in contract support funds to eliminate the arrearage 
of in-process materials. Could you maybe define what is in 
process materials?
    Dr. Billington. Yes. Process materials are materials from 
the time they come to the Library's loading dock, until the 
time they reach the person, who either catalogs or describes 
them. That is a process period and that is a different problem 
from the arrearage problem. If you want more details on that 
and why that is different, I would call on our Associate 
Librarian.
    Mr. Taylor. I would also ask the question why can't 
contract staff rather than regular staff handle this work load?
    Mr. Tabb. Thank you, Mr. Chairman. This request for dealing 
with the in-process backlog has two aspects. One is contract 
funds, which we need on a one-year basis in order to reduce the 
existing backlogs, to get stuff moved out of the acquisitions 
area and into the cataloging areas where it could be worked on. 
In addition, we need to have 14 permanent staff so we do not 
have in-process backlogs grow in the future. So it is really a 
two-part process, one for permanent staff to be sure we don't 
have the situation again and the other, the one-time infusion 
of contract funds, to work off the current backlog.

  NATIONAL DIGITAL INFORMATION INFRASTRUCTURE & PRESERVATION PROGRAM 
                                (NDIIPP)

    Mr. Taylor. Dr. Billington, you anticipate delivering the 
national digital information infrastructure and preservation 
plan to Congress this year. Do you have any insight as to the 
role the Library will play in this national initiative.
    Dr. Billington. Yes, Mr. Chairman, we are first of all 
playing a convening role, a coordinating and convening role in 
bringing together an unprecedented array of people from the 
private sector and from other great national repositories, and 
other interested parties and stakeholders. So that is the main 
role we are playing. And of course we are eventually going to 
play an important role as one of the central repositories in 
this as well as in the determination of the so-called metadata 
of the information so we can store, catalog, and be able to 
retrieve these digital materials.
    This is an immensely complicated and extremely important 
assignment that the Congress gave us last year, as you know, 
Mr. Chairman. It means on the one hand we have to devise and 
figure out with all of the stakeholders--and we have had 
meetings--more than 200 people have been participating in this 
so far, so we can draw up a master plan that will outline how 
we are going to develop partnerships between organizations and 
different parts of the economy and of the archival and 
educational community that have never collaborated before. Our 
main point is to develop the plan which we hope we will be able 
to deliver later this year to the Congress. That was the first 
stage of the three stages in developing this national program 
that we were commissioned to do.
    At the same time, we have to strengthen our technological 
backbone, which accounts for some of the Library's budget 
request. Not that it is not part of this process, but we have 
to do it in parallel because it is very clear that we are going 
to play an important, by no means the exclusive role. The 
challenge at this stage is to develop and define the 
partnerships that will then enable us to move to the second 
stage.
    The 5 million that was appropriated last year is enabling 
us to have these meetings. We have had a meeting of these 
people, involving some of the major figures of the industry, as 
well as others in a meeting in May, and then another one of 
three two-day meetings with different groups in November. We 
are inventorying all of the meeting discussions, and we will 
develop a plan. Then that will release $20 million. This is 
already appropriated money, as you are aware. That will release 
the $20 million for the partnerships.
    So those possible partnerships will be largely identified 
in this convening process that we are doing in stage one. So we 
play a very simple yet critical role. It is going to be a 
distributed national program. There will be a large number of 
participants and in a way they will have some flexibility to 
define their own roles.
    But what we have met with, Mr. Chairman, is extraordinary 
enthusiasm. We have gotten participation, as I say, by all 
kinds of people. We have not only the 200 people who have 
actually participated in dialogues, but we have a 26-member 
advisory board with extraordinary participation and enthusiasm 
in helping to define how we can have a national program that 
will involve all the different elements by the way of the 
public sector.
    There were four key participants specified in the 
legislation, as you may recall. We were supposed to convene it 
in the Library of Congress with the head of the National 
Archives, the Scientific Advisor of the White House and the 
Secretary of Commerce. So that is a core group, but we are 
involving a whole host of other Federal institutions as well as 
participants in the private sector. So it is a major 
undertaking, and I think a very promising one. It is being met 
with a very warm and enthusiastic and participatory response in 
the private sector.

             RUSSIAN LEADERSHIP DEVELOPMENT CENTER/PROGRAM

    Mr. Taylor. Dr. Billington, the Russian Leadership 
Development Center has requested $10 million for the operation 
of the center during fiscal year 2003. You are Chairman of the 
board of trustees for the center, and I can certainly testify 
to a lot of the work that has been done. But could you comment 
on the success of the program and how you have measured the 
success of the program?
    Dr. Billington. I think it has been extraordinarily 
successful. Qualitatively it has received enormous attention 
particularly in the local press. We have had close to 800 
different American communities participate in it. Average age 
of people is 38, more than a third of them women, something 
totally new from this very dynamic young leadership group whose 
whole political formation has been in the post-Soviet period.
    It is probably one of the most heavily evaluated exchange 
program, I think, certainly in the history of exchanges. The 
participants have questionnaires that they fill out. They have 
had 10 alumni meetings all over Russia. The local community 
press in this country has given an enormous amount of attention 
and publicity, and now that we have a separate entity in the 
Legislative Branch that is in charge of this, we are going to 
be doing an even more sophisticated evaluation, probably on-
line because we have a Web site, of all of the participants all 
over Russia. We already benefitted from the evaluation of the 
first year by moving in the second year toward much more 
focused groups and this year with heavy focus on the rule of 
law, which everybody sees as the essential element in 
developing a dynamic economy as well as an accountable 
political system.
    So this is a process that is continuously evaluated, and 
now that there is such an excellent board that the Congress has 
created for this independent entity still housed 
administratively within the Library of Congress, I think we 
have a very good chance of keeping it and improving that 
program.
    Mr. Taylor. I have a question that I submit to you to be 
answered for the record.
    [The question and response follows:]

                 Russian Leadership Development Center

    Question. Currently the program provides for emerging political 
leaders of the Russian Federation to visit the United States to gain 
first hand knowledge of the principles of democracy and market economy. 
What are your views of allowing emerging political leaders in federal 
and state government within the United States visit Russia to study 
political, business, and non governmental organizations of the Russian 
Federation?
    Response. The Open World Program has over 4,000 alumni in Russia 
from all 89 regions. The program is seeking private funding--with some 
success to date--to support modest programs that would allow alumni in 
the various regions to form associations or informal networks among 
themselves and with other Russians who have visited the U.S. under the 
aegis of other American programs. The program also publishes and 
distributes an alumni bulletin in Russian and English to encourage 
communication within Russia and with U.S. hosts. There is also a dual 
language website.
    A small number of our U.S. hosts have visited Russia (without 
financial support) and met with the delegations they have hosted. The 
most successful of these efforts is focused around professional 
development in the field of work that was the focus of the original 
Open World Program in the U.S. For example, two of our American host 
judges who have participated in the U.S. Rule of Law Program recently 
traveled to Moscow and St. Petersburg and conducted seminars on such 
topics as criminal proceedings and bankruptcy. Each of the resulting 
meetings was the largest gathering of Open World alumni in each city; 
alumni also brought professional colleagues (judges, attorneys) to 
participate. The session in St. Petersburg was also widely covered in 
the local media.
    Participants for such a program would have to be carefully chosen 
in order to utilize such travel for meaningful alumni professional 
development. Funding for such a pilot is not in the budget available 
for the Open World Program as approved by the Center's board of 
trustees in March 2002.

                            DIGITIZED ITEMS

    Mr. Taylor. I certainly want to commend you on your 
digitization work at the Library. I understand you have 
digitized just under 8 million items. In addition, you have 
worked with foreign governments in digitizing such things as 
maps, books and other materials, I certainly commend you on 
that. I think if this is integrated into our educational 
system, it will be a major compliment to the Library of 
Congress and we will be fortunate that you are heading that 
effort.
    I have a number of questions I will submit for the record, 
but I yield now to Mr. Moran for his questions.
    [Following are the questions to be answered for the record 
from Chairman Taylor:]

                    Integrated Library System (ILS)

    Question. The Committee has provided $15.5 million over the past 5 
years for the Integrated Library System (ILS). This year you have 
requested another $911 thousand, which brings the total to $16.4 
million, of No-Year funds for the continued acquisition and partial 
support of the ILS. What was the total projected cost of the ILS?
    Response. In FY 1998, the Library requested $15.8 million, the 
first installment of a seven-year implementation budget (FY98-04). The 
Library's request was based on estimates developed in 1996, prior to 
the selection of an ILS vendor. Upon contract award to Endeavor 
Information Systems Inc., as planned, in FY 2000 the Library presented 
a revised total projected cost estimate totaling $17.7 million. Of this 
amount $15.5 million has been provided through FY 2002 and $911 
thousand is requested in FY 2003.
    Question. Are you currently over or under budget?
    Response. The Library costs are consistent and in line with the FY 
2000 revised total projected cost of $17.7 million.
    Question. Why are these funds required on a No-Year basis?
    Response. The Library needs the flexibility of No-Year funds so 
that we can obligate the funds at the point when (1) the Library and 
vendor have determined the most effective approach to satisfy the ever-
increasing demand for public catalog access; and (2) the Library is 
ready to start entering detailed serials holdings statements into the 
ILS as part of the inventory project approved Congress in FY 2002.
    Question. What is the current unobligated balance of prior year 
funds appropriated for this system?
    Response. Of the ILS funds appropriated between FY 1998 and FY 
2001, $1.4 million remains available for obligation. The $1.4 million 
will be obligated for additional hardware, software development, 
maintenance and contracting to ensure that we will be able to meet the 
public demand for the Library's Catalog.
    Question. What is the total amount needed to complete the project?
    Response. A total of $2.2 million is needed to complete the project 
of which $911 thousand is requested in FY 2003. The balance will be in 
the Library's FY 2004 budget request.
    Question. The Committee is pleased to hear that the funding we 
provided for the Integrated Library System (ILS) has provided 
significant operational improvements such as improved book labeling, 
gathering individual production statics, and streamlined workflows. 
What have the individual production statistics shown you?
    Response. Productivity data has indicated many areas of significant 
improvements in Library operations as well as areas that need more 
attention. Binding productivity has surpassed pre-ILS levels for 
several quarters. Serials cataloging productivity has improved steadily 
over the past few quarters and is now almost at pre-ILS levels. 
Monograph cataloging productivity in the Cataloging Directorate is at 
all-time highs, having increased by 8.67 percent according to one 
measure. (Total cataloging production, however, has not returned to 
pre-baseline levels, as the Cataloging directorate has nearly 200 fewer 
arrearage reduction positions filled than were filled at the beginning 
of the arrearage reduction project.) Because the ILS check-in system 
captures much more useful information than could be recorded in the 
manual system, productivity for serial check-in is substantially lower 
than the baseline, indicating a need to add serial technicians to 
manage the increasing serials workload while also capitalizing on the 
capabilities of the ILS.
    Question. Have you discovered areas of weakness and strength in 
your operations?
    Response. Yes:
    <bullet> The constantly-increasing popularity of the Library of 
Congress Online Catalog on the World Wide Web has created a strain on 
the system. The Library's customers want round-the-clock, unfettered 
Web access to our catalog. The Library is gratified by this 
overwhelmingly favorable customer response to the access, made possible 
by the ILS. We are actively working with Endeavor Information Systems, 
Inc., our ILS vendor, to increase the current maximum number of 
simultaneous log-ons from outside the Library and Congressional offices 
via the Web.
    <bullet> The ILS implementation effort proved that, by working 
together, Library staff could accomplish a large-scale transition from 
fragmented legacy systems to an integrated system on time and within 
budget--including obtaining needed hardware, making the transition from 
the OS/2 platform to the Windows platform, training all staff who use 
the ILS, keeping the larger community outside the Library informed of 
our progress, and using the system for library acquisitions, 
cataloging, circulation, online public access, and serials check-in 
functions.
    <bullet> The success of the Library units in working together, and 
the adaptability and tenacity of our dedicated staff, position the 
Library well to mount the integrated, agency-wide effort that is needed 
to continue improving both the ILS and our business processes and to 
meet the challenges of the digital future.
    <bullet> Data from the ILS validate the efficiency of the Library's 
whole-resource approach to cataloging, in which the whole book, sound 
recording, or other resource is cataloged by a single individual or 
within a single team. Cataloging productivity has reached all-time 
highs.
    <bullet> Serials management was known from the beginning to be one 
of the ILS functions that would require more development by the vendor. 
Because ILS check-in is more complex and accomplishes more tasks, 
online check-in of serial issues in the ILS is slower than manual 
check-in. However, the ILS also provides significant benefits: enhanced 
security for publications through better inventory control, enhanced 
searching to determine whether a title is retained by LC, worldwide 
dissemination of holdings data, instant data about the acquisitions 
status of a title, and automatic generation of labels.
    <bullet> The ILS implementation, even while generating useful 
statistics, such as individual and team cataloging statistics and 
reports on invoice payments, has highlighted the need for more 
consistent statistical reporting across Library units.
    Question. Have you been able to make adjustments in your operations 
and/or workflows that have increased productivity?
    Reponse. Yes. For example:
    <bullet> The ILS permits distributed check-in of serials. The 
Acquisitions Directorate is now in the process of transferring serials 
check-in responsibility to the divisions that will permanently house 
the material as soon as it arrives at the Library. A pilot project in 
FY 2001 demonstrated, that decentralizing check-in improved 
productivity and decreased throughput time. Decentralization also 
allows for better tracking and control of serial issues from the time 
they come into the Library.
    <bullet> The upgrade of the ILS software, in February 2002, made it 
possible to easily resolve problems in distributing records to the 
bibliographic utilities and other Cataloging Distribution Service 
customers.
    <bullet> The Special Materials Cataloging Division now uses the ILS 
bulk import feature to add 30,000 to 40,000 initial bibliographic 
control records a year from other systems to the ILS with little or no 
keying by staff--compared to about 3,000 prior to the ILS 
implementation.
    <bullet> The Motion Picture, Broadcasting, and Recorded Sound 
Division is now beginning to import Copyright Office data for moving 
images (film, etc.) to the ILS using bulk import.
    <bullet> The Library can now use technicians rather than 
professional librarians to search the bibliographic utilities and 
correctly download cataloging copy from other libraries.
    <bullet> The ILS holding and item record features have enabled the 
book catalogers to eliminate backlogs of second copies that need to be 
added to the Library's book collections.
    <bullet> The ILS has enabled records to be created in the 
Electronic Preassigned Card Number program for self-published materials 
with far less human intervention than was previously required. This 
functionality was so successful that the Library discontinued the 
paper-based Preassigned Card Number program in January 2002.
    <bullet> The ILS permits proposals for new and changed subject 
headings to be submitted directly online, saving time and distribution 
of multiple paper copies.
    <bullet> Prior to the ILS, Cataloging Directorate staff had to 
release complete records to the main database manually, one record at a 
time. The ILS has eliminated this final step for most records, yielding 
a savings of two FTE Cataloging Directorate technician positions, as 
already reported to Congress.
    <bullet> Projected savings of $500,000, from eliminating duplicate 
serial subscriptions, was reflected in the Library's FY 2003 budget. 
See page 56 of the Library's FY 2003 Budget Justification.
    Question. Give us some examples of operational changes resulting 
from the data provided by the ILS.
    Response. In addition to those changes described, the Library has 
either begun or is about to begin implementing the following changes 
based on ILS functionality:
    <bullet> The Library is just beginning to use electronic data 
interchange (EDI) e-commerce technology, based on ILS functionality, to 
pay serials invoices. Preliminary work indicates that EDI will 
significantly increase productivity in this area.
    <bullet> The improved efficiency of distributed check-in will 
enable the Library to use the ILS to develop a regular serials claiming 
program. The Acquisitions Directorate has begun work on a project to 
begin serials claiming in October, 2002.
    Operational changes using the ILS have greatly improved collections 
security:
    <bullet> By far the largest operational change to date is the use 
of the ILS to provide inventory control--a control that the Library 
essentially did not have prior to ILS implementation.
    <bullet> Prior to implementation of the ILS, the Library did not 
prepare preliminary cataloging records for the 55,000+ sound recordings 
received through the Copyright Office each year. The ILS enables 
creation of initial bibliographic control records on receipt for 
currently received commercial sound recordings from Copyright. This 
capability improves both retrievability and the physical security of 
in-process sound recordings.
    <bullet> The ILS permits the Cataloging Directorate to label 
hardcover books as part of the cataloging process, reducing the need 
for moving materials to the Binding and Collections Care Division and 
improving the security of the items.
    <bullet> Holdings and item records are created in the acquisitions 
units and the Copyright Office, bringing additions to the collections 
under inventory control as soon after receipt as possible.
    The ILS has provided improvements to cataloging efficiency and 
quality:
    <bullet> The ILS automatically checks for typographical and 
structural errors in data.
     The ILS facilitates the inexpensive inclusion of full tables of 
contents in selected Electronic Cataloging in Publication records, 
which are now about one third of our total Cataloging in Publication 
production. Access to Tables of contents is one of the enhancements to 
catalog records most demanded by our users.
    <bullet> The bulk import feature of the ILS permitted the Library 
to convert from the outmoded Wade-Giles system for romanizing Chinese 
characters in its catalog to the pinyin system, which is now the 
worldwide standard, and to lead the conversion to pinyin throughout the 
North American library community. Approximately 200,000 bibliographic 
records and 158,000 authority records were converted to pinyin and made 
available to the nation's librarians in cooperation with the 
bibliographic utilities.
    The Preservation Directorate is also using the ILS to improve its 
programs:
    <bullet> Creation of initial bibliographic control and item records 
for materials sent out for commercial preservation microfilming gives 
greater control over what has left the Library and more precise 
estimates of return dates from contractor.
    <bullet> The ILS enables staff to report holdings of Master 
negatives and service negatives, reducing potential damage to the 
costly Master negatives.
    <bullet> The ILS enables staff to note on-line the condition of any 
new receipts that were damaged by U.S. Postal Service irradiation since 
October 2001.
    The Library has benefitted greatly from the ILS circulation 
capability:
    <bullet> Patrons can use free text fields to fully describe the 
materials they need.
    <bullet> Patrons themselves can check the status of their requests 
in the LC Online Catalog.
    <bullet> Supervisory and managerial staff can easily monitor all of 
the Call Slip queues, thus ensuring timely service to our users.
    <bullet> The ILS Call Slip function has made it possible for 
certain non-staff user groups (e.g., patrons in the four Area Studies 
reading rooms and the Kluge Center) to place book requests on-line.
    <bullet> Some of the Library's heaviest users (e.g., Supreme Court, 
the Woodrow Wilson Center) can now send their requests directly to the 
Collections Access, Loan and Management Division, relieving the Loan 
Reference staff of this workload.

                       Lewis and Clark Exhibition

    Question. There is a request for $789 thousand of no-year funds for 
the Lewis and Clark Exhibition in order to complete the bulk of the 
work of locating exhibition material, conducting research, and 
designing and preparing and exhibition to open in early September 2003. 
If the exhibit opens in early September 2003 why are these funds being 
requested on a no-year basis?
    Response. No-year funding will provide greater certainty and 
flexibility in planning and budgeting over the three-year period to be 
covered by this request. Expenditures for the exhibition at the Library 
will be required in FY 2003, as will some costs of organizing the 
traveling version of the exhibition. Because we may not know precisely 
which venues will be included in the traveling exhibit before FY 2004, 
we cannot obligate all of the necessary funds in FY 2003.

                        Veterans History Project

    Question. You have received a generous grant from AARP (American 
Association for Retired Persons) of $3 million over three years for the 
Veterans History Project. In your budget you have requested 6 FTEs as 
well for this project. Will these positions only be required for three 
years?
    Response. The requested six FTEs are needed on a permanent basis 
because the Project, as unanimously authorized by Congress, has no 
limit of time. The FTEs will:
    <bullet> Support the expansion of public and partner engagement 
through instructional materials and training workshops.
    <bullet> Perform curatorial work on the collection and on-site 
exhibition of materials.
    <bullet> Process collections to avoid creating new arrearages and 
to promote quick access.
    <bullet> Respond to the thousands of inquiries flooding into the 
Library from partners and the public.
    <bullet> Train partner repositories to enter information into 
database.
    <bullet> Update continuously the Project Website.
    <bullet> Support the extension of the program into colleges, 
universities, and high schools.

                         Packaging Collections

    Question. The Library has requested 35 additional FTEs at a cost of 
$1.7 million to support the preparation, packaging, and stabilization 
of select rare and special collections in advance of their relocation 
to the National Audio-Visual Conservation Center and to Fort Meade 
Module #2. When will the National Audio-Visual Conservation Center 
(NAVCC) be available for occupancy?
    Response. The current schedule calls for excavation at Culpeper to 
begin this summer, with the following completion dates projected for 
each of the NAVCC's three building components:
    <bullet> The existing Collections storage building: AOC/LOC 
acceptance for move-in scheduled for fourth quarter of calendar year 
2004.
    <bullet> The new Nitrate storage vaults: AOC/LOC acceptance for 
move-in scheduled for June 2005.
    <bullet> The new Conservation building (all office spaces and the 
two MBRS laboratories): AOC/LOC acceptance for move-in scheduled for 
June 2005.
    Question. What is the schedule for moving collections into the 
Audio-Visual facility?
    Response. Current plans call for collections to be moved into the 
collections building beginning in late 2004 and into the nitrate vaults 
beginning in summer 2005.
    Question. How many employees will be located at the new Center?
    Response. Approximately 140 employees will be located at the Center 
during its initial years of occupancy.
    Question. Since the Facility is located in Culpeper, Virginia, are 
you anticipating relocation costs for personnel who will be assigned to 
the new Facility?
    Response. Yes, we will be required to pay relocation costs for 
staff whom the Library reassigns to Culpeper.
    Question. At this time you have not even moved into Book Module #1. 
Don't you think your request for FTE's to prepare material for Module 
#2 is a little premature?
    Response. No. The library expects Module #2 construction to begin 
next year. To be fully ready to occupy this much-needed space, it is 
critical that we begin the arduous task of preparing and stabilizing 
thousands of fragile special collections materials (rare books, paper 
and parchment manuscripts, maps, etc.) of all shapes and sizes for 
relocation to Module #2. Most of these special collections materials 
are rare and fragile, and extra care must be taken to prepare them for 
the move. This work will require three years. To fully and responsibly 
prepare these unique materials for relocation, work on this project 
must begin no later than FY 2003.
    Question. Why do you need permanent FTE's for this project; can't 
this work be contracted out?
    Response. Due to the high value of the collections that are being 
prepared for the move to Module #2, it is important that individuals 
who are well trained in Library of Congress preservation procedures 
undertake this important work. However, the Library is not requesting 
that the personnel for this project be permanent, but rather are 
requesting full-time equivalents for three years, which is the 
projected duration of the project.

                    Cataloging Distribution Service

    Question. The operating budget of the Cataloging Distribution 
Service is based on receipts from outside customers and $846 thousand 
in appropriations for products and services provided to internal 
Library customers. What are the products and services provided to 
internal Library customers?
    Response. Cataloging Distribution Service (CDS) products and 
services provided to internal Library customers include:
    <bullet> published versions of Library of Congress (LC) cataloging 
tools and documentation in print and electronic formats;
    <bullet> data files and diagnostic reports from CDS's MARC 
(machine-readable cataloging) distribution databases;
    <bullet> other publishing and distribution-related services that 
support LC's national library role in the development and dissemination 
of cataloging records and standards.
    Question. Has there ever been an evaluation/review of the products 
and services provided that equates to $846 thousand of products being 
received?
    Response. Yes, there was an evaluation/review in October 2001. The 
products and services delivered by the Cataloging Distribution Service 
to internal Library customers in FY 2001 totaled $882 thousand.
    Question. When receipts are less than anticipated what actions do 
you take to stay within budget?
    Response. When receipts are less than anticipated, the cataloging 
Distribution
    Service may take the following actions to stay within budget:
    <bullet> reduce or defer non-personnel expenditures;
    <bullet> reduce or defer personnel expenditures;
    <bullet> make adjustments in product mix or product pricing.
    The action taken would depend on the nature and extent of the 
shortfall.
    Question. Since Fiscal 1997 the actual receipts collected have been 
on a slow decline. If CDS were to go out of business what could be the 
long term liability to the Library?
    Response. The long term liability to the Library if CDS were to go 
out of business would be:
    <bullet> the negative public relations generated from the broader 
library and information community's loss of its source for Library of 
Congress cataloging databases, standards and technical publications;
    <bullet> the cost to the Library of developing alternative 
dissemination processes or arrangements that would meet the needs of 
its own catalogers as well as assure the continued availability of its 
cataloging databases and standards to the worldwide library and 
information community; and
    <bullet> under current personnel regulations of the Library, the 
requirement to place all permanent CDS staff members in Reduction-in-
force status.

                              Law Library

    Question. For the past several years we have provided authorization 
for the Law Library to collect up to $350 thousand for the development 
and maintenance of an international legal information database (GLIN). 
Starting with the first year of the authorization, by fiscal year, how 
much has been collected each year?
    Response. The Law Library has experienced limited success in 
offsetting collections:
    FY 2000--$5,000,
    FY 2001--$8,300,
    FY 2002 (YTD)--$12,700,
    Question. You are requesting $12.7 million over 5 years and 6 new 
FTEs to develop and implement a fully functional GLIN system. From your 
justification, this database will only contain legal information on 
Latin American nations. How many requests do you receive, on an annual 
basis, from Congress for legal information regarding Latin American 
nations that justifies $12.7 million for the database?
    Response. The GLIN database is not limited to Latin American 
nations--the system already includes primary sources of law for 
countries in Africa, Asia, Europe and the Americas. The requested $12.7 
million will enable the Law Library to expand the GLIN system beyond 
the 15 currently contributing countries, to include primary sources of 
law, to a core of 50 countries that are of primary interest to 
Congress. Funding is over a five-year period. In addition, the upgraded 
system will include retrospective materials in digital format for Latin 
American nations dating back to 1950. This is especially important for 
Law Library attorneys responsible for 29 Spanish and Portuguese 
speaking jurisdictions of Latin America.
    The Law Library receives over 2,500 research and reference requests 
from Congress for legal information annually. GLIN enables timely and 
efficient access to primary sources of law in direct support of 
research and reference requests.
    Question. Are there plans to expand this database to cover other 
parts of the world?
    Response. Yes, the GLIN system already includes primary sources of 
law for countries in Africia, Asia, Europe and the Americas. The 
requested $12.7 million will enable the Law Library to expand the GLIN 
system beyond the 15 currently contributing countries to a core of 50 
countries, that are of primary interest to the Congress.
    Question. If this program is of such importance should we not 
expect some cost sharing effort from the Latin American nations?
    Response. The GLIN system is a network--consisting of 15 member 
nations, two international organizations and the Law Library. GLIN 
network members contribute full text of legal instruments and legal 
writings, which requires an in-kind contribution of labor. Each GLIN 
member nation has a team of people devoted to inputting their legal 
instruments into the GLIN system. In fact, some countries currently 
have more labor resources devoted to inputting data into GLIN than the 
Law Library. Given the value of both the information and the labor, it 
would be unreasonable to request monetary assistance from contributing 
member nations.
    The GLIN database/network is critical to the work of the Law 
Library, ultimately reducing paper documents and related storage space, 
eliminating the need for staff to search stacks, increasing staff 
efficiency and productivity and providing timely access to all 
materials. This system will benefit Congress by providing current and 
accurate information on legislative action by other nations. Heightened 
national security and growing economic interdependence makes GLIN 
indispensable in responding to Congress on foreign issues.

                          Arrearage Reduction

    Question. Last year the committee provided $850 thousand for the 
arrearage reduction and collections support program to eliminate the 
current cataloging backlog. Has; the backlog been worked off?
    Response. The Law Library developed and implemented a plan to 
eliminate the four arrearages, under its control, (agency transfer, 
monographs and serials, looseleaf, and retrospective binding), by the 
end of 2003. The work is well underway and on target to meet its 
deadline.
    Question. If not, what are your estimates of when it will be 
accomplished?
    Response. The Law Library is on target to eliminate the four 
arrearages under its control by the end of 2003.

                        Office of the Librarian

    Question. The Office of the Inspector General has requested two 
additional auditor's to provide oversight of the Library's Information 
Technology (IT) Security Program to ensure compliance with the Computer 
Security Act, because staff have been diverted to address the 
increasing demand for financial and performance audits, due mainly to 
the growing number of Gift and Trust Funds. If resources are being 
diverted because of the number of demands for financial audits on Gift 
and Trust Funds then why has the Library not hired auditors using Gift 
and Trust Funds to pay for those audits and then use your appropriated 
funded positions for Information Technology Audits?
    Response. The Library administered 231 gift and trust funds in FY 
2001. Funds are restricted as to their use, which must be in accordance 
with the terms of the gift or trust agreement and/or donor's will. 
Library fund managers are responsible for administering and overseeing 
the gift and trust funds to ensure they are used as directed by the 
donors and in accordance with Library policy. The Office of the 
Inspector General (OIG) is responsible for providing oversight of all 
Library programs, including these funds.
    Currently, two gift funds, the James Madison Council and National 
Digital Library, pay for separate financial statement audits. The 
audited financial statements are used as fund raising mechanisms, and 
therefore, are appropriately paid for by the two funds. All other gift 
and trust funds are audited as a whole during the Library's 
consolidated financial statement audit. The smaller funds do not 
produce financial statements, and are reviewed by the OIG as part of 
its annual audit plan.
    For the past seven years, the Library's external auditors have 
identified computer security weaknesses in their audit reports. Many of 
the security improvements that have been made are in reaction to 
specific audit findings. The OIG needs to continue assisting Library 
management in developing and implementing corrective action plans that 
address security weaknesses, and maintain its present effort in 
conducting financial and program audits which also require a high 
degree of computer expertise. The need for Information Technology (IT) 
audit resources is outpacing the OIG's ability to conduct IT-related 
audits, especially IT security audits.

                            Human Resources

    Question. One of the priorities for your Human Resources Department 
is to implement a web-based application to record employee time and 
attendance, and transmit certified data to the Library's payroll 
provider. Your payroll provider is the National Finance Center and they 
use a system called ``PC-TARE''. If you are paying for payroll 
processing, why is the Library taking on this project?
    Response. The Library of Congress' Inspector General has indicated 
that the current PC-TARE system is old and outdated and vulnerable to 
fraud and abuse. In response, the Library established a working group 
to define requirements for a new time and attendance system. Key 
requirements identified by the working group included a web-based 
system that could track data and provide reports to management and a 
system that allowed for exception processing and electronic processing 
from employee to certifying official, with transmission securely and 
automatically to the National Finance Center. The Library has procured 
and will implement an application to meet these requirements.
    Question. Is the Finance Center not meeting your requirements?
    Response. No, the National Finance Center (NFC) is not meeting the 
Library's requirements. NFC is in the process of developing a PC-TARE 
upgrade (STAR), which is a windows-based rather than a web-based 
system. In addition, other key requirements identified by the Library's 
working group will not be met by the NFC proposed upgrade.
    Question. Your objective is to transmit certified data to your 
payroll provider. Is there a problem with the current process? Are you 
transmitting uncertified payroll data?
    Response. The current system requires that data be input via 
personal computer on disk. These disks are not secure and can be 
changed at any time. Although a hard copy of the time and attendance 
report is printed for both the employee and certifying official to 
approve, there is no mechanism in place to ensure that the disk is not 
changed after the certification process. The new web-based time and 
attendance application system will address this deficiency.

                      Integrated Support Services

    Question. One of the accomplishments of your Integrated Support 
Services Division was that they ``Conducted Business Assessments of 
Operations in all Divisions''. Who conducted the assessments?
    Response. The assessments were conducted by Martin Contract 
Management/Michael Martin.
    Question. What did you learn from the review?
    Response. The business assessments reviewed not only management 
operations but also business processes. Several issues were identified 
including duplications of activities, in several divisions, affecting 
team responses to labor requirements; obsolescent functionality such as 
outdated and unresponsive Requests for Service processes, adversely 
impacting the operations of our customers; and, new functional service 
requirements, such as print shop service and increased security and 
scrutiny of mail operations services and others as a result of 
technology or other changes.
    Question. What changes, if any, have you made as a result of the 
assessment review?
    Response. No changes have been made. Integrated Support Services is 
developing a reorganization plan to implement recommendations made by 
the assessment reviews and to incorporate recommendations of staff 
affinity groups and functional affinity teams which support the 
findings of the assessments.
    Question. You are requesting 2 FTEs for the Modernization of the 
Safety Services Division to meet new legal and mission critical 
requirements. What are the legal and mission critical requirements that 
you are not meeting?
    Response. The Library is not meeting all of its responsibilities 
under the Congressional Accountability Act. Significant regulatory 
deficiencies exist with respect to the Safety portion of the Act. 
Specific areas that the 2 FTEs would address include emergency 
response, bloodborne pathogens, hazard communications, disposal of 
hazardous waste and requirements for safety audits of federal agencies.

                  Central Financial Management System

    Question. We have a request before us for $4.3 million, on a no-
year basis, for a new financial management system. In addition, you 
will need another $2.7 million over the next 4 years for a total cost 
of $7 million. You say that the current system is becoming increasingly 
costly and difficult to maintain. What are the annual operating costs 
of the current system?
    Response. The budget request of $4.3 million is for software 
acquisition, installation, and hardware costs for a new central 
financial management system. The annual operating costs of the current 
system are different than implementation costs and total approximately 
$2.7 million for FY 2003. Funding supports a share of the Library's 
Information Technology Service costs for operating the central 
financial system--mainframe system software, storage and engineer and 
application program costs--(1.5 million); Financial Services 
Directorate Systems Accountants and Systems Analysts costs ($.6 
million); and vendor support costs ($.6 million).
    Question. You say that the current system was not designed to 
process, account for, and report on financial data in a way that 
satisfies today's needs. However, I understand that the Library has 
just received its 6th consecutive clean audit opinion. With that kind 
of record, how can you say that your current system does not satisfy 
today's needs?
    Response. The Library's mainframe-based central financial system 
was purchased in 1993 and has served the Library well for almost a 
decade. However, vendors have developed newer server-based systems 
designed to meet today's accounting standards and requirements (rather 
than add-on patches to older systems) and today's communications 
environment. A modern Web-enabled financial system provides increased 
functionality including: an improved capability to support cost 
accounting and program-based budgeting; a more friendly point and click 
graphical interface; work flow management tools; improved technology 
for electronic commerce; improved technology for eliminating paper 
forms; the capability to file supporting documentation along with the 
financial transaction; and the capability to transfer documents or data 
easily from one desktop or application to another. The technology 
direction of the Library is server-based, and we are increasingly 
finding staff retention difficult for mainframe applications. While the 
Library's current central financial system meets our basic needs now, 
its days are numbered because user requirements for enhanced 
functionality are not being met and support for mainframe-based systems 
will decline as vendors concentrate investment in the newer server-
based systems and as the Library loses staff trained on this outdated 
technology.
    Question. Will this new system provide cost accounting capability?
    Response. Yes. Vendor software developed after the issuance of 
Statement of Federal Financial Accounting Standard No. 4, Managerial 
Cost Accounting Standards (issued 2/1997), provides enhanced 
functionality for implementing cost accounting.
    Question. Why are no-year funds required for the new system?
    Response. The implementation of the Library's central financial 
management system will span five fiscal years. While the Library has 
endeavored to split up those costs between the fiscal years, the actual 
obligations may vary because of the procurement cycle and the actual 
system selected. No-year funds are requested to handle the multi-year 
nature of the project and uncertainty regarding the procurement 
process.
    Quesiton. What is your time line for implementation?
    Response. Assuming congressional approval of the project and 
funding by October 1, 2002, the Library plans to implement the system 
during FY 2003 for initial production as of the beginning of FY 2004. 
After normal system start up issues are resolved, new functionality 
would be added in subsequent fiscal years.
    Question. The agencies that you cross service (CBO, Office of 
Compliance) are requesting function in support of this system. Why do 
they require funding?
    Response. The Library's budget request covers the cost of the 
software, and the Library's implementation costs. The agencies that the 
Library cross services must fund their portion of the implementation 
costs (e.g., data conversion, transaction analysis, acceptance testing, 
nightly cycle jobs, training and project management).
    Response. Will this system be a system that all the agencies of the 
Legislative branch, if they so desire, could utilize?
    Answer. Yes. The Library plans to structure the contract so that 
all Legislative agencies can either be cross-serviced by the Library 
(at no additional costs for the software) or be able to purchase 
discounted software and technical services for implementation at their 
site.

                            Transit Subsidy

    Question. Last year the Committee provided funding to the agencies 
of the Legislative Branch in order to provide a transit subsidy of up 
to $65 per month per employee. You are requesting an increase of 
$973,000 to increase the subsidy to $100 per month. What was the 
effective date of the increase from $65 to $100?
    Response. The effective date of the increase was January 1, 2002.
    Question. Did you increase the allowance on that date?
    Response. The increase from $65 to $100 has not been authorized or 
implemented by the Library.
    Question. How many employees participate in the program?
    Response. As of April 30, 2002, there are 2,233 employees 
participating in the Transit Subsidy Program.
    Question. What is the average allowance per employee?
    Response. The average allowance per employee is $62 per month. This 
does not include the 6 percent service fee.
    Question. For this fiscal year are you running a deficit, surplus 
or breaking even with the funding provided for this program?
    Response. The Library anticipates breaking even. We will continue 
to monitor costs during the balance of the fiscal year.

                          Child Care Benefits

    Question. You have requested $150,000 for benefits for the Child 
Care Center. What benefits are being provided and how many employees 
are eligible?
    Response. Child Care Center employees are eligible to participate 
in the federal health insurance, life insurance, retirement, and Thrift 
Savings Plan programs. As of April 30, 2002, 31 employees are eligible 
for these benefits.

                            W-2 Information

    Question. John Webster, as co-chair of the Legislative Branch 
Financial Managers Council, the committee realizes that more and more 
people are using computer based or web based tax preparation services 
for their taxes. We understand that private sector employees make 
available the electronic transfer or download of employee W-2 
information. What, if any, barriers is there for the legislative branch 
providing this option to its employees?
    Response. The barriers would be cost and priorities. The U.S. 
Department of Agriculture's National Finance Center (NFC) is the 
payroll provider for most legislative agencies, including the Architect 
of the Capitol, Congressional Budget Office, General Accounting Office, 
Library of Congress, Office of Compliance, and the Capitol Police. NFC 
currently provides Web-based viewing of W-2s for employees of those 
agencies via the Employee Personal Page. NFC is working to expand 
employee self-service capabilities and is willing to explore offering 
electronic transfer or download of employee W-2 information as a self-
service item. While NFC is not aware of any technical barriers to 
providing this offering, they have not conducted a benefit analysis or 
risk assessment relative to such services. NFC would require additional 
resources and guidance on priorities to complete their analysis.

                            Copyright Office

    Question. You have as part of your justification a table that 
estimates the value of material transferred to the Library of Congress 
via the Copyright Office. How do you estimate the value of the 
material?
    Response. The number of works transferred is calculated from 
Copyright Office automated systems that store statistics. The average 
unit price is determined by the Library of Congress's Office of the 
Director for Acquisitions at the end of each fiscal year using the 
average price paid for other purchased materials.
    Question. How do you determine what material is acquired/selected 
for the collections?
    Response. The Library has collections policy statements that 
outline the criteria used to determine what materials or works should 
be added to the Library's collections. This criteria is used by 
acquisition specialists in Library Services and in the Copyright Office 
to select for the collections works deposited in the Copyright Office. 
Both mandatory deposit copies and materials submitted voluntarily for 
registration are reviewed daily for potential additions to the 
collections.
    Question. What is the disposition of the material that is not added 
to the collections?
    Response. Approximately 60 percent of the works received in the 
Copyright Office, including unpublished works, is not selected by the 
Library. These materials are sent to the Office's Deposit Copies 
Storage Unit (DCSU) at the Landover Center Annex. Deposits in the DCSU 
are retained for specified periods depending on the type of material. 
The Library disposes of non-selected serials. Monographic works, not 
selected for the permanent collection, are used for exchange programs.
    Question. You list as one of your priorities for Fiscal Year 2003 
the implementation of your business process reengineering and your 
information technology reengineering. Exactly what are these two 
initiatives?
    Response. The business process reengineering initiative covers the 
Corpright's most important public services including registering 
claims, recording documents, acquiring works for the Library of 
Congress, answering public requests, maintaining records, and 
accounting. The information technology reengineering initiative 
provides the design, acquisition and building of IT services that 
support the new business processes and will allow the Copyright Office 
to expand its electronic delivery of public services.
    These two initiatives are not being combined into a single 
reengineering program so that the Office's work on processes, 
facilities, organization and technology will be integrated. The program 
is on schedule and will be ready for the next installment of funds 
requested in FY 2003.
    Question. What has been the cost of these review?
    Response. To date, the Office has expended approximately $2.1 
million on the reengineering program reviews.
    Question. Are we to assume that there will be a return on your 
investment in terms of increased productivity and cost savings?
    Response. The return on investment will be to:
    <bullet> Improve public service, particularly online services which 
will maximize the use of electronically received applications.
    <bullet> Provide up-to-date copyright records for the copyright 
community, who rely on current information.
    <bullet> Improve deposit security.
    <bullet> Constrain operating cost in future years by minimizing 
staff increases.

                          Books for the Blind

    Question. The NLS plans to continue during Fiscal Year 2003 to 
support its four basic goals of Fiscal Year 2002. One of those goals is 
to maintain a level of sound reproduction machines to satisfy basic 
users' requirements while developing no waiting lines. Do you currently 
have waiting lines?
    Response. There are no waiting lines at the present time.
    Question. The committee has provided No-Year funding for many years 
to be used for the purchase of ``Talking Book Machines''. What was the 
unobligated balance of those funds at the end of the current fiscal 
year?
    Response. At the end of FY 2001, the unobligated balance of No-Year 
funds used for the purchase of talking book machines was approximately 
$30 thousand. By the end of FY 2002, it is anticipated that there will 
be no unobligated balance.
    Question. Another priority is to support development of audit-
recommended control systems. What were those recommendations?
    Response. NLS initiated a machine control system some years ago. 
Through experience, the system has been modified to address changing 
requirements. There is no new audit recommendation for a control system 
at the present time.

                       Furniture and Furnishings

    Question. You have requested $76 thousand to begin replacing 143 
pieces of material handling equipment. What makes up these 143 pieces?
    Response. This request covers 17 different classes of material 
handling equipment (not including book trucks or tubs). The 143 pieces 
consist of: 14 forklifts; 1 material tug; 2 lift trucks; 28 electric 
pallet trucks; 14 manual pallet jacks; and 84 miscellaneous pieces of 
equipment such as: hand trucks, flatbed trucks, 2-and 4-wheel dollies, 
panel trucks, et.
    Question. What is the total cost of this replacement program?
    Response. $608 thousand. This would allow the Library to replace 1 
large forklift; 4 electric pallet trucks and 2 manual pallet jacks each 
year with the remaining fiscal year funds designated to replace smaller 
pieces such as hand trucks, dollies, etc. Under the proposed 
replacement program, forklifts would be replaced every 11 years; lift 
trucks every 10 years; electric pallet trucks every eight years and 
miscellaneous smaller items every eight years.
    Question. The committee noticed that in the President's Budget that 
you are carrying forward unobligated balances from Fiscal Year 2002 
into Fiscal Year 2003. We must assume that you still have funds 
unobligated that were appropriated for Furniture and Furnishings of the 
renovated Jefferson and Adams Buildings. What is the current 
unobligated balance of those funds?
    Response. The renovation of the Jefferson and Adams Buildings is a 
multi-year project that is still on-going and will not be completed for 
another 2-3 years. The current unobligated balance is $1.627 million.
    Funding is needed to complete the renovations in the Humanities and 
Social Sciences, Science Business and Technology, Catalog Distribution 
Service, Local History and Genealogy, Area Studies, Rarebook Divisions, 
and other smaller divisions.
    Question. What is the current obligated balance, by fiscal year, 
that has not been liquidated?
    Response. Unliquidated obligations are as follow: Fiscal Year 
2001--$17,379; Fiscal Year 2000--$6,802; Fiscal Year 1999--$18,321; 
Fiscal Year 1998--$6,373; Fiscal Year 1997--$762; Fiscal Year 1996--
$12,470; Fiscal Year 1995--$0; Fiscal Year 1994--$18,166; Fiscal Year 
1993--$17,935; Fiscal Year 1992--$5,877; Fiscal Year 1991--$5,579; 
Fiscal Year 1990--$39,518; Fiscal Year 1989--$27,982.
    ISS is in the process of reviewing and closing all projects/
accounts with unliquidated obligations by 9/30/02.

                         Fort Meade Book Module

    Question. You state that another accomplishment is that you 
continue to work closely with the Office of the Architect of the 
Capitol (AoC) and their contractors on the first book storage module at 
the Fort Meade, Maryland, campus. Considering the delay of taking 
possession of the facility the two of you must not be working as 
closely as you should. Exactly what were the Library's duties and 
responsibilities during this project?
    Response. The Library's role was to provide a program statement.
    The program statement included environmental conditions, filtering 
requirements, collection type, collections quantity, collections sizes, 
storeage methodology (lidded boxes), number of staff, etc. This 
information provided by the Library would be used by the AoC to design 
and construct.
    The Library's program statement was substantially complete in 
February of 1996. The Library had no contractual, financial, code, or 
construction responsibilities with regard to this project.
    Question. Was there a breakdown in communications, a 
misunderstanding regarding areas of responsibility, contractor 
problems, or a lack of attention to daily operations and responsibility 
by and between all parties involved that has caused this project to be 
so far behind schedule?
    Response. There was no breakdown in communication between the AoC 
and Library. The AoC steered, chaired and coordinated regular monthly 
(sometimes bi-weekly) meetings at which the Library made clear its 
program requirements.
    The AoC, independently making all decisions at all times, failed to 
perform in a number of functions. As Mr. Hantman indicated in his April 
12 memorandum, AoC was relying on ``a marginal contractor that became 
insolvent in the middle of construction.'' The AoC used the wrong 
purchase method, chose an inappropriate contractor, relied on faulty 
estimates, hired consultants who were not familiar with collection 
storage buildings, did not provide sufficient technical review of the 
design or the installations, (particularly the fire system), and did 
not provide proper management or oversight.
    There was never any confusion as to the Library's role or the AoC's 
role. The Library was to provide the program statement; the AoC's role 
was to provide all technical expertise to design and construct in 
accordance with that statement. This separation was clear, broad and 
repeatedly defined and documented.
    Question. Speaking for the Library can you give us any assurance 
that the two organizations can work together to get this project back 
on track?
    Response. From the very beginning, the Library has taken a pro-
active approach of working with the AoC. The Library has always been 
timely and responsive throughout the duration of this AoC-steered 
process.
    During the course of this project, the trust level suffered 
severely as a result of repeated and dramatic failures by the AoC to 
meet promised deadlines, provide the promised product, and to provide 
time-sensitive documentation and feedback.
    The Library recognizes the recent improvements that the AoC has 
made. The Library is cautiously optimistic that if our newly 
established working relationship persists, we can work through Module 
#1 issues to a satisfactory resolution. We stand ready to assist in any 
manner possible to get things back on track, but we are looking for 
speedy and effective results. Only such results will enable us to give 
the committee the assurance you seek.
    The AoC and their consultant are currently working with a Library 
team to review occupancy solutions and options. The options being 
considered are those that might be accomplished within a 4 to 6 month 
time frame.
    Question. Since funding for Module #2 was not included in the AoC 
budget request, much to your concern, are we ever going to move forward 
with construction of the next two modules?
    Response. The AoC has informed the Library that, if Congress 
approves the amended AoC budget request for FY 2003. Module #2 can be 
constructed in FY 2003, and that Modules #3 and #4 an be designed in FY 
2003, constructed during FY 2005, and completed in FY 2006.

    [Clerk's note.-- At the time this hearing volume went to 
press an amended budget request, from the Architect of the 
Capitol, had been received for Book Module #2.]

                  International Exchange Program (IEP)

    Question. The Library works with the GPO on a program that deals 
with the distribution of U.S. Government publications with foreign 
governments that agree, as indicated by the Library, to send to the 
United States similar publications of their government. How often does 
the Library determine if, in fact, we do receive like publications?
    Answer. The Library evaluates each of the IEP exchanges annually. 
Acquisition and Area Studies staff review the receipts to ensure that 
the Library is receiving ``like publications.'' The focus is on 
quality, not quantity. The Library wants to obtain the official 
gazettes, compilations of law, parliamentary proceedings, annual 
reports of government agencies, statistical and census data as well as 
maps and geologic surveys.
    In many countries, exchange is the only viable and reliable source 
of acquisitions, as the publications are not available through 
commercial dealers.
    Question. In the last five years have any governments been added or 
deleted from the exchange program?
    Response. No country has been added to or deleted from the program 
in the last five years. An additional agency was added as a partner in 
Egypt. Several partners were deleted from the program, although the 
Library still has an exchange partner in each of the countries from 
which partners were deleted.
    Question. Under what authority does this program operate?
    Response. Statutory authority: 44 USC 1719 provides for 
availability of ``Not to exceed 125 copies for distribution to foreign 
government as designated by the Library of Congress.''
    Question. Does the Library or GPO consult with other government 
agencies regarding the material that is exchanged?
    Response. The Library does not consult with agencies other than the 
U.S. Government Printing Office. The Library chooses titles for the 
program from a list of open source government documents provided by the 
GPO.
    Question. What are the guidelines or rules under which you 
determine what can or cannot be exchanged?
    Response. The guidelines require that only open-source official 
publications may be used in either side of the exchange.
    Question. In light of recent events have you made any changes to 
the participation, operation, security or other factors that may not 
have been a consideration prior to September 11?
    Response. The Library has made only one change in the operation of 
the program: incoming materials are examined in the off-site screening 
facility the Library shares with the House of Representatives before 
they are delivered to the Library's loading dock.

               Copyright Office FY02 Supplemental Request

    Question. We have a pending FY 2002 supplemental request of $7.5 
million for the Copyright Office because of the loss of revenue 
resulting from the recent anthrax incidents impacting mail operations. 
Are your receipt levels beginning to return to normal?
    Response. No. February and March receipts each are down 40 percent 
compared to last year. Through April, receipts are down approximately 
one-third from last fiscal year.
    Question. The irradiated mail has had a direct effect on your 
operations. What are some of the problems and issues you have 
encountered?
    Response.
    1. Some works submitted for registration are damaged and cannot be 
examined to determine if they contain copyrightable authorship. In 
these cases the Copyright Office must request that the applicant submit 
a new copy of the work, which increases the Office's workload.
    2. Application forms containing necessary information may be 
brittle or torn. Such applications, front and back, must be photocopied 
so that the request for registration may be processed.
    3. Irradiation can also damage checks and we must request that the 
applicant submit a new form of payment. We are instituting procedures 
to allow for credit card payment of registration fees in these cases.
    4. To determine the effective date of registration of items that 
have been held, to the extent they can, staff must identify exact dates 
reflected in postmarks and calculate the date the item would have been 
received if it had not been delayed. This is an added and frequently 
burdensome step, but one that is essential given the legal 
ramifications based on date of receipt of the Copyright Office.

                     Congressional Research Service

    Question. The Congressional Research Service is requesting funding 
for 12 additional FTEs. With the problems associated with the Automated 
Hiring system, I would assume that the operations of the Service have 
been hindered. With the ever increasing need for expertise in areas 
like terrorism and homeland security, how can your organization work 
using this system and at the same time meet the demands of your 
clients?
    Response. Operating with 57 analyst vacancies, a 15 percent deficit 
in analytic staff capacity, has been difficult. While CRS continues to 
respond to all congressional requests, we have not been able to provide 
the desired level of analytical work on important issues because of 
staffing shortfalls. For some policy areas, in fact, we have had to 
respond by offering services primarily in the form of descriptive 
rather than analytical work.
    Among specific areas in which CRS' staffing capacity has been 
limited are homeland security organization, defense budgeting, defense 
against weapons proliferation, public health, immunology and law 
enforcement. Coverage of all major policy areas, however, has been 
adversely affected by the extended period of staffing shortfalls. Until 
recently, CRS has been able to meet congressional needs for expertise 
in new policy areas through some appropriate combination of shifting 
existing resources, hiring new staff, and augmenting resources through 
contracted work. The ability of CRS to adjust to the needs of the 
Congress, however, has become greatly constrained.
    Hiring delays have hindered CRS efforts to acquire expertise to 
meet new policy challenges in areas for which congressional interests 
have recently grown appreciably and are likely to be sustained. 
Examples are expertise needed to address congressional needs arising 
from applications of information technologies and terrorism. The 
ability to shift existing staff resources to match changing needs of 
the Congress has become increasingly constrained as existing resources 
have decreased and congressional needs have grown. The recent 
accelerated pace of CRS staff retirements, which has been anticipated, 
has left fewer experienced staff available to shift into new policy 
areas. Furthermore, demands on experts who are already on board are 
typically quite substantial; congressional needs in continuing areas of 
interest remain very strong across a wide range of policy areas such as 
agriculture, campaign and election reforms, education, energy, medicare 
and trade relations. Finally, new policy challenges frequently call for 
significant areas of expertise not currently available in CRS and not 
quickly acquired by those who do not have area-specific education and 
experience.
    Using contract work to meet changing congressional needs can be 
extremely useful but provides relief only for the limited range of work 
that can be contracted out--special studies that can be well-delineated 
and for which lead-time is ample. Contracting does not provide 
significant additional support Congress expects from CRS, including on-
demand, direct access to interactions with experts with whom they have 
established working relationships and from whom they expect 
institutional knowledge about legislative operations as well as 
institutional memory about legislative activities. Gains from using 
temporary employment are limited in many of the same ways, and by its 
nature, temporary employment does not build sustained analytic capacity 
focused on meeting congressional needs. As situations demand, CRS 
reassesses priorities and mobilizes all of its available resources to 
meet the most essential needs of the Congress. CRS support for the 
Congress in the wake of the September 11th attacks is the most dramatic 
example. Even then, CRS began with a base level of expertise, 
reflecting ongoing congressional concerns about terrorism. Before 
September 11th, CRS recognized terrorism as a current legislative issue 
area and CRS experts maintained a CRS Electronic Briefing Book on 
Terrorism as well as a number of CRS reports and issue briefs. Before 
the attacks, we had a half dozen or so staff who regularly worked on 
various aspects of terrorism. Within weeks of the attacks, CRS had 
nearly 100 staff working on myriad issues related to terrorism. To do 
so, we had to supplement our leading experts with staff who had 
secondary or related areas of expertise, such as:
    <bullet> Moving analysts who normally cover the Navy and Air Force 
to track the military campaign in Afghanistan. This move was necessary 
because the analyst who normally tracks military actions overseas is 
also the only chemical/biological specialist and was working on the 
anthrax incidents and biochemical threats to the homeland.
    <bullet> Moving the nuclear weapons complex analyst to cover civil 
defense and nuclear proliferation requests.
    <bullet> Detailing an Information Specialist, with experience on 
South Asia, to assist in covering Afghanistan for six months because 
the senior analyst for South Asia retired (in December 2001). We also 
acquired interim contract capacity for this area. (This position is one 
of the first CRS analyst vacancies posted in April 2002).
    CRS also uses other alternative hiring options available for entry 
level positions--the Presidential Management Intern and Law Recruit 
programs. These programs are limited to entry level hires, which meet 
some needs, but are not suited for hiring high-level expertise.
    Throughout the hiring system implementation, CRS staff have been 
working closely with staff of the Library's Human Resources Services, 
Office of General Counsel, and the contracting officer's technical 
representative to help with both the system's implementation and with 
the retrofit specifically addressing CRS's needs. We believe that most 
of the problems have now been identified and are in the process of 
being addressed systematically. CRS has identified 88 vacancies to be 
filled this year--79 under the new automated hiring system and 9 under 
alternative hiring programs identified earlier (with 2 of the 9 
positions selected). For the remaining 79 positions, our hiring time 
line follows:
April:
    <bullet> Completed first selection, for a Review Specialist.
    <bullet> Posted 12 analyst positions, with selections to be 
completed during August and September.
May--June:
    <bullet> Complete selections for two Public Affairs Coordinators.
    <bullet> Post the remaining 38 analyst positions, with selections 
to be completed between September and December.
June-September:
    <bullet> Post an additional 26 non-analyst positions, with the 
first selections being completed in September.
October
    <bullet> Post the 12 new analyst positions requested in the FY 2003 
request, with selections being completed in the second quarter of FY 
2003.
November-December
    <bullet> Complete selections for May-June postings.
    <bullet> Post 10-20 new positions for new attrition--unspecified 
vacancies occurring during the last quarter of FY 2002 and the first 
quarter of FY 2003.
    Question. Has CRS contracted out work as a result of the system? If 
so, some examples of work that should have been done in-house rather 
than being contracted out.
    Response. CRS aggressively pursues the use of contracts to acquire 
the capacity needed to meet the needs of the Congress--every year. The 
use of contracts provides some limited relief to current capacity 
shortfalls; however, this strategy does not serve the long-term mission 
of CRS. The CRS mission can best be carried out with a permanent 
workforce that has both institutional knowledge of the legislative 
issues facing the Congress and an understanding of the analysis needed 
to support Congress' deliberations on these issues. Permanent staff 
also gain an organizational loyalty critical to successful public 
service. Having said this, CRS experience with contractors has been 
very positive, over a number of years.
    CRS generally uses contract capacity to complete selected studies 
on specific issues for which CRS expertise was not available, and for 
which lead time in meeting congressional needs is not immediate. Use of 
permanent staff is the most efficient and effective alternative for the 
vast majority of congressional demands on CRS. With few exceptions, 
Congress places its demands on CRS with some urgency. Resident experts 
who are available on demand provide the only feasible way for CRS to 
respond to the large volume of urgent congressional requests in a 
timely manner. Congress places a large volume of demands on CRS that 
reach across all areas of policy-making. Resident experts who have 
experience working together--quickly identify the most appropriate 
specialist(s) for each set of work requirements and combine forces as 
appropriate across disciplines (law, economics, science, international 
relations, etc.) or fields (e.g., banking, fraud, pensions, corporate 
finance, etc.) to meet the great variety of congressional needs. 
Congress works in a setting in which events and responses frequently 
evolve rapidly. Resident experts have the flexibility to adjust work in 
progress to adapt to new events and evolving legislative proposals. 
Because resident experts have continuing responsibilities, they develop 
research products that they can and do maintain through updates and 
revisions to keep pace with events, including the legislative process. 
Finally, only resident experts can provide (and mentor) the 
institutional memory vis-a-vis legislative precedents.
    This year, CRS has used contractors in several areas related to 
terrorism and homeland security. All of these issue areas should have 
been covered with in-house staff, had that in-house capacity been 
available:
    <bullet> A contractor is currently working on a record, due this 
spring, on an issue of considerable congressional interest: U.S. 
cooperation with the European Union (EU) in its increasing role in the 
police/judicial work to combat terrorism, including such things as an 
enhanced ``Europol,'' an EU-wide arrest warrant, EU agreed-upon 
definition of crime of terrorism and sentencing guidelines, sharing of 
police intelligence information among member states and with the U.S., 
and extradition among EU states for trial of suspected terrorists.
    <bullet> A contractor is currently working on a major analysis 
regarding the Office of Homeland Security.
    <bullet> Because of CRS' need to build up its capacities in (1) 
criminal justice (including terrorism and drug control) and (2) public 
health, we are using contractors until we complete the hires of 
permanent staff.
    <bullet> A contractor is currently on-board to help us deal with 
the absence of expertise on weapons of mass destruction proliferation. 
The contractor is working to update reports, heretofore done in-house 
on Nuclear, Biological, and Chemical Weapons and Missiles: The Current 
Situation and Trends, and Proliferation Control Regimes: Background and 
Status.
    <bullet> A contractor is providing coverage for India, Pakistan and 
other countries of South Asia, by updating issue briefs and other 
reports dealing with the region.
    <bullet> Another contractor has started a five-month study on 
biochemical risk assessments to critical infrastructure. The study will 
identify a subset of biochemical threats to the nation's security in 
terms of the technology and possible regulatory interventions that 
could reduce potential threats.
    <bullet> In addition, we have identified two other areas for 
contracts to further development of our analytic capacities in the 
areas of expanding health insurance to populations not now covered. 
Specifically, CRS needs capacity to work on models which (1) integrate 
tax credits with program benefits, and (2) develop case and micro 
simulation capacities in federal and private health insurance issues.
    Question. If these problems continue, how do you plan to meet your 
program objectives?
    Response. We are hopeful that the system implementation problems 
are nearing resolution and that the hiring hiatus is over. Based upon 
our current hiring time line, we are planning to have all of our 
positions posted by the end of September and staff on board by the end 
of the calendar year. Further, if approved, we plan to post the twelve 
analyst positions requested in the FY 2003 budget during early October, 
with an expected report date not later than January 1, 2003.
    CRS will make ever effort to meet its program objectives and the 
demands of its clients--through new permanent staff acquired under the 
new hiring process supported, as appropriate, by short-term contracts. 
CRS managers are constantly seeking national experts with an interest 
in contributing to the work CRS does for Congress--through aggressive 
and extensive recruiting, to attract a diverse applicant pool from 
which to fill our permanent positions and through known contacts for 
the short-term contracts and interim temporary appointments.
    The current union agreement limits non-competitive temporary 
appointments (to bargaining unit positions in CRS) to 90 days. We have 
requested that the Congressional Research Employees Association (CREA) 
allow CRS to appoint temporary staff for a period of one year until the 
critical positions are filled (permanently) under the new system. This 
waiver request was made to give CRS the ability to add the interim 
capacity needed to ensure that we can continue to respond to 
congressional requests and provide the most optimal analysis possible. 
Unfortunately, on April 18th, CREA denied the request. We will attempt 
to continue to work with the union to reverse this decision because we 
believe that the use of temporary staffing helps bridge the capacity 
gap and enables CRS to meet program objectives and client needs.

                       Administrative Provisions

    Question. You have requested that the administrative provisions 
that restrict the use of flexible and compressed work schedules for 
certain Library managers and supervisors be deleted. You say that by 
eliminating this provision it will give the Library greater flexibility 
in recruiting and maintaining a quality staff of managers and 
supervisors by giving the Library the ability to offer different 
schedules. What are the different work schedules that you wish to 
offer?
    Response. Consistent with the authority extended to other 
government agencies, the Library seeks the option of offering 
compressed with schedules to managers and supervisors in positions the 
grades of which are equal to or higher than GS-15. Compressed work 
schedules are fixed schedules that enable employees to complete the 
basic 80-hour biweekly work requirement in less than 10 workdays.
    Question. How has the provision hindered your ability to recruit 
and maintain a quality staff of managers and supervisors?
    Response. Those Library employees currently under compressed work 
schedules, find the schedules helpful in balancing work and family 
responsibilities. The Library regards these schedules as valuable tools 
in recruiting and retaining quality staff. The Library, however, is at 
a competitive disadvantage with other government agencies by its 
inability to extend this same benefit to managers and supervisors.
    Question. How can managers and supervisors perform their duties if 
they are working from home?


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barrow, M.P......................................................     1
Billington, J.H..................................................   133
Brown, R.L.......................................................   315
Buckley, F.J., Jr................................................   287
Campbell, Laura..................................................   133
Cook, C.C., Sr...................................................   287
Crippen, D.L.....................................................   439
Cylke, F.K.......................................................   133
Dodaro, G.L......................................................   315
Eagen, Jay.......................................................     1
Eisold, Dr. John.................................................     1
Gennet, Geraldine................................................     1
Guy, W.M.........................................................   287
Hantman, A.M.....................................................   359
Harper, Sallyanne................................................   315
Holstein, R.B....................................................   287
Jenkins, J.C.....................................................   133
Livingood, W.S...................................................     1
Lopez, K.E.......................................................   133
Mansker, R.T.....................................................   287
McNamara, Steven.................................................     1
Medina, Bubens...................................................   133
Miller, John.....................................................     1
Mullhollan, D.P..................................................   133
Murphy, K.B......................................................   133
Peters, Marybeth.................................................   133
Scott, D.L.......................................................   133
Sherman, A.M.....................................................   287
Tabb, Winston....................................................   133
Trandahl, Jeff...................................................     1
Turnbull, M.G....................................................   359
Walker, D.M......................................................   315
Washington, L.J..................................................   133
Webster, J.D.....................................................   133


                               I N D E X

                              ----------                              
                                                                   Page
Architect of the Capitol.........................................   359
    Agency Capabilities..........................................   399
    Agency Restructuring.........................................   404
    Art Representing Women.......................................   421
    AOC Management Challenges....................................   395
    Areas Around the Capitol.....................................   405
    Botanic Garden...............................................   386
    Botanic Garden Construction..................................   389
    Botanic Garden Masterpiece...................................   415
    Botanic Garden Outdoor Beautification........................   395
    Botanic Garden Renovation....................................   410
    Cannon Building Elevators....................................   383
    Capitol Complex Projects.....................................   370
    Capitol Power Plant..........................................   402
    Capitol Power Plant Issues...................................   412
    Capitol Power Plant Useful Life..............................   413
    Customer Satisfaction Study..................................   408
    Construction Delays..........................................   410
    Construction Penalties.......................................   411
    East Plaza Access--House Side................................   383
    East Plaza Access--Senate Side...............................   385
    Employee Salaries............................................   432
    Fitness Center...............................................   392
    Ft. Meade Storage Facility...................................   397
    Ft. Meade Storage Module Two.................................   411
    Historical Tour..............................................   432
    House Buildings Room Numbering...............................   407
    National Garden..............................................   415
    National Garden Funding......................................   416
    O'Neill Building.............................................   391
    O'Neill Building Demolition..................................   409
    Rayburn Building Room Numbering..............................   413
    Opening Statement............................................   359
    Security Consultants.........................................   384
    Security Equipment...........................................   393
    South Capitol Street Entrance................................   411
    Street Closures..............................................   386
    Supreme Court Project........................................   407
    Tunnel Repairs...............................................   392
    Visitor Access...............................................   386
    Visitor Center...............................................   379
    Visitor Center Appearance....................................   387
    Visitor Center Briefing......................................   383
    Visitor Center Completion....................................   390
    Visitor Center Construction Schedule.........................   388
    Visitor Center East Plaza....................................   417
    Visitor Center Space.........................................   406
    Visitor Center Security Space................................   406
    Visitor Screening............................................   393
    Visitor Questions............................................   380
    West Refrigeration Plant.....................................   393
Congressional Budget Office......................................
    Access to critical data 450-451..............................
    Accomplishments in fiscal year 2001 443-445..................
    Appropriation request 439-458................................
    Awards program 461-463, 465..................................
    Communications priorities 451-452............................
    Disaster recovery 454-455....................................
    Overview of budget request 441-443...........................
    Internal management strategy for fiscal years 2002 and 2003 
      447-457....................................................
    Legislative authorities......................................   458
        Administrative provisions................................   462
        Request for..............................................   458
        Employee professional development........................   458
        Exemption from advertising...............................   458
    Network......................................................   455
    Process redesign.............................................   456
    Procurement 456-457..........................................
    Publications and production processes........................   452
    Recruitment and retention 447-448, 461, 462-464, 465.........
    Redesigning key processes 455-457............................
    Streamlining operations 455-457..............................
    Technology 453-455, 459......................................
    Training program.............................................   449
    Visiting scholars' program...................................   460
    Web site.....................................................   451
    Work environment 449-450, 459................................
    Work priorities for fiscal years 2002 and 2003 445-447.......
Statement of Dan L. Crippen 440-458..............................
U.S. House of Representatives....................................     2
Alternate Data Center............................................   126
Alternate Irradiation Facility...................................    95
Alternative Fuel Vehicles........................................   113
Alternative Mail Solutions.......................................   109
Architect Briefing...............................................   111
Brentwood Facility...............................................    97
Capitol Police Turnover..........................................   106
Capitol Safety...................................................   124
Capitol Tours....................................................   124
Clerk's Opening Statement........................................     2
Computer Support.................................................   125
Construction.....................................................   111
Coordinating Activities..........................................   104
Corrections Calendar.............................................   112
Costs for Alternate Data Center..................................   127
Curatorial Staff.................................................    86
Digitization of the Mail.........................................    83
Employee Families................................................   105
Employee Physical Fitness Center.................................   110
Ethanol Vehicles.................................................   117
Expressing Gratitude.............................................   104
Food Quality.....................................................   118
Historical Information...........................................    86
Irradiated Mail..................................................    84
Irradiation Process..............................................    95
Mail Processing Day-by-Day.......................................   102
Mail Processing Delays...........................................    92
Mail Processing Time.............................................    93
Mail Processing--Rayburn.........................................   110
Medical Complaints...............................................    84
Medical Conclusion...............................................    85
Members Gym......................................................   127
Members Health...................................................   128
OEPPO Budget Request.............................................   107
Off-Gassing......................................................    97
Office of Emergency Planning, Preparedness and Operations........    85
Opening Statement................................................     1
Overview of Mail Operations......................................    82
Page Dormitory...................................................   107
Parking..........................................................   129
Pitney Bowes Contract............................................    96
Preventive Medicine..............................................   128
Publications.....................................................   107
Reconstructing the Mail Process..................................    93
Restaurant Customer Satisfaction Survey..........................   108
Return to Old Mail Processes.....................................   108
September 11, 2001...............................................   112
Sergeant Opening Statement.......................................     3
Sterilized Mail..................................................    82
Student Loans....................................................   130
Technology Vendor Survey.........................................   126
Tighter Security.................................................   106
Government Printing Office:
Congressional Printing and Binding...............................   299
Cost of Printing.................................................   303
Details to Congress..............................................   297
Early Out Authority..............................................   306
GPO Budget Request...............................................   285
Integrated Processing System.....................................   299
International Exchange Program...................................   297
Introduction of Witnesses........................................   296
Mandatory Pay Increases..........................................   300
On-line Services.................................................   301
Printing Load Contracted Out.....................................   302
Revolving Fund Operations........................................   301
Sale of Government Publications..................................   304
Superintendent of Documents......................................   300
Transit Subsidy..................................................   301
Workers Compensation.............................................   298

                          Library of Congress

Abraham Lincoln Commission.......................................   275
American Folklife................................................   278
    Archives.....................................................   300
    Center.......................................................   278
American Women...................................................   300
Arrearage........................................................   187
    In-Process Materials.........................................   187
    Reduction....................................................   187
Budget Request...................................................   133
    Library's....................................................   133
    Major Elements...............................................   133
Capitol Construction.............................................   302
Closing Statement................................................   286
Congress' Utilization of the Library's Resources.................   275
Congressional Research Service (CRS).............................   248
Construction of Capitol..........................................   302
Copyright Operations--Impact of Mail.............................   218
Digital Futures Initiatives......................................   275
Digital Library..................................................   190
Digitized Items..................................................   190
Electronic Backup and Storage....................................   224
Federal Student Loan Program.....................................   214
Fort Meade.......................................................   225
    Book Module..................................................   225
    Impact of Delaying Module One................................   226
Hiring System....................................................   182
    Implementation Problems......................................   182
    Key Components...............................................   214
    System Selection.............................................   182
Integrated Reference System......................................   277
Introduction of Witnesses........................................   132
Joint Collaborative Projects.....................................   279
Library..........................................................   133
    Budget Request...............................................   133
    Major Elements of Budget Request.............................   133
    Resources....................................................   276
    Role in NDIIPP...............................................   277
    Use of Library's Resources...................................   276
Mail--Impact on Copyright Operations.............................   218
Management of Facilities.........................................   226
Martin Luther King Jr. Center....................................   278
NDIIPP--Library's Role 188, 277..................................
Office of Technology Assessment and CRS..........................   216
Opening Statements...............................................   134
Russian Leadership Development Center/Program 189, 302...........
Terrorism and Homeland Security..................................   222
Ukraine Archive..................................................   279
Ukranian Central Information System..............................   302
Use of Library's Resources.......................................   275
Visitor's Center 277, 300........................................
Workforce........................................................   223
    Diversity 223, 225...........................................
    Impact of Retirement, Recruitment, and Retention.............   223
General Accounting Office:
    Asbestos Abatement Program...................................   342
    Basing Compensation on Performance...........................   338
    Closing Remarks..............................................   358
    Commendation for Support to Congress.........................   315
    Education Loan Repayments....................................   340
    Energy Policy Development Group..............................   345
    Formal Statement of the Comptroller General..................   317
    FTE Levels...................................................   346
    GAO Staffing.................................................   351
    Information Resources Available to Congress..................   348
    Leave Payments...............................................   342
    Mandatory Increases..........................................   351
    Military's Human Capital Challenge...........................   350
    Opening Remarks..............................................   315
    Operation and Maintenance of Facilities......................   342
    Performance-Based Reward and Recognition Program.............   339
    President's Retirement Costs Initiative......................   344
    Quarters, Cost-of-Living and Education Allowances............   343
    Questions for the Record from Representative Hoyer...........   350
    Questions for the Record 340-343, 346-348, 350-353...........
    Recruitment, Retention and Recognition Benefits..............   340
    Reprogramming Approved by the Committee......................   354
    Results of Exit Interview Surveys............................   338
    Security Enhancements 343, 352...............................
    Student Loan Repayment Program...............................   352
    Technology Assessment Program................................   344
    Transformation of the Military...............................   349
    Transit Subsidy Benefit 340, 348.............................
    Truth in Regulating Act......................................   345

</pre></body></html>
